<html>
<title> - ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2000 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 106-129]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-129
 
   ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2000 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 1999

                               __________

  Printed for the use of the Committee on Environment and Public Works

                               -----------

                    U.S. GOVERNMENT PRINTING OFFICE
57-821 cc                   WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 24, 1999
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     2
Boxer, Hon. Barbara, U.S. Senator from the State of California...    36
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Crapo, Hon. Michael, D., U.S. Senator from the State of Idaho....    11
Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.    11
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     6
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     4
Smith Hon. Bob, U.S. Senator from the State of New Hampshire.....    36
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    10
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     7
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........     3

                                WITNESS

Browner, Hon. Carol M., Administrator, Environmental Protection 
  Agency.........................................................    12
    Prepared statement...........................................    38
    Responses to additional questions from:
        Senator Boxer............................................   114
            Food Quality Protection Act (FQPA)...................
            Superfund............................................   116
        Senator Chafee...........................................    40
            Clean air............................................    46
            Clean Water Act......................................    45
            Climate change.......................................    43
            Commuter choice......................................    73
            National Environmental Performance Partnership System    68
            Pesticides/Toxic Substances..........................    72
            Resource Conservation Recovery Act (RCRA)............    51
            Safe Drinking Water Act..............................    40
            Superfund............................................    60
            TRI..................................................    89
            Information management...............................    91
        Senator Crapo............................................   102
            Food Quality Protection Act..........................   102
            Better Bonds Initiative..............................   104
        Senator Graham...........................................   113
            Methyl bromide.......................................   113
        Senator Hutchison........................................   105
            Confined Animal Feeding Operations (CAFOS)...........   106
            Environmental review of Colonia Wastewater Treatment 
              Assistance Program.................................   109
            Food Quality Protection Act (FQPA)...................   108
            Proposed storm water Phase II regulations............   105
        Senator Inhofe...........................................    77
            Clean Air Partnership................................    81
            Energy policy........................................    91
            Hydraulic fracturing.................................    94
            NAAQS................................................    78
            NOx SIP Call.........................................    84
            Sulfur...............................................    77
            Superfund............................................    82
            The Kyoto Treaty.....................................    91
        Senator Lautenberg.......................................   111
            Superfund............................................   111
        Senator Smith............................................    73
            Superfund............................................    74
        Senator Thomas...........................................    95
            Risk Management Program..............................    95
            Tier 2 Rulemaking....................................    97
        Senator Voinovich........................................    98

                          ADDITIONAL MATERIAL

Letters submitted by the Environmental Protection Agency:
    From Diane Thompson, Associate Administrator, Office of 
      Congressional and Intergovernmental Relations:
        April 1, 1999............................................   117
        April 16, 1999...........................................   117
        April 27, 1999...........................................   117
        May 13, 1999.............................................   118
        May 19, 1999.............................................   118
        May 26, 1999.............................................   118
        June 3, 1999.............................................   119
    From Robert Perciasepe, Assistant Administrator, Office of 
      Air and Radiation..........................................    85
Memorandum, Special Wastewater Treatment Projects in Fiscal Year 
  1995 Appropriation Bill, EPA...................................   110


   ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2000 BUDGET REQUEST

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:03 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Baucus, Lautenberg, Inhofe, 
Thomas, Voinovich, Wyden, Crapo, Hutchison, and Boxer.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. We want to welcome everyone here this 
morning. The purpose of today's hearing is to receive testimony 
from the Administrator of the Environmental Protection Agency, 
Ms. Carol Browner, on the President's Fiscal Year 2000 budget 
request for EPA.
    First of all, I'd like to welcome Administrator Browner and 
the other EPA officials who are here and thank you for coming 
before this committee.
    I will say that it's my understanding that at 9:45 a.m., 
we're going to have two votes, so we want to accomplish what we 
can prior to those.
    For the upcoming fiscal year, the President has requested 
$7.2 billion in discretionary spending for the Agency. This 
represents a $383 million reduction from the fiscal year 1999 
enacted amount. I have a number of concerns with EPA's fiscal 
year 2000 budget. One concern in particular is the 23 percent 
cut in funding for the Clean Water Act.
    As one of its 10 goals, EPA lists the effective protection 
of America's rivers, lakes, wetlands, aquifers and coastal and 
ocean waters. The budget document contains these facts: 16 
percent of assessed rivers and streams and 35 percent of 
assessed lake acres are not safe for fish consumption; 20 
percent of assessed rivers and streams and 25 percent of lake 
acres are not safe for recreational activities such as 
swimming; 16 percent of assessed rivers and streams and 8 
percent of lake acres are not meeting drinking water uses. If 
these are facts, I don't see how a substantial reduction in 
clean water funding can be justified. This is but one example 
of the issues we need to explore, both in today's hearing and 
in oversight hearings I plan to hold later in the spring.
    Just under the wire, we welcome Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    Ms. Browner, I commend you and note that you've been 
Administrator now more than 6 years and as you know better than 
I, that's longer than anyone else in EPA history.
    I'd also note that during that time you have testified 
before this committee 19 times.
    Ms. Browner. Oh really?
    Senator Baucus. Yes. It may be a record of some sort. It's 
still a big number.
    I also commend you because I think during your tenure 
you've made a lot of progress. You've done a lot that is 
positive and constructive for the EPA, not only in improving 
the environment, all the work you've done there, but also 
improving the administration of environmental programs.
    I think probably the best example is Superfund. In 1993, 
again as you know better than most anybody else in this room, 
the program was struggling, clean-ups were very expensive, lots 
of paperwork and there was precious little cleanup. Today, it's 
different.
    The Administration has made a series of reforms and sure 
some of these reforms may have occurred because of the prodding 
of this committee, some of them, but still, on the other hand, 
a good number of them have been made by you on your own 
initiative. I believe credit is deserved all the way around--
you, Senator Lautenberg, Senator Smith, the chairman. There are 
many people who have worked very hard to make this happen but a 
large share of the credit goes to you.
    As a result, while not perfect, the program is vastly 
improved. For example, GAO estimates that by the end of next 
year, the remedy selection process will have been completed at 
95 percent of the non-Federal sites on the NPL list. In other 
words, the decisions will have been made and the cleanups will 
be underway.
    EPA has also made progress in other areas, in the new ozone 
and particulate standards to implementing the provisions of the 
1996 Safe Drinking Water Act, to the new rules for handling of 
hazardous waste at clean-up sites.
    I want to commend you and I commend you wholeheartedly for 
your work.
    At the same time, a lot of work needs to be done. That's no 
surprise to you. In some cases, this may require a creative new 
approach. For this reason, I'm particularly interested in the 
Administration's proposal to create Better America bonds to 
help communities preserve open space, redevelop land and 
control water pollution from runoff.
    I believe this proposal has promise. We all talk about 
using fewer sticks and more carrots. By creating incentives for 
environmental protection, this bond proposal gives us a chance 
to put our money where our mouth is.
    I also have questions. For example, what experience do we 
have to show that the tax credit device will actually attract 
investors? What type of projects qualify? How will we assure 
that all regions and States are treated fairly, not just the 
more populous but some of the less populous parts of our 
country? How will we assure that the program will supplement, 
not displace local decisions?
    At the beginning of a new Congress, as we look for win-win 
solutions that benefit our environment and our economy, I look 
forward to working on this and other important issues with our 
Administrator and with members of our committee.
    One last point, we recently learned that the distinguished 
ranking member of the Superfund Committee, the distinguished 
gentleman to my left, Senator Lautenberg, will be retiring at 
the end of the Congress. I hope this decision is not caused by 
the prospect of another round of Superfund negotiations.
    In any event, we on the committee will be losing a very 
good friend, a strong leader and a dedicated environmental 
advocate. I know of no one who has worked harder for the 
environment than the Senator from New Jersey. Frank Lautenberg 
was one of the pioneers on Superfund. He wrote the community 
right to know law and I know he's very proud of that and well 
he should be because I believe that statute, probably more than 
any other, has helped more efficiently put people on notice and 
caused people to clean up faster than they otherwise might, 
certainly much faster than a command and control regime. So I 
commend the Senator for that.
    He worked tirelessly to protect our air, water and land for 
future generations for many, many years and he will for many 
years more in whatever capacity he serves. I know he will be 
sorely missed.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you. I join in that praise of Senator 
Lautenberg who has been on this committee I believe since he 
came to the Senate. He's a survivor of the Superfund efforts 
and I hate to think of the suggestion that is driven from the 
Senate, but in any event, we appreciate all he's done here.
    I share your thoughts on the Better America bonds. One of 
the questions obviously we will have is why are we going this 
route when we already have the other vehicles which I'm not 
sure why we're not using them while they are there.
    On my early bird list, I have Senator Wyden next.

  OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM THE 
                        STATE OF OREGON

    Senator Wyden. Mr. Chairman, thank you, but I'd be happy to 
defer to Senator Lautenberg.
    Senator Chafee. I think you can take your own time and we 
can move through the list.
    Senator Wyden. OK. Thank you, Mr. Chairman. I'll be very 
brief.
    I share your views and Max's views about the good work that 
Ms. Browner's doing. There are really two areas that I'd like 
to work on with the Administration.
    The first is I think you all are aware that with the help 
of Chairman Chafee and Senator Baucus, I authored the first 
transportation program that uses Federal funding as an 
incentive to promote smart local growth management. Given the 
critical Federal role, and particularly the role EPA plays in 
developing sewage treatment systems, and given the impact that 
sewers have on local growth, I'm particularly interested in 
examining with EPA the role of the sewage systems and the grant 
funding that you all provide can assist in promoting good, 
local growth management.
    This committee took the first step with respect to ISTEA 
and the way we use transportation dollars to promote smart 
local growth management and I would hope in this session as we 
look at the clean water funds that we could pursue the same 
sort of approach with sewage grants and use them to address 
smart growth as well.
    The other area I'd like to examine with you, Ms. Browner, 
is, as you know I've introduced the Water Conservation and 
Quality Incentives Act which we think can save millions and 
millions of gallons of water across this country in irrigation 
systems. We've been able to get the Farm Bureau and the 
Environmental Defense Fund, a coalition that doesn't come 
together every single day, to support this legislation. I think 
this is an ideal opportunity to look at some of the most 
wasteful practices in America.
    Senator Baucus knows as well that we have irrigation 
systems in the West that are basically just ditches and if you 
were to do nothing other than install some modern piping, we 
could save millions and millions of gallons of water in 
irrigation for fish and conservation, as well as for 
agriculture. That's why we've been able to bring together the 
Farm Bureau and the environmental community. We'd like to work 
on that with you as well.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you.
    Next in order of arrival was Senator Lautenberg. Before the 
Senator goes, I just want to say one thing about New Jersey. 
All of us who are interested in open space preservation have to 
tip our hats to New Jersey for what they did in this recent 
election. In effect, it's a billion dollars, $980 million, that 
New Jersey is putting up of its own money. I understand that 
was passed by the voters of New Jersey 2 to 1, 66 to 33. It's 
an incredible tribute to the leadership of everyone--the 
Governor, the Senators and the legislature and to the voters 
and people of New Jersey because it's their money they are 
spending, not Federal money. It's their money and they are 
going to have to pay for it and they willingly went ahead with 
this massive bond issue that to my understanding is 10 years at 
$98 million a year.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman.
    I want to thank Senator Baucus with whom I've worked here 
since I joined the committee. The funny thing is I actually 
wound up with Scoop Jackson's seat on this committee. He 
unfortunately passed away and I filled that spot at that time.
    Senator Chafee. I don't think so. He wasn't on this 
committee. We can figure out who it was.\1\
---------------------------------------------------------------------------
    \1\ Senator Lautenberg joined the Committee on Environment and 
Public Work during the 98th Congress, when the committee membership was 
increased from 16 to 18 members. Senators Lautenberg and Daniel J. 
Evans, of Washington, were added to the committee. Senator Evans was 
appointed by the Governor of Washington upon the death of Senator Henry 
M. Jackson, who died on September 1, 1983. Senator Jackson was not a 
member of the Committee on Environment and Public Works.
---------------------------------------------------------------------------
    Senator Lautenberg. He enabled me to move--well, I didn't 
take Scoop Jackson's seat.
    [Laughter.]
    Senator Lautenberg. But he had a strong environmental view.
    Senator Baucus. Energy and Natural Resources Committee.
    Senator Lautenberg. OK. Well, we've settled that so let me 
go on further and say that now that our work is done with all 
of our environmental problems, I kind of felt I could leave it 
to the hands of those who will continue to be of service.
    I will miss my position on this committee and the chance to 
do things for the environment. As Senator Chafee notes, New 
Jersey has been very aggressive in terms of trying to provide 
open space funding. When you live in the most densely populated 
State in the Union, you take advantage of whatever 
opportunities you have. People are very determined in my home 
State to provide places that people can visit, youngsters can 
see and we protect them very aggressively. So we're looking 
forward to implementing the programs and the Federal commitment 
to more open spaces.
    I'm delighted to be here with--I could say--the ``Mark 
Maguire of EPA.'' You have a longstanding record of service and 
you don't look any worse for wear, Ms. Browner. You've done an 
excellent. You've brought great leadership and vision to the 
task.
    While it is hard to name an area of EPA's work that hasn't 
been improved dramatically under the Clinton administration, 
more Superfund sites have been cleaned up during the 
Administration's 6 years than in the prior 12 years of the 
Superfund program.
    Many of the necessary reforms of the remediation waste 
cleanup programs that we discussed in the last Congress have 
been implemented by EPA with the issuance of the regulation the 
Agency finalized in 1998.
    The Agency has expanded the right-to-know program designed 
to further reduce harmful emissions and citizens now have 
greater access to all environmental data. So it's been a great 
opportunity.
    I will be here for 2 years and let it be known across this 
Senate that Lautenberg intends to keep working just as 
aggressively as he has before. I cannot relent because I see 
what happens when progress is made. We have cleaner oceans, 
including Long Island Sound that floats by Rhode Island. The 
air is cleaner. The right-to-know law that Senator Baucus 
mentioned was I think one of the most significant pieces of 
legislation we passed.
    We had companies volunteering to reduce their emissions. 
They weren't being pursued by a huge bureaucracy and some 
companies reduced their toxic or contaminant emissions by 90 
percent. That was quite a discovery for them, they actually 
made money from the material they captured.
    So it's been a good service. Again, I intend to be here and 
to finish some of the work we've done. I'd particularly like to 
get brownfields in the law and get that positive program 
underway.
    Senator Baucus mentioned the President's Better America 
bonds initiative and I'm anxious to see how that's going to 
work as well.
    I thank you.
    Senator Chafee. Thank you, Senator.
    Senator Voinovich.
    Senator Voinovich. Mr. Chairman, Senator Inhofe as a 
chairman, has to chair a meeting in 10 minutes and asked if I 
would allow him to just take a minute to make his remarks so he 
can scoot out?
    Senator Chafee. OK. I didn't do it for Wyden, but I'll do 
it for you. Go ahead.
    [Laughter.]

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you.
    In spite of accusations to the opposite, I'll now say 
you're partisan and I appreciate that very much.
    I did have the committee, as you well know, scheduled some 
time ago before this committee meeting was scheduled, on Y2K, 
the two committees. It was going to be a joint hearing at first 
between Senate Armed Services' Readiness Subcommittee and the 
subcommittee I chair here, so I've got to be there in time to 
do that.
    I'd like to say since Senator Lautenberg is retiring that 
I'd associate myself with his remarks, but I won't. I think you 
get a pretty good indication of the direction the committee is 
going or that the EPA is going by the budget request. When I 
read this, I was disturbed with some of the increases and some 
of the decreases.
    I think particularly when you are looking at goal one and 
goal six, goal one being clean air increasing by 35 percent and 
goal six, the global and cross border risks, I come to the 
conclusion that there's going to be an effort to implement a 
treaty that we are not going to ratify.
    I get into a concern I have for the domestic oil industry 
right now. This is a crisis, it is something that is a national 
security crisis, in my opinion. I'm going to be making some 
requests which I have made of you by letter and will continue 
to do that.
    I will submit the entire statement for the record.
    [The prepared statement of Senator Inhofe follows:]
    Prepared Statement of Hon. James Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Mr. Chairman, thank you for holding this important hearing today. I 
am sorry that I will not be able to stay long. As the chairman probably 
knows, I am holding a hearing at the Armed Services Readiness 
Subcommittee on the Y2K issue this morning and continuing that hearing 
in the Clean Air Subcommittee this afternoon. I also want to thank Ms. 
Browner for coming this morning and explaining the budget request the 
EPA has proposed. I will be submitting questions for the record and 
look forward to the responses.
    Ms. Browner, after reviewing your budget request for next year, I 
can not help but think that it is more of a political document than an 
outline for protecting the environment. You have underfunded the Clean 
Water State Revolving Fund, the Air Toxics Program, PM research and the 
Safe Drinking Water Research funds. Yet, you have chosen to request 
$200 million for a Clean Air Partnership Fund which appears to be more 
of a Gore Campaign plank than a well thought out environmental program.
    In reviewing the President's environmental goals I noticed that 
Goal 1, Clean Air, received a funding increase of 35 percent (from $536 
million to $722 million) and Goal 6, Global and Cross Border Risks or 
Global Climate Change, increased by 78 percent (from $229 million to 
$407.5 million). At the same time, Goal 2, Clean and Safe Water, 
decreased by 25 percent (from $3.4 billion to $2.5 billion) and Goal 8, 
Sound Science, decreased by 7 percent (from $347 million to $321.7 
million).
    It seems to me that you are sacrificing sound science and clean 
water for a new, unauthorized, ill conceived and largely undefined 
clean air initiative and implementation of an unratified global climate 
treaty. As the chairman of the authorizing Clean Air Subcommittee, I 
hope the Appropriations Committee transfers the entire $200 million 
from the Clean Air Partnership Fund to the Clean Water State Revolving 
Fund, the money would be better spent by the States than by the EPA on 
so-called demonstration projects.
    Your agency has also decided that Superfund does not need the 
additional appropriation of $650 million that you have requested in the 
past. While I am pleased to see that you are not requesting the 
additional money, this can only lead me to believe that you were being 
disingenuous in past years. What has changed in the program that now 
makes it more solid? I am curious how your new financial views will 
affect the re-authorization efforts of this committee.
    I believe the current Superfund program does not work and 
substantial effort will be required to fix it. With over 90 percent of 
the NPL sites either cleaned up or in some stage of clean up, reforms 
could make the system more cost-beneficial and the clean-ups more 
scientifically sound, in fact, we need to phaseout the program. Last 
congress, we made significant progress on reforming the program and, 
while you may not have been happy with the product, I hope you will 
continue to work with us to make the necessary changes. It is my 
sincere hope that you are not using Superfund as a political wedge in 
the upcoming Presidential elections.
    As I'm sure you're aware, the oil patch is experiencing a crisis. 
The price of a barrel of oil has fallen to record lows and many small 
companies are closing their doors. The added burden the EPA has placed 
on these companies over the last 6 years is simply accelerating the 
closings. In essence, we are witnessing the death of our domestic 
petroleum industry.
    In December, I sent you a letter regarding this crisis and the 
impact your Agency has on it. I requested that you carefully consider 
the effect on our oil supply before you issue any new regulations. I 
received a response from Bob Persciasepe, which I appreciated. However, 
I sent you the letter because I am concerned not just about the pending 
sulfur rule, but about all pending regulations across the entire 
Agency, including TRI and RCRA.
    I'm sure that you would agree, Ms. Browner, that this is a National 
Security issue; we are becoming more dependent on foreign oil everyday. 
As a Subcommittee chair on the Armed Services and a member of the 
Intelligence Committee, I will be monitoring the actions of your agency 
and the impact on our National Security. However, as a Subcommittee 
chair on this committee, I hope that you and I can work together and 
provide some regulatory relief to an ailing industry.
    Thank you Mr. Chairman. I'm sorry I must leave but I look forward 
to reading the answers to my submitted questions.

    Senator Inhofe. I get into a concern I have for the 
domestic oil industry right now. This is a crisis, it is 
something that is a national security crisis, in my opinion. 
I'm going to be making some requests which I have made of you 
by letter and will continue to do that.
    I thank the Senator from Ohio for yielding for that 
purpose.
    Senator Chafee. Now we go back to Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    I was just thinking as Senator Lautenberg was talking about 
what an exciting honor it is for me to be a member of this 
committee. I look back from my days when I first came to the 
State Legislature and worked with Bill Ruckelshaus and Don 
Mossman when they were setting up the Agency and traveled out 
to Cheyenne, WY to talk to Rocky Mountain legislators about the 
importance of clean air and water, and got involved with saving 
Lake Erie and the Ohio House, kind of expert on the environment 
and helped create our Environmental Protection Agency, and then 
set up a committee in the Ohio legislature on the environment. 
Here I am sitting here as a member of the U.S. Senate on this 
committee.
    I look at this as a way of continuing my interest in the 
environment. One of the things I feel very good about is, that 
while I was chairman of the Council of Great Lakes Governors, 
that we created a $100 million fund in six States to use the 
interest to do research work on Lake Erie in terms of cleaning 
it up. Today, what was once a dead lake that was touted all 
over the world as being dead is one of the finest fisheries in 
the world in terms of walleye and bass fishing.
    In regard to our State, the Administrator knows that when I 
came in as Governor, almost all of our areas were nonattainment 
in terms of ozone and we brought them all up to attainment, 
including increasing spending for the environment by 60 percent 
to try and make an effort.
    So I'm looking forward as a member of this committee to 
working with you. Administrator, you and I have had some 
interesting conversations over the years.
    Senator Chafee. That's a curious way of labeling it, 
interesting conversations.
    Senator Voinovich. As well as with the chairman of this 
committee over the last several years, as Governor of the State 
of Ohio.
    I really believe that our challenge is to determine how 
best to protect the environment and the health of our citizens 
using the limited resources that we have. I really think we 
need to do a better job of setting environmental priorities and 
spending our resources wisely.
    We should not do things simply because some group out there 
says this is it. We did a study in Ohio, for example, and the 
public's opinion about doing certain things that looked like 
they were really important, when you looked at them from an 
environmental point of view, so often what really needed to be 
done and the public's impression of what needed to be done, 
they were a lot different.
    In addition, we need to ensure that effective programs are 
not being undercut by well-intentioned policies and regulations 
that will lack scientific backing. Quite frankly, I believe 
that the USEPA's policies often run counter to the efforts, 
even the mission of other Federal agencies.
    For example, the Federal Government has a number of 
effective programs to promote education, safety, economic 
development such as HUD's empowerment zones, welfare reform, 
urban school programs and transportation projects. However, at 
the same time, those agencies are spending this money to really 
make a difference in our urban areas of this country, many 
times the EPA through policy decisions I think so often are not 
based on good science, and undermine the efforts of some of 
this revitalization in other departments.
    I think there needs to be a coordinated effort among 
agencies, in fact, even within EPA itself, to ensure that a 
program's successes is not being undercut by unnecessarily 
restrictive regulations that do not increase protection of 
public health and the environment.
    For instance, one of the Administration's key initiatives 
in fiscal year 2000 is Better America Bonds, which is aimed at 
preventing urban sprawl and cleaning up brownfield sites, but 
at the same time, in my opinion, Administrator, EPA has set 
inflexible, one-size-fits-all air standards through its 
NO<INF>X</INF> SIP call and NO<INF>X</INF> standards and in 
many areas of the country, we're not going to be able to obtain 
those.
    Hence, while we're providing an incentive to reuse 
abandoned industrial sites, many industries are going to bypass 
areas that you'd like to use those because of the standards 
that have been set by the Agency. In order to improve the 
quality of life in our central cities, we need to have jobs in 
our cities. That's what the HUD empowerment zones are trying to 
achieve.
    I think we can achieve both environmental and public health 
safety and increase jobs in our urban areas if we base 
regulations on sound science and cost-benefit analysis.
    When I met with the Administrator prior to the final 
enacted standards, she told me that her hands were tied, that 
statutorily she could not use risk assessment and cost-benefit 
analysis in her consideration for final regulation. I strongly 
believe that what we need to do is to do a laser-like amendment 
to the Clean Air Act and add the same risk assessment and cost-
benefit analysis provisions that we added in the Safe Drinking 
Water Act in 1996. If they were good enough for water, safe 
drinking water, they're good enough I think for our Clean Air 
Act.
    I think this country will not be well served by policies 
and regulations that are implemented not to improve the 
protection of public health and the environment. I think we 
need to carefully review where taxpayer money is being spent on 
programs that negate each other.
    The point I'm making Mr. Chairman is this, that we have all 
these agencies that are trying to reestablish our urban areas 
and so often the policies of the Environmental Protection 
Agency are adverse to those. You're talking about these bonds 
and it seems to me that if you don't look at what you're doing 
in these other areas--we'd like to clean up a lot more 
brownfield sites. In fact, the States have done a much better 
job of cleaning up brownfield sites but our hands, in so many 
instances, have been tied by the EPA because we're considered 
to be micromanaging.
    Mr. Chairman, I know we're taking the Administrator's time 
and she wants to talk about what she wants to do, but I think 
it is important when we have these oversight committees that we 
get into some of those things.
    I talked to Secretary Cuomo about what he's trying to get 
done and it seems there ought to be a better coordination of 
what agencies are doing so that the left and right hands know 
what they are doing.
    [The prepared statement of Senator Voinovich follows:]
  Prepared Statement of Hon. George Voinovich, U.S. Senator From the 
                             State of Ohio
    I thank the chairman for conducting this hearing on EPA's fiscal 
year 2000 budget. I want to start off by saying that this Nation has 
come a long way under environmental programs and we have seen dramatic 
improvements in environmental quality.
    Mr. Chairman, I consider myself an environmentalist. In Ohio, I 
sponsored legislation to create the Ohio Environmental Protection 
Agency when I served in the State legislature, and I fought to end oil 
and gas drilling in the Lake Erie bed. As Governor, I increased funding 
for environmental protection by over 60 percent and implemented an 
innovative voluntary brownfields program to clean up hazardous waste 
sites. When I first entered office as Governor, most of our urban areas 
were not attaining the 1-hour ozone standard, but by the time I left, 
all cities had attained the standard and we had a request into U.S. EPA 
to recognize the last city as being in attainment.
    I strongly believe our challenge is to determine how best to 
protect the environment and the health of our citizens using limited 
resources. We need to do a better job of setting environmental 
priorities and spending our resources wisely. We should not do things 
simply because of appearances.
    In addition, we need to ensure that effective programs are not 
being undercut by well-intentioned policies and regulations that lack 
scientific backing. Quite frankly, I believe that U.S. EPA's policies 
often run counter to the efforts, and even the mission, of other 
Federal agencies. For example, the Federal Government has a number of 
effective programs that promote education, safety and economic 
development, such as HUD's empowerment zones, welfare reform, urban 
schools programs and transportation projects.
    However, at the same time EPA is thwarting these efforts through 
policy decisions that are not always based on sound science and that 
undermine efforts to revitalize our urban areas. There needs to be a 
coordinated effort among agencies, in fact even within EPA itself, to 
ensure that a program's success is not being undercut by unnecessarily 
restrictive regulations that do not increase protection of public 
health or the environment.
    For instance, one of the Administration's key initiatives in its 
fiscal year 2000 budget is Better America Bonds, which is aimed at 
preventing urban sprawl and cleaning up brownfields sites. At the same 
time, however, EPA has set inflexible, one-size-fits-all air standards 
through its NO<INF>x</INF> SIP call and NAAQS standards that many areas 
of the country will be unable to attain. Hence, there will be no 
incentive to re-use abandoned industrial sites and industry will look 
toward our greenspaces.
    In order to improve the quality of life in our central cities, we 
need to have jobs in our cities. That's what the HUD empowerment zones 
are trying to achieve. I think we can achieve both environmental and 
public health safety and increase jobs in our urban areas if we base 
regulations on sound science and cost-benefit analysis.
    When I met with Administrator Browner prior to the final NAAQS 
standards, she told me that her hands were tied, that statutorily she 
could not use risk assessment and cost-benefit analysis in her 
consideration for final regulation.
    I strongly believe that we need to go in with a laser-like focus 
and amend the Clean Air Act to add the same risk assessment and cost-
benefit analysis provisions that we added to the Safe Drinking Water 
Act in 1996--the same provisions that the Administration supported. 
This will help ensure that reasonable and cost-effective rules are 
being set that have scientific backing. I intend to introduce such 
legislation.
    This country will not be well served by policies and regulations 
that are implemented but do not improve the protection of public health 
and the environment. And I think we need to carefully review where 
taxpayer money is being spent on programs that negate each other. I 
look forward to exploring these issues during today's hearing and in 
future oversight hearings. Thank you, Mr. Chairman.

    Senator Chafee. OK.

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman, and thank you for 
holding the hearing today. I'm pleased the committee intends 
this year to have a renewed emphasis on oversight and 
implementation. It seems to me that the thing we ought to do 
and before passing new laws, we need to make sure the current 
regimes are working.
    Welcome to you, Administrator. It's not been quite as much 
of a love-in as you heard earlier. My last few trips to Wyoming 
I've heard nothing but concerns about some of the water 
suggestions that are being made in rural Wyoming. In fact, I 
hope to suggest to the chairman that we have an oversight 
hearing on the clean water action plan. I would hope very much 
we could do that because I have to tell you that there's a lot 
of concern about it. There are lots of things being said and 
they are not nearly as complimentary as the things you've heard 
this morning so far and you ought to also hear some of that. I 
look forward to your discussion today a little bit today about 
that portion of it.
    We thank you for being here and really want to examine some 
of these things that are happening that people think are going 
to be very detrimental to agriculture in my State.
    Senator Chafee. Thank you.
    First, I want to say I welcome all the new members to the 
committee. I think this is the first time we've met as a full 
committee and we're delighted that each of you are here, 
Senators Crapo, Voinovich, and Hutchison.
    Senator Crapo.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you, Mr. Chairman.
    Administrator Browner, it's good to see you over on this 
side.
    Since this is a budget hearing, the questions I want to 
focus on today will probably relate primarily to concerns I 
have about the levels of budget request relating to rural water 
technical assistance and the programs that are very important 
to our rural communities and the levels of commitment to 
Superfund in terms of a number of the issues you and I have 
discussed on a number of other occasions.
    I do associate with the comments that have been made about 
concerns with regard to rigid and unyielding approaches, 
whether it be to Superfund cleanup or to clean water or clean 
air standards and the like. We'll discuss those with you at 
another time in more detail. I think it's very critical that 
the budget that we work with has the necessary resources to 
address some of these issues.
    In closing, I do want to say that I encourage you to 
increase the dedication and commitment of the EPA to work with 
local and State communities and letting them have as much 
supervisory and management authority as possible under the law.
    We are facing that out in Idaho right now with regard to 
the cleanup in the Coeur d'Alene Basin. I think it's very 
critical that the EPA recognize the need to allow the State in 
particular and the local communities to have a strong voice in 
the management options that are evaluated there. I'm not sure 
that we've reached that there.
    We've talked about this before but I just want to restate 
my concerns about that and we will visit about that further.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you.
    Senator Hutchison, we welcome you and are glad you're here.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
              U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Hutchison. Thank you, Senator Chafee.
    Thank you for holding this hearing and giving us the 
opportunity to talk about some of the priorities.
    First, I want to say that we are making great strides in 
cleaning our air and water and soil in our country. I think in 
the last 30 years, we have done a wonderful job.
    I also want to say that I'm concerned that as we move along 
and as we learn more, that we be very careful to use sound 
science as the basis for the regulations that are coming 
forward. I think in some instances we are not doing that and we 
are causing great hardships, particularly in smaller 
communities with some of the new regulations that are coming 
forward.
    Let me mention a couple key points that concern me with 
your proposed budget. One is the hefty decline of funds in the 
Clean Water State Revolving Fund. This has been very important 
for States to be able to have a certainty so they can plan and 
carry out their clean water projects. I'm very concerned with 
the $600 million decline in the funds for that priority at the 
same time when you're adding funds to what I consider to be 
less certain results in the Climate Change Technology Fund.
    I would reverse those priorities because we have actual 
successes and a good record with the Clean Water Fund and that 
has really been shown to make a difference.
    Second, I have to be a little parochial and say that I'm 
concerned at an ear mark in the last year's budget was air 
monitoring in Big Ben National Park. This is one of the ways we 
get the scientific data to be able to make good, clean air 
regulations. I am concerned that is not being funded, even 
though it was earmarked. I hope you will be able to address 
that issue.
    I want to work with you and I will have a question I hope I 
will be able to propose later on some of the new regulations 
coming forward but I realize you need to be able to speak. I 
hope I'll be able to get back.
    Thank you.
    Senator Chafee. I certainly hope you will be able to get 
back.
    Madam Administrator, why don't you proceed with your 
statement. What I'd like to do is get your statement completed 
before we have those votes which apparently are scheduled at 
9:45 a.m.
    We welcome you. Why don't you proceed?

 STATEMENT OF HON. CAROL BROWNER, ADMINISTRATOR, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Browner. Thank you, Mr. Chairman, Senator Baucus and 
members of the committee for the opportunity to be here today 
to present the President's budget request for the Environmental 
Protection Agency for fiscal year 2000.
    If at the beginning I might just take a brief moment to 
join in the comments with respect to Senator Lautenberg and the 
service that he has provided. I will tell you that I was 
obviously surprised but also saddened. Senator Lautenberg has 
been a great friend of the Environmental Protection Agency.
    Senator I would say to you that you leave quite a legacy. 
The programs that you have been a party to creating at EPA are 
some of the most important programs that we have in terms of 
engaging and involving the public, most particularly, the 
right-to-know programs which you certainly are the father of.
    I would also just like to say as a parent and as a woman, I 
really appreciate your leadership on a number of issues, 
including the national drinking age and the work you did to 
raise that. As a traveler, I appreciate your efforts to ban 
cigarettes on airplanes. Certainly it has made my travel days 
much more pleasant.
    If I might also say welcome to the new members of this 
committee and say that you raise issues that we look forward to 
working with each of you on. I hope in some instances where 
there is confusion we can resolve that and in other instances, 
we can find ways to move forward. We may have to find at the 
end of the day occasionally we do disagree, but I think many of 
the issues I've heard today are issues where we would like to 
work with you to find common ground and to move forward with a 
common agenda.
    Accompanying me today are the senior officials from the 
Environmental Protection Agency: Peter Robertson is the Acting 
Assistant Administrator, Sallyanne Harper is the Agency's Chief 
Financial Officer.
    Mr. Chairman, if I might just share with the committee 
members, there is a very prestigious award that is given for 
financial management. One recipient in the Federal Government, 
one at the State level and one at the local level. It's the 
Donald L. Scattleberry Award which recognizes senior financial 
managers for their good job.
    This year's Federal Government winner is Sallyanne Harper.
    Senator Chafee. Congratulations, well done.
    Ms. Browner. We're very proud.
    Senator Chafee. You should be. That's wonderful.
    Ms. Browner. She does a great job for us and for the people 
of this country.
    One more sort of internal matter I might share with the 
committee in case they are not aware. On Y2K, an issue of great 
importance to all of us, Congressman Horn recently issued 
another report card and we got an ``A.'' EPA is one of the 
agencies with an ``A'' and we have worked incredibly hard to 
get all of our mission critical systems compliant. We are 
essentially in that place now and we can move on to smaller, 
less important things. We are one of the first agencies to be 
done and to receive that grade.
    Senator Chafee. Congratulations on that also.
    Ms. Browner. Thank you.
    I want to thank you, Mr. Chairman, this committee, and the 
members of this committee for all of the support that you have 
offered me and the Environmental Protection Agency over the 
last 6 years. I think together we have done an awful lot to 
move toward a shared goal and mutual goal of protecting public 
health in the environment, to do it in a way that is common 
sense and that is cost effective.
    I think if you look over the last several years of our work 
together, there really are some pretty amazing things that have 
been accomplished. Thanks to this committee, thanks to your 
Governor, Governor Kempthorne's good work, and others, we have 
a new Safe Drinking Water Act.
    I want to inform the committee that as of this date, EPA 
has not missed a single deadline that you placed in that new 
law. We are taking our responsibility very seriously and we are 
moving forward and honoring both your desires and the needs of 
the American people.
    Because of this committee's efforts, because of our work, 
86 percent of the American population receives drinking water 
that meets all health-based standards that have been on the 
books since 1994, 86 percent. We certainly should be proud as a 
country that we have the safest drinking water in the world.
    We must remain vigilant. This budget honors that, 
commitment, but I think we should be extremely proud of where 
we find ourselves.
    I'd also like to mention the President's Clean Water Action 
Plan. I did want to thank Senator Bond who is the chairman of 
the EPA Appropriations Subcommittee and Barbara Mikulski, who 
have worked with us to provide the funding so that we can 
continue our commitment under that plan.
    We have now successfully addressed 50 percent of the 111 
key action items included in that plan and we are continuing to 
work in partnership at the State and local level with other 
Federal departments and agencies. For example, together with 
the Department of Agriculture, we will shortly announce a joint 
strategy to protect waterways from polluted runoff.
    With respect to the Superfund Cleanup Program, 585 
Superfund toxic waste sites have been cleaned up as of the end 
of 1998. We will complete an additional 85 cleanups this year; 
227 communities are now benefiting from our brownfields 
program, with grants to revitalize, to clean up, and to 
redevelop their brownfields. These communities, when you look 
at all of the activities going on, taken together they are 
leveraging over a billion dollars in private investments.
    I want to thank the committee for its support in what I 
think is an incredibly important program. This budget does 
carry forward our commitment to brownfields, $92 million, so 
that we can continue to provide grants to local communities and 
so that we can provide additional revolving loan funds.
    I might note, Mr. Chairman, many of the members, and 
certainly I, agree with the need to be flexible. We're working 
in 227 communities today. Not a single Federal regulation has 
ever been adopted to run this program. I'll tell you why.
    We didn't need to because it's bottoms up. This is about 
communities coming to EPA and saying, ``This brownfield site is 
where we want to work.'' It is a competitive process. 
Unfortunately, we get far more applications than we can honor 
but we don't tell the community which site; we simply evaluate 
them on a competitive basis and we award them the funds. We 
provide them the assistance they need to do what is right for 
their community.
    No two sites, no two plans are the same. It is a bottoms up 
program, it is an incredibly successful program. It has been 
done without a single Federal regulation.
    I also want to thank the committee for the work that you 
have done to ensure clean air for the people of this country 
and to Senator Baucus for your leadership and your support as 
we sought to implement the public health protections of this 
very, very important law.
    We estimate that 164 million Americans are breathing 
cleaner air today because of the Clean Air Act, because of the 
work we have done with so many of you in our efforts to 
implement that law.
    If I might just also note and perhaps ask for a favor of 
sorts, we do have two nominees that are pending before this 
committee. Both gentlemen I think are well known to members of 
the committee--Tim Fields for our Superfund Program and Gary 
Guzzy for our General Counsel. We just want to work with the 
members to ensure an expeditious confirmation process.
    Senator Chafee. We will do that quickly.
    Ms. Browner. Thank you.
    Senator Chafee. We process your nominees and I believe our 
record is pretty darned good in moving along and I want to keep 
that up. I don't want these nominees hanging out there in 
limbo, so we will move rapidly with that.
    Ms. Browner. We do appreciate that.
    The budget the President has presented for EPA, $7.2 
billion, is designed to allow us to build strong, healthy 
communities for the 21st century by protecting public health 
and the environment in a common sense, cost-effective manner. 
This budget really is based on our belief, which I believe we 
have demonstrated time and time again that a healthy 
environment, a healthy economy actually go hand in hand.
    Under the President's leadership over the last 6 years, the 
Vice President's work, we have set some of the toughest public 
health and environmental standards in the history of the United 
States. We have achieved the single largest reduction in toxic 
air emissions in the history of the United States.
    At the same time, the economy is literally soaring. We have 
a record high budget surplus. I think this is a clear testament 
to the fact that we don't have to choose as a country between a 
healthy environment and a healthy economy.
    There are environmental challenges. Senator Hutchison made 
reference to this. Despite all of the good work that all of us 
have done, there are problems that remain; there are new 
challenges. This budget is designed to allow us to meet those 
challenges, to prevent problems and to do what we think needs 
to be done in terms of protecting the health of the American 
citizens and their environment.
    This budget recognizes that protecting our environment is 
about more than protecting simply a beautiful vista or scenic 
river. Those are important efforts, but our job is simply much, 
much more than that. It is about protecting our health, our 
air, our water, our land, our food, our children.
    This budget is about neighborhoods, it is about protecting 
where we live as Americans, it is about protecting how we live, 
it is about what we do in everyday life, it is about 
communities, it is about keeping them healthy, strong and 
prosperous.
    I'll just briefly highlight three important initiatives 
included in the President's budget. They are efforts to provide 
more tools to local communities, more options should they 
choose--they are not required--but should they choose, more 
tools, more options so they can do what they want to do to help 
protect their environment.
    The President and the Vice President announced a new 
livability agenda to help communities grow in ways that ensure 
a high quality of life and a strong, sustainable economy.
    A key element of the livability agenda, it is a broad 
agenda, and I want to speak to one section, is the innovative 
financing tools. Several of you have mentioned it, Better 
America Bonds. It is carried within the Department of 
Treasury's budget as an amendment to the Tax Code; it is not 
reflected in the EPA budget, but it is a program that is in the 
tradition of our brownfields urban revitalization program.
    It is about allowing communities who make their own 
decision to protect an open space, a green space, to enhance 
water quality through those protections, to convert a 
brownfield to a green field. It is about providing some 
financial assistance.
    It is not about telling them what to do. No community is 
required to participate, nor will EPA at the end of the day or 
any other Federal agency own 1 inch of this land. It will all 
be in the hands of the local community if they make this 
decision.
    Several members spoke to the fact and Mr. Chairman you 
referenced New Jersey and the ballot initiative in New Jersey. 
This is a story that can be told across the country. In my home 
State of Florida, more than 72 percent of the voters went to 
the polls and said we want to protect green spaces. Community 
by community, it will vary dramatically.
    All the Administration is doing is providing a financial 
assistance in the form of a tax credit bond for those 
communities that make this decision.
    EPA would work with other agencies to award the tax credit. 
It would be a competitive process. The Administration is 
proposing $9.5 billion in bond authority over 5 years for 
investments by State, local, tribal governments, of public, 
private, land trusts may become involved in this.
    For fiscal year 2000, we are requesting $1.9 billion in 
bond authority. We would allocate up to $1.9 billion in bonding 
authority. All of the bonding requirements would be pursuant to 
existing State and local requirements. They would manage this 
under their own laws but simply a tax credit up to the amount 
of the interest payment over the 15 years of the bond would be 
available. In other words, the local community's money could go 
that much further.
    A second initiative I would like to call to your attention 
is the President's Clean Air Partnership Fund, $200 million, 
another new tool to help communities get the job done. This is 
to promote cost effective, innovative technology to help 
communities reduce ozone, fine particles, soot, smog, toxic air 
pollution and greenhouse gases that contribute to climate 
change.
    There is no requirement to participate, in this grant 
program to help finance public-private partnerships that are 
locally managed and self supporting. We recognize there are a 
lot of good ideas outside of Washington in local communities. 
We simply want to facilitate those in the same way we have done 
in brownfields--make the money available, award it through a 
grant process, and good solutions will emerge.
    Things that none of us can imagine today will come forward. 
We want to be a part of these local efforts. We want to provide 
financial assistance and that is what the Clean Air Partnership 
Fund is all about.
    Finally, I want to call attention to a very important 
Administrationwide program and that is the President and Vice 
President's commitment to fight the growing problem of 
childhood asthma. EPA will take the lead in this effort. Five 
million children today suffer from this debilitating disease. 
Unfortunately the incidence of this disease is continuing to 
rise.
    This budget includes $22.2 million for education, for 
outreach, for monitoring to reduce children's exposure to those 
environmental factors, pollutants, toxins, that can make an 
asthma attack worse.
    Senator Chafee. Madam Administrator, let me just announce 
what I'd like to do here. There is a vote on now. I was going 
to ask you to continue until we get to the 7\1/2\ minutes which 
should be just a couple of minutes from now. Then we'll go over 
and have not one but two votes, so this will take some time. I 
would urge everyone to please come back as soon as we finish 
the second vote.
    If you could just stand by now and we'll recess and come 
back as soon as we can.
    Senator Lautenberg. Are we going to let the Administrator 
finish, Mr. Chairman?
    Senator Chafee. No, we haven't got time now. Let's go on 
over and vote. We'll go vote and we'll be back and finish. Then 
there will be questions.
    Thank you.
    [Recess.]
    Senator Chafee. All right, Madam Administrator, if you'd 
like to continue where you were, we'd appreciate it.
    Ms. Browner. Thank you, Mr. Chairman.
    I will be brief. I just wanted to note some existing 
programs that we carry forward in this budget including the 
President's Clean Water Action Plan, $651 million, to continue 
our progress in restoring our rivers, lakes and coastal waters; 
for drinking water, wastewater treatment facilities, $1.6 
billion for State Revolving Fund.
    We are asking for a change if you will in the Clean Water 
SRF. We believe it is in keeping with the needs of the States 
as they begin their focus on polluted runoff. We are requesting 
that you give us the authority or quite frankly, the States the 
authority to take 20 percent of their clean water SRF money and 
set it aside for grants to local communities for nonpoint 
source projects, for estuary management and other innovative 
water quality projects.
    It would be up to the State, but if we're going to give 
them this flexibility, this additional tool, we will need an 
adjustment. We will need the authority to allow them to set 
aside up to 20 percent of their SRF money to take it out of the 
revolving loan and turn it into a State-managed grant program 
to local governments.
    We do seek $1.5 billion for Superfund. As I mentioned 
earlier, we continue our request, our program funding level of 
$92 million for brownfields.
    To help reduce pollution that causes global warming, the 
President's budget requests $216 million for EPA. This would 
allow us to build on our extremely successful voluntary 
programs and energy use to provide efforts and partnerships for 
energy efficient technologies.
    You may be aware that just this past year we completed a 
very successful partnership with very large buildings in terms 
of energy efficiency including the Empire State Building, the 
World Trade Center and the Sears Tower. That was an initial 
investment in more efficient technologies, lights, windows, 
heating and cooling. Not only could they do their part to 
reduce greenhouse gas pollutants, but they would also save 
money ultimately, there was a business interest in this.
    Of special significance, and this is the last issue I 
wanted to raise with the committee and I think it is of 
particular importance to you and is certainly of importance to 
us. That is the Agency's operating programs.
    The easiest way to think about the EPA budget is there are 
three big pots of money--what we give to the States, a big, big 
chunk; what goes into Superfund; and then everything else we 
do--drinking water, RCRA, standards, asthma, everything else is 
in our operating program.
    We are requesting an increase in that program, a 5 percent 
increase over the levels enacted in fiscal year 1999. It really 
is the backbone of our work to protect public health and the 
environment. It's where we do our science, our standards, where 
we run our enforcement programs, our right-to-know programs.
    We have been concerned, Mr. Chairman. Last year we did 
experience earmarks in that account which caused us to have to 
take program reductions. There was also an across-the-board 
cut. We have managed this but it has been extremely difficult.
    I think if we were to face the same kind of levels of 
earmarks into the heart of these programs and a general 
reduction next year, our ability to manage it would not be as 
great as it was this year. We are sort of slicing back to the 
bone right now within the core agency programs. We would like 
to work with this committee to really make sure we have our 
operating program resources in place.
    In closing, Mr. Chairman, I hope and I know that we all 
share a common vision of strong public health environmental 
protections, a strong economy. That is our commitment to work 
with all of the members of this committee, to work with your 
States, with local governments, to build the partnerships that 
will allow us to honor the needs of the American people to 
protect their health, their communities and to continue to 
ensure a strong economy.
    I appreciate the opportunity to be here today and look 
forward to answering questions.
    Senator Chafee. Thank you very much.
    What we will do is have 5 minutes allotted to each Senator 
and come in the order of arrival. The lights will be right 
here. If Senators could pay attention to these lights, that 
would be very helpful.
    Madam Administrator, I'd like to ask you about these Better 
America bonds. On the face of it, it's something that I would 
be highly enthusiastic about. Indeed, when the President 
originally mentioned it, I thought it sounded great.
    I'm confused though as to why you've launched into this 
when with the Land and Water Conservation Fund we don't 
presently fund that to its fullest extent. It seems to me that 
to embark on this new proposal, which as I understand it, these 
are zero interest bonds and if I buy a bond for $1,000, one of 
these, I presume there is a formula somewhere that says I'm 
meant to get 5 percent so I get 5 percent of $50 credit that I 
take on my income tax return. Is that the way the thing works?
    Ms. Browner. Exactly. You would take it against your 
Federal income tax liability.
    Senator Chafee. The cost of this program is very 
substantial in the research we've done but again, why don't we 
use the program we have there now? I'm not knocking the Better 
America bonds but it certainly comes to mind that the Land and 
Water Conservation Fund isn't currently being funded to the 
extent it should be. Why do we embark on this new program?
    Also, you're not involved with any of this currently; it's 
a big new undertaking for your agency, but go to it.
    Ms. Browner. First of all, with respect to the Land and 
Water Conservation Fund, the President's livability agenda does 
request congressional funding for the Land and Water 
Conservation Fund. I believe it is $1 billion. That is one of 
the components of the livability agenda.
    As I think all of the members know, that program does 
something very and has a different focus than an open, green 
space, preservation effort. That program has largely focused on 
our national parks and enhancing protections in our national 
parks. The Administration has put forward a proposal to fully 
fund that program.
    Better America Bonds is not in any way I would suggest to 
you the Land and Water Conservation Fund. For example, under 
Better America Bonds, the Federal Government will not own one 
inch of the property, it will all be owned, rather managed by 
the local community pursuant to their needs.
    Better America Bonds is designed to assist those 
communities who make these voluntary decisions--with a targeted 
tax credit so they can see their citizens' money go further.
    You asked about the cost of the program. The Treasury 
Department has scored this at $700 million over a 5-year 
period. They are carrying that as part of their Greenbook 
presentation to the tax committees. This amount represents the 
cost to the Federal Government from the general revenues by 
providing the tax credit on the interest payment.
    I would suggest to you that an investment of $700 million 
over the 5 years for $9.5 billion in bonding authority is a 
pretty good investment. We've already seen tremendous interest 
in this from local communities and Governors across the 
country.
    Finally, you asked why EPA? EPA would chair an interagency 
committee made up of HUD, Transportation and others. You do 
need someone to manage the program and I think the thinking is 
that EPA, first of all, has run a very successful, similar 
program which is brownfields, the bottoms up program.
    Second, we do see that for many communities, green space 
preservation not only brings with it an enhancement to quality 
of life, it also brings improvement in air quality. It brings 
enhanced water quality and we are increasingly of the mind that 
we are now willing to give communities SIP credits, State 
Implementation Plan credits for brownfields redevelopment 
because we've been able to demonstrate with communities that 
when you redevelop a brownfield you are taking some cars off 
the road, you are reducing the air pollution burden.
    Similarly, with green space preservation, you preserve an 
acre in the community. I was just down in Tampa, FL where they 
want to buy an acre total along their Hillsborough River. One 
acre of green space along a river in the country is far, far 
better and a more natural way to protect water quality if that 
is what they decide rather than other mechanisms.
    So this is simply a way of saying to a community, if you 
want to make that kind of decision, then there is a program 
available to help you to provide a targeted resource.
    Senator Chafee. I tapped into a vein there apparently and 
my 5 minutes is gone.
    [Laughter.]
    Senator Chafee. Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    I'd just note that the Community Empowerment Board includes 
a lot of people. Basically, the chair is the vice president and 
Bruce Reid is the vice chair, and Gean Sperling and then 
basically Cabinet secretaries.
    Ms. Browner. Yes, including EPA.
    Senator Baucus. Including the EPA, so it seems huge, it 
seems large.
    I'm with the chairman and basically I think it's a good 
idea on the surface. I just want to think this through a bit.
    Senator Chafee. You're talking about the Better American 
bond?
    Senator Baucus. That's right. For example, what are the 
criteria going to be in selecting which projects are available 
and which are not?
    Ms. Browner. The Administration and the Department of 
Treasury's budget submission has essentially suggested three 
categories of projects, but again, we want to broadly define 
these because the best answers will come at the local or State 
level. They will know best.
    The three categories are: open space or green space 
preservation; the second is water quality enhancements. As I 
said previously, frequently green space preservation will bring 
with it water quality enhancement. Finally, brownfields that 
would become green spaces or in the instance where a brownfield 
has come onto the city's tax rolls because of a default in 
taxes, then they could use the tax credit bond for the cleanup 
of the brownfield, not for the redevelopment but for the 
cleanup.
    There are really three. One is open space preservation; two 
is water quality enhancements and finally, brownfields into 
greenfields.
    Senator Baucus. What is your basis for concluding what the 
demand will be?
    Ms. Browner. I visited with a number of mayors, over 100 
mayors, and a number of Governors across the country and 
received a lot of enthusiasm. We do expect it will be 
oversubscribed. It is structured that the EPA and the board 
would award $1.9 billion in bonding authority for each of 5 
years. We do anticipate we would receive more applications than 
there are resources. It is designed to be a competitive 
process, to bring forward the best ideas as we do in the 
brownfields program.
    We funded 227 brownfields projects. We've had over 700 
applications.
    Senator Baucus. But competitive in what way? How are you 
going to allocate? If it's not to be competitive in dollar 
terms, what is it?
    Ms. Browner. Correct, but competitive in terms of the 
benefits that the particular project--how many benefits are 
served, how many issues are addressed, recognizing issues in 
your State would vary dramatically from the issues in the 
chairman's or Senator Lautenberg's State, in the same way we 
tried to do with brownfields.
    Senator Baucus. If it's a selection committee, why doesn't 
the committee include more local people, State and local 
people? This is all Federal. Right now the list is all 
Washington, DC people.
    Ms. Browner. It could.
    Senator Baucus. It's all inside the Beltway.
    Ms. Browner. For example in the empowerment zones and in 
brownfields, you have had a Federal committee making the 
determinations and the allocations, but I'm certainly not 
adverse to expanding the review committee.
    I do think it's important to note, for example, in the 
brownfields showcase communities, it's all been handled by 
career staff across an array of Federal agencies. They reviewed 
these. These are people with long service.
    Senator Baucus. What about populous areas versus less 
populous areas? How are the less populous areas going to feel 
they're getting a square deal here? I mention this in part 
because proximity is power and right now decisions are made in 
Washington. People closer to Washington, closer proximity 
generally have more power. They are there, they can beat on the 
doors, make telephone calls and so forth.
    I can just tell you from very deep experience that the 
farther one lives from Washington, DC, particularly if one 
lives in a rural area, the more one feels unempowered. So how 
can we give these people a fair deal so they feel they have a 
fair shot compared to the people who have lobbyists and that 
kind of thing and are just a few steps away?
    Ms. Browner. It's extremely important and one of the 
reasons I think the mayors like the program is that local 
communities can apply directly. They don't have to come up 
through their State and compete at the State level. They can 
come straight into the application process. It's not cumbersome 
to the local community.
    Again, no one is required to do this so if a local, rural 
community wants to do this, they come straight into the process 
and they don't have to weave their way around.
    Senator Baucus. You know we have industrial development 
bonds which is somewhat similar. What if there is an 
allocation, as I think there is in the law, with respect to 
industrial development bonds and then caps. Why does EPA need 
to be making the decision? That's my question.
    Ms. Browner. Because the Administration does believe that 
there will be more applications than there are resources 
available. I think that is good because it allows more people 
to come forward with locally driven, creative proposals. Then 
when you have more than there are resources available, you will 
have to run a competitive process.
    Senator Baucus. As I said, I think on the surface that is 
very interesting, very intriguing. I have a lot of questions.
    Ms. Browner. It's a new idea.
    Senator Baucus. Thank you very much.
    Senator Chafee. I think if your answers could be a little 
briefer, then they'd be able to get in more than one question.
    Next is Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Browner, you heard me talk about smart growth in 
transportation. The committee had I think a big victory, TEA-
21. Let me ask you about how we do that now with clean water 
and try to relate particularly the sewage issue to this.
    You all recognize the value that open space protection 
plays in the context of the Safe Drinking Water Act by allowing 
drinking water funds to be used to protect drinking water 
sources from encroaching development.
    Why not extend this approach to help rivers, streams and 
lakes meet the Clean Water Act standards? You could again have 
another kind of approach which wouldn't be either or, but you 
could have watershed protection and conventional treatment work 
together to meet clean water goals simply by doing the same 
sort of thing for clean water that we're doing with the Safe 
Drinking Water Act.
    Ms. Browner. I think we agree that as you look at the 
current water pollution challenges, polluted runoff is perhaps 
the most significant. The more we can provide assistance to 
local communities, an array of tools to address polluted 
runoff, the better off we will all be.
    I think everything from our Nonpoint Source Program, 319, 
which we do request funding for, the set aside, the 20 percent 
clean water SRF set asides, those are grants. Communities would 
not have to pay them back like the Revolving Loan Fund they use 
to build their sewer plants.
    Better America bonds, the set aside in the Drinking Water 
Program, we agree that more flexibility is needed.
    Senator Wyden. We'll follow up with you, but the point is, 
and you heard the question about the bonds, that's a new 
program. Why not use existing authority, particularly where you 
have the Safe Drinking Water Act model? I'll follow up with you 
but it seems to me we could take the next step of the smart 
growth fight in the clean water bill simply by taking the model 
from safe drinking water.
    My other question, given time constraints, I think you all 
are aware I've introduced S. 188, the Water Conservation and 
Quality Incentives Act. This is an opportunity to save millions 
and millions of gallons of water. We brought together the 
Environmental Defense Fund and the Farm Bureau for it simply by 
saying that when they have a project that can meet tough 
conservation standards, they could tap the Clean Water 
Revolving Funds.
    What does the Administration think of this?
    Ms. Browner. We think quite frankly that a number of the 
kind of projects you're talking about, if States would certify 
them, they could do it right now. I think what's happened is 
many of the States and keepers of the SRF State by State, the 
Clean Water Revolving Fund, have traditionally been on the 
bricks and mortar side.
    We agree right now that the Clean Water Act does allow 
States flexibility to address some of the projects you're 
raising and we want to work with the States so they understand 
that flexibility.
    Senator Wyden. Let us work with you on it because our 
understanding is the reason there have been only a handful of 
these projects approved is because it's still a pretty unwieldy 
kind of structure. That's what I think the Environmental 
Defense Fund and the Farm Bureau were concerned about--that we 
could do a whole lot more. This is something that is pro-fish. 
You save water on these kinds of irrigation systems, you're 
doing something for fish, you're doing something for farmers 
and something for conservation.
    The time is short and I just wanted to make it clear that I 
wanted to pursue both smart growth issues and the question of 
conservation with you as we go to markup.
    I thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Ms. Browner, I think the skeptics in 
particular but even those who support the Superfund Program 
generally are pretty much surprised and pleased by the progress 
that has been made in the cleanups.
    As I read your statement, by September of this year, I 
think you said all cleanup remedies will be selected for 95 
percent of all the non-Federal sites that are on the NPL. In 
light of this progress, the improvements you've made in the way 
the program is being administered, do we still need a 
comprehensive Superfund reauthorization bill?
    Ms. Browner. Senator, as you are well aware, having been 
engaged in this process with us for 6 years, it has always been 
our desire to see comprehensive reform. Having said that, I 
would say after 6 years, I am increasingly of the mind--that is 
unlikely. I would simply suggest that the Administration would 
be willing to work with you and others on those areas where 
there is broad agreement to fashion a bill that would allow us 
to at least address those areas.
    It would not be everything I think all of us had hoped for 
but quite frankly, we never seem to get past some of the old 
arguments. We seem to spend a lot of time debating issues that 
I think were relevant 7 or 8 years ago.
    Senator Lautenberg. Many of these have been settled in the 
courtroom, et cetera?
    Ms. Browner. Exactly, but I think at this point I would be 
more than happy to work in any way the committee wants to work. 
From our perspective, we think there is a lot of agreement on 
things like prospective purchaser, innocent landowner, 
contiguous property owner, perhaps municipal waste, generators, 
transporters. Obviously we are very concerned about 
replenishing the trust fund. Those are areas where we've had a 
lot of agreement and maybe we should just do that so we can 
incorporate it.
    Senator Lautenberg. What happens if we don't replenish the 
trust fund? We're now missing $600 or $700 million a year?
    Ms. Browner. Yes. The fee collection is now in the third 
year but we are not collecting the fees. At some point, we will 
encounter a problem in terms of our ability.
    The good news is we are doing a much better job at EPA in 
recovering spent monies from responsible parties that we keep 
bringing money into the fund. The list of those parties we are 
collecting from is a diminishing list. We won't get all of it. 
At some point, we will be done with this process.
    At some point, the Congress is going to have to look 
seriously at how they intend to fund this program as we really 
sort of bring it into its conclusion. We're out there, at these 
sites. The end of sort of the original Superfund effort in this 
country is coming. It's not going to happen tomorrow but it's 
certainly coming, not to say we won't always need a law and 
problems won't arise that we haven't anticipated. In terms of 
the large volume of these very big sites, we're well down the 
road and we can see the end.
    Senator Lautenberg. I want to take another look at it to 
see if there is something we can do. Have you noticed that 
industry generally has become more resigned to the fact that 
they're going to have to help clean up the mess they've left 
behind, the polluters and there is a more cooperative spirit 
out there?
    Ms. Browner. I think there is a more cooperative spirit. In 
having talked to a number of industry groups and potentially 
responsible parties, I would suggest to you that it is in part 
because we were responsive to their legitimate complaints. 
There were problems, it was slow, it was costly. We changed 
that and I think there are many trade, associations and groups 
that have actually put out very favorable reports in terms of 
our administrative performance, which this committee was 
instrumental in assisting us.
    Senator Lautenberg. Very quickly because the chairman has a 
quick hammer here, on the Better America bond, they are 
particularly well suited to the brownfields program which has 
been very successful and the facts bear you out.
    I produced a bill earlier this month, S. 20, and I assume 
you've had a chance to look at it. Do the goals we've outlined 
there support what you think would be a good way to get the 
brownfields program moving along at a better pace?
    Ms. Browner. I think it's very much in keeping with our 
vision of this program and the future of the brownfields.
    Senator Lautenberg. Any particular changes there that you 
would recommend?
    Ms. Browner. No, I think it's something that is very much 
in keeping with what we have recommended to Congress 
previously. I think we would be very inclined to support it.
    Senator Chafee. Before Senator Voinovich goes, and we're 
not deducting it from his time, I think it would be helpful to 
the committee Ms. Browner, I see you have some of your 
assistant administrators. If you could identify who they are, 
then we become more familiar with them. Just briefly.
    Ms. Browner. Beginning on my left is Diane Thompson, 
associate administrator for Legislative and Intergovernmental 
Affairs; Bob Perciasepe, who was previously the assistant 
administrator for Water who is now the assistant administrator 
for the Office of Air and Radiation; Tim Fields is a career 
employee of the Agency whose nomination is now pending before 
this committee to be the assistant administrator for the Office 
of Solid Waste and Emergency Response; Mike Ryan, comptroller; 
Nanci Gelb, budget director; Chuck Fox who is the assistant 
administrator for Water; Susan Wayland is the acting assistant 
administrator for the Office of Pesticides and Pollution 
Prevention and Toxic Substances; Norine Noonan who has recently 
been confirmed as the assistant administrator for the Office of 
Research and Development.
    Senator Chafee. OK. Senator Voinovich.
    Senator Voinovich. Administrator, you don't need to give me 
this now but I would be real interested in knowing the increase 
in your budget over what it was last year, taking into 
consideration additional money that you're asking for and also 
anticipating tax expenditures, money we'd lose to the Treasury 
if people took full advantage of the Better America bonds and 
other things that are out there?
    Ms. Browner. I'd be happy to answer that. I can answer for 
the record if that's better.
    Senator Voinovich. Second, Senator Wyden made a point, 
there are a lot of programs you're into right now that could 
use additional money. For example, when we worked with you on 
the Safe Drinking Water Act, we put in a loan fund for 
communities to enhance their local water systems.
    Ohio has been accessing that program, but I can tell you we 
could use a lot more. As a matter of fact, we're using our 
Small City Block grant money for the more rural areas of the 
State to put money into those programs. I'm just looking at 
priorities.
    I don't know exactly what Senator Wyden was talking about 
but I'm sure he's got some good ideas before you go off on a 
new program.
    The other point I'd like to make is this. New Jersey just 
passed their bond issue. As Governor of Ohio in 1993, we went 
to the voters and we were spending $250 million, 25 percent of 
that for the locals, to do about the same thing you're talking 
about doing with the Federal program.
    One of my concerns has always been what is the role of the 
Federal Government, what's the role of the local government and 
is it fair if you really get at it for the taxpayers of Ohio or 
New Jersey or other States where they step to the plate and 
provide money for open space and doing some of the things that 
this would work to say we're going to make you pay to the 
Federal Government your taxes to fund the national program for 
a lot of people out there when you're already taking care of it 
on the local level.
    In spite of the fact that we're talking about the fact we 
have a surplus, the truth of the matter is we don't have a 
surplus but for social security. In fact, we're going to be at 
a deficit this year and maybe we'll have a little on budget 
surplus in 2001.
    It seems to me that one of the jobs of all agencies would 
be to work harder and smarter and try to do more with less. I 
would rather have you, instead of going with the new program, 
go back over and look at areas where we really need help and if 
you're going to put more money into it, assuming we've got the 
money to give you, to maybe put it there where we're going to 
get a better return on our investment than going forward with a 
brand new program.
    Senator Baucus talked about how do you administer it? I'm a 
former mayor and anytime I can grab some more money, it's like 
revenue sharing, I'm going to go after it. It seems to me that 
if this ever did go forward, there ought to be some look at 
what the States are doing and whether States have an agency in 
terms of allocating it so that you get the biggest return for 
your investment.
    I really say to you, if you're going to get some more 
money, why don't you look at the programs you're already into 
that I think you're going to get a much better return on your 
investment than going forward with a new program.
    Senator Chafee. Specifically addressing the Better America 
Bonds?
    Senator Voinovich. Right.
    Ms. Browner. First of all, I agree with a number of points 
you made. I certainly think what States and local communities 
are doing in terms of their bonding programs has been 
incredibly successful and incredibly innovative.
    All we are suggesting in Better America Bonds is not a 
Federal decision, not Federal ownership, but some financial 
assistance. I think there is a long history of very successful 
programs, particularly at EPA through the Clean Water SRF, the 
Drinking Water SRF that you were very instrumental in helping 
us create, providing to local communities, in some instances 
through the States, sometimes directly, some financial 
assistance, not decisionmaking, financial assistance. That's 
really what Better America Bonds is all about, helping local 
communities take their dollars a little bit further.
    I'm sure you know this but for the record, Better America 
Bonds and all of the other programs we are discussing in the 
EPA budget request are within the balanced budget. They are not 
about the surplus; they are all contained within the balanced 
budget.
    Senator Voinovich. Could you just tell me how you intend to 
fund it, fund the additional dollars?
    Ms. Browner. Better America bonds are costed within the 
balanced budget. Obviously the Administration made choices 
across the full array of Federal programs and it is carried as 
an adjustment to the Tax Code. It is scored within the 
Department of Treasury's Green Book at $700 million over a 5-
year period. That, the bond market experts tell us equates to 
$9.5 billion in bonding authority for local communities.
    I did want to come back to the Drinking Water SRF. The 
budget request before the Congress is, No. 1, an increase over 
last year.
    Senator Voinovich. Are those bonds going to be included 
within the State caps on tax exempt financing?
    Senator Chafee. I don't think they're affected by that.
    Ms. Browner. No, they are not affected. I should correct 
myself on how it is scored within Treasury. It is taxes 
foregone because of the credit. It is managed as a credit; it 
is not affected as the chairman points out.
    Very quickly on the drinking water, we are asking Congress 
for an increase in the Drinking Water SRF. That keeps us on 
track with what this committee authorized to fully fund the 
program. We all may agree at the end of that authorization that 
full funding, we need more. We see a large need out there in 
the States but we are on track and we do seek an increase for 
the Drinking Water Program.
    Senator Chafee. Senator Thomas.
    Senator Thomas. I will ask quickly if you can answer 
quickly.
    I want to go back to the Clean Water Action Plan, 
specifically the animal feedlot operations which I'm told are 
fairly well spelled out in current law and regulations. Many 
believe what you're talking about now goes far beyond that.
    I guess my question is, if you were going to change the 
rules and do something quite different, why don't you do it 
under the Clean Water Act rather than by regulation? Two horses 
in a corral I understand.
    Ms. Browner. Senator, we have been working with the 
Department of Agriculture. We have issued a proposed strategy 
pursuant to our authority under the Clean Water Act. We are 
relying on that.
    Senator Thomas. You'll have a lawsuit because a lot of 
people don't believe you have the authority to do that. You 
talk about partnerships all the time and my second thought is 
this really was very little notice. I was out in Wyoming for a 
week and I heard about this more than anything else. In terms 
of the amount of notice and public comment periods on this, I 
think there are some groups prepared to sue.
    Ms. Browner. We did have a public comment period. It began 
in September. It was not closed until January 19. I will be 
honest with you, that is much longer than many of our public 
comment periods and certainly longer than we are required by 
law to provide.
    Senator we have worked with a number of the farm groups, 
the producer groups. For example, the pork producers, we have 
worked very closely with them to design a program to address 
the animal feeding operations issues within that industry. I 
think they would attest to the partnership that we have 
developed with them as an example of how we're trying to do 
this.
    Senator Thomas. I don't agree with you. You can say that if 
you like but that isn't what I find at all. You always talk 
about partnerships but it's kind of one horse and one dog sort 
of an arrangement. I really must say I disagree with you 
thoroughly on that and I wish we had a chance to talk a little 
more in detail about it because I didn't make up that. That's 
people's thinking about that.
    You talked about the economy being so great, I can tell you 
in agriculture and in mineral oil and gas, it's not great. So I 
think when you impose considerable costs on these folks at this 
point, it's a difficult thing. You need to understand that.
    I understand with respect to the funding for Superfund tax 
that GAO said last year only about 46 percent of the money goes 
into actual cleanups, and the rest is in administrative costs. 
How do you react to that?
    Ms. Browner. I'm more than happy to explain it to you. We 
don't agree with that. It is a long answer. If you'd like me to 
take the time, I'm more than happy to do so.
    Senator Thomas. No, probably not, but I would like to know. 
GAO usually does pretty good work. You don't agree with their 
work?
    Ms. Browner. Not in this case and we've made them aware of 
that. We think the appropriate allocation of resources is 
reflected in how we manage the program, 69.5 percent goes to 
cleanup.
    Senator Thomas. You don't need to go into it right now.
    [Additional information supplied for the record follows:]
      agency perspective on gao's report ``analysis of contractor 
                           cleanup spending''
    The Agency uses a different and more meaningful measure of what 
constitutes cleanup spending than the General Accounting Office (GAO) 
uses in their August 1998, report: Analysis of Contractor Spending. 
EPA's definition of cleanup spending includes all necessary program 
cost in the response/cleanup portion of the budget. This funds most, 
but not all, elements of the cost of cleaning up a Superfund site. 
Using this definition, EPA focuses resources on those activities that 
yield the greatest environmental results. Effective use of enforcement 
authorities and oversight along with strong partnerships with States 
tribes and other Federal agencies result in more cleanups each year 
that the narrow band of predominately Fund-lead work GAO focuses on.
    GAO's definition of cleanup is so narrow that many sites that have 
reach construction completion would be deemed to have had little or no 
spending on cleanup. GAO does not include many key components of the 
cleanup process. GAO omitted functions such as lab analysis, 
engineering and technical analyses, project manager salaries, state/
tribal activities, community involvement activities, and oversight of 
responsible parties and many other activities necessary to achieve 
cleanups. GAO's contractor cost computation also fails to recognize the 
$175 million in annual Superfund appropriations used by other Federal 
agencies (e.g., ATSDR, USCG, NIEHS, FEMA, NOAA) for cleanup, testing 
and assessment, and the approximately $30 million in annual 
appropriations to DOJ which has resulted in settlements with private 
parties for more than $15 billion in cleanup or reimbursements to the 
Federal government. Without these resources, the response cleanup 
process could not proceed.

    Ms. Browner. They defined it in a way that ignored a lot of 
the work we do across the country to clean up toxics and that's 
why they came with their number.
    Senator Thomas. They stated nevertheless that only 46 
percent goes into cleanups.
    Ms. Browner. We disagree.
    Senator Thomas. I understand and I disagree with you on the 
other, so please let's talk a little more about that because I 
certainly find a lot of evidence that there wasn't notice, that 
there are a lot of concerns about it.
    Wyoming is the only State that doesn't have a unified 
assessment. The incremental funds are tied to the completion 
and approval of a unified watershed assessment, correct?
    Ms. Browner. That's correct. Forty-nine States have 
applied; Wyoming has chosen not to apply. We are processing all 
of the other 49 State applications and we will be making those 
grant awards.
    It has been explained to me why Wyoming chose not to apply. 
I think your Governor has taken a position that our work under 
the Clean Water Action Plan is illegal and therefore, he will 
not apply.
    Senator Thomas. I think they have applied. It wasn't 
approved.
    Ms. Browner. If I stand corrected, I stand corrected.
    Senator Thomas. We have a lot of confusion in my State and 
we need to get together because all the great things you're 
talking about, all this working together and so on, I can tell 
you just doesn't reflect. These people are saying we're being 
ordered around so we can't do it here but I would like to talk 
about it some more because it isn't a happy situation.
    Ms. Browner. We're more than happy to work with you. If I 
stand corrected, I stand corrected, but as of yesterday, I'm 
under the impression that Wyoming chose not to apply. We would 
love to work with them to get an application so that they too 
can participate in the program.
    Senator Thomas. The conditions under which you can 
participate has something to do with it also.
    Ms. Browner. Well, 49 other States did participate.
    Senator Thomas. At any rate, I would like very much to talk 
about some of these specific things. If you or someone who 
works with this region could come see me, I would be very 
grateful.
    Ms. Browner. We'd be more than happy. We'll set up a 
meeting here and we'd also be happy to set up a meeting back in 
the State.
    Senator Thomas. Thank you very much.
    Senator Chafee. I think that is a good idea. Obviously the 
Senator has a serious situation in his State. If you could make 
yourself available, whoever it might be, but I think probably 
you would be the one.
    Ms. Browner. I will do it. I think we have a meeting 
scheduled or we were trying to schedule one.
    Senator Chafee. Get together with Senator Thomas and then 
we can see how you come out with that.
    Senator Crapo.
    Senator Crapo. I want to follow up briefly on the 
difference of opinion which you have with GAO on the amount of 
money that goes into cleanup only to ask if you would provide 
the documentation to me with your perspective on that.
    Ms. Browner. Yes.
    Senator Crapo. I would like to review that at another time.
    I understand while I was out of the room for a minute, the 
question of Superfund reform came up. What's been relayed to me 
is that you responded that you do support comprehensive 
Superfund reform. Is that correct?
    Ms. Browner. No, I don't think that fully characterizes my 
answer.
    Senator Crapo. Tell me how you would respond?
    Ms. Browner. I said we have worked 6 years to achieve 
comprehensive reform but I'm a realist, I'm a pragmatist, it 
hasn't happened and at this point, we would be happy to work in 
a bipartisan manner with any member who would like to advance a 
bill that covers the areas where I do think there is broad 
agreement, for example, contiguous landowners, innocent 
purchasers. No one has any disagreement on these issues. It 
seems we're sort of holding resolution of those hostage to 
issues where we continue to have some disagreement.
    We've done this in RCRA, we've taken the things we all 
agree on and we've gotten it done to great success for both the 
States, industry, and the environmentalists. We should do the 
same with Superfund. I would still like comprehensive reform 
but I've been up here for 6 years and it hasn't happened.
    Senator Crapo. You're not saying that you do not support 
comprehensive reform, you're saying you think we ought to move 
ahead to where we have agreement?
    Ms. Browner. I think after 6 years, it might be the best 
avenue to travel. We haven't been able to find agreement on all 
of the issues. If we could find agreement, I would be for 
comprehensive reform tomorrow. I've probably spent more time 
testifying and meeting with members on Superfund comprehensive 
reform than any other issue.
    Senator Crapo. That we could agree on.
    You stated earlier that 585 sites have been cleaned up?
    Ms. Browner. Yes.
    Senator Crapo. When you say cleaned up, does that mean 
those sites have been delisted?
    Ms. Browner. No. A large number of sites involve the 
ongoing treatment of water contamination. It's called a pump 
and treat. What we mean is the facilities are up, they're 
running, they're being managed. No other activity is going on. 
181 have now been delisted and are completely done but for pump 
and treat situations, which is a large amount, there are no 
bulldozers out there. There's a little box generally sitting on 
the ground which have the treatment.
    Senator Crapo. So construction has been completed in those 
sites?
    Ms. Browner. Yes and we're out of there.
    Senator Crapo. You're out and operation and maintenance is 
underway?
    Ms. Browner. Exactly.
    Senator Crapo. I take that means an ROD has been signed.
    Ms. Browner. That's the first step in the process, that's 
an early step in the process. A record of decision gives you 
the plan for what the cleanup will be.
    Senator Crapo. But 181 of those 585 have been delisted?
    Ms. Browner. Yes.
    Senator Crapo. When you say you're out of there on the 
others, that means it's operational?
    Ms. Browner. It's what we would refer to as O&M, correct.
    Senator Crapo. How many are not?
    Ms. Browner. There are about 1,300 sites on the master 
list. We have added a few over the last several years, sites 
we've worked with Governors to add to the list and in some 
instances were requested by the Governors and in some 
instances, we reach an agreement.
    Of the approximately 1,300, as many have pointed out, we 
are active at almost all of the non-Federal sites, over 95 
percent, but 181 have been delisted, 585 we have completed 
cleanups on. We are in the process of concluding--995 have 
RODs.
    Senator Crapo. Does all of this activity include the 
activity that will be undertaken with regard to natural 
resource damages or section 106 orders or the like?
    Ms. Browner. With respect to natural resource damages, I 
think as you're aware, we're not a trustee; EPA is not one of 
the trustees. The trustees are the Department of Interior and 
others. At sites where there are natural resource damages, 
those are handled by the trustees.
    Senator Crapo. The point is all of that activity under 
Superfund is still outstanding and when you're talking about 
585 sites being cleaned up, that has nothing to do with the NRD 
or the 106 activity?
    Ms. Browner. Only a few of the 585 do the trustees have an 
interest in.
    Senator Crapo. What I'm talking about is all of the other 
sites in America, all the other locations in America where 
there are NRD concerns and potential NRD activity, that's not 
included in your description of the winding down of Superfund?
    Ms. Browner. No. In the 1,300-plus sites, we'd be more than 
happy to give you a list of those sites which are not all of 
them by any stretch of the imagination, where the trustees have 
raised a potential NRD claim.
    Senator Crapo. At this point in time?
    Ms. Browner. Yes. We can provide that.
    [Additional information supplied for the record follows:]
  list of sites in which the trustees have raised potential nrd claims
    The agency is working with the Department of Justice to compile a 
list of Superfund National Priorities List sites where the Natural 
Resource Trustees have raised a possible Natural Resource Damage Claim. 
This information will be provided to the member and the committee as 
soon as it is compiled.

    Senator Crapo. Nothing prohibits that from being done in 
the future?
    Ms. Browner. We can provide that to you. Again, we are not 
a trustee, so I don't know the answer to your question about 
what timeframes they operate under but we could get that for 
you.
    Senator Crapo. All right. Thank you.
    Senator Chafee. Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    I'm going to have to rush right off after I ask my 
questions due to a conflicting hearing.
    Thank you for being here. I'm glad I'm here because I've 
seen kind of an attack on the work you do. I want to say I want 
to bring those fights to the floor of the Senate because if 
there's any issue that brings America together, it's the 
environment. It's cleaning up these Superfund sites, it's 
continuing to make progress. Yes, it's even Better America 
bonds although it is a new idea, it's a very old idea in some 
way because the local communities are going out with 
initiatives.
    I'm a former county supervisor so I come from the same 
perspective as Senator Voinovich who talked about being there. 
I started as a county supervisor, passing open space 
initiatives. What a joy it would have been to leverage those 
monies. We could have done so much more and now we're 
struggling to do everything we want.
    We've got parks that are closed up in San Francisco where 
kids are looking from the street to a closed up park. We've got 
to do more and I want to bring these issues, these debates to 
the Senate floor. Maybe we won't have the votes but we'll have 
the people and I'm going to be there.
    I want to say that I was very proud yesterday to introduce 
a piece of legislation I talked with the chairman about called 
Resources 2000 which goes beyond what we're talking about here 
and would fully fund about eight trust funds for the 
environment and make it mandatory to do that.
    As we look at saving social security's trust fund and 
saving the Medicare Trust Fund and the Highway Trust Fund. What 
about these environmental trust funds like Land and Water 
Conservation and Historic Preservation? It is pathetic to see 
the neglect of our environment.
    What you are trying to do within the context of the 
balanced budget is to bring some new, fresh ideas to the table. 
I, for one, if maybe the only one in this room, want to say 
thank you for being visionary. I'll tell you, every time there 
was a new idea, Teddy Roosevelt just looked up and said, oh, 
it's a new idea. Who would ever have been able to have the 
progress that we have made so far.
    Maybe this is part of this whole impeachment deal--opening 
up. We ought to open up to new ideas and take new steps and 
think big and yes, to leverage $9 billion won't even meet the 
shortfall. My State has 33 million people. We're going to have, 
Mr. Chairman, 50 million people in the year 2020. If we don't 
move forward and leverage some of these dollars and do what we 
can, we're not going to be able to breathe. If we keep losing 
the trees and the wetlands, these people are going to have a 
very low quality of life and it's just not right.
    In closing, so I leave some time for you, in California, 76 
percent of Superfund sites have final decisions in place. We 
are very pleased. As much as I would like to do reform because 
with the chairman's help, I got an amendment passed to 
Superfund reauthorization that I love. It says you've got to 
clean it up to protect the kids and I don't think we do that.
    I would love to see Superfund reform but at the same time, 
I don't want to stop the program when we're making progress. So 
I want to be pragmatic about it. I will work with my chairman 
to see what he thinks about it and of course, Senator 
Lautenberg.
    Can you tell me a little bit about what you're doing on 
this very important program called the Food Quality Protection 
Act that's supposed to protect kids? I love what you're doing 
on the asthma front, it is a huge problem all over the country 
with so many kids. The increase in asthma is up I think 160 
percent among kids, it's horrible. But I have reports that the 
EPA is not consistently following the mandate in the Food 
Quality Protection Act to set pesticide tolerances in a way 
that protects kids. I would love to have your response.
    Also, last, MTBE, I know the chairman is concerned, how are 
you doing on your panel? We've got to get rid of it. It is 
terrible, it is ruining our water supply, we don't know how to 
clean it up. So how are you doing on your timetable?
    Ms. Browner. We do have a blue ribbon panel on MTBE. I 
think you're well aware of the membership and it is truly blue 
ribbon. We do anticipate that they will be able to respond to 
our questions within the allotted timeframes. I think by June 
we expect a set of recommendations. It is an extremely 
difficult issue, Mr. Chairman, and we will want to work with 
the committee as we receive those recommendations.
    Senator Boxer. Will you supply that to the chairman and to 
those of us who are interested?
    Ms. Browner. Yes, absolutely.
    If I might quickly respond on our Food Quality Protection 
Act work. As you well know, Senator Boxer--you were 
instrumental in passing this new and very comprehensive 
legislation--it is really I think a watershed of change in 
terms of how we as a Nation address these issues while 
providing a level of important child protections and continuing 
to feed the people of this country.
    We are on track. It is not easy. It has not been easy. It 
will not be easy but in terms of what Congress asked us to do--
for example, we were told by Congress to go back and review all 
of the existing tolerances. There are 9,000 tolerances--in 
other words, how much of this pesticide can be used on this 
food product. There are 9,000 on the book. We have to have one-
third of them done by August of this year and we will make it.
    What is happening thus far is of the ones we have reviewed, 
we've completed about 2,300 of the 3,000 we will need to have 
done. Approximately one-third of them have been revoked. We 
have worked with the manufacturers, we have worked with the 
grower groups and we have reached a decision that particular 
use on that particular crop was not within the risk range and 
they have been revoked.
    Senator Boxer. Will you keep me informed because I don't 
want to overdo the patience of my leader.
    Ms. Browner. Yes.
    Senator Boxer. Thank you very much, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    We've got a difference in the cost of the Better American 
bonds. It's my understanding from the Treasury Department and 
CRS that you gave us a figure of up to 5 years or something, 
whatever it was?
    Ms. Browner. Right.
    Senator Chafee. It's my understanding the total cost is $6 
billion for this program. That's a Treasury figure and we can 
tell you where we got it from and then you can tell us where 
you think it's different.
    Ms. Browner. As I understand, Mr. Chairman, we did get this 
number from Treasury, it is carried in their budget documents, 
the scored figure for the 5 years that we all score our numbers 
over in the budget, it is $700 million over the 5 years.
    You are correct, and I don't know what the number is, that 
these are 15-year bonds and the interest, the tax credit 
remains available obviously for the life of the bond. So there 
are costs beyond the fifth year, but in terms of the 5-year 
scoring, this has been scored by Treasury at $700 million over 
the first 5 years.
    Senator Chafee. I don't want to beat this to death but it 
seems to me that many won't even be issued in the first 5 
years?
    Ms. Browner. In fact, we worked with Treasury because of 
our concern with respect to that and while they do cap it at 
$1.9 billion in bonding authority a year, if we do not issue 
all of the tax credits for the $1.9 billion in the first year, 
we can move them into the second and third year, so there is a 
mechanism precisely because of that concern.
    Senator Chafee. As I mentioned in the start of this, the 
mere idea of my questioning this is unusual because it's the 
kind of program--when I was Governor, we started a green acres 
program and at that time, we did receive some Federal funds--
I've forgotten where the source was. It might have been the 
Land and Water Conservation Fund. Whether it goes back that 
far, I don't know.
    In any event, this is a subject that's dear to my heart but 
I must say three things do bother me--No. 1, the cost of it; 
No. 2, if we're not just duplicating another program; and No. 
3, you've made quite a point about this is local, there are no 
Federal requirements here, but it's EPA that approves the 
projects, as I understand it. So that's a pretty big power 
right there. In other words, it's not a local decision whether 
we'll get Better America bonds, it's you that will decide it.
    Ms. Browner. But it's a local decision whether or not to 
apply, no one is required.
    Senator Chafee. That's right but the decision of whether 
Sacramento or Pawtucket, RI or Greenville, NC gets it is 
determined by you folks?
    Ms. Browner. I'll be honest with you.
    Senator Chafee. I hope you'll always be honest with me.
    [Laughter.]
    Ms. Browner. I'm going to get in trouble for this, I am 
sure, but I would obviously like a program that could service 
the needs of every community who made this choice. Within a 
balanced budget, caps are put on programs and when you do that, 
you do need to run a competitive process.
    My sense is there are lots and lots of communities out 
there that the benefit of that interest, not having to make 
that interest payment is a lot to them. They're stretching 
every penny to make these programs work and that's quite 
important to them.
    Senator Chafee. Now, let's shift gears here and you might 
want Mr. Perciasepe's assist but you call on anyone you want.
    This is a chart that's provided during the recent briefings 
on the Clean Water Act. It's an EPA chart. It shows the permit 
backlog under the Clean Water Act. Can you see it?
    Ms. Browner. Yes.
    Senator Chafee. Some of these permits are issued by EPA and 
when they expire, there is a new application and either the 
State or EPA reissues the permit, quite often with tighter 
allowable discharges than previously.
    What this chart does is show the percentage of permits that 
have been reissued. We've divided it into two groups, the minor 
being the green and the major being the brown. Can you 
designate which is green and which is brown?
    Ms. Browner. Yes.
    Senator Chafee. This shows the percentage that have expired 
and not been reissued. So the States are doing a pretty good 
job, but fully 85 percent of the EPA-issued permits have 
expired and are waiting renewal. This is a serious problem. 
What do you have to say about that?
    Ms. Browner. Let's make sure we all agree. This chart 
reflects water permits, the NPDES permits that are issued under 
the Clean Water Act.
    Senator Chafee. Correct.
    Ms. Browner. We have recognized this as a major weakness 
under the Federal Management and Financial Integrity Act in 
FEAA.
    It's by no means an excuse but one of the things I have 
worked really hard to do in 6 years is to get the States to run 
this permitting program. We are now up to 42 States who are 
actually running this program as opposed to EPA running the 
permitting side of it.
    When I came from Florida, we didn't have it. We had not yet 
taken steps as a State to take control of this program at the 
State level, so we're doing much, much better.
    As you can see, EPA is still responsible for more of the 
permits than the States and if we could get to all 50 States, 
assuming day-to-day permitting authority, that I think would 
help to deal with the backlog but we do recognize and we are 
seeking increased funding, $10 million in the fiscal year 2000 
budget, to help address this problem. We agree it's a problem.
    Senator Chafee. What strikes me as odd is that you've come 
in with a 23 percent reduction in your funding request for the 
water program and then we've got problems like this. I just 
have trouble understanding why you're requesting less money 
when you've got these problems out there.
    Ms. Browner. It's two different programs, Senator. This is 
a permit program, this is not the revolving fund program within 
the permit program. Within the clean water, day-to-day work not 
the revolving loan fund, we are requesting an increase, $11 
million specifically, to address this problem.
    The fund that you're speaking to is the State Revolving 
Fund and it's come up several times, but we made a commitment 
to fully fund a $2 billion revolving amount in the 50 States by 
the year 2002. We will hit that now because of our funding 
increases over the last several years this year. We will be 
revolving at $2 billion. States will be loaning out $2 billion. 
That is why you see that adjustment in that account, because we 
are honoring a very significant commitment and we are doing it 
earlier.
    Senator Chafee. All right. Again, I'd like to echo the 
point made here about the Better America Bonds. It seems to me 
you've got to establish some kind of criteria, some kind of 
formula to determine why you send the money or why you give 
approval to Idaho versus Florida or wherever it might be. So I 
would urge you to try to get some criteria organized for this 
program.
    I don't know how the program will fare. I suppose others 
will have concerns that I have that we're not using the Land 
and Water Conservation Fund, but maybe there's an explanation 
that I haven't yet become convinced of.
    Thank you for coming and we'll be in touch with you. If you 
can work with Senator Thomas, I'd appreciate it.
    Ms. Browner. We will certainly do that. If I might say, Mr. 
Chairman, Better America Bonds is a new idea, it is a new tool 
for local governments and States. We want to work with you. We 
want to design something that really does make sense. You, 
coming from State government, probably know far better than we. 
Each of the States have adopted different programs. We don't 
want to micromanage, we don't want to judge that. We simply 
want to provide some resources and we would like to work with 
you to structure something.
    Senator Chafee. I like the concept. As I said, for me to 
even be questioning it is odd because it espouses the kind of 
program that I've been for and have spent a lot of time on over 
the years in our State, not only in the city I come from where 
my son happens to be the mayor, where they came up with a bond 
issue for open space, the State had a bond issue for open space 
and both passed by 70 percent. It's very, very popular. It 
isn't elitist--the inner city votes for it just as strongly as 
the suburban areas but it does bear examination as to whether 
we're getting into something that is duplicative.
    Thank you very much.
    [Whereupon, at 11:29 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Bob Smith, U.S. Senator From the State of 
                             New Hampshire
    Thank you Mr. Chairman and welcome, Administrator Browner. I will 
be brief.
    I'm pleased to see Ms. Browner and her team here this morning. We 
have several unfinished pieces of business left over from the last 
Congress, and I am looking forward to making progress on those fronts.
    I have also been interested to see press reports indicating that 
EPA views the Superfund program as in a ``ramp down'' mode. that view 
is also reflected in the budget request for the Superfund program, 
which is some 30 percent less than the fiscal year 1999 budget request.
    I will be exploring these issues further in my questioning, and 
look forward to Ms. Browner's testimony.
    Thank you.
                                 ______
                                 
    Prepared Statement of Hon. Barbara Boxer, U.S. Senator From the 
                          State of California
    I am very pleased to welcome you Administrator Browner to the 
committee today, and look forward to hearing your testimony on the 
President's proposed $7.2 billion budget for the Environmental 
Protection Agency (EPA). Balancing the financial demands of bringing 
Americans cleaner air, cleaner water, a safer food supply, and stronger 
environmental protection for our children, is a difficult task. This 
budget reflects a good balance among these competing demands, and I 
thank you for your work to achieve that balance.
    I am particularly pleased to see reflected in this budget the 
recognition that many of the best ideas about how to protect the 
environment are formed in local communities throughout the Nation.
    In so many parts of the country, local communities have identified 
lands they would like to preserve, parks they want to expand, and 
suburban development they want to control. The record number of ballot 
initiatives directed to these purposes throughout the Nation in this 
last election is a strong expression of the importance of these issues 
in people's everyday lives. In Ventura County, California, for example, 
citizens overwhelmingly supported a ballot initiative providing that 
agricultural and rural lands outside the city boundaries could not be 
developed until the year 2020. Development after that point may only 
take place if approved directly by voters.
    As I understand it, the Administration's proposed Better America 
Bonds program would help our communities finance the open space 
preservation, wetland restoration, park expansion and other related 
projects that are often the subject of these initiatives.
    That is a great idea.
    As work on the proposal moves forward and authorizing legislation 
is prepared, I will be particularly interested in finding a mechanism 
that would ensure that Better America Bonds program funding would be 
directed to the most environmentally beneficially projects.
    I was also pleased to see the Administration provide for a $17.4 
million increase in funding to tackle childhood asthma. The dramatic 
increase in asthma rates among children is staggering. The incidence of 
asthma in children under the age of five has increased 160 percent from 
1980 to 1994. Approximately 150,000 children are hospitalized each year 
from asthma, making it the leading cause of hospitalization of children 
due to chronic illness. The Administration's increase in funding for 
asthma programs is desperately needed to help us gain control over a 
problem that affects so many of our children.
    As you move forward to implement new programs to protect children 
from pollution, however, I am concerned that EPA may not be fully 
implementing existing authority in this area.
    In particular, many constituents have told me that EPA is not 
consistently following the mandate in the Food Quality Protection Act 
(FQPA) to set pesticide tolerances in a way which protects children. 
The recent study by Consumer's Union indicating that fruits and 
vegetables often contain pesticide residues that are unsafe for 
children would seem to confirm this concern.
    I was a strong supporter of the FQPA children's health provision 
when the bill moved through the Senate. And, as you know, my own 
Children's Environmental Protection Act (CEPA), which I will 
reintroduce shortly, would expand the application of that provision to 
require that all standards EPA establishes under our environmental laws 
protect children. EPA's implementation of the FQPA children's health 
provision, as one of the first of its kind, may well set the standard 
for how a broader standard such as the one embodied in CEPA would be 
implemented.
    Given that, I am keenly interested to learn how the Agency has been 
implementing this FQPA provision. I have questions on this subject I 
will submit for the record.
    Finally, I once again urge you to craft a national solution that 
will protect our drinking water from contamination by the fuel additive 
methyl tertiary butyl ether (MTBE). As you know, MTBE contamination of 
drinking water continues to be a serious problem in California. Just 
last month, Lake Tahoe closed its 13th drinking water well due to MTBE 
contamination.
    Due to the drinking water threats posed by MTBE, California has 
been actively pursuing a solution to the MTBE problem. I would like to 
call to your attention a number of recent California studies addressing 
this problem.
    First, in November 1998, the University of California released a 
study evaluating the health and environmental effects of MTBE. It 
concluded that MTBE should be phased-out of use. Second, in October 
1998, the California Energy Commission released a study evaluating the 
economic and gasoline supply effects of a 3- to 6-year phaseout of 
MTBE. It concluded that a 3- to 6-year phaseout would be feasible.
    I understand that you have established a panel of experts that will 
report to you by July 31, 1999, whether MTBE use should continue. I 
thank you for that action. I hope the panel will evaluate these two 
recent California MTBE studies. I also understand that your Office of 
Research and Development (ORD) will establish a pilot program in 
California to identify new treatment technologies to clean up drinking 
water contaminated with MTBE.
    I am particularly interested to learn from the panel and from your 
ORD whether a drinking water standard for MTBE, combined with a cost-
effective treatment technology, together could effectively protect our 
drinking water supplies from MTBE.
    Once again, thank you for presenting the Administration's budget 
request today. As always, I look forward to working with you in the 
year ahead to bring Americans a cleaner, safer environment.
                                 ______
                                 
      Prepared Statement of Hon. Carol M. Browner, Administrator, 
                    Environmental Protection Agency
    Mr. Chairman and members of the committee, I am very pleased to be 
here today to present the President's Fiscal Year 2000 Budget Request 
for the Environmental Protection Agency. Our $7.2 billion request 
continues the President's efforts to protect public health and the 
environment and provides States and communities with new, innovative 
funding tools to help build strong, healthy communities for the 21st 
century.
    I would like to begin by thanking you, Mr. Chairman, and all the 
members of this distinguished committee for your support over these 
past few years. You have done a great deal to create a productive 
working relationship with the Environmental Protection Agency. With 
your leadership, we have been able to work together toward our mutual 
goal of protecting public health and the environment. And our 
achievements are truly impressive. To cite just a few examples:
    This year, as a result of your work on the Safe Drinking Water 
Amendments of 1996, we estimate that 88 percent of the American 
population will receive drinking water from community water systems 
that meet all health-based standards in effect since 1994.
    Because of the support of this committee, and particularly the 
actions of Senator Bond, we have made significant progress on many of 
the 111 key action items in the Clean Water Action Plan and will soon 
announce a joint strategy with USDA to protect waterways from non-point 
source pollution from animal feeding operations.
    Today, because of the Clean Water State Revolving Fund and 
Construction Grants programs authorized by this committee, more than 
176 million Americans receive the benefit of at least secondary 
treatment of wastewater, keeping pollution out of our rivers, lakes and 
coastlines.
    585 Superfund toxic waste sites have been cleaned up, as of the end 
of 1998, and an additional 85 construction completions will occur in 
1999. Two-hundred tweny-seven communities have benefited from more than 
$44 million in grants to revitalize Brownfields--again, thanks to this 
committee.
    Approximately 164 million Americans are breathing cleaner air 
today, because of the work and wisdom of this committee when it passed 
the Clean Air Act.
    I also want to acknowledge the committee for your continued efforts 
to forestall attempts to limit our ability to do our job. I look 
forward to what we can achieve with your continued cooperation.
    Our Fiscal Year 2000 Budget, in the tradition of every previous 
budget submitted by this Administration, is based on what the President 
and Vice President have proven time and time again--the environment and 
the economy go hand in hand. They are inextricably linked.
    Today, we have some of the toughest environmental and public health 
protections in the world, and our economy is not only strong, it is 
soaring. In 1992, this Nation had a record high $290 billion deficit. 
This year, we expect a $79 billion budget surplus. That's progress.
    Building on this record of success, the Clinton-Gore 2000 budget 
charts a new course to meet the environmental challenges of the coming 
century. This budget recognizes that protecting our environment is 
about more than beautiful vistas and scenic rivers, and it's about more 
than passing new environmental and public health laws.
    This budget reflects a new American ideal. It's about 
neighborhoods, protecting where we live and how we live, and what we do 
in the everyday life. It's about communities--and how we keep them 
healthy, strong, and prosperous. It's about improving the quality of 
our lives.
    Three new landmark initiatives in this budget reflect President 
Clinton's and Vice President Gore's commitment to America's 
communities. These initiatives provide significant new, innovative 
financial tools to give communities the flexibility they need to 
address their most pressing environmental and public health needs. They 
tap into our nation's greatest resources--our ingenuity and spirit of 
collaboration. They protect our most precious resource first--our 
children.
    The Better America Bonds program puts the Agency in the forefront 
of support for the President's and the Vice President's creative 
initiative to build livable American communities. This new, innovative, 
financial tool is aimed at helping communities address problems 
associated with urban sprawl--such as, traffic congestion, lost 
farmland, threatened water quality, shrinking parkland and abandoned 
industrial sites, or Brownfields. This is about flexibility. 
Communities can decide for themselves how they will preserve their open 
spaces, protect their water, revitalize their blighted urban areas, and 
improve their quality of life. The Administration proposes Federal tax 
credits that will support $9.5 billion in bond authority over 5 years 
for investments by state, local and tribal governments. I urge you to 
give local communities this flexibility to address their most urgent 
environmental needs.
    The President's budget includes $200 million for a new Clean Air 
Partnership Fund--an initiative that is part of the Administration's 
efforts to clean the Nation's air and meet the challenge of global 
warming. The Clean Air Partnership Fund will promote innovative 
technology demonstrations to help communities nationwide reduce harmful 
air pollution and greenhouse gases. The Fund finances, through grants, 
the creation of partnerships among local communities, States and tribes 
and the private sector and the Federal Government. These partnerships 
are designed to finance projects that are locally managed and self-
supporting and enable communities to achieve their clean air goals 
sooner. The Fund will stimulate cost-effective pollution control 
strategies, spur technological innovation, and leverage substantial 
non-Federal investment in improved air quality.
    The Agency will take a leadership role as part of an 
Administration-wide effort to fight childhood asthma and address this 
growing problem. President Clinton has provided an additional $17 
million, for a total of $22 million, to reduce children's exposure to 
toxins in our environment that can exacerbate asthma. The money will 
implement an inter-agency initiative for education, outreach and air 
monitoring. An additional $12 million, for a total of $40 million, 
focuses on other chronic childhood afflictions, such as cancer and 
developmental disorders. EPA's investment to protect children from 
environmental threats totals $62 million.
    In addition to these three new initiatives, the President's budget 
also continues our work on the Nation's other environmental and public 
health priorities.
    Last year, the President announced a national blueprint to restore 
and protect our nation's rivers, lakes, and coastal waters--and we made 
great progress. The President's budget allocates $651 million for the 
Clean Water Action Plan, and related activities, to continue our 
efforts to restore and protect watersheds across the country.
    Because polluted runoff is one of the most serious problems facing 
communities, the President proposes another important flexible funding 
mechanism--this one designed to help communities provide clean water. 
The President's proposal will allow States greater flexibility to 
address their most pressing water quality problems--polluted runoff 
from city streets, suburban lawns and rural areas. The proposal will 
give States for the first time the option to set aside up to 20 percent 
(or as much as $160 million) of their fiscal year 2000 Clean Water 
State Revolving Fund allotment for grants to implement non-point source 
pollution and estuary management projects. I look forward to working 
with Congress to implement this important, new funding mechanism.
    In addition, the President's budget provides a combined $1.625 
billion for the State revolving funds (SRF), of which $800 million 
funds the Clean Water SRF and $825 million funds the Drinking Water 
SRF. The Drinking Water SRF increases from last year, and will help 
achieve the Administration's goal of capitalizing the Drinking Water 
SRF until States can provide an average of $500 million in annual 
financial assistance for drinking water projects. The Clean Water SRF 
request is part of the Administration's overall capitalization plan to 
ensure States can provide an average of $2 billion a year in financial 
assistance for water quality projects. We plan to continue 
capitalization of the Clean Water SRF until this goal is met, and I 
would like to note that almost $16 billion in Federal capitalization 
grants have been provided so far to the Clean Water SRF, or almost 90 
percent more than originally authorized.
    The President's budget invests approximately $216 million at EPA, 
and $1.8 billion governmentwide, to help reduce the pollution that 
causes global warming. This program will continue the Administration's 
efforts to address the challenge of climate change through innovative, 
cost-effective partnerships with businesses, schools, States and local 
governments that voluntarily lower energy use--and energy bills, for 
everyone. The Climate Change Technology Initiative proposed by the 
President this year also offers tax credits for consumers who purchase 
fuel efficient cars, homes, appliances and other energy-efficient 
products. It also includes increased spending on research to develop 
new, cleaner technologies in areas like the Partnership for a New 
Generation of Vehicles and the Partnership for Advancing Technology in 
Housing.
    The President's budget invests $1.5 billion in Superfund to 
continue cleanup of toxic waste sites. The Agency plans to complete 
clean up construction at 85 sites for a total of 755 construction 
completions by the end of 2000, with a target of 925 through 2002. The 
Budget also invests approximately $92 million in the clean up and 
redevelopment of abandoned industrial sites through our Brownfields 
Program, including $35 million for the Brownfields Revolving Loan Fund 
which helps communities leverage funds for actual cleanup of Brownfield 
sites. Through 2000, the Agency will have funded Brownfields site 
assessment pilots in 350 communities across our great nation.
    Of special importance in this budget proposal is our request to 
increase the Agency's Operating Programs by 5 percent over the fiscal 
year 1999 Enacted level. This budget provides $3.7 billion for the 
Operating Programs, which include most of the Agency's research, 
regulatory and enforcement programs and funds our partnership programs 
with states, tribes, and local governments. The Operating Programs, 
which have grown 33 percent during this Administration, represent the 
backbone of the nation's efforts to protect public health and the 
environment through sound science, standard setting, and enforcement. 
It is through these programs that the Agency works to ensure that our 
water is pure, our air is clean and our food is safe. I cannot 
emphasize enough the important contribution the Operating Programs make 
to the Agency's ability to meet the expectations of the American public 
for a safe, healthy environment.
    As part of these important Operating Programs, the President 
requests $19 million for the Chemical Right-To-Know Program. This 
includes $14.4 million to focus on accelerating the screening and 
testing of the 2,800 highest production volume chemicals used in the 
United States. We will conduct this initiative through a voluntary 
industry challenge program and a series of test rules for those data 
not obtained through the voluntary program. Information on these 
chemicals, many that we use daily in virtually every aspect of our 
lives, will be broadly disseminated to the public. The President's 
budget also provides $18 million for Environmental Monitoring for 
Public Access and Community Tracking (EMPACT) to provide citizens with 
access to real-time information about the health of the air, land and 
water in their communities.
    The President's budget supports sound science with $681 million for 
developing and applying the best available science for addressing 
current and future environmental hazards, as well as new approaches 
toward improving environmental protection. The Agency will focus its 
research efforts on areas such as Particulate Matter, Global Change, 
Mercury and the Coastal Research Initiative.
    The Air Toxics program increases by almost $18 million in new 
funding, for a total of approximately $109 million. This program will 
focus on urban air toxics to develop tools and data that will move the 
air toxics program from an almost exclusively technology-based program 
to a risk-based program. The program is geared to reduce risks for poor 
and minority groups, who are more prevalent in urban areas, and will 
increase protection to a larger number of more sensitive populations, 
such as children and the elderly.
    The budget request for the Mexican Border is $100 million, a $50 
million increase, for projects there. The Agency will use these 
resources for direct grant assistance intended to address the 
environmental and public health problems associated with untreated 
industrial and municipal sewage on the border.
    These are the highlights of our Fiscal Year 2000 Request. I look 
forward to discussing with you, as the year progresses, these 
initiatives and innovative financing mechanisms. I would be happy to 
answer your questions at this time.
                                 ______
                                 
    Responses by Administrator Browner to Additional Questions From 
                         Senator John H. Chafee
                        safe drinking water act
    Question 1a. Do you disagree with the National Drinking Water 
Advisory Council assessment and recommendation to request the full 
authorized amount for the research program? Considering that the Safe 
Drinking Water Act requires the issuance of new standards for a 
substantial number of contaminants within the next several years, what 
is your justification for the proposed reduction in funding?
    Response. EPA's investment in drinking water research, which has 
grown from a level of $20.8 million in fiscal year 1995 to $41.5 
million in fiscal year 2000, has enabled the Agency to improve the 
science and provide new data in support of all priority Safe Drinking 
Water Act rulemakings and risk management decisions required to date. 
The discontinuation of funding for fiscal year 1999 Congressional 
earmarks in the fiscal year 2000 request accounts for a decrease of 
$7.6 million from the fiscal year 1999 enacted level. When this is 
taken into account, the fiscal year 2000 budget request for drinking 
water research actually shows an increase of $1.4 million over the 
fiscal year 1999 enacted level. In the process of planning research 
activities and identifying resource needs for fiscal year 2000 during 
the planning cycle, EPA determined that the funding level reflected in 
the fiscal year 2000 President's request would allow the Agency to 
continue to provide the necessary scientific data and technologies 
required to meet future sound science requirements of the Safe Drinking 
Water Act. EPA is now conducting an intensive, comprehensive evaluation 
of research needed to support the wide range of regulatory activities 
facing the Agency over the next 5 years (e.g., Stage 2 Disinfection By-
Product Rule, Long-Term Enhanced Surface Water Treatment rule, 
Contaminant Candidate List, and the reevaluation of existing national 
primary drinking water standards). This comprehensive evaluation will 
inform the Agency's future budget requests.

    Question 1b. If Congress were to fund drinking water research at 
the level recommended by the President, how would you address the 
concerns raised by the National Drinking Water Advisory Council?
    Response. As indicated above, EPA is committed to ensuring that all 
upcoming drinking water regulations and risk management decisions are 
based on sound science. We believe that if Congress funds drinking 
water research at the level recommended by the President, we will be 
able to continue to develop the research products needed to meet this 
sound science requirement without missing statutory deadlines.

    Question 1c. What process is used to determine where the Office of 
Research and Development (ORD) places its resources within the drinking 
water portion of its budget? To what extent does the Office of Water 
determine the research priorities?
    Response. As part of the Agency's annual planning and budgeting 
process, ORD works with EPA's program and regional offices to allocate 
funds across various research programs. For example, ORD works with the 
Office of Water (OW) to help determine drinking (and other) water 
research priorities.
    The starting point in this process is input from many sources 
including:

    <bullet> EPA's Strategic Plan
    <bullet> ORD's Strategic Planning--ORD's Strategic Plan and peer-
reviewed Research Plans
    <bullet> Customer and User Needs--Input from EPA's Program and 
Regional Offices and Federal research partners
    <bullet> Outside Peer Advice--e.g., the NAS National Research 
Council, the EPA Science Advisory Board.

    This information is then used to develop annual research 
priorities.
    Research priorities are first set by media-specific Research 
Coordination Teams (RCTs), which include ORD and Program and Regional 
Office staff. For example, there is a Water RCT, which includes OW and 
ORD staff. The RCT recommendations are then reviewed and modified as 
appropriate by ORD's Executive Council and EPA's Research Coordinating 
Council (RCC) of Deputy Assistant Administrators from across the 
Agency. This review ensures that the media specific recommendations are 
adjusted as needed to address the highest research priorities across 
the Agency. The recommendations of the RCC then go to the Assistant 
Administrator for Research and Development who works to resolve any 
differences. These recommendations are subject to EPA-wide review 
during the Agency's planning and budgeting process, are submitted to 
OMB for review, and inform the Agency's request to Congress.

    Question 1d. If Congress enacts the research funding contained in 
the President's budget, spending on drinking water research only would 
be 7.8 percent of the total ORD budget. How does this compare with 
other areas of research such as air, pesticides, water, hazardous 
wastes, toxic substances, etc. for fiscal year 2000? How does this 
compare with previous budget spending from fiscal year 1997 to fiscal 
year 1999?
    Response. Please see the attached tables.


------------------------------------------------------------------------
                                                        99
                                                     Pending    2000 PB<SUP>2</SUP>
 EPA's Office of Research and Development Budget<SUP>1</SUP>    Enacted      [in
                                                       [in      percent]
                                                     percent]
------------------------------------------------------------------------
Goal 1 Clean Air (PM, Air Toxics, and Trop.
 Ozone):
  Goal 1 compared to Total ORD Resources..........      17.0%      16.8%
Goal 2 Clean Water (Water Quality):
  Goal 2 compared to Total ORD Resources..........       13.5       13.1
  Goal 2 Drinking Water Research compared to Total        8.5        7.8
   ORD Research:..................................
Goal 3 Safe Food:
  Goal 3 compared to Total ORD Resources..........        1.1        1.2
Goal 4 Safe Communities:
  Goal 4 compared to Total ORD Resources..........        2.5        2.1
Goal 5 Waste (Includes Superfund Research):
  Goal 5 compared to Total ORD Resources..........        9.8        9.1
Goal 6 Global Change:
  Goal 6 compared to Total ORD Resources..........        3.0        4.3
Goal 7 Empowering People:
  Goal 7 compared to Total ORD Resources..........        2.0        2.4
Goal 8 Sound Science<SUP>3</SUP>:
  8.1. Ecosystem Research compared to Total ORD          19.8       22.2
   Resources......................................
  8.2. Human Health Research compared to Total ORD        9.0       10.5
   Resources......................................
  8.3. Emerging Risks Research compared to Total          8.8        7.9
   ORD Resources..................................
  8.4. P2 and New Technology for Environment             13.5       10.4
   Protection compared to Total ORD Resources.....
                                                   ---------------------
    Total ORD Resources...........................       $562       $535
------------------------------------------------------------------------
<SUP>1</SUP> Beginning in 1999, EPA began operating under its new budget structure
  designed along GPRA principles.
<SUP>2</SUP> Funding for fiscal year 1999 Congressional earmarks is not continued
  in the fiscal year 2000 President's Budget.
<SUP>3</SUP> Resources in Goal 8 directly and indirectly support other goals.



----------------------------------------------------------------------------------------------------------------
                                                               95         96         96         97         98
                                                            Enacted    Enacted    Enacted    Enacted    Enacted
    EPA's Office of Research and Development Budget <SUP>1</SUP>         [in        [in        [in        [in        [in
                                                            percent]   dollars]   percent]   percent]   percent]
----------------------------------------------------------------------------------------------------------------
Drinking Water Research..................................       3.9%      $23.2       5.0%        7.9       7.0%
Air Quality Research.....................................       14.4       72.5       15.6       13.8       16.8
Acid Deposition Research.................................        0.4        0.0        0.0        0.0        0.0
Water Quality Research...................................        4.2       21.3        4.6        4.9        6.0
Hazardous Waste Research.................................        4.9       21.2        4.6        3.0        2.6
Toxic Substance Research.................................        3.3       14.4        3.1        2.3        2.2
Pesticides Research......................................        2.5       12.1        2.6        3.8        5.6
Multimedia Research......................................       37.7      186.1       40.0       36.7       35.4
Global Change Research...................................        4.3       21.0        4.5        2.8        2.5
Oil Spills...............................................        0.3        1.3        0.3        0.2        0.2
Lust Trust Fund..........................................        0.1        0.6        0.1        0.1        0.1
Superfund................................................       12.2       28.2        6.1        6.9        6.8
Hazardous Spill & Site Remediation.......................        0.0        7.0        1.5        0.0        0.0
Lab, Field, & HQ expenses and some payroll...............       11.8       56.6       12.2       17.6       14.8
                                                          ------------------------------------------------------
  Total ORD Resources (In million) <SUP>2</SUP>.....................     $538.8     $465.5     $465.5     $503.9     $574.5
----------------------------------------------------------------------------------------------------------------
<SUP>1</SUP> This table represents EPA's program element budget structure. Beginning in fiscal year 1999, EPA began
  operating under its new budget structure designed along GPRA principles.
<SUP>2</SUP> These totals include funding for Congressional earmarks at the following levels: fiscal year 1995: $27.4
  million; fiscal year 1996: $27.8 million; fiscal year 1997: $20.7 million; and fiscal year 1998: $72.1M

                                 ______
                                 
    Question 2. The Drinking Water Strategic Needs Assessment Project 
developed by EPA's Office of Water provides an analysis of statutory 
requirements and the resources needed to meet priority Safe Drinking 
Water Act mandates. Most importantly, it identifies shortfalls in the 
program's funding and research to support the basic public health 
objectives in the Safe Drinking Water Act. Will you please identify the 
funding shortfalls identified by the Office of Water in the area of 
research and explain what EPA has done to address those areas?
    Response. [No response to question 2 was provided by EPA].

    Question 3. The Safe Drinking Water Act Amendments of 1996 require 
EPA to make a determination of whether or not to regulate at least 5 
contaminants from the contaminant candidate list in August 2001. I am 
concerned that without an adequate level of research the contaminants 
selected for regulation will not be regulated at an appropriate level 
to protect public health or even be the contaminants considered most 
harmful to the public. What is the level of research funding that has 
been attributed to those contaminants included on the contaminant 
candidate list since fiscal year 1997?
    Response. The final contaminant candidate list (CCL), published in 
the Federal Register in March 1998, divides the contaminants into three 
main categories: (l) regulatory determination priorities; (2) research 
priorities; and (3) occurrence priorities. The first set of five or 
more contaminants to be considered for regulation in August 2001 will 
be selected from the regulatory determination category. The 
contaminants in this category are considered to have sufficient data to 
evaluate the extent of exposure and risk to public health. This will 
enable EPA to make regulatory determinations in 2001 that are 
protective of public health and based on the best available scientific 
information.
    EPA began developing a comprehensive strategic research plan to 
address critical needs for chemical and microbial contaminants on the 
CCL after the publication of the list in 1998. Research on the health 
effects, treatment and analytical methods for CCL contaminants has not 
been delayed while the comprehensive plan is being developed. A number 
of priority CCL contaminants (e.g., MTBE, perchlorate, Norwalk virus) 
have been under investigation for several years, and general 
solicitations have been made under the Agency's external grants 
program. The fiscal year 2000 funding level of $6.0 million for CCL 
contaminants research represents the first major transition of 
resources within the drinking water research budget to address CCL 
research needs. This funding request will allow us to meet our August 
2001 requirements and to initiate some research projects that will be 
helpful for the August 2006 regulatory decisions.
                             climate change

    Question 1. Carbon Sequestration.--Of the $242.8 million requested 
for EPA's climate change activities in fiscal year 2000, $3.4 million 
is requested for ``carbon removal'' or carbon sequestration activities. 
This $3.4 million represents 1.4 percent of the overall request for 
climate activities at EPA in fiscal year 2000.
    A. Is this rather modest request truly representative of the 
importance of sequestration in the overall effort to address this 
potential climate change threat?
    B. Your budget justification indicates that this funding ``will 
allow EPA to develop incentives to increase carbon storage on 
agricultural and forest lands. . .'' Does this mean that EPA believes 
that we know enough scientifically about sequestration to go forward 
with additional projects?
    C. How is EPA coordinating this initiative with the Departments of 
Agriculture, Interior, and Commerce?
    D. The justification also states that, ``EPA will continue efforts 
to fully account for carbon sequestration in the U.S. greenhouse gas 
inventory to enable these activities to receive credit internationally 
. . .'' Specifically, what EPA activities will help to enable 
international crediting of domestic sequestration?

    [No responses to Questions 1a-1d were provided by EPA.]

    Question 2a. Potential Climate Change Impacts.--Assessing the 
consequences of global change and climate variability at a regional 
scale is identified in the budget justification as a top objective for 
the year 2000. How will EPA's assessment of potential climate change 
impacts be coordinated or consistent with the next report by the 
International Panel on Climate Change (IPCC)?
    Response. As part of the U.S. Global Change Research Program 
(USGCRP), EPA is making significant contributions to the ongoing U.S. 
National Assessment Process which is evaluating ``The Potential 
Consequences of Climate Change and Variability to the United States.'' 
(Section 106 of the Global Change Research Act of 1990 requires that 
assessments be conducted ``not less frequently than every 4 years.'') 
EPA is sponsoring the Mid-Atlantic Regional Assessment, the Great Lakes 
Regional Assessment, the Gulf Coast Regional Assessment, and the Health 
Sector Assessment. These assessments are being conducted through a 
public-private partnership that actively engages researchers from the 
academic community, decisionmakers, resource managers, and other 
affected stakeholders in the assessment process. The first National 
Assessment Report will be delivered to Congress in January 2000.
    The National Assessment is being timed to provide input into the 
Third Assessment Report of the IPCC which will be completed in 2001. 
The IPCC itself has been developing a regional focus and published a 
Special Report on regional impacts of climate change in 1997. This 
report, ``The Regional Impacts of Climate Change,'' contained a North 
American Regional Assessment. It is expected that the IPCC Third 
Assessment Report will also contain a North American Regional 
Assessment, and the first U.S. National Assessment Report will 
contribute significantly to the North American Regional Assessment in 
the IPCC Third Assessment Report. It is noteworthy that the U.S. 
National Assessment will provide extensive region-specific information 
on climate change impacts in the United States. In the National 
Assessment, the United States has been divided into 20 regions, in 
order to capture the ``regional texture'' and specificity of the 
potential consequences of climate change and climate variability. This 
regional detail for the United States may be reflected in the IPCC 
Third Assessment Report.
    In addition to its participation in the National Assessment 
process, EPA's Global Change Research Program is an assessment-oriented 
program, with primary emphasis on understanding the potential 
consequences of climate variability and change on human health, 
ecosystems, and socioeconomic systems in the United States. Assessments 
are also being made of potential opportunities to adapt to climate 
change in order to reduce the risks, or take advantage of the 
opportunities, presented by climate variability and change. EPA 
assessments are often consistent with IPCC assessments because climate 
models and scenarios that are reviewed by the IPCC are often used in 
EPA assessment activities. Also, EPA assessment activities are 
generally consistent with IPCC guidelines for conducting assessments. 
EPA researchers who are involved in this activity will actively 
participate as authors and reviewers of the IPCC Third Assessment 
Report.

    Question 2b. Will EPA's impacts assessment be peer reviewed by 
scientific experts from within and outside the government?
    Response. Both the USGCRP's National Assessment Process and EPA's 
research and assessment activities are founded on the principles of 
scientific excellence and openness. EPA and its Office of Research and 
Development (which includes the Global Change Research Program) both 
have written Standard Operating Procedures for peer review of all 
research and assessment products. All of EPA's impacts assessments 
undergo peer-review by scientific experts from within and outside the 
government. In addition, peer review comments on studies produced by 
EPA's Global Change Research Program, along with the responses to the 
peer review comments, are carefully documented.

    Question 3. Impediments to Voluntary Action.--The budget 
justification indicates that, ``EPA's climate change programs have 
reduced U.S. greenhouse gas emissions by 260 million tons of carbon 
dioxide equivalent and that for every dollar spent by EPA, we have 
received 2.5 tons of CO<INF>2</INF> reduced.'' If accurate, these are 
fairly encouraging numbers for a voluntary program. You will agree, 
however, that we must do better. What do you see as the largest 
impediments to additional voluntary actions by business, states, and 
localities?
    Response. EPA's technology deployment programs have demonstrated 
great cost-effectiveness. For every dollar spent by EPA, the deployment 
programs have reduced greenhouse gas emissions by 2.5 tons of carbon 
dioxide equivalent and delivered $70 in energy bill savings to 
consumers and organizations.
    These results demonstrate that climate protection and economic 
growth can go hand-in-hand. Overall program effectiveness is expected 
to improve over the next several years as well, because much of EPA's 
work to date has been devoted to program design and startup. EPA will 
be delivering more and more greenhouse gas reductions over the next 
several years. By the end of the year 2000, EPA's climate change 
programs are expected to have reduced U.S. greenhouse gas emissions by 
58 million metric tons of carbon dioxide equivalent.
    EPA's voluntary programs effectively help reshape the way energy-
using products are purchased and the way energy is managed in buildings 
and facilities by removing market barriers that impede organizations, 
businesses, governments and consumers from investing in ``energy-
efficient'' technology. With the additional $107 million over fiscal 
year 1999 funding requested in the fiscal year 2000 budget, these 
programs could deliver even greater results, helping more businesses, 
schools, hospitals, localities, and consumers make smart energy 
decisions (without the use of financial subsidies). Over 60 percent of 
this country's carbon emissions in the year 2010 will come from 
products purchased between now and then. EPA's programs help these 
equipment buyers choose the energy efficient solution, providing energy 
savings and pollution prevention.
    EPA's voluntary programs work to remove several of the most 
significant impediments to actions that increase the efficiency of 
energy use. One of the biggest barriers is lack of clear information 
about the value of energy-efficiency and the performance of products. 
Decisionmakers in the public and private sector as well as consumers do 
not have the information and tools that they need to make the smartest 
investments. For example, consumers often do not consider the savings 
from lower energy bills associated with buying more energy-efficient 
products. EPA's voluntary programs are providing clear, unbiased 
technical information to all sectors of the economy on the value of 
energy-efficient products and practices.
    Another very important impediment is limited access to capital, as 
financial lenders generally do not recognize the ``soundness'' of 
energy-efficiency. EPA's voluntary programs work with financial 
institutions to demonstrate the higher value and lower risks of energy-
efficient product purchases, and encourage lending institutions to 
offer more attractive financing packages for purchasing these products.
    Finally, a variety of ``split incentives'' exist between landlords 
and tenants as well as builders and buyers that limit the accessability 
of energy-efficiency products to certain buyers. Split incentives are 
present where one party has an opportunity to make an investment to 
produce net savings through energy efficiency, but such savings would 
be realized by another party, which removes the incentive for the first 
party to act. EPA's voluntary programs attempt to remove this barrier 
to action by providing opportunities for the same party to make the 
efficiency investment and reap the associated financial rewards of 
lower energy costs.
    EPA's voluntary programs will continue to focus on addressing these 
market impediments including the commercial real estate market and the 
new homes market. With the additional funding requested in the fiscal 
year 2000 Budget, these programs can deliver even greater environmental 
and financial benefits by focusing in areas such as the home 
improvement market, the industrial sector, as well as increasing 
penetration of combined heat and power systems in commercial, 
industrial, and institutional buildings.
                            clean water act
    Question 1a. State Revolving Fund Cut.--EPA estimates that the 
country faces $139 billion in infrastructure needs over the next 20 
years. According to the Association of Metropolitan Sewerage Agencies, 
90 percent of the funding burden for compliance with the Clean Water 
Act falls on local governments. Between 1986 and 1994, wastewater sewer 
rates increased 71.4 percent, more than double the rate of inflation. 
Despite substantial need and strong State support for the Clean Water 
State Revolving Loan Fund, EPA's budget proposal cuts SRF funding by 
$550 million, a 40 percent decrease from last year's enacted amount. 
What does EPA propose to do with the money it is diverting away from 
clean water SRF?
    Response. The Administration has submitted a budget for EPA that is 
consistent with the balanced budget agreement and that honors its long-
standing commitment to capitalize the Clean Water SRF at a level that 
will allow it to generate at least $2 billion in annual infrastructure 
assistance over the long-term. This substantial Agency investment, 
along with funding from other Federal sources such as the Department of 
Agriculture's Rural Utility Service and the Department of Housing and 
Urban Development, represents a significant complement to the annual 
clean water infrastructure investments being made by State and local 
governments.

    Question 1b. Does EPA feel that water quality has improved to such 
a degree that current commitments to clean and safe water are no longer 
warranted?
    Response. While significant improvements in water quality have been 
achieved, the Agency agrees that additional Federal investment is 
necessary to achieve clean and safe water for all Americans. Toward 
that end, the Agency, through its fiscal year 2000 budget request, is 
continuing to meet its long-standing commitment to capitalize the Clean 
Water State Revolving fund at a level that will allow it to provide at 
least $2 billion in annual financial assistance over the long-term. In 
addition, the Administration is proposing new flexibility that would 
allow States to better target SRF dollars to those projects that 
address their most significant sources of water quality impairment.
    It is also important to remember that while the State Revolving 
Fund is providing a substantial source of infrastructure investment 
over the long-term, it was always intended to be part of a broader 
package of investment that included funding from other Federal agencies 
(such as through the Department of Housing and Urban Development and 
the Department of Agriculture's Rural Utility Service) and State and 
local government investments.

    Question 2a. 20 percent SRF set-aside for non-point source 
grants.--In recognition of the need for greater effort in addressing 
nonpoint source pollution, EPA plans to withhold full section 319 grant 
funding from those States that fail to incorporate nine key elements 
into an approved section 319 nonpoint source management plan. EPA also 
has proposed to allow States to reserve up to 20 percent of their 
Federal capitalization grants to provide grants for nonpoint source and 
estuary restoration projects. Could you please assess the progress made 
under the section 319 program since the creation of the program in 
1987?
    Question 2b. Has there been a measurable improvement in terms of 
water quality and the number of water bodies coming into compliance 
with water quality standards due to section 319?
    Response. States have made significant progress since the creation 
of the Section 319 nonpoint source program in 1987. First, States have 
successfully demonstrated the effectiveness of a large number of 
technologies and approaches to solving nonpoint source problems. 
Second, they have solved nonpoint source problems and either achieved 
water quality standards or measurably improved water quality in a 
variety of settings. Third, they have improved public knowledge of 
nonpoint pollution and its solutions and involved numerous members of 
the public in volunteer monitoring and citizen restoration efforts. 
These and other successes are outlined in Section 319 Success Stories: 
Volume II (EPA, October 1997--copy attached).
    Despite this progress, nonpoint source pollution remains a 
significant contributor to water quality impairment. For this reason, 
EPA has been working with State water quality agencies to upgrade their 
nonpoint source programs to meet the key elements of effective 
programs. These elements include such critical steps as establishing 
clear long-term and short-term goals; engaging a broad set of public 
and private-sector partners to assist the State in implementing its 
program; and using an iterative approach with a mix of water-quality 
and technology-based approaches to achieve the State's program goals. 
In 1999, EPA asked and Congress provided increased Section 319 grant 
dollars to assist States in implementing their upgraded nonpoint source 
programs. EPA stated in the Clean Water Action Plan that increased 
Section 319 funds (all funding over $100 million) will only be provided 
to those States that have approved upgraded Section 319 programs 
starting in 2000. The Agency believes this will provide an incentive 
for States to upgrade their programs to include the nine key elements 
recommended by an advisory committee. In 2000, the Agency is also 
proposing to allow States to reserve up to 20 percent of their State 
Revolving Fund capitalization grants to implement their programs. These 
steps will increase the extent to which nonpoint source funding 
directly contributes to attainment of water quality standards.

    Question 3. Use of SRF for providing grants.--There are currently 
multiple programs which provide grants to address problems associated 
with nonpoint source pollution. Section 319 of the Clean Water Act, and 
the Department of Agriculture's Environmental Quality Incentives 
Program (EQIP) are examples of such programs. The intent of Congress in 
enacting the State Revolving Loan program under Title VI of the Clean 
Water Act was to create a self-perpetuating source of funding to ensure 
future resources for clean and safe water. Rather than attempting to 
implement a nonpoint source grant program through the State Revolving 
Loan Fund, would it not be simpler and more effective to increase 
funding to existing programs?
    Response. Rather than earmarking funds for nonpoint source 
projects, the Agency is advocating an approach that allows State 
Governors the flexibility to determine the appropriate mix of point and 
nonpoint source project funding. This proposal, which would allow a 
State to use up to 20 percent of their Clean Water SRF capitalization 
grant allotment to make grants for nonpoint source and estuary 
management projects, will allow substantial resources to be dedicated 
to these types of projects without requiring an increase in Agency 
budget authority. This approach recognizes that the relative need for 
different types of clean water projects varies from State to State. The 
proposal will also allow States to package grants and loans together 
for communities that might otherwise find a loan program unaffordable 
or inappropriate for the type of project being financed (e.g., one that 
does not generate a stream of revenue that could be used for loan 
repayment). Finally, the Agency believes that providing this type of 
flexibility within the SRF will promote a more integrated priority 
setting process in the State between point and nonpoint source 
candidate projects that will result in projects being financed that 
provide the greatest environmental benefit.
                               clean air
    Question 1a. Clean Air Partnership Fund.--The President has 
proposed the ``Clean Air Partnership Fund,'' a $200 million grant 
program divided between two EPA objectives: $66.7 million to ``reduce 
emissions of air toxics'' and $133.3 million to ``attain the NAAQS for 
ozone and particulate matter.''
    The Agency has stated that the money from the fund will be targeted 
toward ``multipollutant control strategies.'' But, since we do not know 
how the grants will be administered, the environmental benefits are not 
clear. For example, the EPA is planning to use the Fund to help achieve 
its air toxic reduction goals. But, if Statesdo not submit projects 
that target toxics, then the air toxics program is adversely impacted. 
What is the money in this Fund going to be used for?
    Response. The Clean Air Partnership Fund will be used to provide 
grants to local and State governments, tribes and multi-state 
organizations to demonstrate ways to reduce pollution. The Clean Air 
Partnership Fund will support research, development and demonstration 
projects that: (1) control multiple air pollution problems 
simultaneously; (2) leverage the original Federal funds; (3) facilitate 
meaningful public involvement; and (4) provide innovative approaches to 
air pollution control that could be replicated in other cities and 
states. For example, grants could be awarded for demonstration projects 
in the following areas:
    <bullet> Partnership funds could help provide startup capital for 
municipalities to establish programs to convert existing diesel fleets 
of school and transport buses to cleaner fuels.

    <bullet> Partnership funds could help local entities establish home 
energy efficiency investment loan funds. Cost savings could allow 
borrowers to repay loans and provide an ongoing source for future 
demonstrations. Reducing energy use in homes will demonstrate 
simultaneous reductions in local soot, smog and air toxics and 
greenhouse gas emissions.

    <bullet> Partnership funds could be used to demonstrate incentives 
for utilities to generate cleaner electricity. Increased use of 
combined heat and power and natural gas combined-cycle electricity 
generation will yield criteria pollutant, air toxic and greenhouse gas 
emission reductions.

    <bullet> Partnership funds could support local revolving loan funds 
to finance the demonstration of energy efficient retrofits for local 
and State agency buildings, public schools, hospitals and private 
industry. Energy efficient retrofits could provide integrated early 
reductions of air pollution. The cost savings realized from lower 
energy bills would allow borrowers to repay the loans and provide an 
ongoing source of funding for future innovative investments.

    <bullet> Partnership funds could help Statesand municipalities 
develop in demonstrating the use of tax credits for innovative air 
pollution control technology investments.

    <bullet> Partnership funds could be used to help stimulate demand 
for renewable sources of energy. Certain renewable energy sources such 
as fuel cells, photovoltaics, wind and geothermal provide ideal 
integrated air pollution control technologies.

    Question 1b. Please define ``innovative'' and ``optimal, multi-
pollutant control strategies.''
    Response. In the context of the Clean Air Partnership Fund, 
``innovative'' can generally be defined to refer to a new or different 
way to address air pollution control and prevention. The innovation may 
come in a variety of ways: the financial mechanisms used, the 
institutional or organizational arrangements established, or the 
technology developed or applied.
    In the context of the Clean Air Partnership Fund, ``optimal, multi-
pollutant control strategies'' can generally be defined as air 
pollution control and prevention strategies that address more than one 
air pollution problem simultaneously. To the degree that an air 
pollution control and prevention strategy is more successful than other 
strategies in addressing more than one air pollution problem 
simultaneously, then it is optimal.

    Question 1c. Why is it more prudent to spend $66 million on these 
grants rather than completing the Maximum Achievable Control Technology 
(MACT) regulations?
    Response. EPA is not planning on spending $66 million on the 
Partnership Fund instead of completing the MACT regulations. EPA 
intends to meets its statutory obligations and is exploring options to 
complete the MACT regulations by the MACT ``hammer date'' of May 15, 
2002.
    Our budget request for the Clean Air Partnership Fund represents 
EPA's and the Administration's judgment that there are critical State 
and local air quality protection programs that need funding at this 
level. Similarly, our air toxics budget request represents EPA's and 
the Administration's judgment on the appropriate level of funding for 
air toxics control that most effectively protects public health. For a 
discussion of EPA's air toxics budget request, please refer to our 
answer to Question 2 below.
    The Clean Air Partnership Fund will fund demonstrations that will 
result in reductions in all categories of air pollution, including air 
toxics. EPA is well aware of the significant needs on the local level 
to implement successful urban air toxics programs. New air toxic 
resources, including additional monitoring and more comprehensive 
modeling, will provide more information to local areas about the 
importance of developing strategies to reduce air toxics. We agree that 
the MACT program has been successful; the program remains a critical 
part of our national air toxics program. In fact, we are increasing our 
overall funding for air toxics and will continue to fund development of 
MACT regulations. We also believe that there is a need to develop and 
implement innovative local solutions to local urban air taxies issues. 
The Clean Air Partnership Fund provides such a mechanism.

    Question 1d. Will priority be given to nonattainment areas or 
specific geographic regions?
    Response. After the appropriation is enacted, EPA will develop and 
issue a Solicitation for Proposals and appropriate guidance containing 
all criteria by which grants under the Fund will be made. Certainly, a 
demonstration of air quality need will be one of those criteria and 
priority will be given to those proposals demonstrating specific needs. 
Attainment of the ambient air quality standards is certainly an 
important air quality goal and it is expected that this will be 
reflected in a meaningful way in the final selection criteria. At this 
time EPA does not intend to prioritize one specific geographic region 
over another independent of a consideration of a specific geographic 
region's needs.

    Question 2a. Air Toxics.--The overall funding for the toxics 
program is increasing but most of that increase is the $66 million in 
the proposed Clean Air Partnership Fund--a program that we know very 
little about. At the same time, funds for toxic emissions standards--
the MACT program--are being cut. The MACT program has been very 
successful. Toxic emissions have been cut by a million tons per year, 
and there has been excellent cooperation between Federal and State 
officials, industry representatives and environmentalists. So, it is 
unclear why the Administration wants to cut the MACT program when EPA 
is only about halfway through writing the rules required by the Clean 
Air Act, while also putting $200 million into the Clean Air Partnership 
Fund. When and how do you expect to complete the Clean Air Act-mandated 
MACT program to reduce toxic air pollution?
    Response. The MACT program, authorized by section 112(d) of the 
Clean Air Act, entails regulating approximately 174 different industry 
source categories split into 4 different ``bins'' over a 10-year time 
span. We are currently completing the 7-year bin of standards. The 10-
year or final bin contains 50 percent of all the source categories to 
be regulated under section 112(d), or as many as were required in the 
2-, 4- and 7-year bins combined. Our goal has been to complete all 
standards by November of 2000, the statutorily-mandated requirement. 
However, due to the sheer number of 10-year standards required, the 
remaining work to finalize some of the 7-year standards, and other 
statutorily-required air toxics activities, we recognize that we will 
not be able to finish all of these standards by 2000. We do intend to 
complete all 10-year standards by May 15, 2002, informally known as, 
the ``MACT hammer'' date. The hammer date refers to the requirement for 
a case-by-case technology standard for individual facilities if EPA 
does not set a standard within 18 months of the statutory date (see 
section 112(j) of the Act).

    Question 2b. Despite a 93 percent increase in the line-item for 
``reducing emissions of air toxics,'' why are funds for the MACT 
program being cut when the Agency has completed barely half of the 
mandated standards?
    Response. The President's fiscal year 2000 budget request does not 
reflect a cut in the MACT program. Total funding for the MACT program 
(covering standard development and implementation activities) was 
$20,610,000 for fiscal year 1999 and $20,660,000 is requested for 
fiscal year 2000.
    The President's budget request would increase funding for the air 
toxics program (apart from the Partnership Fund) by $18 million--from 
$91 to $109 million. The budget request reflects the large number of 
air toxics activities, including MACT standards, required by the Clean 
Air Act. These include: mobile source air toxics, the Great Waters 
program, the Urban Air Toxics program, the residual risk program, the 
Utility Air Toxics program, section 129 combustion standards and 
others. Fiscal year 2000 is a pivotal year in which a number of these 
activities are being completed under court-ordered deadlines. Many of 
these requirements are studies or strategies that will require further 
regulatory action.
    In order to adequately fund these programs and provide the 
appropriate regulatory tools to make decisions on these essentially 
risk-oriented requirements, we prioritized the MACT standards to focus 
our resources on the highest priorities and, as a consequence, defer 
action on less critical source categories. We plan to continue work on 
some of the deferred standards and to explore options to complete all 
standards by the hammer date.

    Question 2c. If we spend about $5 million over the budget request 
during the next 2 or 3 years, the remaining MACT work could be 
completed on time. Why couldn't we cut the Clean Air Partnership back 
to $195 million so EPA could meet its obligations under the law and 
complete a program that has worked quite well?
    Response. EPA intends to meet its statutory obligations and is 
exploring options to complete the MACT standards by the MACT ``hammer 
date'' of May 15, 2002. We believe our budget submission provides a 
balanced approach to moving toward completing the MACT standards, 
addressing our other statutory requirements such as the urban air 
toxics strategy, and achieving the goals of the Clean Air Partnership 
fund, which we have addressed in our response to your first question. 
Completing the MACT standards is not simply a matter of additional 
funding. We. are in the process of collecting data necessary to develop 
many of these standards, and will not have sufficient information to 
finalize certain rules before the end of next year. We intend to 
request adequate resources to ensure that we have sufficient 
information to propose and finalize these standards by 2002.
    Reducing air toxics emissions and public exposure is an important 
priority for the Agency. The President's budget request would increase 
funding for the air toxics program (apart from the Partnership Fund) by 
$18 million--from $91 to $109 million.
    MACT is an important method to reduce air toxics emissions. In 
addition to reducing emissions, we are very concerned about reducing 
the public health risks associated with increased exposure to toxic air 
pollutants--particularly in urban areas. As Congress required, we 
continue to reduce the emission of air toxics through the MACT program. 
We are on a parallel track to reduce exposure and associated risk, 
including focusing on reducing emissions of toxic air pollutants in 
urban areas.

    Question 3a. Particulate Matter Monitoring Network.--In 1997, when 
testifying in favor of EPA's proposed revision to the Particulate 
Matter air quality standards, Ms. Browner assured Congress that the EPA 
would bear the full cost of the new monitoring network needed to 
implement the regulation. In the subsequent budget, a portion of the 
monitoring grant money came from other State grant funds. States have 
asked EPA repeatedly to replace that money in order to make good on the 
Administrator's promise for full funding. The Administration claims 
that this budget restores the money taken from State grant funds and 
provides the final installment of funding for the new monitors. How 
much new money was added for monitors and how much money was restored 
to the State grant fund?
    Response. Our budget request for fiscal year 2000 includes $42.5 
million to complete the equipment purchase for the nationwide 
particulate monitoring network and pay the annual State and local costs 
for operating and maintaining the network. EPA provided State and local 
agencies with a total of $86.3 million for the particulate matter 
monitoring network in fiscal year 1998 and fiscal year 1999; of this 
total, $72.6 million was in ``new'' funds. We awarded all the funds for 
the particulate network using the authority of section 103 of the Clean 
Air Act. In addition to the $42.5 million for particulate matter 
monitoring, our fiscal year 2000 request also includes $13.7 million to 
address previous decreases in grant funds for continuing air programs 
and $3 million in new funds to purchase air taxies monitoring 
equipment. We will award these funds using the authority of section 105 
of the Act.

    Question 3b. Why has the section 105 funding only increased by 
$11.2 million if $13.7 million needs to be added to fully restore the 
money that was transferred from State programs?
    Response. In the fiscal year 2000 budget request, EPA restored the 
full $13.7 million to the section 105 grant program for continuing 
State and local air programs and added an additional $3 million for air 
toxics monitoring equipment. We did not, however, carry forward a one-
time Congressional earmark of $5.3 million, consistent with our general 
policy on Congressional earmarks. Therefore, the total net increase in 
105 grant funds from fiscal year 1999 to fiscal year 2000 is $11.4 
million. The funding changes between the fiscal year 1999 enacted 
budget and the fiscal year 2000 budget request are detailed below 
(dollars in 1000's):


------------------------------------------------------------------------
                                                                Total
                                   S. 103 Fund  S. 105 Fund     Grants
------------------------------------------------------------------------
Fiscal year 1999 enacted level...    $50,700.0   $144,833.0   $195,533.0
Minus Congressional earmark......  ...........    -$5,343.0    -$5,343.0
Minus S. 103 funding to reflect      -$8,200.0  ...........    -$8,200.0
 anticipated completion of
 monitor purchases...............
New funds for toxics monitors....  ...........    +$3,000.0    +$3,000.0
New funds for restoring S. 105...  ...........   +$13,700.0   +$13,700.0
Fiscal year 2000 grant funding...    $42,500.0   $156,190.0   $198,690.0
------------------------------------------------------------------------

    Question 3c. Will this be enough money to ensure that the 
monitoring network is fully installed and operational by the end of 
this year as scheduled?
    Response. Yes. The funding in this budget is sufficient to provide 
for completing the instrumentation of the network, as well as the 
annual operation and maintenance costs for the network. The network 
will be fully sited by the end of this fiscal year and, with the 
funding requested in this budget, will be fully instrumented in the 
first quarter of fiscal year 2000, allowing for the network to be 
completely operational at the beginning of calendar 2000.

    Question 4. Regional Haze.--When the committee held a hearing on 
the proposed regional haze rule last year, one of the concerns 
expressed by States was about multi-state planning organizations. 
States sought assurance that they would receive technical and financial 
assistance similar to the assistance EPA provided Western States in 
planning how to meet the requirements of the regional haze (visibility) 
rule. EPA assured Members that multi-state planning was essential to 
the success of the regional haze rule and that such assistance would be 
made available. The EPA budget states that EPA will ``ensure that air 
quality planning and related Federal, tribal, State and local planning 
are coordinated.'' Does this refer to EPA's commitment to assist multi-
state visibility planning organizations?
    Response. Yes, in fact EPA has recently initiated discussions with 
State Environmental Commissioners about the establishment of Regional 
Planning Organizations (RPOs). The EPA envisions these organizations as 
providing a forum for the multi-state planning that EPA believes is 
necessary to successfully implement a regional haze program. EPA 
expects that these organizations also will provide a forum for the 
integration of the planning for the implementation of the PM-fine NAAQS 
with planning for the implementation of a regional haze program. The 
initial phase of this discussion will focus on the geographic scope of 
the RPOs as well as the organizational aspects of establishing a 
regional planning organization.
    In asking for State input, EPA provided five criteria to assist 
States in formulating their recommendations. These include: (1) the 
extent of commissioner support for the establishment of RPOs; (2) the 
best way to ensure adequate protection of Class I areas, including 
consideration of the source and receptor areas, and transport patterns; 
(3) the means to ensure appropriate tribal involvement; (4) provision 
for balanced stakeholder involvement which includes states, tribes, 
industry, environmental and public interest groups, land managers, 
transportation and local planning organizations; and (5) any plans/
activities that States now have to support the integration of the fine 
particle standards and the regional haze rule.
    Following receipt of State input, EPA expects to work with States 
to establish mutually acceptable RPOs and to work with the RPOs to 
develop work plans which identify RPO outputs and schedules for 
delivery. Finally, EPA also intends to play an active role in each of 
these RPOs by participating in meetings and providing early and active 
feedback on the acceptability of technical and policy proposals under 
consideration by RPO.

    Question 4b. How much money is allocated in the budget to the 
support of such multi-state groups?
    Response. EPA currently provides direct funding to two multi-state 
groups, the Northeast Ozone Transport Commission ($350,000) and the 
Western Regional Air Partnership ($150,000). States also use Federal 
grant funds, as well as their own funds, to support several other 
multi-state groups.

    Question 4c. Why has nearly $9 million been cut from efforts to 
study regional approaches to haze?
    Response. In response to Congressional recommendations EPA targeted 
approximately $9 million in fiscal year 1999 to two regional haze 
efforts, (1) a one-time study of the Big Bend National Park and (2) 
State development of organizations and comprehensive work plans to 
address regional haze. The status of these two efforts is summarized 
below:
    <bullet> EPA provided the Big Bend Regional Aerosol and Visibility 
Observational (BRAVO) study $4 million for a 1999 summer study. 
Preliminary field work has already begun and the study will be 
completed in 1999.
    <bullet> The Agency also has made funding available in fiscal year 
1999 for the formation and implementation of regional planning 
organizations to address regional haze. Recently, EPA sent letters to 
all 50 State Environmental Commissioners asking for their input 
regarding the formation of such planning organizations, the States to 
be included in such regional groupings and points of contact. Upon the 
identification of these planning organizations, the Agency will provide 
initial funding to these groups for the development of work plans. 
Following review of the work plans, the Agency will award the remaining 
fiscal year 1999 funds to these organizations to commence regional 
planning activities. It is envisioned that the schedule of activities 
is such that the initial awards for work plan development will occur in 
the spring of 1999, with final awards occurring in the June-July 
timeframe. Fiscal year 1999 funds will carry these organizations 
through fiscal year 2000. The Agency will prepare a request for 
additional funding in fiscal year 2001 for the support of the regional 
planning organizations, based upon the funding needs identified through 
their work plans.
               resource conservation recovery act (rcra)
    Question 1a. Leaking Underground Storage Tank Program.--EPA's 
fiscal year 1999 Annual Plan Summary requested over $69 million to 
assist, among other things, in the cleanup of 22,000 leaking 
underground storage tanks. What were the total Federal expenditures for 
cleaning up underground storage tanks in fiscal year 1999?
    Response. The total LUST appropriation for EPA in fiscal year 1998 
was $65 million. The total obligated by the Agency in fiscal year 1998 
was $65 million. The total expenditures were $62 million.

    Question 1b. How many underground storage tanks were addressed 
(cleaned up, replaced, or closed)?
    Response. In fiscal year 1998, 24,950 cleanups were completed. As 
of December 22, 1998, EPA estimated that 65 percent of 850,000 (i.e., 
about 552,000) active tanks were in compliance with the 1998 deadline 
for upgrading, replacing, or closing tanks.


    Question 1c. EPA's fiscal year 2000 Budget request indicates that 
the Agency intends to assist in the cleanup of an additional 21,000 
leaking underground storage tanks and that, by the end of the year, 90 
percent of existing tanks will be in compliance with the requirements 
of RCRA Subtitle I. Even if EPA achieves its goal of remediating 21,000 
tanks this year, what is the basis for the Agency's assumption that 90 
percent of the existing leaking underground storage tanks will be in 
compliance?
    Response. The Agency's Underground Storage Tank Program is 
comprised of two parts: the Underground Storage Tank (UST) Program and 
the Leaking Underground Storage Tank (LUST) Program. The UST Program 
focuses primarily on preventing leaks from USTs by ensuring that UST's 
are managed properly and meet appropriate technical requirements. The 
LUST Program generally focuses on cleaning up leaks from tanks.
    The 90 percent compliance rates apply to the UST or prevention side 
of the program. It means that the Agency expects 90 percent of 
substandard tanks to be upgraded, replaced or closed to help prevent 
leaks. The goal of completing 21,000 cleanups refers to the LUST side 
of the Program and refers to cleaning up releases from tanks. 
Therefore, EPA does not have a goal of ``remediating 21,000 tanks'' but 
of remediating 21,000 releases from USTs.
    The UST program prevents, detects, and corrects leaks from USTs 
containing petroleum and hazardous substances. In fiscal year 2000, the 
Agency's goal is to promote and enforce compliance with the regulatory 
requirements aimed at preventing and detecting UST releases.
    The States are considered to be the primary enforcers of the UST 
program requirements. The Agency's assumption that 90 percent of the 
existing underground storage tanks will be in compliance by the end of 
fiscal year 2000 is based, in part, on the fact that many States have 
laws and enforcement tools that go well beyond those available to EPA. 
This includes the ``red tag'' laws in 19 States (see list below) which 
allow them to prevent delivery of fuel to noncompliant facilities. In 
addition, distributors in many other States have decided not to deliver 
fuel to non-complying facilities for liability reasons. These State 
enforcement tools will force increased compliance.
               states with delivery prohibition programs
Alaska
California
Georgia
Illinois
Iowa
Kansas
Louisiana
Massachusetts
Michigan
Minnesota
Montana
North Carolina
Oklahoma
Oregon
South Carolina
Utah
Vermont
Washington
Wisconsin

    While EPA expects that as more tanks are upgraded, replaced or 
closed, there will be fewer leaks, there are still approximately 
168,000 cleanups from historical releases that have yet to be 
completed. The goal of 21,000 completed cleanups refers to EPA's desire 
to assist States in completing cleanups for historical releases and new 
releases that will be discovered when owners and operators upgrade, 
replace or close their tanks as required by the 1998 regulatory 
deadline.

    Question 1d. What is EPA's current estimate of the number of 
underground storage tanks that have not complied with the December 
deadline? This summer, EPA estimated that there were at least 221,000 
underground storage tanks that would not comply with the December 22 
deadline. Other EPA estimates have been as high as 370,000 tanks. The 
fiscal year 2000 budget request, however, States that there is a 
backlog of 168,000 noncomplying tanks requiring cleanup. Even assuming 
that this lowest figure is accurate, and that EPA, with its State and 
Tribal partners, achieves its goal of cleaning up 21,000 tanks this 
year, won't the compliance rate fall far short of 90 percent?
    Response. As of December 22, 1998, EPA estimated that while 65 
percent of underground storage tanks were in compliance, 35 percent of 
the 850,000 (i.e., about 298,000) active tanks were not in compliance 
with the December 1998 deadline for upgrading, replacing, or closing 
underground storage tanks. The 221,000 figure mentioned in part D was 
estimated by EPA in 1997. The 298,000 figure was based on more current 
estimates from State UST programs. As stated in the answer to Part C 
above, the backlog of 168,000 refers to historical releases for which 
cleanups have not yet been completed and not to the number of tanks 
that have been upgraded, replaced or closed.

    Question 1e. How does EPA plan to address the remaining backlog 
after this year? Using the most favorable estimates, there will still 
be over 147,000 leaking underground storage tanks to be cleaned up. At 
EPA's current pace of cleanup, it will take over 7 years to complete 
the cleanup process and comply with the law. What additional resources 
would be needed to accelerate the pace of cleanup of USTs?
    Response. EPA, with very few exceptions, does not perform the 
cleanups of the leaking underground storage tanks. States and 
Territories use the Leaking Underground Storage Tanks (LUST) Trust 
funds to administer their corrective action programs, oversee cleanups 
by responsible parties, undertake necessary enforcement actions, and 
pay for cleanups in cases where a responsible party cannot be found or 
is unwilling or unable to pay for a cleanup. Most States have cleanup 
funds that cover the majority of owners and operators' cleanup costs. 
These State funds are separate from the LUST Trust Fund. Collectively, 
the States have and spend about $1 billion annually to pay for cleanup 
of releases from underground storage tanks.
    The President's fiscal year 2000 budget request provides sufficient 
resources to meet the goal of 21,000 cleanups in fiscal year 2000.

    Question 1f. The fiscal year 2000 Budget Request and Congressional 
Justification identifies as one of the Agency's highest priorities the 
approval of States to operate their own UST/LUST programs. Yet, in 
fiscal year 1999, EPA approved only 2 State programs for a total of 26. 
EPA's goal for fiscal year 2000 is to approve an additional four 
states, for a total of 30. If approval of State programs is a high 
priority, why did the Agency request $162,000 less than was 
appropriated in fiscal year 1999 for UST State program approval?
    Response. In fiscal year 2000, the Agency will still be working 
with the States to promote and enforce compliance with the December 
1998 upgrading, replacing or closing tank requirements. The shift from 
State program approval was in part to ensure adequate resources for 
promoting compliance with the December 1998 tank requirements. 
Furthermore, fewer States are requesting technical assistance for 
developing their State program approval applications.
    State Program Approval (SPA) remains one of EPA's top priorities 
because obtaining SPA benefits both States and the regulated community. 
States run their UST programs under separate State authorities until 
they obtain State Program Approval (SPA), at which point they run the 
Federal Program in lieu of the Federal Government. Until States obtain 
SPA, owners and operators are subject to both Federal and State UST/
LUST Program laws and regulations. Therefore, it is much easier for 
owners and operators to know which laws to comply with when States have 
SPA.

    Question 1g. The Budget Request and Congressional Justification 
states that the reduction ``is being made because of the moderate 
success States have had in achieving SPA.'' Is the Agency satisfied 
with its progress in approving State programs? Does the Agency feel 
that having only 30 approved UST programs reflects ``success?'' Is the 
Agency satisfied with its approval of only two State programs in fiscal 
year 1999?
    Response. The Agency wants to have as many States approved as 
possible. Therefore, the Agency is working closely with a number of 
states, both encouraging them and pushing them toward State program 
approval. Furthermore, in fiscal year 1998, the Agency has built in 
incentives and rewards into its formula for allocating LUST Trust 
funding to the Regions. Regions are allocated additional funds for 
States that have achieved SPA or incremental steps toward SPA. Thus far 
in fiscal year 1999, one State has been approved for a total of 27 
States, plus the District of Columbia and Puerto Rico. The Agency is 
hopeful that the target of two State programs for fiscal year 1999 will 
be exceeded.
    The Agency cannot force States to apply for State program approval, 
nor can the Agency approve States that do not meet the minimum 
requirements for State program approval. The remaining 23 States that 
do not have State program approval have statutory or regulatory 
inadequacies that do not allow them to meet the State program approval 
requirements. Many of these States have decided that it is not in their 
interest to seek approval at this time. They have decided to apply 
their staff's limited time to carrying out the preventive and 
corrective action sides of the program rather than divert them to do 
the necessary paperwork required for program approval.

    Question 1h. What level of resources would be required to complete 
the State program approval process?
    Response. The main issues are that the remaining 23 States either 
have statutory or regulatory inadequacies that do not allow them to 
meet SPA requirements or their legislatures are unwilling or unable to 
allocate sufficient resources to provide the staff necessary to work on 
the State program approval effort. There is no guarantee that 
additional funding will help because there are other impediments to SPA 
other than resource levels.

    Question 1i. How does the Agency intend to proceed with approving 
qualified Indian Tribe programs.
    Response. The Agency does not intend to approve such programs. This 
is because the Agency lacks authority to treat Indian Tribes like 
States for purposes of approving UST programs under Subtitle I of RCRA. 
However, the Agency does have the primary responsibility for 
implementing the UST program in Indian country. In carrying out this 
responsibility, the Agency's regional offices conduct a range of 
activities including educating owners and operators about the UST 
requirements, conducting inspection and enforcement activities, 
maintaining a data base of information on USTs located in Indian 
country, and overseeing cleanups of releases from USTs. The Agency 
provides assistance to help Tribes to develop the capability to help 
administer the UST program and develop their own programs under tribal 
law.
    The fiscal year 2000 budget increases State and Tribal Assistance 
Grant (STAG) funding for tribes from $450,000 to $1,850,000. 
Underground storage tanks are found on about 175 Indian Reservations. 
These USTs are owned and operated by a wide variety of individuals, 
corporations, and governments including tribes, tribal members, non-
tribal members, oil companies including major oil, the Bureau of Indian 
Affairs and the Indian Health Service. Tribes are increasingly 
interested in having an underground storage tank program to regulate 
USTs (or to help EPA regulate USTs in Indian Country). In the past few 
years, EPA has provided approximately a dozen grants per year to tribes 
to help them develop an underground storage tank program. The fiscal 
year 2000 President's budget will allow the Agency to provide 24 grants 
averaging $75,000. Larger tribes, such as the Navajo Nation, would 
receive over $100,000. Tribal consortia may also receive larger amounts 
than average grants. Tribes with smaller numbers of USTs would receive 
smaller grants in the $25,000-$50,000 range.
    There are a few tribes including the Navajo Nation that have their 
own UST regulations. Even when tribes do not have their own rules and 
regulations, they play a vital role in helping us implement the Federal 
program by providing outreach to owners and operators, helping to 
oversee corrective actions and attending tank closures to determine if 
releases have occurred.
    In the fiscal year 2000 budget, the Administration is requesting an 
increase of $300,000 in LUST funding for work in Indian Country. In 
fiscal year 1999, the Administration requested and received an increase 
of $2,300,000 for LUST work in Indian Country. These funds were 
requested to deal with the increasing LUST workload--site assessments 
and cleanups--in Indian Country and the projected workload that would 
result from compliance with the 1998 requirements. As owners and 
operators upgrade, close or replace USTs to meet the deadline, 
additional releases have been and will be discovered. When owners and 
operators are unable or unwilling to pay for corrective action, EPA may 
use the LUST Trust Fund.
    It is still too early to judge the impact of the 1998 deadline on 
the number of reported releases in Indian Country. This is due in part 
because owners and operators can choose to permanently close or 
temporarily close their tanks to come into compliance with the 
requirements. Site assessments are not yet completed on tanks that were 
permanently closed around the time of the deadline. Tanks can be closed 
temporarily for 12 months before a site assessment is required. 
However, in the latest report for the period April 1-October 31, 1998, 
there was an increase of 5.2 percent in the number of confirmed 
releases in Indian Country. (In contrast, the increase nationwide was 
3.6 percent.)

    Question 2a. Addressing Risk in the RCRA Program.--EPA's Annual 
Performance Plan and Congressional Justification singles out as one of 
its highlights to better address risk in the RCRA program, a ``proposed 
Hazardous Waste Identification Rule to regulate lower risk wastes, such 
as those that have already undergone treatment, under alternative State 
non-hazardous waste regulation programs.'' What specific rulemaking 
does this statement refer to?
    Response. This rulemaking is referenced in the most recent Agency 
regulatory agenda (63 FR 62455) as the Hazardous Waste Identification 
Rule (HWIR): Identification and Listing of Hazardous Wastes (Sequence 
number 3737). This rulemaking is commonly referred to as HWIR-Waste (as 
compared to the regulation on contaminated soil and other media which 
is commonly referred to as ``HWIR-Media'').
    HWIR-Waste seeks to revise how and when the hazardous waste 
regulations apply to residues from the treatment of hazardous wastes 
and mixtures of hazardous and non-hazardous waste. HWIR seeks to 
develop a set of chemical concentration levels (``exit levels'') such 
that wastes that contain hazardous chemicals at concentrations below 
those levels would no longer be regulated as a hazardous waste.

    Question 2b. What was EPA's estimated cost for completing work on 
this proposed rule?
    Response. The estimates below reflect the Agency's work on this 
rule through fiscal year 2000.


------------------------------------------------------------------------
                                   Fiscal year
                                       1999     Fiscal year     Total
         ($ in thousands)           Operating       2000      Estimated
                                       Plan       Request        Cost
------------------------------------------------------------------------
Program Dollars..................     $1,965.0     $2,112.3     $4,077.3
FTE..............................          8.9          8.9         17.8
------------------------------------------------------------------------

    Question 2c. Considering EPA recently withdrew its proposal to 
distinguish between lower and higher-risk contaminated media and exempt 
lower-risk media from regulation under Subtitle C, does EPA still plan 
to proceed with a rulemaking exempting lower-risk wastes (as opposed to 
contaminated media) from Subtitle C?
    Response. Yes, EPA fully expects to proceed with the ``HWIR-Waste'' 
rule on lower-risk wastes. EPA is currently under a court-ordered 
schedule for the development of this rulemaking, and is required to 
have a proposed rule by October 31, 1999 and a final rule by April 30, 
2001.

    Question 2d. If so, why isn't the Agency proceeding with a similar 
effort with respect to lower-risk contaminated media?
    Response. In its final rule for HWIR-Media, the Agency discusses 
historic attempts to distinguish between lower and higher-risk 
contaminated media, a proposal known as the ``bright line'' (63 FR 
65878). The ``bright line'' option got its name from a ``line'' 
dividing more highly contaminated media from less contaminated media 
and this differentiation was to be based on risk.
    In considering the ``bright line'' option for the final rulemaking, 
the Agency agreed with the concerns expressed by commentators that the 
bright line approach would be too difficult to implement. Most 
fundamentally, a bright line that would satisfy those who sought 
conservative levels would not sufficiently reform the system to remove 
the existing barriers to efficient, protective remediation waste 
management (63 FR 66102). The Agency went on to discuss the time- and 
resource-intensive process that would most likely result. Such a 
process would, in addition, provoke litigation and uncertainty, which 
would in the mean time have a detrimental effect to ongoing and future 
cleanups.

    Question 2e. If not, how does EPA plan to reallocate the funds that 
would have gone to completing the rulemaking?
    Response. As discussed above, the Agency plans to pursue the HWIR-
Waste rulemaking.

    Question 2f. What other efforts does the Agency have underway ``to 
better address risk in the RCRA program.'' This, too, is identified as 
a highlight of the RCRA budget.
    Response. There are many ongoing activities at the Agency concerned 
with the consideration of risk in the regulation of waste under RCRA. 
Improved risk evaluation models and approaches have been used in 
several recent activities:
    Agency's Air Toxics Multi-media Initiative.--EPA will evaluate the 
relative contribution air pathway risks to human health and the 
environment from wastewater treatment tanks, surface impoundments, and 
landfills. The results of this evaluation should be available in June 
1999.
    Risks from Surface Impoundments.--The Agency is currently 
conducting a study of risks from management in-surface impoundments, 
including a national survey of such units. This effort expects to use 
the risk assessment tool currently being developed under HWIR-Waste. 
The results of this study should be available in March 2001. The Agency 
is conducting critical surveys and sampling to provide data for the 
statutorily mandated 5-year surface impoundment study, which will 
improve our understanding of risk, exposure and potential ecosystem 
stressors associates with waste waters and surface impoundments.
    Toxic Constituent Leaching Procedure (TCLP).--The RCRA risk 
analysis program is supporting a review of the TCLP procedure and other 
leach testing protocols and their applicability to various wastes and 
waste management conditions at land disposal sites.
    Hazardous Waste Minimization and Combustion Strategy.--Addresses 
the risks posed by indirect exposure (through the food chain, 
primarily) to the dioxins, furans and toxic metal emitted by hazardous 
waste combustion in incinerators and boilers and industrial furnaces.
    Hazardous waste listing determinations.--EPA's improved groundwater 
fate and transport model (Composite Model for Leachate Migration and 
Transformation Products (CMPT) was the basis for recent final hazardous 
waste listings for the petroleum refining industry.
    Industrial Non-Hazardous Waste.--Draft guidance to States is being 
developed to ensure that non-hazardous industrial waste is managed in 
accordance with any risks it may pose. Such examination also uses the 
EPA CMTP model and considers engineered controls at waste Agency is 
heavily involved in the development of risk assessment tools to be used 
management units (e.g., liners at landfills).
    The Agency is heavily involved in the development of risk 
assessment tools to be used for present and future regulatory needs. 
The HWIR risk assessment tool, in particular, is expected to be used in 
future risk examinations. Other analyses of chemicals in waste and 
their ability to leach into the environment are underway.
    Finally, across many of these risk assessment efforts, the Agency 
is seeking ways to improve our ability to represent the complexity of 
chemical contamination in the environment and to understand risks posed 
to different members of the population. Most specifically, the Agency 
has recently focused its risk assessment efforts to consider risk 
exposures to children.

    Question 2g. Does EPA intend to proceed with this as a rulemaking 
or will it instead simply issue ``guidance?''
    Response. As discussed above, the Agency plans to pursue a 
rulemaking for HWIR-Waste.

    Question 3a. Corrective Action Program.--In the fiscal year 1999 
Annual Plan Summary, EPA states that it ``will focus on controlling 
human exposure and groundwater releases at RCRA facilities designated 
as high priorities.'' This same general goal is reiterated in the 
fiscal year 2000 Annual Plan Summary. How does EPA define ``high 
priority'' sites?
    Response. EPA has identified 1700 high priority facilities in its 
``Government Performance and Results Act (GPRA) Baseline.'' This 
baseline is used to measure progress toward attaining the corrective 
action goals established for the GPRA. High priority facilities in this 
baseline are composed of facilities that score as ``High'' on the 
National Corrective Action Prioritization System (NCAPS), as well as up 
to 15 percent of the total facilities that scored as ``Medium'' or 
``Low'' on the NCAPS, but are of high priority for the cleanup program 
due to other factors, such as environmental justice concerns or 
brownfields interests. NCAPS sets the environmental priority of a 
corrective action facility through consideration of several factors, 
including nature of contaminant sources, waste management history and 
practices, site hydrogeology, contaminant migration pathways and 
likelihood of human and environmental exposure.

    Question 3b. How many ``high priority'' sites has EPA identified? 
Are there additional or alternative sites that the States have 
identified as high priority sites?
    Response. There are 1700 facilities on the GPRA baseline (see 
answer to A) which were identified by both EPA and the States. When 
States identified high priority RCRA corrective action facilities, they 
were added to the baseline. Due to the substantial efforts EPA Regional 
Offices have made to work with them, the Agency believes there is 
general agreement among States that the 1,700 facilities have been 
correctly identified as the primary focus for RCRA corrective action.

    Question 3c. What were the total expenditures to address these 
sites in fiscal year 1999?
    Response. (Total Federal Dollars in thousands--Office of Solid 
Waste and Emergency Response Corrective Action Program)

                        Fiscal Year 1999 Enacted
------------------------------------------------------------------------
                                                     Dollars      FTE
------------------------------------------------------------------------
Headquarters......................................   $2,025.9       17.5
Regions...........................................   16,141.5      125.5
States Grants.....................................   24,808.8        N/A
                                                   ---------------------
  Total...........................................  $42,976.2      143.0
------------------------------------------------------------------------

    The resources listed above include salary, travel, and contract 
dollars for the Corrective Action program. Regional resources support a 
variety of corrective action activities including program 
implementation in States that are not authorized, State oversight, 
workload sharing in those States that are partially authorized, and 
program implementation training. Headquarter resources for the 
Corrective Action Program nationally encompass regulation reform, 
streamlining and reinvention projects that will improve the program's 
implementation. State and Tribal Grants (STAG) are awarded to States 
and tribes to support corrective action program implementation. Grants 
are awarded only to States that are authorized or partially authorized 
and they become the primary implementors of the Corrective Action 
program. STAG resources are allocated according to the State's workplan 
submitted to EPA regional grants coordinators.
    It should be noted that authorized States are required to match 25 
percent of the RCRA Program grant and that many States provide 
additional funding to provide oversight of owner/operator cleanups at 
RCRA facilities.

    Question 3d. How many of these sites were actually addressed by EPA 
in fiscal year 1999?
    Response. Information for the first part of fiscal year 1999 is 
incomplete, in large part because EPA has been developing nationwide 
guidelines for EPA Regions and States to use when determining that 
human exposures and groundwater releases have been controlled. EPA 
Regions and States have been waiting to enter new data pending issuance 
of these guidelines which were issued in February 1999. The Agency 
expects that entry of the new data will show significant progress 
beyond the current levels (299 with human exposure controlled and 244 
with groundwater migration controlled). However, we can provide the 
cumulative number of determinations of human exposures controlled and 
groundwater migration controlled achieved through the first quarter of 
fiscal year 1999. The two measures, (also known as ``environmental 
indicators'') comprise the fiscal year 2005 GPRA measures for the 
corrective action program and are its primary short term goals for 
stemming risk. The measures reflect whether cessation (or absence) of 
actual human exposures has occurred and whether groundwater 
contamination is under control at each facility. The long term goal for 
the program continues to be final cleanup of RCRA facilities with an 
implementation focus on risks from highest priority facilities first. 
As discussed in the response to part F below, final cleanup is in 
progress or being addressed at many of the 1,700 high priority RCRA 
facilities.
    Facilities are not ``actually addressed'' by EPA or the States in 
the RCRA corrective action program, in that EPA and the States neither 
finance nor conduct cleanups. The EPA and State role is to oversee 
actions taken by the facility owner or operator. As of January 1999, 
EPA and the States have made the following ``controlled'' 
determinations: 299 facilities (18 percent of 1700) win human exposures 
controlled, and 244 (14 percent) with groundwater migration controlled.

    Question 3e. What types of activities did EPA undertake at these 
sites?
    Response. EPA and the States issue orders and permits to compel 
owners or operators to begin corrective action then oversee the 
facility cleanups. EPA and State oversight is focused on directing the 
cleanup toward the greatest risks and assuring the appropriateness of 
remedial actions and making sure the public is involved in key 
decisions. The cleanup activities undertaken by owners and operators 
are a wide range of actions that primarily address contaminant source 
control and groundwater plume migration (e.g., ``hot spot'' removal, 
groundwater withdrawal systems to pull back plumes) and human exposure 
through all pathways of exposure (e.g., removal actions, capping, 
restricting access, providing alternate water supply). EPA is 
evaluating owner or operator's activities using EPA's guidelines on 
controlling human exposures and groundwater migration. These guidelines 
focus on systematically documenting that all routes of contaminant 
migration and exposure pathways have been assessed and addressed such 
that a determination can be made that the two facility-wide measures 
are achieved. Although EPA is focusing on elimination of risk from 
human exposures and groundwater releases as its short-term programmatic 
goal, many of the high priority facilities are concurrently engaged in 
final cleanup activities such as characterizing facility-wide 
contamination, selecting remedies and constructing or installing 
equipment for the final cleanup. In fact, at many facilities, EPA 
believes that eliminating human exposures and controlling groundwater 
releases will support the final cleanup objectives. Further, although 
final cleanup will ultimately be required by EPA and the States at all 
1,700, some facilities are moving ahead on their own for reasons such 
as reducing liability, desire to sell portions of a facility or because 
of strong public interest in the facility.

    Question 3f. Did EPA complete remediation or cleanup at any of 
these sites, or did it focus instead on ``controlling human exposures'' 
and/or ``controlling groundwater releases?''
    Response. The Agency's short-term focus is on controlling human 
exposures and groundwater contamination at its highest priority 
facilities. The Agency's long term goal is to achieve final cleanup of 
all facilities under the corrective action program, with an 
implementation focus on the 1,700 highest priority facilities first. 
Many of the activities that are undertaken to meet the short-term goals 
are consistent with final cleanup. Final cleanup activities also 
contribute to the maintenance of controls on human exposures and 
groundwater contamination. Most cleanups in the RCRA program are 
phased, rather than addressing all problems at the facility at one 
time. For example, companies may address certain portions of the 
facility first, or address a contaminated medium, such as groundwater, 
prior to moving to the next most pressing environmental problem. The 
flexibility to phase in cleanups reflects the realities of the RCRA 
corrective action program in that many of these companies continue to 
be active, some have limited resources and, each has unique concerns. 
Oversight agencies must work with companies over the long-term to 
address cleanup problems. As a result, oversight of these facilities is 
site-specific, and facilities are in different stages of investigation, 
stabilization and final cleanup activities. Regardless of the specific 
path that each facility is taking, and its focus on final cleanup or 
attainment of the agencies short-term goals, EPA can measure the 
facilities progress against its environmental indicators determination 
guidance.

    Question 3g. How much additional funding would be needed to 
complete remediation or cleanup at the 170 sites that EPA proposes to 
``control'' next year?
    Response. While complete remediation or cleanup is, of course, the 
end requirement at all RCRA facilities undergoing corrective action, 
the Agency has established a nearer-term objective of seeing that 
facility owner or operators take actions at their facilities now, to 
eliminate unacceptable human exposures and further spread of 
contaminated groundwater. As the committee notes, the Agency has 
established the control of human exposures and groundwater releases at 
170 of the 1,700 worst facilities as its fiscal year 2000 milestone 
toward the fiscal year 2005 GPRA goals. Current data shows that as of 
January 1999, 299 facilities (18 percent of 1,700) have human exposures 
controlled, and 244 (14 percent of 1,700) have groundwater releases 
controlled. Based on current progress, the Agency believes that the 
funding requested in fiscal year 2000 for EPA and the States to oversee 
the work on controls at the 170 facilities will be sufficient. Control 
of exposures and groundwater releases is an important step in the 
ongoing process of a complete cleanup. In fact, actions taken by 
facilities to control human exposures and groundwater releases often 
involve significant treatment or removal of contamination that 
contributes to the final facility cleanup. EPA's current focus on risk 
reduction through control of human exposures and groundwater should not 
be taken by the committee to mean that companies are not also 
proceeding with the complete facility cleanup required under RCRA.

    Question 3h. How does EPA plan to proceed to complete cleanup at 
these high priority sites where initial action is taken to control 
human exposures?
    Response. Please see response to part F. above.

    Question 3i. At how many sites did EPA complete remediation or 
cleanup?
    Response. Please see answer to part F. Data as of January 1999, 
indicates the completion of the corrective action process, or that 
active remedial measures as specified in the RCRA permit or enforcement 
order have been completed (for the entire facility or for areas of the 
facility) at 61 facilities.

    Question 3j. What were the total expenditures associated 
respectively with controlling human exposures, controlling groundwater 
releases, and completing cleanup?
    Response. Actual RCRA cleanup expenditures are borne by facility 
owners/operators, not EPA or the States. The Agency has chosen not to 
burden industry with requirements to report their expenditures for 
cleanup and therefore is unable to provide this number. The Agency has 
estimated the economic impact of the RCRA cleanup program which has 
been included in the Regulatory Impact Analyses (RIAs) of individual 
proposed or final rules. EPA and authorized State oversight of 
corrective action cleanups by owner/operators is funded under the RCRA 
Corrective Action budget, and by a portion of the Section 3011 RCRA 
program grants to the States. These amounts are provided in the answer 
to question C. It should be noted that authorized States are required 
to match 25 percent of the RCRA Program grant and that many States 
provide additional funding to provide oversight of owner/operator 
cleanups at RCRA facilities. EPA does not require States to report 
these expenditures over and above that provided through the RCRA 
Program grant.

    Question 3k. Of these costs, what amount was borne by EPA (as 
opposed to the States or responsible parties)?
    Response. Please see response to question J. above. As noted, 
actual cleanup costs at RCRA facilities are borne by the owner or 
operator, not EPA or States.

    Question 3l. The Annual Performance Plan and Congressional 
Justification states that ``the RCRA Corrective Action Program will 
actively implement the RCRA Cleanup Initiative.'' Has the Agency in 
fact developed a formal RCRA Cleanup Initiative?
    Response. The details of the RCRA Cleanup Initiative, which will 
formally introduce a number of administrative reforms, are currently in 
draft and under discussion with stakeholders. The initiative will 
highlight both new and current flexibility in the program and encourage 
innovative, practical approaches to cleaning up facilities. Please see 
part M. below for additional detail on the RCRA Cleanup Initiative.

    Question 3m. What specifically are the projects ``intended to 
reduce impediments to achieving the Agency's Objective?''
    Response. The RCRA Cleanup Initiative is the Agency's primary 
initiative in identifying and reducing impediments in the corrective 
action program. It will feature a formal, ongoing process for 
stakeholder involvement to identify additional changes needed to 
improve the cleanup program. A specific discussion of the projects 
appears below.
    Corrective Action Training Workshop.--EPA will focus a major 
training initiative on effective oversight of cleanups by EPA and State 
project managers. This comprehensive 3-day workshop stressing Results-
Based Corrective Action will be offered in all ten EPA Regions 
beginning in spring 1999 through 2000. An Internet version of this 
training is also being developed for release.
    Corrective Action Policy Clarification.--Through an upcoming 
Federal Register notice, the Agency will withdraw those provisions of 
the July 27, 1990 proposed Subpart S rule that have not been 
promulgated to date. Provisions of Subpart S which have been finalized 
(e.g., Corrective Action Management Unit--CAMU) will remain in effect. 
This notice will greatly reduce uncertainty for States and owner/
operators over the applicability of proposed versus final regulations, 
and allow EPA to establish flexible approaches for the Corrective 
Action program.
    The notice will describe the goals and current direction of the 
Corrective Action program and publicly confirm that the 1996 Advanced 
Notice of Proposed Rulemaking (ANPR) remains the primary Corrective 
Action guidance. EPA will rely on existing regulations, current & 
future guidance, and training to implement a results-based corrective 
action program rather than promulgate additional regulations at this 
time.
    New Corrective Action Guidance.--Guidelines for determining that 
human exposures and groundwater releases are under control.
    <bullet> Human Exposures Under Control and Migration of 
Contaminated Groundwater Under Control--are the short term measures of 
program progress and are being used to meet the requirements of the 
Government Performance & Result Act. These guidelines, issued February 
5, 1999, describe how to determine if these measures have been met.
    <bullet> A series of Corrective Action Training Workshops, 
conference calls, meetings with State and Regional regulators, and the 
regulated community, will help ensure consistency in the application of 
these important measures.
    Results-Based Approaches for RCRA Corrective Action.--This 
guidance, which should be issued in summer 1999, will stress that 
Results-Based approaches, which emphasize outcomes, not process, should 
be a significant part of State/Regional Corrective Action programs. 
These results-based approaches should be used at many Corrective Action 
facilities, including certain high-priority facilities, to meet the 
GPRA goals and to move facilities toward the longer-term goal of final 
facility cleanup.
    Corrective Action Completion.--This guidance, planned for issuance 
in late 1999, will show how to document completion of corrective action 
at facilities. It will include direction on: termination of permits 
where Corrective Action is complete; how to determine that Corrective 
Action is complete at part of a facility; and the importance of public 
involvement in Corrective Action.
    The Role of Groundwater Use in RCRA Corrective Action.--This 
guidance, which is expected to be issued in mid-1999, will show how to 
account for current and reasonably expected uses of groundwater when 
implementing interim and final RCRA Corrective Action remedies. It will 
convey that groundwater-use decisions should be based on EPA-endorsed 
Comprehensive State Groundwater Protection Programs (CSGWPP). In the 
absence of CSGWPPs, groundwater-use decisions can be based on other 
EPA-endorsed State classification or use designations.
    Aggressive Outreach to EPA Regions and States.--In addition to 
emphasizing the importance of environmental results, this outreach 
includes getting additional States authorized to implement the 
Corrective Action program. EPA will also be strongly encouraging the 
States to incorporate the Hazardous Remediation Waste Management 
Requirements (HWIR-Media) Regulation and Post-Closure Regulation into 
their programs. This outreach will also place a renewed emphasis on the 
importance of early and meaningful public involvement.
    Publicly Accessible Information on Cleanup Progress.--Detailed 
progress information such as the human exposures or groundwater 
releases controlled results for individual facilities will be posted on 
the Corrective Action Website. This will allow stakeholders, including 
affected community, to monitor progress at facilities in their area as 
well as the overall Corrective Action Program progress. Until this more 
detailed information is available, the website will show progress for 
each EPA Region and state.

    Question 3n. What specifically are the projects to ``enhance State 
and stakeholder involvement?''
    Response. Please see response to question M. Detailed progress 
information such as the human exposures or groundwater releases 
controlled results for individual facilities will be posted on an 
Agency website. This will allow stakeholders, including the affected 
community, to monitor progress at facilities in their area as well as 
the overall Corrective Action Program progress. Until this more 
detailed information is available, the website will show progress for 
each EPA Region and state. By providing cleanup progress information 
for individual facilities, the Agency will make information on facility 
cleanup more readily available to communities. It is hoped that this 
additional availability of information will generate greater public 
interest and awareness in Corrective Action at individual facilities, 
thereby enhancing the ability of the community to become more involved 
in decisions about the cleanup.

    Question 3o. What specifically are the projects intended to 
``promote innovative approaches to cleanup actions?''
    Response. The two primary approaches EPA currently plans for 
promoting innovative approaches are the Corrective Action Training 
Workshop and the Results-Based Approaches for Corrective Action 
Guidance. Details on how they will promote innovative approaches is 
provided in the response to the previous question.

    Question 3p. What other ``long term efforts to enhance the 
program'' does EPA intend to undertake?
    Response. Please see responses to parts L. M. and N.

    Question 4a. RCRA Permitting Process.--EPA's fiscal year 1999 
budget request States that the Agency will approve 153 permits or other 
controls ``to prevent dangerous releases to air, soil, and 
groundwater'' for a cumulative total of 62 percent of hazardous waste 
management facilities in the United States. How many permits were 
actually issued in fiscal year 1999 to hazardous waste management 
facilities?
    Response. In fiscal year 1999, EPA estimates that 116 more 
facilities will have approved controls to prevent dangerous releases to 
air, soil and groundwater. The 116 estimate is based on information 
submitted by regional RCRA permitting programs and relies on 
information that States supply to the regions.
    In fiscal year 2000, EPA indicates that an additional 146 
facilities will have approved controls in place to prevent dangerous 
releases to air, soil and groundwater for a cumulative total of 65 
percent of all the roughly 3,400 hazardous waste management facilities.

    Question 4b. Does this goal include facilities in States that have 
approved RCRA programs?
    Response. The RCRA permitting program is a State delegated program. 
Since almost all of the States are authorized to issue RCRA permits, 
most RCRA permits are issued by them; therefore, the accomplishments 
that are projected for fiscal year 2000 include permitting activities 
that are being carried out by EPA's partners. As a point of 
clarification, EPA expects that in fiscal year 2000, 65 percent of the 
GPRA baseline facilities will be under approved controls. The Agency's 
best estimate of number of GPRA baseline facilities was about 3,400 
facilities at the time of the fiscal year 2000 budget submittal. 
Therefore, in fiscal year 2000 EPA expects to have 65 percent of the 
3,400 facilities under approved controls.

    Question 4c. EPA's own numbers suggest that there are a total of 
5,200 facilities that manage hazardous waste and that even if the 
fiscal year 2000 goals are met, there will be 1,820 existing hazardous 
waste management facilities that do not have final permits or approved 
controls in place. At EPA's current pace of an average of 150 
facilities approved per year, it would take over 12 years to complete 
the process of approving final permits or controls for existing 
hazardous waste management facilities. Given those figures, why hasn't 
EPA dedicated more resources to addressing this backlog?
    Response. As discussed in the previous response, there appears to 
be confusion regarding the fiscal year 2000 goal for hazardous waste 
management facilities ``under approved controls.'' EPA expects to have 
65 percent of the GPRA baseline facilities under approved controls. 
This is estimated to be about 65 percent of the total baseline of 
roughly 3,400 facilities. If EPA and the States continue to bring 150 
facilities under approved controls per year, Men entire group of 3,400 
hazardous waste management facilities should be under approved controls 
by fiscal year 2008. Based on current levels of progress the Agency 
believes the fiscal year 2000 President's Budget provides EPA, Regions, 
and States with sufficient funding to keep the Permit Program on track 
to meet the fiscal year 2000 GPRA goal.

    Question 4d. What were the total expenditures for fiscal year 1999 
for approving permits or other controls at hazardous waste management 
facilities?
    Response. (Total Federal Dollars in thousands--Office of Solid 
Waste and Emergency Response Permitting Program)

                        Fiscal Year 1999 Enacted
------------------------------------------------------------------------
                                                     Dollars      FTE
------------------------------------------------------------------------
Headquarters......................................   $1,330.9       12.0
Regions...........................................   14,057.7      155.9
States Grants.....................................   22,852.9        N/A
                                                   ---------------------
  Total...........................................  $38,241.5      167.9
------------------------------------------------------------------------

    Question 4e. What are the total expected expenditures to achieve 
the goal for fiscal year 2000 of approving permits or other controls at 
an additional 146 facilities?
    Response. (Total Federal Dollars in thousands--Office of Solid 
Waste and Emergency Response Permitting Program)

                       Fiscal Year 2000 Requested
------------------------------------------------------------------------
                                                     Dollars      FTE
------------------------------------------------------------------------
Headquarters......................................   $1,872.1       12.0
Regions...........................................   14,900.9      155.9
States Grants.....................................   22,852.9        N/A
                                                   ---------------------
  Total...........................................  $39,625.9      167.9
------------------------------------------------------------------------

                               superfund
    Question 1. There is accumulating evidence that the Superfund 
National Priority List cleanup program is ``ramping down,'' or will do 
so soon. For example, the General Accounting Office reported in 
November that there were 232 sites nationwide that either EPA, the 
States or both believed would eventually be listed on the National 
Priority List. Over the last 6 years, EPA has added an average of 26 
sites per year to the List. Do you concur that the scope of future 
additions to the Superfund NPL is likely to be closer to the 232 new 
additional site level projected in the November GAO report or will be 
much larger than that?
    Response. Although the Superfund program has made substantial 
progress in the last 6 years, significant work remains at current and 
proposed NPL sites. At the end of fiscal year 1999, the Agency will 
still be performing work at over 700 sites currently on the final NPL 
(an estimated 470 sites will have construction underway). We expect to 
complete construction at most of these sites by 2005. Additionally, EPA 
will need to invest resources in post-construction activities to ensure 
that remedies remain protective into the future. EPA also expects to 
continue to have an important role in conducting removal actions to 
protect communities across the country.
    While we do not know now how many more sites will need to be added 
to the NPL, there will be new listings. We list sites on the NPL only 
after considering a number of factors. For example, when the sites 
present a serious threat to human health and the environment, when a 
State asks us to list a site, or when a State is unable or unwilling to 
conduct the cleanup. Using these factors and working with State 
officials the Agency has listed about 26 sites a year over the past 
several years. EPA will continue to use these factors and work with the 
States to guide our listing decisions in the future. This year the 
Agency expects to list no more than 40 sites on the NPL. Thus we expect 
to continue to conduct significant work during the next 5 years at 
current and future sites.

    Question 2a. If you believe that the new NPL listings are likely to 
be closer to the GAO report level, what implications does this raise 
for the funding of the Superfund program? In particular, can you 
provide an estimate of what you expect the Superfund program will look 
like in 5 years? How many sites will be construction complete?
    Response. The Agency's Government Performance and Results Act 
(GPRA) goal projects the rate of Superfund site construction 
completions through 2005. Assuming a steady budget through the next 
seven fiscal years (Fiscal Year 1999--Fiscal Year 2005), and assuming, 
on average, 85 construction completions per year, we should achieve by 
the end of fiscal year 2005 about 1,180 construction completions.

    Question 2b. How many sites will be on the NPL but not yet 
construction complete?
    Response. As of January 1999, there were 1446 total NPL sites. 
Assuming that EPA will achieve 85 construction completions through 
2005, over 400 sites currently on the NPL will be in remediation in 
2003. This estimate does not include any additional sites that may be 
added to the NPL during this or subsequent years.

    Question 2c. What level of funding and staffing will be needed to 
execute Superfund's projected mission in fiscal year 2004 and beyond?
    Response. Although the Superfund program has made substantial 
progress in the last 6 years, significant work remains at current and 
proposed NPL sites. At the end of fiscal year 1999, the Agency will 
still be performing work at over 700 sites currently on the final NPL 
(an estimated 470 sites will have construction underway). We also 
expect to list 40 sites this year on the NPL. Additionally, EPA will 
need to invest resources in post-construction activities to ensure that 
remedies remain protective into the future. Finally, EPA expects to 
continue to have an important role in conducting removal actions to 
protect communities across the country.
    Although our need for future resources is clear, the Agency has not 
completed development of the Superfund budget request for fiscal years 
2001 and beyond. However, to continue our current pace of cleanup, 
including removals, cleanups of new NPL additions, and post-
construction work, our GPRA goal currently assumes a steady State 
budget into the future.

    Question 3. Again, assuming that there will be a relatively small 
number of new sites added to the Superfund NPL, what do you foresee as 
the role and resource requirements of the Superfund program at sites 
that will necessarily fall to State cleanup programs for action?
    Response. Historically, we have listed an average of 26 sites per 
year on the NPL. This year we expect to list roughly 40 sites on the 
NPL. We do not know now how many more sites will ultimately need to be 
added to the NPL, but we will continue to list sites on the NPL only if 
the site presents a serious threat, when a State requests a listing, or 
when the State is unable or unwilling to conduct the cleanup. We have 
been using and will continue to use these considerations to guide our 
listing decisions. States are supporting our NPL listing activities at 
this level through our State concurrence policy.
    States play a key role, and will continue to play a key role, in 
site assessment and site cleanups. State cleanup programs play a vital 
role for both NPL and non-NPL sites and it is EPA's hope that this 
successful partnership continues within the Superfund program. In fact, 
Superfund funding has been a key factor in the growth of State 
Superfund programs. EPA's Superfund program has provided major funding 
to the States. This past year, 1998, Superfund provided over $140 
million to the States. Of that total, approximately $25 million went 
toward State voluntary cleanup programs and Core program funding to 
States. Another $17 million was provided to States in the form of 
cooperative agreements for funding site assessment work (PA/SI 
funding), $32 million for NPL site studies, planning, design, and PRP 
oversight, and $69 million for Fund-financed NPL remedial actions 
managed by States.
    Further, EPA plays a significant role in non-NPL cleanups by 
conducting removal actions. EPA has also performed approximately 5,500 
removals since the beginning of Superfund at a rate of 200-300 per 
year. These activities will not decrease if the number of NPL sites 
decreases. As a result of these factors, EPA does not foresee a sharp 
decline in its need to maintain its current role or resource 
requirements through 2005.

    Question 4. EPA's fiscal year 2000 budget projects completion of 
all remedial construction at 925 sites by the end of fiscal year 2002, 
maintaining the pace of 85 construction completions per year attained 
in 1997. How long beyond 2002 will EPA maintain an 85 construction 
cleanup per year pace before the program starts to run out of non-
Federal sites ready for cleanup.
    Response. Due to the success of our Administrative Reforms, we 
project that we will achieve, on average, 85 construction completions 
through 2005. Projections beyond this year cannot be made with any 
certainty due to the changing demands of site-specific work, such as 
new information regarding types or amounts of contamination present, 
shifts in construction schedules, or PRP takeovers.

    Question 5. Over the past 6 years, EPA has added approximately 155 
sites to the NPL, an average of 26 per year. GAO says it takes about 
10.6 years from site listing to cleanup; EPA would probably say that 
administrative reforms have reduced this length of time. Assume that 
the true length of time to clean up a site is 8 years. Setting aside 
the sites deemed ``construction complete,'' doesn't that imply a 
steady-state NPL size of approximately 208 sites--eight times twenty-
six? If you disagree with this analysis, is there some other set of 
assumptions that the committee should use for the annual rate of 
additions to the NPL, or expectations about the ultimate size of the 
Superfund program?
    Response. By 2005, EPA will have cleaned up the vast majority of 
the sites currently listed on the NPL. However, we expect that more 
than 250 of the current NPL sites will be in active remediation at that 
time. We do not know now how many more sites will need to be added to 
the NPL, but we will focus our NPL listing activities on those sites 
that States agree should be added to the NPL and those sites where 
States are unable or unwilling to clean up the site. We have been using 
and will continue to use these considerations to guide our listing 
decisions. This year we expect to list roughly 40 sites on the NPL.
    In addition to remedial action costs, the EPA Superfund budget 
would need to include site assessment activities, removal program 
needs, post-construction activities, other Federal agency costs, and 
the other categories displayed, for example, in EPA Superfund 
appropriation requests. We will continue to give all these factors 
careful consideration as we prepare our budgets in future years.

    Question 6. It usually takes a considerable period of time from 
when a site is listed until it is ready for the actual cleanup. It is 
conceivable that there will be much work for Superfund NPL cleanup 
program at a later time because of an unforeseen acceleration in the 
rate of NPL additions. However, will not the cleanup program face a 
dramatically decreased demand for work in the next few years as work is 
completed on sites listed prior to 1993, as there are only 155 or so 
sites moving through the pipeline from the listing years of 1993 
through 1998? How do you manage a Superfund system staffed to complete 
85 sites a year when past listing decisions will only present it with 
26 sites for cleanup to begin in any particular year?
    Response. The Superfund program has made substantial progress in 
the last 6 years, and approximately 89 percent of the NPL sites have 
had cleanup activities, are construction complete, or have cleanup 
underway. However, these accomplishments cannot overshadow the 
significant work remaining at current and proposed NPL sites. At the 
end of fiscal year 1999, the Agency will still be working to complete 
construction at over 700 sites currently on the final NPL.
    We also need resources to clean up newly listed sites as quickly as 
possible. We do not know now how many more sites will need to be added 
to the NPL, but we will focus our NPL listing activities on those sites 
that States agree should be added to the NPL and sites where a State is 
unable or unwilling to conduct the cleanup. We have been using and will 
continue to use these considerations to guide our listing decisions. 
This year we expect to list roughly 40 sites on the NPL.
    Furthermore, even as cleanup activities are completed at sites, EPA 
will need to invest resources in ensuring that remedies remain 
protective into the future. EPA will have responsibilities to conduct 
oversight of continuing operations, to review periodically remedies at 
which waste remains in place, and to take response actions at sites at 
which remedies do not remain protective. Finally, EPA expects to 
continue to have an important role in conducting removal actions to 
protect communities across the country. The need for EPA involvement in 
removals is unlikely to decline, and, as fewer sites are added to the 
NPL in the future, removal actions may be more widely used to achieve 
necessary cleanups.

    Question 7a. Less than 10 months ago, on April 30, 1998, you 
testified before Senator Bond's Appropriations Subcommittee that the 
Administration needed an extra $1.3 billion, spread over 2 years, to 
meet certain objectives. In justifying the request for $2.1 billion in 
1999, you stated that the requested funding level would ``ensure'' that 
we meet the Administration's commitment to clean up 900 of the nation's 
worst toxic waste sites by the end of the year 2001.'' Your fiscal year 
2000 budget submission States the Administration plans to complete 925 
cleanups by the end of 2002. That will be accomplished while holding 
Superfund funding flat at approximately $1.5 billion per year. Based on 
your fiscal year 2000 budget, your year end goal for fiscal year 2001 
is 840 construction completions. Can I assume that the infusion of an 
added $1.3 billion that the Administration requested 10 months ago 
would merely have resulted in accelerating the Superfund program by a 
net of 60 sites completed 1 year early--the difference between the 900 
sites projected for completion by the end of 2001 in last year's budget 
request, versus the 840 projected in this year's budget request?
    Response. The Superfund program has made substantial progress in 
completing construction at NPL sites. EPA expects to achieve completing 
construction at 840 sites by the end of 2001. The Administration's 
request for additional funding for fiscal year 1998 and fiscal year 
1999 provided a window of opportunity to achieve more construction 
completions and increase the pace of cleanup through 2001 and beyond, 
while permitting the Superfund program to continue critical site 
assessment functions and initiate cleanups at other sites. The 
additional $1.3 billion requested by the President would have enabled 
EPA to complete the construction of cleanup activities in 60 additional 
communities by December 2000. With the lack of this funding, nearly 2 
additional years will have passed before EPA achieves construction 
completions in 925 communities. In addition, the additional funding 
would have enabled EPA to initiate cleanups in far more than the 60 
communities and achieve construction completions far earlier in many of 
these communities than is possible without this infusion of cleanup 
funds.

    Question 7b. There is no doubt that one reason for the change in 
Superfund budget requests is due to administrative improvements which 
lower the cost of cleanups. However, based on previous Administration 
statements regarding the success of the reforms, it is unlikely that 
the cost savings attributable to administrative improvements have only 
come to light in the last 10 months. Can you provide the committee with 
a detailed analysis of the assumptions on which your 1998 testimony 
regarding the fiscal year 1999 budget was based, and further 
demonstrate the areas which have improved or changed and form the basis 
for your dramatically lower fiscal year 2000 request?
    Response. In 1997 as EPA was developing the fiscal year 1999 budget 
request, we used site-specific project schedules and budgets based on 
the best professional judgment of regional project managers who are 
responsible for managing or overseeing site-specific cleanup actions. 
However, as investigations and cleanups proceed, time and budget 
requirements change, and the Regions change their projections to 
reflect such changes. At the time of our budget request in fiscal year 
1999, we relied on the best information available. Likewise, our fiscal 
year 2000 budget also reflects the best planning projections available 
to us at the time we formulated the request.

    Question 7c. As you know, I opposed the requested increases as 
unjustified. I felt that the request was not based on any firm data or 
prioritization of resources. In hindsight, given other priorities for 
EPA funds, that was the right course. Can you assure me that this 
request will not return in the fiscal year 2001 budget?
    Response. The Agency has not yet completed development of its 
budget and targets for fiscal year 2001. The budget request will 
reflect project needs, and will continue to reflect EPA's commitment to 
our ``enforcement first'' policy, support a strong State role in 
cleanups, and remain diligent in our efforts to control and reduce 
cleanup costs.

    Question 8a. The Balanced Budget Act of 1997 included a Brownfields 
Tax Incentive that allowed immediate expensing, for tax purposes, of 
environmental cleanup costs at certain sites. Normally, the cleanup 
costs would be added to a property's basis then depreciated over the 
life of the property. This tax incentive has been available since 
August 1997. Although the Administration had great hopes for it, 
anecdotal reports indicate use has not been as great as expected. Do 
you have any information--qualitative or quantitative--on the use of 
this incentive? Do you expect Better America Bonds to fare better?
    Response. The Brownfields Tax Incentive was signed into law on 
August 5, 1997. The first filing deadline for corporate returns under 
this incentive was September 15, 1998; thus providing a very short 
window of 6 months for actual usage of the incentive. Additionally, the 
complexity of the projects considered under the incentive and the 
geographic eligibility requirements have reduced the active usage of 
the incentive in this first year. EPA and its Federal and private 
partners are working diligently to provide tools to taxpayers to 
facilitate the use of the incentive. In discussions with private sector 
developers and legal and financial experts, we have learned that usage 
has been further reduced by the inclusion in the legislation of a 
sunset date, which removes some certainty that cleanup costs will be 
eligible for deduction. Despite these challenges, extensive outreach 
and networking on the incentive have been accomplished in order to 
increase usage of the incentive.
    The Brownfields Tax Incentive did not contain any requirements for 
States to report on usage of the incentive. However, as part of EPA's 
outreach efforts, case studies were developed to demonstrate the 
successful use of the Tax Incentive at two ongoing brownfields 
projects.
    The Better America Bonds proposal has been received with 
considerable enthusiasm by communities and organizations interested in 
Brownfields cleanup, green space preservation and water quality 
protection. Over the past year, communities across the country signaled 
a strong desire for more livable communities in more than 240 State and 
local measures on land conservation and growth initiatives. Better 
America Bonds would provide the financing necessary to enable 
communities to move forward with many of their Brownfields and 
Greenspace plans.

    Question 8b. Please explain the relationship between Better America 
Bonds and the tax incentive--as they appear to be mutually exclusive. 
If both are available, please provide the committee with hypothetical 
scenarios that demonstrate which incentive would be a ``better deal'' 
at a typical Brownfields site.
    Response. Better America Bonds will further the Brownfields 
Initiative by providing much needed flexible funding that communities 
can use for Brownfields activities. A recent report by the U.S. 
Conference of Mayors pointed to a lack of capital for local governments 
as the leading barrier to the cleanup and reuse of Brownfields. 
Brownfields cleanup is one of the qualifying purposes for Better 
America Bonds. Communities that would like to issue bonds to overcome 
the financing gap for Brownfields cleanup would be able to apply for 
Better America Bonds issuance authority. The Bonds proposal will enable 
states, tribes and local governments to generate $9.5 billion in bonds 
over 5 years.
    The Better America Bonds proposal will work in conjunction with 
other existing tools such as the Brownfields Tax Incentive. It will 
supplement, not replace, existing Brownfields funding, thus increasing 
the range of tools and funds available for Brownfields cleanup. The Tax 
Incentive, for example, is targeted at privately-financed Brownfields 
cleanups; the Bonds proposal, in contrast, supports publicly-financed 
Brownfields activities.

    Question 9a. The Administration Budget assumes reimposition of the 
Superfund taxes. Since the taxes expired at the end of 1995, there have 
been changes that lower the Alternative Minimum Tax. This is the basis 
on which the corporate environmental tax was computed. Does the 
President's budget use the reinstated Superfund taxes to offset new, 
nonSuperfund spending?
    Response. The Budget proposes to reinstate the Superfund excise 
taxes and corporate environmental income (CEI) tax. The revenues from 
this proposal would continue to be fully dedicated to the Superfund 
Trust Fund for the exclusive purposes of Superfund cleanup activities. 
In addition to raising revenues, the proposal to reinstate the 
Superfund taxes would generate roughly $1.2 billion per year in PAYGO 
credits. The Budget proposes to use these PAYGO credits, but not the 
tax revenue, as an offset to increase discretionary spending. Even 
though the Superfund PAYGO credits would offset increased non-Superfund 
spending for scoring purposes, no funds would be diverted from the 
Superfund Trust Fund.

    Question 9b. Must the Superfund taxes be reinstated in order for 
the Congress to continue funding Superfund at its current requested 
level of $1.5 billion per year, as the 1997 Balanced Budget Act 
assumes?
    Response. The 1997 Balance Budget Act assumes the reinstatement of 
Superfund taxes. Superfund taxes support national program priorities 
such as construction completions. Without the reinstatement of 
Superfund taxes, the trust fund unappropriated balance will be depleted 
before the end of fiscal year 2001. Superfund tax revenue replenishes 
the trust fund balance and provide funds for the program. A lack of 
funding will disable the program in achieving its goal of 925 
completions by fiscal year 2002.

    Question 9c. Is it the Administration's view that reimposition of 
its proposed mix of Superfund taxes fairly apportions financial 
responsibility for Superfund cleanup activities among the various 
categories?
    Response. The existing tax structure base is generally realistic 
and equitable on the basis that it is aimed at those at the producer/
manufacturer/owner level using the substances found at Superfund sites. 
The Superfund tax structure adheres to the ``polluter pays'' principle, 
a cornerstone of the Superfund program--that those who are responsible 
for the contamination must pay for the cleanup. This tax is imposed on 
those hazardous substances most frequently found at Superfund sites and 
collected to pay for their clean up and prevention, response, and 
reduction of the health and environmental risks posed by them.
    The economic impact of Superfund environmental taxes is minimal, 
both at the producer/manufacturer/owner level and at the consumer 
level. In an analysis completed in 1994 for the Agency, it was found 
that the chemical excise tax was generally less than 2 percent of the 
chemical prices and likely to be passed through to consumers in the 
form of higher prices. The impact of petroleum taxes on petroleum 
prices was less than 1 percent. Finally, the environmental tax fell 
primarily on larger firms. Eighty-nine percent of the corporate 
environmental tax was paid by firms with assets exceeding $250 million. 
In essence, the analysis suggested that the amount of taxes relative to 
prices was small enough to avoid significant economic impacts (Economic 
Impact of Superfund Taxes report to EPA. Prepared by Industrial 
Economics, Inc., 1994)

    Question 9d. Does the Administration's proposal for the corporate 
tax take into account the 1997 reduction in the alternative minimum 
tax, or would the environmental tax be a proportionately lower 
percentage of the overall mix of Superfund taxes, including excise 
taxes, that it was prior to its expiration in 1995?
    Response. The Administration proposes the reinstatement of the 
Superfund taxes, excise and environmental taxes. The Administration's 
estimates take into account the change in the alternative minimum tax 
``AMT'' according to the Taxpayer Relief Act of 1997 (Public Law 105-
34). According to the Congressional Joint Committee on Taxation, 
``Congress believed that the alternative minimum tax inhibits capital 
formation and business enterprise. Therefore, the Act modified the 
depreciation adjustment of the alternative minimum tax (the most 
significant business-related adjustment of the alternative minimum tax) 
with respect to new investments. In addition, the Congress believed 
that the alternative minimum tax is administratively complex. 
Therefore, the Act repealed the alternative minimum tax for small 
corporations'' by essentially redefining the AMT. For example, a 
corporation that had average gross receipts of less that $5 million for 
the 3-year period beginning after December 31, 1993 is exempt from the 
alternative minimum tax.
    The Administration's estimates effectively maintain the excise tax 
mix and corporate environmental tax rates at the same levels prior to 
1995. This will sustain each tax's percentage of the total tax revenue 
to approximately equal to prior 1995 percentages. The corporate 
environmental tax will only be affected by the fundamental re-
definition of the AMT on which it is based. Under the new AMT 
definition small businesses are excluded, so one might expect the 
revenue stream to decrease from the corporate environmental tax. If the 
economy were held constant to 1995 conditions and the two tax rates 
were applied, there would be a difference in revenue streams. However, 
given the excellent economic conditions of recent years, projections 
show that the alternative minimum tax and, as a result, the derivative 
corporate environmental tax receipts would be relatively higher than 
those prior to 1995.

    Question 10a. In February 1998, EPA issued guidance regarding 
settlements with parties at so-called municipal co-disposal sites. It 
appears that the guidance is based on EPA's experience at many such 
sites, and assumes that EPA can use formulas and percentages as a 
method to accurately estimate the share of liability attributable to 
municipal solid waste activity. If that liability can be accurately 
approximated, then EPA can quickly settle liability with these parties. 
Is it fair to State that EPA issued the guidance because it was 
necessary to deal with parties whose liability at Superfund sites is 
based on conduct associated with Municipal solid waste (MSW) disposal 
at co-disposal sites differently from other parties?
    Response. The February 5, 1998 ``Policy for Municipality and 
Municipal Solid Waste CERCLA Settlements at NPL Co-Disposal Sites'' 
(Policy) is intended to reduce the transaction and litigation costs of 
contribution claims among responsible parties at co-disposal sites, by 
giving guidance on resolving such contribution claims. The Policy 
represents an exercise of the Agency's enforcement discretion to enter 
into settlements to resolve a party's liability at a Superfund site 
and, thereby, provide a settling party with contribution protection for 
matters addressed in the settlement pursuant to CERCLA section 
113(f)(2). Although MSW may contain hazardous substances, such 
substances are generally present in only small concentrations. MSW-only 
landfills rarely become Superfund sites, and the cost of remediating 
MSW is typically lower than the cost of remediating hazardous waste. 
Therefore, EPA has had a long-standing policy of not identifying an MSW 
generator/transporter as a potentially liable party unless there is 
site-specific evidence that the MSW the party disposed of contained 
hazardous substances derived from a commercial, institutional or 
industrial process or activity. Despite this long standing policy, the 
potential presence of small concentrations of hazardous substances in 
MSW has resulted in contribution claims by private parties against MSW 
generators and transporters. Although EPA will continue its policy of 
not generally identifying MSW generators/transporters as PRPs, the 1998 
Policy recognizes the strong public interest in reducing the burden of 
contribution litigation at co-disposal landfills and provides for 
settlements with the MSW parties. EPA was not required, nor was it 
otherwise ``necessary'' for EPA, to issue the Policy.

    Question 10b. There were changes to the formulas between the July 
1997 proposal and final February 1998 guidance. Do you believe that the 
formulas and percentages in the final municipal settlement guidance 
accurately approximates the share of liability attributable to solid 
waste activities at a co-disposal Superfund site?
    Response. The formulas and percentages in the Policy that provide 
guidance on settlement terms with MSW parties represent the Agency's 
best approximation of fair settlement terms based on its experience in 
implementing and enforcing both the Superfund and RCRA programs. For 
settlements with MSW generators and transporters, EPA estimated the 
cost of remediating MSW at a representative RCRA Subtitle D landfill. 
This cost estimate is based on the costs of closure/post closure 
activities at such landfills, and is derived from the cost model used 
in EPA's ``Regulatory Impact Analysis for the Final Criteria for 
Municipal Solid Waste Landfills'' (PB-92-100-841, September 1991). For 
municipal owners and operators of co-disposal sites, the presumptive 
settlement percentage was based on several factors, including the 
average historical settlement percentages paid by such municipalities 
at sites with multiple, viable, non-de minimis, non-MSW generator or 
transporter PRPs. The Policy provides that such settlement terms should 
be adjusted based onsite-specific factors. EPA believes that the 
Policy's settlement formula and percentage for MSW generators and 
transporters and municipal owners and operators of co-disposal sites 
provides a fair and efficient means by which EPA may settle with such 
parties.

    Question 10c. Between July 1997 and February 1998 there were 
changes in the guidance regarding the treatment of owners and 
operators. The changes make it explicit that the guidance should be 
applied to municipal owners and operators when there are viable, non-de 
minimis, non-MSW transporters and generators. Assuming that there are 
two different municipal owners at identical sites, and at one site 
DuPont is also a PRP, while at the other all of the non-MSW PRPs are 
now defunct or bankrupt, the municipal owner at the former can get 
relief under the policy, the municipal owner at the latter probably 
cannot. Why is the viability of other parties even relevant? Is not the 
purpose of the policy to offer a fair settlement to parties that 
engaged in a specific type of conduct?
    Response. The Policy was always intended to apply to co-disposal 
landfills where there are contribution claims between industrial 
parties and MSW generators and transporters, and municipal owners and 
operators of such sites, and is meant to provide guidance for resolving 
contribution claims among those potentially responsible parties. In the 
first example, therefore, the Policy would apply if DuPont brought a 
claim for contribution against the municipal owner. In the second 
example, the Policy would not apply. Also, the Agency may not exercise 
its enforcement discretion as contemplated under the Policy if doing so 
would leave only the United States to conduct the cleanup of a site 
with little or no possibility of recovering its response costs.
    As explained in the Policy, the presumptive settlement percentage 
for municipal owners or operators of co-disposal sites was based on 
several factors, including the average historical settlement 
percentages paid by such municipalities at sites with multiple, viable, 
non-de minimis, non-MSW generator or transporter PRPs. If EPA had 
included sites where the municipality was the only viable PRP in 
reviewing these past settlements, the average settlement amount would 
have been a great deal higher because it would have accounted for a 
number of settlements where the municipality paid 100 percent of the 
cleanup costs. This consideration was present both at the time the 
policy was first published for comment and at the time that it was 
issued in revised form.
    As always, EPA intends to continue to take site specific factors 
into account to reach a settlement that is in the public interest.

    Question 10d. One reason for differential treatment in the 
scenarios noted above could be to protect Superfund from large cleanup 
expenditures for orphan shares. Can you estimate how much it would cost 
to implement the reform in the same manner for all municipal owners 
irrespective of the viability of other responsible parties?
    Response. EPA is performing the analysis you have requested and 
will provide you with the results as soon as they are available.

    Question 11. You have requested $89 million in the fiscal year 2000 
budget for a line described as ``Maximizing PRP Involvement (including 
reforms).'' Please inform the committee how much is budgeted in fiscal 
year 2000 to pay for reimbursement of orphan shares under section 
122(b)(1) or any other provisions of CERCLA. Please provide the same 
information for fiscal years 1993 through 1998, along with projections 
for fiscal year 1999.
    Response. As a matter of policy, the Agency has been providing 
compensation to settling parties who agree to perform cleanup work by 
forgiving portions of past recoverable EPA costs and future oversight 
costs pursuant to EPA's June 1996 orphan share policy. Historically, 
the Superfund budget has not requested discretionary resources to 
compensate PRPs for orphan shares. In recent years and in the fiscal 
year 2000 President's Budget, however, the Agency has requested $200 
million in mandatory orphan share spending.
    Question 12a. EPA's GPRA goal for the RCRA Corrective Action 
Program is to control human exposures at 95 percent of the high 
priority corrective action sites and control groundwater releases at 70 
percent of the high priority corrective action sites by 2005. To meet 
that goal, EPA will have to address 1620 high priority sites over the 
next 6 years. EPA has requested $22.7 million for fiscal year 2000 for 
the RCRA corrective action program to address 170 high priority sites. 
Even assuming that many cleanups will be conducted by responsible 
parties, in some cases under State supervision, how will this amount be 
sufficient to meet the Agency's stated goal of addressing 170 high 
priority sites in fiscal year 2000?
    Response. Please see response to question 3-G. above. With respect 
to the number of facility cleanups under State supervision, 33 States 
are authorized for the RCRA Corrective Action Program and a number of 
others oversee facility cleanup work under work sharing arrangements 
with EPA Regions. The Agency believes that the majority of the cleanups 
taking place or planned at the 1,700 high priority facilities are, or 
will be, under State supervision.

    Question 12b. It appears that even if EPA achieves its exposure 
control goals at 170 sites in fiscal year 2000, it will still fall 
short of the target number of 242 sites needed to stay on track to meet 
the overall GPRA goal by 2005. Is this true? If true, why didn't EPA 
request additional funds to address a larger number of high priority 
sites, or to complete cleanup at these sites?
    Response. The committee's reference to the ``target number of 242 
sites needed to stay on track to meet the overall GPRA goal by 2005'' 
appears to straight line the 1,207 facilities remaining after the 
fiscal year 2000 over 5 years assuming an annual target of 242 in each 
remaining year to reach the goals by the fiscal year 2005. In fact, EPA 
has set yearly goals that vary over the fiscal year 2001--2005 period. 
Each EPA region is currently working with its States to develop a plan 
for meeting the fiscal year 2005 goal. The agency expects these plans 
will reflect increased progress in the later years as the effects of 
the many reforms being put into place are felt throughout the program. 
As previously discussed the Agency believes the program to be ``on 
track'' to meet its annual targets through the fiscal year 2000 and has 
not requested funds beyond those in the President's Budget.

    Question 12c. How much additional funding would be needed to 
address 242 sites in fiscal year 2000?
    Response. Please see answer to previous part.

    Question 13. OSWER Acting Assistant Administrator Timothy Fields 
recently promised in a national RCRA conference that he would work to 
``get the regional corrective action budget restored in fiscal year 
2000 and hopefully increased in subsequent years.'' What additional 
funding would be required to ``restore'' the annual corrective action 
budget? What actions, if any, did EPA take to restore the corrective 
action budget?
    Response 13. The Agency restored resources for the corrective 
action program in the fiscal year 2000 request (Fiscal Year 1999 = 
$18,167.4; Fiscal Year 2000 = $22,755.5). As already mentioned, current 
progress toward the fiscal year 2005 goals does not indicate a need for 
additional resources through the year 2000.

    Question 14a. The RCRA Corrective Action Program request is for 
$22.7 million in order to control human exposures at 170 high priority 
sites. This represents \3/10\ of 1 percent of your budget request. 
Superfund, by contrast, receives 20 percent of your budget for 1,260 
listed sites, plus removal actions and other activities. There are over 
1,700 high priority RCRA sites, the vast majority of which have had 
neither human exposures nor groundwater releases controlled. Is it your 
view that RCRA Corrective Action is relatively under-funded as compared 
to Superfund?
    Response. The Agency believes there are fundamental differences 
between the RCRA Corrective Action and Superfund programs that do not 
support resource comparisons. Unlike Superfund where roughly 25 percent 
of cleanups are funded through the Trust Fund, RCRA cleanups are 100 
percent owner/operator funded. EPA and State RCRA Program grant 
resources fund oversight by EPA and State regulators but no actual 
cleanup. In addition, while Superfund is primarily a Federal program 
wherein EPA maintains overall responsibility for cleanups (even where 
States manage cleanups under cooperative agreements with EPA), the RCRA 
cleanup program is formally delegated to, and run by 33 of the States 
in lieu of EPA. In fact, it is likely that the majority of both short 
and long-term cleanup work at the 1,700 high priority facilities will 
be overseen by State, rather than EPA project managers.

    Question 14b. How many more RCRA Corrective Action sites could have 
their human health or groundwater releases controlled if you shifted 
just 1 or 2 percent of your Superfund request--an additional $15 or $30 
million--into RCRA Corrective Action?
    Response. The Agency believes that resources requested for EPA and 
State oversight in the fiscal year 2000 President's Budget are adequate 
to keep the program on track to meet the fiscal year 2005 goals. Such a 
shift would, however impact the Superfund Program causing a significant 
decrease in cleanups conducted by that program.
         national environmental performance partnership system
    Question 1a. EPA, in collaboration with the states, began 
implementing the National Environmental Performance Partnership System 
(NEPPS) in fiscal year 1997. As articulated by EPA, this policy is 
intended to give States a stronger role in priority setting, focusing 
scarce resources on the highest priorities, and tailoring the amount 
and type of EPA oversight to an individual State's performance. To 
implement this policy, EPA stated that it would negotiate performance 
partnerships agreements with States to define the respective roles and 
responsibilities of EPA and the states. How many of these performance 
partnership agreements did EPA negotiate with the States in fiscal year 
1997, 1998, and 1999?
    Response. In fiscal year 1997, EPA's Regional Offices negotiated 33 
Performance Partnership Agreements (PPAs) in 30 states. As illustrated 
in Attachment 1, ``Summary of Participating States, Final fiscal year 
1997 Report,'' some States choose to set up more than one agreement 
when more than one State agency implements environmental programs.
    In fiscal year 1998, 39 PPAs were negotiated in 33 States. These 
agreements are listed by State and agency in Attachment 2.
    The current count, as of February 1999, is that 39 PPAs are in 
place in 33 States (no change from fiscal year 1998). These agreements 
are listed by State and agency in Attachment 3.

    Question 1b. What criteria does EPA use to approve performance 
partnership agreements?
    Response. The objective of the May 17, 1995 agreement was to strive 
for joint State/EPA priority-setting, increased use of environmental 
indicators and other outcome data, use of this data in State self-
assessments, and development of strategies which made best use of 
available resources to meet State sad Federal objectives. State 
participation in NEPPS is voluntary. Once a State expresses an interest 
in developing a Performance Partnership Agreement, EPA works with that 
State to establish a process and an agreement appropriate to the scope 
and depth of the specific State's interest.
    The principal components of the May 17 Agreement suggest that a 
strong agreement would involve a State's environmental and programmatic 
self-assessment, a joint EPA/state priority-setting process, the use of 
environmental and program outcome measures, public involvement, and a 
clear statement of the oversight process to be used between EPA and the 
State. Whenever a PPA serves as the workplan for a Performance 
Partnership Grant, the agreement must meet the requirements for Parts 
31 and 35 of the U.S. Code of Regulations, showing how Federal grant 
funds will be used and accounted for, and how program progress will be 
measured.
    Regional Administrators have the authority to approve PPAs with 
their respective states. The Regions typically work together with any 
State wishing to develop a PPA, even if it falls short on some of the 
objectives in the May 1995 agreement, as long as they believe that the 
State will strive to meet those goals over the longer term. The RA's 
decision is based initially on a judgment of whether the agreement 
ensures that statutory requirements, commitments in delegation 
agreements, the spirit of the May 17 NEPPS Agreement, and basic 
accountability requirements will be met.
    Other than baseline statutory requirements, delegation agreements, 
basic accountability requirements, and the May 17, 1995 Agreement, 
there are no hard and fast criteria for approval of Performance 
Partnership Agreements. This is based on a joint EPA/state decision to 
not specify what Performance Partnership agreements should contain, or 
how they should be organized, at least until we had more experience 
with this new system.
    During the early phases of NEPPS implementation, the EPA Office of 
the Inspector General (OIG) reviewed each PPA and commented on how well 
it appeared to meet the basic expectations in the May 1995 Agreement. 
These OIG comments were conveyed by letter to the respective Regional 
Administrators and State Environmental Officials and are published on 
the EPA website.

    Question 1c. How long does the negotiation and approval process 
take?
    Response. There is no set schedule for negotiation and approval, 
other than the objective of having the agreement ready at the beginning 
of the fiscal year. EPA Regions work with each individual State's 
fiscal and planning needs to set up an appropriate process. On average, 
it is very common for these agreements to take 4-6 months (elapsed 
time) to bring to closure. This allows the necessary collaboration 
across program lines within the State and EPA.
    Some of the first Performance Partnership Agreements took longer 
(up to 10 months), in part because there were no models or guidelines 
to follow. The negotiation time tends to decrease as staff gain 
experience with this new approach. In some cases, only 2-3 months are 
needed. Several regions assert that PPAs take about as much time as 
traditional grant agreements took, even though the new process and 
outcome is more complex. Some regions note that the new process is more 
integrated and streamlined than before.

    Question 2a. In EPA's September 1997 Strategic Plan, the Agency 
commits to evaluating and reporting nationally on progress in meeting 
the goals and objectives of performance partnerships. Has EPA issued 
such an evaluation or report?
    Response. EPA has not issued a formal evaluation or report on 
performance partnerships at this time. Our commitment in the Agency 
Strategic Plan refers to our intention to evaluate and report on NEPPS 
over the longer term. EPA sponsors and conducts studies and workshops 
designed to identify components of PPAs or approaches which are 
successful, and might have relevance in another State or region. 
Examples can be found in recent publications of the Environmental Law 
Institute and the National Academy of Public Administration. EPA is 
currently working with the Environmental Council of the States to 
initiate the Joint System Review envisioned In the May 1995 agreement.
    In addition to the evaluation efforts sponsored by EPA, several 
other government agencies are currently studying different aspects of 
Performance Partnerships. A partial list includes a new study by the 
National Academy of Public Administration (NAPA), a series of 
management system reviews add audits conducted by the Office of the 
Inspector General, and the U.S. General Accounting Office. The NAPA 
report is scheduled to be completed in May 2000.

    Question 2b. How would EPA evaluate the progress to date of the 
performance partnership agreements?
    Response. The NEPPS process is showing signs of meaningful progress 
in improving the management of environmental programs by EPA and the 
States, such as:
    <bullet> Improved focus on long-term outcomes;
    <bullet> Agreement on, and early use of, Core Performance Measures 
which emphasize environmental and programmatic outcomes;
    <bullet> Clear articulation of the level and type of oversight to 
be expected during the life of the agreement;
    <bullet> Enabling States to use the same document for their state/
specific program plan, grant agreement with EPA, and work-sharing 
agreement with EPA;
    <bullet> Producing agreements which are more streamlined and 
integrated than the grant agreements and State/EPA agreements of the 
past.
    <bullet> More openness of the process and the agreements to public 
scrutiny and involvement;
    <bullet> High-level negotiations which have helped resolve several 
EPA/State issues--including enforcement issues;
    The OIG report on Colorado and Texas showed greater focus on 
environmental outcomes, use of resources for complementary, cross-
program objectives; and some evidence of burden reduction.
    Several States have used funding flexibility to support cross-media 
initiatives such as pollution prevention and compliance assistance; to 
emphasize particular problem areas, and to reduce the administrative 
costs of managing multiple EPA grants.

    Question 2c. What criteria will EPA use to evaluate the success of 
performance partnership agreements?
    Response. The formal criteria for the EPA/State Joint System 
Evaluation will be developed jointly by EPA and State representatives, 
but they will consider criteria such as:
    <bullet> Whether environmental conditions and trends are being 
assessed, and this information is actively used as part of the program 
planning and priority-setting process;
    <bullet> Whether basic program objectives are being met or 
exceeded;
    <bullet> Whether the programmatic and funding flexibility provided 
through PPAs and PPGs is increasing the use of new approaches to 
solving environmental problems;
    <bullet> Whether adequate levels of program accountability are 
maintained; and
    <bullet> Whether the process clarifies EPA and State expectations 
as to resources, oversight, and the relative State and Federal roles in 
carrying out environmental programs.

    We will avoid using the numbers of States or numbers of agreements 
as a measure of success in NEPPS, since they don't show the quality of 
thinking and joint effort embodied in an agreement.

    Question 3. What level of resources has EPA dedicated to the 
negotiation, approval, and oversight of performance partnership 
agreements?
    Response. The level of resources dedicated to PPAs varies from 
region to region and across HQ program offices. Headquarters dedicates 
approximately 10-12 FTE across all of the National Program Offices and 
the Office of the Administrator to developing policy and coordinating 
implementation of NEPPS agencywide.
    The Regional Offices average about 4 FTE dedicated to negotiation 
and approval of performance partnership agreements. Thus the total 
estimate for the Regional investment is about 40 FTE. There is 
considerable variation across Regions, since the number of 
participating States varies widely, and agreements with States spanning 
more programs or multiple agencies tend to require a bigger investment.
    The reference to ``oversight of Performance Partnership 
Agreements'' in the question requires clarification. The Regions 
develop these agreements in a collaborative mode with the States. The 
negotiation process is built upon a foundation of self-assessment, 
joint priority-setting, and routine State/EPA interactions during 
program implementation. There is no distinct ``oversight'' process for 
PPAs other than the normal mid-year and end of year reviews, and the 
policy coordination and monitoring functions in Headquarters. At the 
Regional level, oversight activities are conducted as appropriate 
within each program area. The resource estimate provided above does not 
include the time invested in program implementation or oversight across 
all the relevant programs.

Performance Partnerships for Fiscal Year 1997.--Summary of Participating
                                 States
                     [Final Fiscal Year 1997 Report]
------------------------------------------------------------------------
                                  States with Signed  States with Signed
                                   Fiscal Year 1997    Fiscal Year 1997
             Region                   Performance         Performance
                                      Partnership     Partnership Grants
                                   Agreements (PPAs)        (PPGs)
------------------------------------------------------------------------
1...............................  CT/e, MA/e, ME/e,   CT/e, MA/e, ME/e,
                                   NH/e, RI/eh, VT/e.  NH/e, RI/e, VT/e
2...............................  NJ/e, NY/eh.......  NJ/e, NY/e, VI/e
3...............................  DE/e..............  DE/ea, DC/e, MD/a,
                                                       PA/a, WV/a
4...............................  FL/e, GA/e, NC/e..  AL/a, FL/a, GA/ea,
                                                       KY/a, MS/a, NC/a,
                                                       SC/a, TN/a
5...............................  IL/e, IN/e, MN/e,   IL/e, IN/e
                                   OH/e, WI/e.
6...............................  OK/e, TX/e........  OK/e, TX/e
7...............................  IA/a, KS/a, MO/e,   IA/a, KS/a, MO/e,
                                   NB/a.               NB/ea
8...............................  CO/e, ND/h, UT/ea.  CO/e, MT/e, ND/h,
                                                       SD/e, UT/ea, WY/e
9...............................  (none)............  (none)
10..............................  ID/e, OR/e, WA/e..  (none)
------------------------------------------------------------------------
Agency/Department Key: e=environmental; h=health; a=agriculture.
Fiscal Year Performance Partnership Agreements (PPAs): Number of States
  with signed Fiscal Year 1997 PPAs: 29; Total number of PPAs: 32.
Number of Individual State agencies with signed Fiscal Year 1998 PPAs:
  Environmental: 25; Health: 3; Agriculture: 1.
Fiscal Year 1997 Performance Partnership Grants (PPGs): Number of States
  with signed Fiscal Year 1997 PPGs: 36; Number of individual State
  agencies with signed Fiscal Year 1997 PPGs: 40; Environmental: 23;
  Health: 1; Agriculture: 16.


                                               Performance Partnerships.--Summary of Participating States*
                                                                  [Status as of 7/1/98]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                    State agencies
                                   PPAs Currently in    State agencies                         PPGs Currently in      expected to
             Region                Effect (includes    expected to sign         No PPA         Effect (includes    receive first PPG        No PPG
                                  continuing and new     first PPA in                         continuing and new    in Fiscal Year
                                         PPAs)         Fiscal Year 1998                              PPGs)               1998
--------------------------------------------------------------------------------------------------------------------------------------------------------
1...............................  CT/eh, MA/e, ME/e,  ..................  ..................  CT/e, MA/e, ME/e,   ..................  ..................
                                   NH/e, RI/eh, VT/e.                                          NH/e, RI/e, VT/e.
2...............................  NJ/e, NY/eh.......  ..................  PR, VI............  NJ/e, NY/e, VI/e..  ..................  PR
3...............................  MD/e, DE/e........  WV/e..............  DC, PA, VA,.......  DE/ea, DC/h, MD/a,  ..................  ..................
                                                                                               PA/a, VA/a, WV/a.
4...............................  FL/e, GA/e, NC/e..  ..................  AL, KY, MS, SC, TN  AL/a, FL/a, GA/ea,  ..................  ..................
                                                                                               KY/a, MS/ea, NC/
                                                                                               a, SC/ea, TN/a.
5...............................  IL/e, IN/e MN/e,    ..................  MI................  IL/e, IN/e, MN/e,   MI/a..............  WI
                                   OH/e, WI/e.                                                 OH/e.
6...............................  OK/e, TX/e........  AR/e, LA/e........  NM................  OK/e, TX/e........  ..................  AR, LA, NM
7...............................  IA/a, KS/ea, MO/    ..................  ..................  IA/a, KS/a, MO/ea,  KS/e..............  ..................
                                   ea, NE/ea.                                                  NE/ea.
8...............................  CO/e, MT/e, ND/e,   ..................  WY................  CO/eh, MT/e, ND/e,  ..................  ..................
                                   SD/e, UT/e.                                                 SD/ea, UT/ea, WY/
                                                                                               e.
9...............................  ..................  ..................  AZ, CA, HI, NV....  AZ/e, HI/e........  ..................  CA, NV
10..............................  AK/e, ID/e, OR/e,   ..................  ..................  AK/e, WA/e........  ..................  ID, OR
                                   WA/e.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Performance Partnership Agreements (PPAs): Current PPAs: 33 States (39 PPAs); First PPA in Fiscal Year 1998: 3 additional States (3 PPAs); No. PPA: 17
  States.
Performance Partnership Grants (PPGs): Current PPGs: 43 States (52 PPGs); First PPG in Fiscal Year 1998: 2 additional States (2 PPGs); No PPG: 9 States.
Key: e=environmental agency; a=agriculture department; h=health agency.
*Includes DC, PR, and VI


                                     Performance Partnership--Summary of Participating States* (Status as of 2/1/99)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                    State agencies
                                   PPAs Currently in    State agencies                         PPGs Currently in      expected to
             Region                Effect (includes    expected to sign         No PPA         Effect (includes    receive first PPG        No PPG
                                  continuing and new     first PPA in                         continuing and new    in fiscal year
                                         PPAs)         fiscal year 1999                              PPGs)               1999
--------------------------------------------------------------------------------------------------------------------------------------------------------
1...............................  CT/eh, MA/e, ME/e,  ..................  ..................  CT/e, MA/e, ME/e,   ..................  ..................
                                   NH/e, RI/eh, VT/e.                                          NH/e, RI/e, VT/e.
2...............................  NJ/e, NY/eh.......  ..................  PR, VI............  NJ/e, NY/e, VI/e..  ..................  PR
3...............................  MD/e, DE/e........  WV/e..............  DC, PA, VA,.......  DE/ea, DC/h, MD/a,  ..................  ..................
                                                                                               PA/a, VA/a, WV/a.
4...............................  FL/e, GA/e, NC/e..  ..................  AL, KY, MS, SC, TN  AL/a, FL/a, GA/ea,  ..................  ..................
                                                                                               KY/a, MS/ea, NC/
                                                                                               a, SC/ea, TN/a.
5...............................  IL/e, IN/e MN/e,    ..................  MI................  IL/e, IN/e, MN/e,   MI/a..............  WI/a
                                   OH/e, WI/e.                                                 OH/ea.
6...............................  OK/e, TX/e........  AR/e, LA/e........  NM................  OK/e, TX/e........  ..................  AR, LA, NM
7...............................  IA/a, KS/a, MO/ea,  ..................  ..................  IA/a, KS/ea, MO/    KS/e..............  ..................
                                   NB/ea NE/ea.                                                ea, NE/ea.
8...............................  CO/e, MT/e, ND/e,   ..................  WY................  CO/eh, MT/e, ND/e,  ..................  ..................
                                   SD/e, UT/e.                                                 SD/ea, UT/ea, WY/
                                                                                               e.
9...............................  ..................  ..................  AZ, CA, HI, NV....  AZ/e, HI/e........  ..................  CA, NV
10..............................  AK/e, ID/e, OR/e,   ..................  ..................  AK/e, WA/e........  ..................  ID, OR
                                   WA/e.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Performance Partnership Agreements (PPAs): Current PPAs: 33 States (39 PPAs); First PPA in Fiscal Year 1998: 3 additional States (3 PPAs); No. PPA: 17
  States.
Performance Partnership Grants (PPGs): Current PPGs: 45 States (54 PPGs); First PPG in Fiscal Year 1998: 2 additional States (2 PPGs); No PPG: 9 States.
Key: e=environmental agency; a=agriculture department; h=health agency.
*Includes DC, PR, and VI

                      pesticides/toxic substances
    Question 1. As you know, the Food Quality Protection Act (FQPA) and 
the Safe Drinking Water Act (SDWA) of 1996 established a set of 
deadlines for implementation of the Endocrine Disrupter Screening 
Program. By August 1998, EPA was to have developed the screening 
program, followed by program implementation in August 1999 and a report 
to Congress by August 2000. Is EPA going to implement the screening 
program recommended by the Endocrine Disrupter Screening and Testing 
Advisory Committee (EDSTAC) by August 1999, thus meeting the statutory 
deadline set by FQPA and SDWA?
    Response. EPA is already implementing aspects of the Endocrine 
Disruptor Screening Program in anticipation of its 1999 and 2000 
deadline dates. Implementation is focused in developing, standardizing 
and validating methods and procedures for sorting, prioritizing, 
screening and testing endocrine disruptors. The Agency anticipates that 
it will conduct initial rapid screens on up to 5,000 pesticides and 
commodity chemicals by 2000. Additional screens and tests will be 
phased in as the methods are validated.

    Question 2. Is the amount of money requested for fiscal year 2000 
sufficient to meet the August 1999 deadline for implementation of the 
EDSTAC report and the August 2000 deadline for reporting to Congress?
    Response. Current funds will allow implementation of the FQPA 
mandated screening assays for estrogenic effects on humans. We have 
increased our budgeted level for endocrine disruptors Agency-wide by 
over $4 million in fiscal year 2000. Costs in 2001 and beyond will 
increase as we complete the development of screening and testing 
methods and procedures, develop and begin androgen and thyroid hormone 
screening, and as the actual testing of chemicals accelerates.

    Question 3. Might there be other obstacles to meeting the statutory 
deadline?
    Response. We are employing a phased implementation strategy that 
emphasizes the development and use of automated robotic screening 
assays, followed by conventional screens and tests. The automated 
assays represent a new application of an emerging technology. Initial 
demonstration efforts are promising, but require more development than 
originally anticipated. Should the automated assays prove to be an 
untenable option, we will be forced to rely on conventional methods 
which will increase the time necessary to screen large numbers of 
pesticides and chemicals.

    Question 4. What specific deadline has the Agency set for itself in 
order to ensure compliance with the statutory deadline?
    Response. To ensure the Agency meets its deadline we are entering 
final development of tests, testing protocols, validation trials, and 
hazard assessment methods in fiscal year fiscal year 1999 in 
anticipation of screening 5,000 chemicals in Fe to determine their 
endocrine disrupting potential.

    Question 5. If the Agency is not going to meet these deadlines, can 
you demonstrate how EPA intends to move progress forward in 
implementation of the Endocrine Disrupter Screening Program as soon as 
possible?
    Response. The Agency anticipates meeting the statutory deadlines. 
We have increased our budgeted level for endocrine disrupters Agency-
wide by over $4 million in fiscal year 2000. Current funds will allow 
implementation of the FQPA mandated screening assays for estrogenic 
effects on humans.

    Question 6. What portion of the money EPA spends on endocrine 
disruptor research in OPPTS, ORD, and the Office of Water is spent on 
implementation of the EDSTAC protocol?
    Response. EPA has a total Endocrine Disruptor budget of $16.6 
million in fiscal year 1999 and is requesting $21.4 million in the 
fiscal year 2000 President's Budget. From these respective totals, EPA 
plans to expend 32 percent ($5.3 million) and 47 percent ($10 million) 
in direct support of implementing the EDSTAC protocol. These funds will 
be used to help determine estrogenic effects on humans, to support a 
workshop and produce a report on the EDSTAC screening process for 
endocrine disruptors, and determine application of the EDSTAC testing 
program for chemical hazard and risk assessment.

    Question 7. What additional money will be needed to implement the 
EDSTAC protocol in upcoming years and to which divisions will the money 
be allocated?
    Response. The Agency estimates fiscal year 1999 spending of $5.3 
million (OPPTS $4.1 million, ORD $1.2 million, and OW $0.0 million), 
and fiscal year 2000 spending of $10 million (OPPTS $7.7 million, ORD 
$1.3 million and OW $1.0 million), in direct support of the EDSTAC 
protocol. Out-year estimates at the requested level of organizational 
detail will depend on the Agency's future capacity to research and 
screen suspected endocrine disruptors and will be fully addressed 
during the Agency's annual planning and budgeting processes for 2001, 
and beyond.

                            commuter choice
    Question 1. I understand EPA's Office of Mobile Sources has taken 
Federal leadership in educating the public about Commuter Choice 
programs that rely on recently enacted Federal tax incentives for 
commute alternatives. I commend EPA for its leadership role in 
supporting Commuter Choice because I believe it can make a significant 
impact on reducing pollution, congestion, and lowering the public tax 
burden. What specifically is EPA spending in fiscal year 1999 to 
support this effort for Commuter Choice?
    Response. In fiscal year 1999 the Agency is targeting roughly a 
half million dollars toward Commuter Choice programs. The bulk of the 
resources will go toward cooperative agreements with business and 
environmental groups to develop public/private partnerships to deliver 
public education materials and establish a national coalition of 
organizations to educate and promote commuter choice. In addition, 
funds would go to the development of emission benefit quantification 
tools for Commuter Choice programs.

    Question 2. What amount of funding does EPA think is necessary to 
conduct a successful public education commuter Choice program in fiscal 
year 2000 and subsequent years?
    Response. A multi-agency, public/private partnership to deliver a 
national education program will require substantial financial 
resources. In fiscal year 1999 EPA is developing the infrastructure 
that will make a multi-year national program possible. We believe a 
national level campaign will require at least $5 million in fiscal year 
2000 from all funding sources including those outside of EPA; we expect 
similar funding levels would need to be sustained for several 
additional years. The goal of this effort is to make Commuter Choice 
benefits a standard benefits package available to employees just like 
401 K plans and health care benefits.

    Question 3. Does the President's budget include funding for this 
effort?
    Response. We expect that through the recently enacted 
Transportation Equity Act for the 21st Century, States and localities 
will provide funding for many projects related to commuter choice. 
Also, part of EPA's portion of the Climate Change Technology Initiative 
in the President's Budget includes $3.7 million targeted for 
transportation programs focused on reducing vehicle miles traveled 
(VMT). The Commuter Choice program is one element of the VMT reduction 
strategy and funding for the program is $500,000. The money will 
provide continued support for the multi-year partnerships which we 
began in fiscal year 1999.
                                 ______
                                 
    Responses by Administrator Browner to Additional Questions From 
                           Senator Bob Smith
    Question 1. General.--The Administration has proposed a number of 
new initiatives and modifications to existing programs in this year's 
budget request. Could you tell us which items will require new 
statutory authority to implement and which ones will not (i.e., 
proposals that you intend to implement administratively)?
    Response. New initiatives and their statutory authorities are 
listed in the table below.
                                 ______
                                 

------------------------------------------------------------------------
                Initiative                       Statutory Authority
------------------------------------------------------------------------
Initiatives with existing statutory
 authority:
  Clean Air Partnership Fund..............  Section 103 of the Clean Air
                                             Act.
  Childhood Asthma Initiative.............  Title IV (relating to indoor
                                             air quality) of the
                                             Superfund Amendments and
                                             Reauthorization Act of 1986
                                             (SARA); Monitoring: Section
                                             103 of the Clean Air Act.
Initiatives requiring new statutory
 authority:
  Better America Bonds....................  Amendments through the Ways
                                             and Means and Finance
                                             Committees; no further EPA
                                             authority needed.
Clean Water State Revolving Fund 20         Proposed language is
 percent Set Aside to provides States with   included in the State and
 flexibility to address nonpoint source      Tribal Assistance Grants
 pollution.                                  Account in the fiscal year
                                             2000 President's Budget.
Raise cap on tribal 319 grants to better    Proposed language is
 address nonpoint source pollution on        included in the State and
 tribal lands.                               Tribal Assistance Grants
                                             Account in the fiscal year
                                             2000 President's Budget.
------------------------------------------------------------------------

                               superfund

    Question 2a. Past Requests for an Additional $1.3 Billion for 
Superfund.--Less than 10 months ago, on April 30, 1998, Administrator 
Browner testified before Senator Bond's Appropriations Subcommittee 
that the Administration needed an extra $1.3 billion, spread over 2 
years, to keep Superfund on track. In justifying the request for $2.1 
billion in 1999, Ms. Browner stated that the requested funding level 
would ``ensure that we meet the Administration's commitment to clean up 
900 of the nation's worst toxic waste sites by the end of the year 
2001.''
    EPA's fiscal year 2000 budget submission states the Administration 
plans to complete 925 cleanups by the end of 2002. Yet the request 
represents a 30 percent reduction from the fiscal year 1999 budget 
request and would hold Superfund funding flat at approximately $1.5 
billion per year. Based on the fiscal year 2000 budget, EPA's year end 
goal for fiscal year 2001 is 840 construction completions. It therefore 
stands to reason that the infusion of an added $1.3 billion that the 
Administration requested 10 months ago would merely have resulted in a 
net of 60 sites completed 1 year early--the difference between the 900 
sites projected for completion by the end of 2001 in last year's budget 
request, versus the 840 projected in this year's budget. Is that 
correct? If not, why not?
    Response. The Superfund program has made substantial progress in 
completing construction at NPL sites. EPA expects to achieve completing 
construction at 840 sites by the end of 2001. The Administration's 
request for additional funding for fiscal year 1998 and fiscal year 
1999 provided a window of opportunity to achieve more construction 
completions and increase the pace of cleanup through 2001 and beyond, 
while permitting the Superfund program to continue critical site 
assessment functions and initiate cleanups at other sites. The 
additional $1.3 billion requested by the President would have enabled 
EPA to complete the construction of cleanup activities in 60 additional 
communities by December 2000. With the lack of this funding, nearly 2 
additional years will have passed before EPA achieves construction 
completions in 925 communities. In addition, the additional funding 
would have enabled EPA to initiate cleanups in many more than 
communities and achieve construction completions far earlier in many of 
these communities than is possible without this infusion of cleanup 
funds.

    Question 2b. Please provide the committee with a detailed analysis 
of the assumptions on which EPA's 1998 testimony regarding the fiscal 
year 1999 budget was based, and further demonstrate the areas which 
have improved and form the basis for your dramatically lower fiscal 
year 2000 request?
    Response. In 1997 as EPA was developing the fiscal year 1999 budget 
request, we used site-specific project schedules and budgets based on 
the best professional judgment of regional project managers who are 
responsible for managing or overseeing site-specific cleanup actions. 
However, as investigations and cleanups proceed, time and budget 
requirements change, and the Regions change their projections to 
reflect such changes. At the time of our budget request in fiscal year 
1999, we relied on the best information available. Likewise, our fiscal 
year 2000 budget also reflects the best planning projections available 
to us at the time we formulated the request.

    Question 2c. Several Senators opposed the requested increases as 
unjustified, believing that the request was politically motivated, not 
based on any firm data or prioritization of resources. I and many of my 
colleagues were harshly criticized for opposing the requested 
increases. In hindsight, given other priorities for EPA funds, our 
opposition was the right course. Can you assure me that this issue will 
not return in the fiscal year 2001 budget?
    Response. The Agency has not yet completed development of its 
budget and targets for fiscal year 2001. The budget request will 
reflect project needs, and will continue to reflect EPA's commitment to 
our ``enforcement first'' policy, support a strong State role in 
cleanups, and remain diligent in our efforts to control and reduce 
cleanup costs.

    Question 3a. Fate of the Superfund Program.--Administrator Browner 
has recently been quoted in the press acknowledging that the part of 
the Superfund program that addresses National Priority List sites is 
``ramping down.'' There is much evidence to support this premise.
    <bullet> The General Accounting Office reported in November that 
there were only about 232 sites remaining nationwide that either EPA, 
the States or both believed would eventually be listed on the National 
Priority List. EPA agreed ``with the basic findings'' of this report.
    <bullet> Over the last 6 years, EPA has added an average of 26 
sites per year to the List.
    <bullet> Superfund site assessments, the first screening activity 
at the beginning of the process that may end in listing, decreased from 
an annual average of 1,768 from 1990 to 1992 to an average of 318 in 
the last 3 years.
    Since EPA concurs that the new NPL listings are likely to be close 
to the GAO report level of 232, this raises significant implications 
for funding the program in future years. In particular, please provide 
an estimate of what EPA expects the Superfund program to look like in 5 
years.
    <bullet> How many sites will be construction complete?
    Response. The Agency's Government Performance and Results Act 
(GPRA) goal projects the rate of Superfund site construction 
completions through 2005. Assuming a steady budget through the next 
seven fiscal years (Fiscal Year 1999--Fiscal Year 2005), and assuming, 
on average, 85 construction completions per year, we should achieve by 
the end of fiscal year 2005 about 1,180 construction completions.
    <bullet> How many sites will be on the NPL but not yet construction 
complete?
    As of January 1999, there were 1446 total NPL sites. Assuming that 
EPA will achieve 85 construction completions through 2005, over 400 
sites currently on the NPL will be in remediation in 2003. This 
estimate does not include any additional sites that may be added to the 
NPL during this or subsequent years.
    <bullet> What level of funding and staffing will be needed to 
execute Superfund's remaining mission in fiscal year 2004 and beyond?
    Although the Superfund program has made substantial progress in the 
last 6 years, significant work remains at current and proposed NPL 
sites. At the end of fiscal year 1999, the Agency will still be working 
to complete construction at over 700 sites currently on the final NPL. 
We also expect to list 40 sites this year on the NPL. Additionally, EPA 
will need to invest resources in post-construction activities to ensure 
that remedies remain protective into the future. Finally, EPA expects 
to continue to have an important role in conducting removal actions to 
protect communities across the country.
    Although our need for future resources is clear, the Agency has not 
completed development of the Superfund budget request for fiscal years 
and beyond. However, to continue our current pace of cleanup, including 
removals, cleanups of new NPL additions, and post-construction work, 
our GPRA goal currently assume a steady State budget into the future.

    Question 3b. Again, assuming that there will be a relatively small 
number of new sites added to the Superfund NPL, what does EPA foresee 
as the role and resource requirements of the Superfund program at sites 
that will necessarily fall to State cleanup programs for action?
    Response. Historically, we have listed an average of 26 sites per 
year on the NPL. This year we expect to list roughly 40 sites on the 
NPL. We do not know now how many more sites will ultimately need to be 
added to the NPL, but we will focus our NPL listing activities on those 
sites that States agree should be added to the NPL and those sites 
where States are unable or unwilling to clean up the site. We have been 
using and will continue to use these considerations to guide our 
listing decisions. States are supporting our NPL listing activities at 
this level through our State concurrence policy.
    States play a key role, and will continue to play a key role, in 
site assessment and site cleanups. State cleanup programs play a vital 
role for both NPL and non-NPL sites and it is EPA's hope that this 
successful partnership continues within the Superfund program. In fact, 
Superfund funding has been a key factor in the growth of State 
Superfund programs. EPA's Superfund program has provided major funding 
to the States. This past year, 1998, Superfund provided over $140 
million to the States. Of that total, approximately $25 million went 
toward State voluntary cleanup programs and Core program funding to 
States. Another $17 million was provided to States in the form of 
cooperative agreements for funding site assessment work (PA/SI 
funding), $32 million for NPL site studies, planning, design, and PRP 
oversight, and $69 million for Fund-financed NPL remedial actions 
managed by States.
    Further, EPA plays a significant role in non-NPL cleanups by 
conducting removal actions. EPA has also performed approximately 5,500 
removals since the beginning of Superfund at a rate of 200-300 per 
year. These activities will not decrease if the number of NPL sites 
decreases. As a result of these factors, EPA does not foresee a sharp 
decline in its need to maintain its current role or resource 
requirements through 2005.

    Question 4a. Many observers believe the Superfund program is 
ramping down now, and we need to start planning for the post-Superfund 
world right now. These next questions are based on EPA data from you 
fiscal year 1999 and 2000 budget submittals, and EPA data provided to 
GAO and CRS. The fiscal year 2000 budget projects that all remedial 
construction will be completed at 925 sites by the end of 2002, 
maintaining the pace of 85 construction completions per year attained 
in 1997. How long beyond 2002 will EPA maintain an 85 construction 
cleanup per year pace before the program starts to run out of non-
Federal sites ready for cleanup?
    Response. Due to the success of our Administrative Reforms, we 
project that we will achieve, on average, 85 construction completions 
through 2005. Projections beyond this year cannot be made with any 
certainty due to the changing demands of site-specific work, such as 
new information regarding types or amounts of contamination present, 
shifts in construction schedules, or PRP takeovers.

    Question 4b. Over the past 6 years, EPA has added approximately 155 
sites to the NPL, an average of 26 per year. GAO says it takes about 
10.6 years from site listing to cleanup; EPA's position is that 
administrative reforms have reduced this length of time. Using the 
figure of 8 years and setting aside the sites deemed ``construction 
complete,'' doesn't that imply that we are headed towards a steady-
state NPL size of approximately 208 sites--eight times twenty-six?
    Response. By 2005, EPA will have cleaned up the vast majority of 
the sites currently listed on the NPL. However, we expect that more 
than 250 of the current NPL sites will be in active remediation at that 
time. We do not know now how many more sites will need to be added to 
the NPL, but we will focus our NPL listing activities on those sites 
that States agree should be added to the NPL and those sites where 
States are unable or unwilling to clean up the site. We have been using 
and will continue to use these considerations to guide our listing 
decisions. This year we expect to list roughly 40 sites on the NPL.

    Question 4c. If the fiscal year 2004 NPL list is then roughly one-
sixth the size of the current NPL, that leads to the conclusion that 
the 2004 budgetary requirements for the program would be roughly $250 
million per year. Do you agree? If not, why not?
    Response. Historically, we have listed an average of 26 sites per 
year on the NPL. We do not know now how many more sites will need to be 
added to the NPL, but we will focus our NPL listing activities on those 
sites that States agree should be added to the NPL and those sites 
where States are unable or unwilling to clean up the site. We have been 
using and will continue to use these considerations to guide our 
listing decisions. This year we expect to list roughly 40 sites on the 
NPL.
    A budget of $250 million per year would appear to be far too small 
to address this current and any future additions to the NPL remediation 
workload as well as the rest of the Superfund program funding needs. In 
addition to remedial action costs, the EPA Superfund budget would need 
to include site assessment activities, removal program needs, post-
construction activities, other Federal agency costs, and the other 
categories displayed, for example, in EPA Superfund appropriation 
requests. We will continue to give all these factors careful 
consideration as we prepare our budgets in future years.

    Question 4d. If you disagree with this analysis, is there some 
other set of assumptions that the committee should be using for the 
annual rate of additions to the NPL, or expectations about the ultimate 
size of the Superfund program?
    Response. As described previously, we do not know now how many more 
sites will need to be added to the NPL, but we will focus our NPL 
listing activities on those sites that States agree should be added to 
the NPL--sites such as those that have recalcitrant PRPs or where 
cleanup is needed and is not occurring. This year we expect to list 
roughly 40 sites on the NPL.
    A budget of $250 million per year would appear to be far too small 
to address this current and any future additions to the NPL remediation 
workload as well as the rest of the Superfund program funding needs. In 
addition to remedial action costs, the EPA Superfund budget would need 
to include site assessment activities, removal program needs, post-
construction activities, other Federal agency costs, and the other 
categories displayed, for example, in EPA Superfund appropriation 
requests. We will continue to give all these factors careful 
consideration as we prepare our budgets in future years.

    Question 4e. It takes considerable time from when a site is listed 
until it is ready for the actual cleanup. Even if you listed 500 sites 
today they would not be ready for cleanup for some time.
    Will not the cleanup program face a dramatically decreased demand 
for work in the next few years as work is completed on older sites, as 
there are only 155 or so sites moving through the pipeline from the 
listing years of 1993 through 1998?
    How do you manage a system staffed to complete 85 sites a year when 
past listing decisions will only present it with 26 sites ripe for 
cleanup to begin in any particular year?
    Response. The Superfund program has made substantial progress in 
the last 7 years, and approximately 89 percent of the NPL sites have 
had cleanup activities, are construction complete, or have cleanup 
underway. However, these accomplishments cannot overshadow the 
significant work remaining at current and proposed NPL sites. At the 
end of fiscal year 1999, the Agency will still be performing work at 
over 700 sites currently on the final NPL (an estimated 470 sites will 
have construction underway).
    We also need resources to clean up newly listed sites as quickly as 
possible. We do not know now how many more sites will need to be added 
to the NPL, but we will focus our NPL listing activities on those sites 
that States agree should be added to the NPL and sites where States are 
unable or unwilling to clean up the site. We have been using and will 
continue to use these considerations to guide our listing decisions. 
This year we expect to list roughly 40 sites on the NPL.
    Furthermore, even as cleanup activities are completed at sites, EPA 
will need to invest resources in ensuring that remedies remain 
protective into the future. EPA will have responsibilities to conduct 
oversight of continuing operations, to review periodically remedies at 
which waste remains in place, and to take response actions at sites at 
which remedies do not remain protective. Finally, EPA expects to 
continue to have an important role in conducting removal actions to 
protect communities across the country. The need for EPA involvement in 
removals is unlikely to decline, and, as fewer sites are added to the 
NPL in the future, removal actions may be more widely used to achieve 
necessary cleanups.
                                 ______
                                 
    Responses by Administrator Browner to Additional Questions From 
                           Senator Jim Inhofe
                                 sulfur
    Question 1. In February 1993, and subsequently in December 1995, 
the State of Alaska petitioned the EPA for an exemption from the sulfur 
requirements of the Clean Air Act that apply to diesel fuel used for 
transportation. During that time, the Agency provided a temporary 
exemption to give time for a task force to thoroughly study the low-
sulfur diesel issue. That task force recommended that the State seek a 
permanent exemption, and on April 28 of last year, the EPA agreed and 
proposed to grant the request, characterizing compliance in Alaska as 
``unreasonable.'' What action does the EPA plan to take when the 
current temporary exemption expires?
    Response. We intend to publish a final rule prior to July, when the 
current exemption expires. Although no decisions have been made, our 
current thinking is that an appropriate course of action would be to 
grant Alaska another temporary exemption, most likely through 2003.
    The Agency received significant adverse comments on its proposal of 
a permanent exemption for Alaska from the Engine Manufacturer's 
Association (EMA) and from environmental groups in Alaska. The EMA is 
very concerned about the impact of high sulfur levels on new heavy-duty 
diesel technology (referred to as ``2004 technology'') that will be 
introduced as early as 2002. The Alaska environmental groups are 
concerned about the health effects of particulate matter and toxic 
emissions from trucks fueled with high sulfur diesel fuel.
    Upon considering these issues, we now believe that a permanent 
exemption for Alaska may not be appropriate.

    Question 2a. Regarding the Tier Two Automotive standards which are 
expected to be proposed shortly: How will EPA accommodate the special 
supply and air quality concerns of westerns and rural areas?
    Response. EPA understands that the oil supply in certain western 
areas depends to some degree on gasoline from small refiners and EPA 
has worked closely with refiners located in western States to 
understand the capabilities and limitations of these refineries. Many 
refiners in the West and across the country meet the Small Business 
Administration's definition of a small gasoline producer. The Agency 
convened a Small Business Advocacy panel to collect information about 
these companies and has taken the panel's recommendations into 
consideration in its proposal. In addition, EPA is taking comment on 
the appropriate criteria for determining whether a refinery would 
qualify for small refinery provisions. The Agency is considering the 
air quality needs of areas projected to be out of compliance with the 
ozone and PM NAAQS, as well as those areas which need visibility 
improvements.

    Question 2b. How would a national rule, modeled on the California 
standard be justified, on a public health, environmental, and/or cost 
basis?
    Response. The overall level of the Tier 2 vehicle standards in the 
United States will be based on air quality need, technical feasibility 
and cost, and cost effectiveness, and may not necessarily be the same 
as those recently adopted in California. The Agency is evaluating 
program design options where there would be some overlap between the 
programs applicable in California and the rest of the U.S. These 
options would reduce design and certification costs for manufacturers, 
as much as possible, by harmonizing test procedures and allowing 
vehicles certified in California to be directly certifiable in the rest 
of the U.S. The gasoline sulfur levels for the Federal program will be 
based on the air quality impacts of sulfur in gasoline and on the 
technological needs anticipated for Tier 2 vehicles, and the combined 
costs of the vehicle standards and gasoline sulfur requirements will be 
used to assess the cost-effectiveness of the proposal.

    Question 2c. If new standards are proposed for sulfur, what are the 
Agency's long term resource plans to handle the surge in permit 
applications to comply with the new requirements?
    Response. EPA intends to take comment on various approaches to 
streamline the permitting process to address issues raised by the 
refinery industry regarding the Tier 2 rule. EPA will solicit input 
from the oil industry and State and local permitting authorities on 
these issues.
                                 naaqs
    Question 1. Please provide a detailed breakdown on the 
PM<INF>2.5</INF> research plan, including the research topics 
recommended by the National Academy of Sciences. Please include for 
each research topic a breakdown on: (1) How much NAS recommends to 
complete the topic, (2) How long NAS believes the research will take, 
(3) The amount of resources EPA proposes to spend on each research 
topic by fiscal year, (4) The EPA projected completion date for each 
research topic, and (5) Identify which research topics will be 
completed in time for use in the next 5-year review period. In addition 
please include the major milestones for the next 5-year review 
(including the Clean Air Scientific Advisory Committee of EPA's Science 
Advisory (CASAC) Board reviews and the timing for the EPA staff work).
    Response. In their March 1998 report, the National Academy of 
Sciences (NAS) Committee on Research Priorities for Airborne 
Particulate Matter provided initial recommendations for particulate 
matter (PM) research activities spanning the period from 1998 through 
2010. Ten research topics were identified as highest priority. The NAS 
also commented that other important research, such as emissions 
characterization and other research affecting standards implementation, 
should be supported but did not provide a resource estimate for these 
additional topics. The second NAS report on research priorities is 
imminent (now expected to be received in March or April, 1999). During 
a public presentation in January, 1999, NAS staff indicated that while 
this second report will clarify and elaborate on the March 1998 report 
(particularly regarding atmospheric sciences research), and describe 
the NAS plans for monitoring implementation of the PM research program, 
substantial changes are not expected to the research priorities 
presented in the first NAS report.

    Question 1a. How much NAS recommends to complete the topic?
    Response. The ten research topics identified in the March 1998 
report, the amount and duration of funding recommended by NAS for each 
topic, and the estimated EPA fiscal year 1998 through fiscal year 2000 
funding levels are shown in the table attached. Although funding levels 
for fiscal year 2001 and beyond have not been determined, EPA will 
continue to incorporate the NAS recommendations into our PM research 
program.

    Question 1b. How long NAS believes the research will take?
    Response. The ten research topics identified in the March 1998 
report, the amount and duration of funding recommended by NAS for each 
topic, and the estimated EPA fiscal year 1998 through fiscal year 2000 
funding levels are shown in the table attached. Although funding levels 
for fiscal year 2001 and beyond have not been determined, EPA will 
continue to incorporate the NAS recommendations into our PM research 
program.

    Question 1c. The amount of resources EPA proposes to spend on each 
research topic by fiscal year?
    Response. The ten research topics identified in the March 1998 
report, the amount and duration of funding recommended by NAS for each 
topic, and the estimated EPA fiscal year 1998 through fiscal year 2000 
funding levels are shown in the table attached. Although funding levels 
for fiscal year 2001 and beyond have not been determined, EPA will 
continue to incorporate the NAS recommendations into our PM research 
program.

    Question 1d. The EPA projected completion date for each research 
topic?
    Response. The research topics recommended by the NAS represent 
research directions that are in most cases closely related. Thus, there 
is an evolution of research activities such that as knowledge is gained 
in one topic area it helps inform research directions and activities 
conducted under other topics. For example, results of studies on 
factors affecting the relationship of PM levels measured using outdoor 
monitors to actual human exposures to PM (topic #1), and of the nature 
of specific components of PM in producing toxicity (topic #5), lead to 
more informed study of human exposures to hazardous PM components 
(topic #2). The evolving nature of research makes it difficult to State 
when research categorized under an NAS topic will be ``completed'', but 
in a general way it is anticipated the research will evolve in a manner 
consistent with the NAS timeline, shown in the table below. In the same 
manner, it is difficult to define which research topics will be 
``completed'' in time for the next 5-year review period (interpreted to 
mean the review planned for completion in 2002). In general, we observe 
that research results typically flow from any specific research project 
over a several year period. Typically, 1 to 2 years after funding, 
research results are evident from abstracts submitted for poster or 
oral presentation in conjunction with scientific conferences. Then, 
several months to perhaps 2 years after conference presentation, 
results are presented in the peer reviewed scientific literature. The 
consequence of this typical stream of information from research 
activities is that, for the 2002 NAAQS review, we have been observing a 
large number of PM-related presentations at scientific conferences and 
peer reviewed journal articles published in scientific journals. The 
results from peer reviewed research will be evaluated in the PM Air 
Quality Criteria Document (AQCD) which is now under development as 
follows:
    <bullet> 1998--Plan AQCD and CASAC review of Plan.
    <bullet> 1999--Develop AQCD and complete External Review Draft.
    <bullet> 2000--CASAC review and completion of second External 
Review Draft AQCD; Develop Staff Paper and hold CASAC review of Staff 
Paper.
    <bullet> 2001--Final Staff Paper, proposal and public comment of 
NAAQS Decision.
    <bullet> 2002--Promulgation of Final Decision on NAAQS.

    Question 1e. Identify which research topics will be completed in 
time for use in the next 5-year review period. In addition please 
include the major milestones for the next 5-year review (including the 
Clean Air Scientific Advisory Committee of EPA's Science Advisory Board 
(CASAC) reviews and the timing for the EPA staff work).
    Response. The research topics recommended by the NAS represent 
research directions that are in most cases closely related. Thus, there 
is an evolution of research activities such that as knowledge is gained 
in one topic area it helps inform research directions and activities 
conducted under other topics. For example, results of studies on 
factors affecting the relationship of PM levels measured using outdoor 
monitors to actual human exposures to PM (topic #1), and of the nature 
of specific components of PM in producing toxicity (topic #5), lead to 
more informed study of human exposures to hazardous PM components 
(topic #2). The evolving nature of research makes it difficult to State 
when research categorized under an NAS topic will be ``completed'', but 
in a general way it is anticipated the research will evolve in a manner 
consistent with the NAS timeline, shown in the table below. In the same 
manner, it is difficult to define which research topics will be 
``completed'' in time for the next 5-year review period (interpreted to 
mean the review planned for completion in 2002). In general, we observe 
that research results typically flow from any specific research project 
over a several year period. Typically, 1 to 2 years after funding, 
research results are evident from abstracts submitted for poster or 
oral presentation in conjunction with scientific conferences. Then, 
several months to perhaps 2 years after conference presentation, 
results are presented in the peer reviewed scientific literature. The 
consequence of this typical stream of information from research 
activities is that, for the 2002 NAAQS review, we have been observing a 
large number of PM-related presentations at scientific conferences and 
peer reviewed journal articles published in scientific journals. The 
results from peer reviewed research will be evaluated in the PM Air 
Quality Criteria Document (AQCD) which is now under development as 
follows:
    <bullet> 1998--Plan AQCD and CASAC review of Plan.
    <bullet> 1999--Develop AQCD and complete External Review Draft.
    <bullet> 2000--CASAC review and completion of second External 
Review Draft AQCD; Develop Staff Paper and hold CASAC review of Staff 
Paper.
    <bullet> 2001--Final Staff Paper, proposal and public comment of 
NAAQS Decision.
    <bullet> 2002--Promulgation of Final Decision on NAAQS.


 Table.--NAS Recommended Research Topics, NAS Funding Level and Duration, and EPA Fiscal Year 1998-2000 Resource
                                                   Estimates<SUP>1</SUP>
----------------------------------------------------------------------------------------------------------------
                                                                                                     President's
                                                                                                        Budget
                                                 Recommended               EPA Enacted  EPA Enacted    Request
                   NAS Topic                        Total     NAS Funding  Fiscal Year  Fiscal Year  Fiscal Year
                                                 Funding (in     Years       1998 (in     1999 (in     2000 (in
                                                  millions)                 millions)    millions)    millions)
                                                                                                     (estimates)
----------------------------------------------------------------------------------------------------------------
1. Outdoor vs human exposures..................         <SUP>2</SUP>$9+    1998-2000         $6.8         $8.2         $9.1
2. Exposure to toxic PM components.............           20    2001-2005          0.5          0.0          0.7
3. Source-receptor measurement tools...........           12    1998-2003          5.9          7.0          6.8
4. Application of methods and models...........           26    1998-2005          0.7          0.4          1.7
5. Assessment of hazardous PM components.......          102    1998-2010          7.3          7.9          7.1
6. Dosimetry...................................          7.5    1998-2001          1.2          0.6          1.0
7. Effects of PM and copollutants..............          125    1998-2010          1.9          7.4          8.3
8. Susceptible subpopulations..................           22    1998-2005          8.3          2.7          2.8
9. Toxicity mechanisms.........................           57    1998-2003          6.0          8.3          7.1
10. Statistical analysis and measurement error.           12    1998-2003          1.7          1.2          1.5
----------------------------------------------------------------------------------------------------------------
<SUP>1</SUP>The original fiscal year 1999 President's Budget reflected Operating Expenses and Working Capital Fund
  resources consolidated in a single Goal and Objective. For the fiscal year 1999 Pending Enacted Operating and
  the fiscal year 2000 President's Budget, these resources were allocated across Goals and Objectives. The
  fiscal year 1999 President's Budget figures shown in this table have been revised to reflect the allocation of
  Operating Expenses and Working Capital Fund resources across all Goals and Objectives. Also, additional funds
  are allocated to AQCD development, source characterization and similar research, and management.
<SUP>2</SUP>The NAS recommended a minimum of three exposure studies for 3 years would cost about $9 million overall.
  Further, NAS pointed out that adding studies of susceptible populations would increase the required funding by
  approximately a factor of three or more; thus we indicate this potential funding level by listing $9 million+
  in this table. The EPA is including susceptible subpopulations in studies currently underway.


    Question 2. Please provide a list of all requests for waivers (both 
formal or informal from any municipality or State) from the ozone 
standard for 1998. Include the date received by the EPA and the date of 
the Agency decision. Please identify any extenuating circumstances 
regarding decision delays and whether the waiver requests were formal 
or informal. Please quantify the Agency resources, both fiscal and FTE, 
used to respond to the requests.
    Response. To date, 9 requests for excluding ozone data from 
compliance calculations due to impacts from Mexican/Central American 
fires have been received by the Agency. All requests have been formally 
submitted. These requests are summarized in the table below.


------------------------------------------------------------------------
                                    Date     Date of
       Source of Request          Received   Response   Comments/Status
------------------------------------------------------------------------
Chattanooga, Tennessee             12/8/98  .........  Technical
                                                        justification
                                                        not yet
                                                        submitted.
Kentucky                            1/7/99     2/1/99  Request approved.
Oklahoma                            1/8/99  .........  Request does not
                                                        follow Agency's
                                                        guidance; Agency
                                                        performing
                                                        additional
                                                        analysis before
                                                        decision.
Louisiana                          1/20/99  .........  Request does not
                                                        follow Agency's
                                                        guidance; Agency
                                                        performing
                                                        additional
                                                        analysis before
                                                        decision.
Minnesota                           2/4/99     3/1/99  Request approved.
Florida                            2/17/99  .........  Request does not
                                                        follow Agency's
                                                        guidance;
                                                        additional
                                                        justification
                                                        requested from
                                                        State.
Texas                              2/18/99  .........  Request does not
                                                        follow Agency's
                                                        guidance; Agency
                                                        performing
                                                        additional
                                                        analysis before
                                                        decision.
Jefferson County, Alabama          2/19/99  .........  Approval
                                                        anticipated
                                                        early April.
North Carolina                     2/26/99  .........  Approval
                                                        anticipated
                                                        early April.
------------------------------------------------------------------------

    The Agency is working to respond to these requests as rapidly as 
possible. The Agency has the equivalent of 2.0 FTE technical staff 
reviewing and developing responses to these requests. No contract funds 
are being used to facilitate the review of these requests. Since 
several of the requests have not followed the Agency's guidance, review 
(for those) has involved significant time and effort on the Agency's 
part in gathering additional data and re-analyzing those data. 
Nonetheless, the Agency remains committed to responding to these 
requests with speed and with scientific credibility.
                         clean air partnership
    Question 1. Please provide a statutory justification for the use of 
section 103 of the Clean Air Act to fund this program. Include detailed 
past examples of the use of this section.
    Response. Section 103 of the Clean Air Act would provide the 
statutory authority necessary for the award of financial assistance to 
support activities undertaken as part of the Clean Air Partnership Fund 
program. Section 103 requires the Administrator to establish a 
``national research and development program for the prevention and 
control of air pollution.'' As part of this program, Section 103(a)(1) 
requires the Administrator to ``conduct, and promote the coordination 
and acceleration of, research, investigations, experiments, 
demonstrations, surveys, and studies relating to the causes, effects 
(including health and welfare effects), extent, prevention and control 
of air pollution.'' Section 103(b)(3) authorizes the Administrator to 
make grants to support the activities listed in Section 103(a)(1). The 
Section 103(b)(3) grant authority thus includes the authority to fund 
demonstration projects, as well as related studies and investigations, 
such as those that would be supported through the Clean Air Partnership 
Fund program.
    Past examples of the use of Section 103 include:
    <bullet> A grant to the Tahoe Regional Planning Agency (TRPA) to 
help fund a coordinated transit system intended to reduce air pollution 
from mobile sources in the Lake Tahoe, Nevada region.
    <bullet> A grant to the Northeast States for Coordinated Air Use 
Management for a heavy-duty diesel retrofit implementation planning and 
in-use testing project.
    <bullet> A grant to the Consumer Research Council for a radon and 
indoor air quality education prevention and mitigation project.
    <bullet> A grant to the Association of Small Business Development 
Centers for an energy efficiency education and outreach program for 
small business.
    <bullet> A grant to the American Public Power Association for 
investigating the marketing of landfill gas energy.

    Question 2. Please provide examples of the projects that are 
envisioned for this program.
    Response. The Clean Air Partnership Fund will be used to provide 
grants to local and State governments, tribes and multi-state 
organizations. The Clean Air Partnership Fund will support 
demonstration projects that: (1) control multiple air pollution 
problems simultaneously; (2) leverage the original Federal funds; (3) 
facilitate meaningful public involvement; and (4) provide innovative 
approaches to air pollution control that could be replicated in other 
cities and states. For example grants could be awarded for 
demonstration projects in the following areas:
    <bullet> Partnership Funds could help provide startup capital for 
municipalities to establish programs to convert existing diesel fleets 
of school and transport buses to cleaner fuels.
    <bullet> Partnership Funds could help establish home energy 
efficiency investment loan funds. Reducing energy use in homes will 
reduce local soot, smog and air toxics and greenhouse gas emissions.
    <bullet> Partnership Funds could be used to create incentives for 
cleaner electricity generation at utilities. Increased use of combined 
heat and power and natural gas combined-cycle electricity generation 
will yield criteria pollutant, air toxic and greenhouse gas emission 
reductions.
    <bullet> Partnership Funds could support local revolving loan funds 
to finance energy efficient retrofits for local and State agency 
buildings, public schools, hospitals and private industry. The cost 
savings realized from lower energy bills would allow borrowers to repay 
the loans and provide an ongoing source of funding for future 
innovative investments.
    <bullet> Partnership Funds could help support tax credits for 
innovative air pollution control technology investments.
    <bullet> Partnership Funds could be used to help stimulate demand 
for renewable sources of energy. Renewable energy sources such as fuel 
cells, photovoltaics, wind and geothermal provide ideal integrated air 
pollution control technologies.

    Question 3. Please provide a list of all types of groups or 
organizations which would qualify for funds under this program.
    Response. Entities eligible for grants through the Partnership Fund 
include local and State governments, tribes and multi-state 
organizations. Specific eligibility criteria will be included as part 
of the Solicitation of Proposals which will be issued by EPA after 
Congressional appropriation of the fiscal year 2000 budget. Section 103 
grant recipients can in turn use funds to support activities of other 
public or nonprofit agencies, institutions, and organizations, as well 
as private sector entities. Through this mechanism, the Fund will 
support Partnerships between governmental recipients and non-
governmental organizations as well as industry.
                               superfund
    Question 1. At how many sites have potentially responsible parties 
incurred response costs to date?
    Response. Using EPA's CERCLIS data base, EPA identified 1,823 sites 
(NPL and non-NPL) where PRPs have initiated all or a portion of any 
response action at the site. The response actions considered were 
removals, remedial investigation/feasibility studies, remedial design, 
remedial action, long-term response action (e.g. groundwater pump and 
treat) or operation and maintenance. It should be made clear that 
because EPA routinely conducts oversight of PRP-lead response 
activities, most, if not all, of these sites will appear in the counts 
for question 2 since EPA would have incurred response costs from the 
Fund to oversee these response actions.

    Question 2. At how many sites have EPA and/or the States incurred 
response costs to date?
    Response. According to the Agency's Integrated Financial Management 
System (IFMS), EPA has incurred response costs (disbursements) at more 
than 2,670 sites at costs of $200,000 or more per site as of 09/30/98.

    Question 3. At how many sites where EPA has incurred response costs 
has it initiated cost recover actions?
    Response. Using EPA's CERCLIS data base, EPA identified 1,117 sites 
(NPL and non-NPL) where EPA has initiated a cost recovery action 
against and/or obtained a cost recovery settlement for all or a portion 
of any EPA response costs at the site.

    Question 4. Does EPA intend to seek cost recovery at the remaining 
sites where it has incurred response costs?
    Response. To ensure effective use of resources, it is EPA's policy 
to, at a minimum, seek recovery of its response costs at all sites 
where liable and financially viable responsible parties have been 
identified and EPA's total unrecovered response costs (including 
indirect costs) exceed $200,000. Due to resource limitations, Regions 
do not have to vigorously pursue cost recovery at sites with total 
response costs less than $200,000, because it is likely that the costs 
of collection will exceed the amount recovered.

    Question 5. Are there sites where EPA has incurred response costs 
for which it does not intend to seek cost recover? Why not?
    Response. EPA does not seek recovery of its response cost at sites 
where there are no liable or financially viable potentially responsible 
parties, so called ``orphan'' sites. In addition, as noted above, EPA 
Regions have the discretion not to pursue response costs at sites where 
total EPA response costs are less than $200,000. In addition, there are 
some sites where EPA may chose to pursue some but not all of its 
response costs due to issues such as significant ``orphan shares'', 
litigation risk/lack of evidence, divisibility of harm, and other 
instances where EPA chooses to exercise its enforcement discretion.

    Question 6. Then, is it correct to say that for every site at which 
EPA (or state?) has or will incur response costs that it will seek 
recover from potentially responsible parties?
    Response. While EPA cannot speak for the recovery of State costs, 
as stated in response to question 4, at a minimum EPA intends to seek 
recovery of its response cost at all sites where there are liable and 
financially viable potentially responsible parties and total EPA 
response costs exceed $200,000 and in appropriate situations seek 
recovery at sites with total costs less than $200,000.

    Question 7. What is the estimated cost to clean up the remaining 
NPL sites? Just direct contractor costs, not EPA administrative and 
other costs.
    Response. EPA projections do not separately model contractor costs 
to cleanup Superfine sites. EPA conservatively estimates cleanup 
response to comprise numerous activities, described under the response 
to Question 8, that include contractor and non-contractor costs. Of the 
$17.4 billion projected to complete the Superfund program in the most 
recently released Superfund Annual Report to Congress EPA estimates 
that approximately 70 percent of this will be used for cleanup 
response.

    Question 8. I am bothered that with all of the administrative 
reforms you claim to have made, a report last year by the GAO indicates 
that more than half of the costs of the Superfund program still go to 
EPA's program administration and support, with only 46 percent of the 
funds going to contractors for direct cleanup. And, GAO says that's an 
increase of 3 percent over the previous year to EPA administration. 
What is the reason for the high administrative costs? Is it possible 
for you to identify some areas in which administrative cost could be 
reduced to provide more money to direct cleanup?
    Response. EPA conservatively estimates cleanup response to comprise 
numerous activities that directly support cleanup responses. EPA 
estimates that approximately 70 percent of its budget will be used for 
cleanup response. GAO's definition of ``cleanup'' does not include many 
key components of the cleanup process. GAO omitted functions such as 
lab analysis, engineering and technical analyses, project manager 
salaries, State/Tribal activities, community involvement activities, 
and oversight of responsible parties and many other activities 
necessary to achieve cleanups. GAO's contractor cost computation also 
fails to recognize the $175 million in annual Superfund appropriations 
used by other Federal agencies (e.g., ATSDR, USCG, NIEHS, FEMA, NOAA) 
for cleanup, testing and assessment, and the approximately $30 million 
in annual appropriations to DOJ which has resulted in settlements with 
private parties for more than $15 billion in cleanup or reimbursements 
to the Federal Government. Without these resources, the response 
cleanup process could not proceed.
    For example, at the Red Wing Trucking/Saraland Apartments Site in 
Saraland, AL, the site was contaminated by years of washing out 
chemical trucks in the area on which apartments were subsequently 
built. The responsible party (RP) took over management of the site 
study and remedial investigation/feasibility study (RIFS) functions to 
characterize the contamination onsite in order to determine the remedy 
requirements. EPA samples taken at the site showed that the RP-lead RI/
FS had missed a large portion of the contamination, necessitating the 
relocation of the residents of the apartments and assumption of cleanup 
responsibilities by EPA. The RPM's salary, site travel, and oversight 
costs were vital to ensuring the safety of the residents. Without these 
costs, not included in GAO's definition of cleanup, millions of dollars 
could have been spent implementing an inadequate and nonprotective 
remedy.

    Question 9. In the Budget you make the claim that one of your goals 
is to ``pursue greater recovery of EPA's cleanup costs.'' This is 
welcome news, especially in light of GAO's recent report that indicates 
that historically EPA has not charged responsible parties for certain 
portions of its costs, resulting in the exclusion of approximately $3 
billion from final settlements. That's \1/5\ of the $15 billion spent 
to date on Superfund that EPA has failed to recover.
    Response. In 1982, before there was any substantial judicial 
precedent on which it could rely, the agency established a very 
conservative methodology for charging indirect costs to sites for 
possible cost recovery. In fiscal year 1992 the agency proposed revised 
indirect cost methodology to address this issue. Public comments were 
overwhelmingly opposed to the revisions and the rule has not been 
finalized. The agency is currently in the process of revising its cost 
accounting system pursuant to the recent statutory requirement based on 
OMB's Federal Cost Accounting Standards (FASAB #4, July). That revised 
methodology should be operational in early fiscal year 2000. In 
accordance with the FASAB statement, the new methodology will roll 
virtually all of Superfund's indirect costs into the new rates, and 
that will make them eligible for cost recovery. The agency considers 
Superfund cost recovery as an integral part of the overall enforcement 
effort rather than an independent initiative. The agency's success in 
persuading potentially responsible parties (PRPs) to conduct 
approximately 70 percent of new remedial work at NPL sites means that 
Trust fund moneys are available for cleanups at orphan sites, sites 
with recalcitrant PRPs, sites with ability to pay issues, sites with 
orphan share and sites with other legal or evidence issues. Our success 
in getting the best cases to settle has significantly reduced the 
amount of costs the agency needs to recover. The agency estimates that 
approximately $500 million of the $3 billion referenced above would be 
made available for recovery through the application of the new indirect 
rates.

    Question 10. Your plan to pursue greater recovery is welcome news. 
Why, then do your estimates of recoveries far fiscal year 1998, 1999 
and 2000 actually go down from $320 million in fiscal year 1998 to $250 
million in 1999 and $225 million in fiscal year 2000? One would think 
it would increase if one of your goals is ``pursuit of greater recovery 
of EPA's cleanup costs.'' Can you explain this apparent discrepancy?
    Response. [No response was provided by EPA.]

    Question 11. I also note that EPA did not request the $650 million 
in additional appropriations for fiscal year 2000 conditioned on 
passage of Superfund reform legislation as you have in the past several 
years. I conclude from this change in policy that cleanups are 
proceeding at such a pace that the Superfund program is winding down--
and so is the need for funding. Would this be an accurate statement? 
Why or why not?
    Response. The Superfund program has made substantial progress in 
the last 6 years, and approximately 89 percent of the NPL sites have 
had cleanup activities, are construction complete, or have cleanup 
underway. However, these accomplishments cannot overshadow the 
significant work remaining at current and proposed NPL sites. At the 
end of fiscal year 1999, the Agency will still be working to complete 
construction at over 700 sites currently on the final NPL.
    We also need resources to clean up newly listed sites as quickly as 
possible. Historically, we have listed an average of 26 sites per year 
on the NPL. We do not know now how many more sites will need to be 
added to the NPL, but we will focus our NPL listing activities on those 
sites that States agree should be added to the NPL and sites where 
States are unable or unwilling to clean up the site. We have been using 
and will continue to use these considerations to guide our listing 
decisions. This year we expect to list roughly 40 sites on the NPL.
    Furthermore, even as cleanup activities are completed at sites, EPA 
will need to invest resources in ensuring that remedies remain 
protective into the future. EPA will have responsibilities to conduct 
oversight of continuing operations, to review periodically remedies at 
which waste remains in place, and to take response actions at sites at 
which remedies do not remain protective. Finally, EPA expects to 
continue to have an important role in conducting removal actions to 
protect communities across the country. The need for EPA involvement in 
removals is unlikely to decline, and, as fewer sites are added to the 
NPL in the future, removal actions may be more widely used to achieve 
necessary cleanups.

    Question 12. There is some talk of ``sun setting'' the current 
Superfund program in the year 2000 because of the great strides your 
Agency claims to have made through ``administrative reforms.'' I assume 
EPA would retain some semblance of 106 authority to handle emergencies 
in such a new program as well as assure that any new Superfund program 
restores the rights normally guaranteed under our legal system. That 
means restoring judicial review, financing Superfund with congressional 
appropriations rather than special taxes not based on pollution, and 
revising EPA's risk assessment and remediation procedures while 
allowing affected parties the right to judicial review of those 
procedures. Such changes are necessary if a new or reauthorized 
Superfund is to be effective, fair and perceived to be fair is that 
what you envision as a new Superfund framework beyond your 
``administrative reforms'' of the last 6 years?
    Response. The Superfund program today is operating faster, fairer, 
and more efficiently to achieve greater environmental results. In 
fiscal year 2000 and beyond, the Agency will build on successful 
administrative reforms to address the Superfund work that remains to be 
done in hundreds of communities across America. Through administrative 
reforms, almost three times as many Superfund sites have had 
construction completed in the last 6 years that in all the prior years 
combined. As of September 30, 1998, more than 89 percent of non-Federal 
sites on the final NPL are either undergoing cleanup construction or 
are completed. In addition, over 5,500 removal actions have been taken 
at hazardous waste sites to immediately reduce the threat to public 
health and the environment. However, a great deal of work remains to be 
done. At the end of fiscal year 1999, the Agency will still be working 
to bring more than 700 sites on the final NPL to construction 
completion. The Agency will continue to employ Superfund administrative 
reforms to quickly and efficiently complete these sites in the years 
ahead.
                        no<INF>x</INF> sip call
    Question 1. I understand that EPA has requested information from 
various industries to assure that EPA's emissions inventory that is 
being used for the NO<INF>x</INF> SIP Call is correct. I also 
understand that the affected States have already received their budgets 
for required reductions. If you find that you have errors in your 
inventory, is it your intent to send new budgets to each of the States 
to make the correction? Do you also intend to inform the States where 
the inventory was incorrect so that they can make the appropriate 
adjustments regarding the affected industries?
    Response. At the request of numerous States and industries, EPA 
reopened the emission inventory comment period, in the final 
NO<INF>x</INF> SIP Call budget rule, until February 22, 1999. The EPA 
now expects to calculate new budgets for each State in the affected 
domain by late April.
    After careful review of all of the emission inventory comments, EPA 
will make appropriate changes to each State's NO<INF>x</INF> emission 
budget and revise the NO<INF>x</INF> SIP Call to reflect the revised 
budgets. These revised budgets will then be formally communicated to 
the respective States so that they may use them in their SIP planning 
processes. Our response to comments (RTC) documentation, that will 
accompany the rule revision, will explain EPA's response to the 
comments and how they were addressed in the inventories and budget 
calculation.

    Question 2a. Regarding the NO<INF>x</INF> SIP process, I understand 
that as many as half the States may not have time or inclination to do 
their State Implementation Plans, (SIPs) which means that EPA will have 
to do a Federal Implementation Plan (FIP) for each of these states. Can 
you tell how many and which States will be subject to a FIP? How does 
EPA propose to handle this situation?
    Response. As required by the CAA, EPA will complete a FIP for any 
State that fails to meet a SIP Call requirement. Most of the States 
affected by EPA's September 24, 1998 SIP Call are working toward 
meeting the September 30, 1999 due date. It is not clear at this time 
which of these States, if any, will miss the date. Finally, even if EPA 
were to promulgate a FIP, a State can replace the FIP with an 
appropriate SIP at anytime. Thus, the FIP would not preclude States 
from pursuing their own approach to compliance with the SIP Call.
    With respect to all of the States affected by the SIP Call, EPA 
notes that it has consistently offered assistance and support in 
understanding the rule's requirements and developing and adopting State 
rules within the timeframes set forth in the final SIP Call. (In fact, 
EPA has already provided model trading regulations for use by the 
States.) EPA remains committed to providing States with any technical 
or policy assistance that would enable the States to submit their SIPs 
by September 30, 1999.

    Question 2b. It is my understanding that several States have 
requested an extension for submitting their SIPs (not an extension of 
the implementation date). However, EPA has denied this request. In 
light of the number of States that are concerned that they will be 
subject to a FIP simply because they do not have enough time to develop 
their own SIP, can you explain your position?
    Response. EPA established the submittal date of September 30, 1999 
in the final NO<INF>x</INF> SIP Call in order to protect public health 
by providing for expeditious reductions in NO<INF>x</INF> emissions 
that significantly contribute to ozone transport. As explained in EPA's 
response to the request for a stay submitted by eight states, delaying 
the SIP submittal data could jeopardize the expeditious achievement of 
those reductions. Also as explained in that response, EPA believes the 
States have sufficient time to develop their SIPs in response to the 
SIP Call. In fact, the majority of States covered by the SIP Call are 
moving forward to adopt SIPs in a timely manner. The States have had 
ample opportunity to analyze approaches to reducing ozone transport 
including their 2-year participation, along with EPA, in the Ozone 
Transport Assessment Group (OTAG). In addition, in our final 
NO<INF>x</INF> SIP Call rule, EPA provided a model trading rule which 
States could adopt to achieve the vast majority of the reductions 
called for by the SIP Call. Finally, even if EPA were to promulgate a 
FIP, a State can replace the FIP with an appropriate SIP at anytime. 
Thus, the FIP would not preclude States from pursuing their own 
approach to compliance with the SIP Call. (A copy of EPA's response to 
the stay request is attached).
                                 ______
                                 
                    letter submitted for the record
                           Environmental Protection Agency,
                                 Washington, DC., February 5, 1999.
Mr. Russel J. Harding,
Michigan Department of Environmental Quality,
Lancing, MI.
    Dear Mr. Harding: This letter is in response to the request for an 
administrative stay filed on January 13, 1999, by Michigan and seven 
other States. On September 24, 1998, the Environmental Protection 
Agency (EPA) issued a final rule requiring 22 States and the District 
of Columbia to reduce emissions of nitrogen oxides (NO<INF>x</INF>) 
that are transported to other States (``SIP Call''). In the SIP Call, 
EPA provided States with 12 months from its promulgation--until 
September 30, 1999--to submit plans to reduce NO<INF>x</INF> emissions. 
Michigan, along with seven other States, has requested EPA to delay for 
7 months--from September 30, 1999 to April 27, 2000--the time for 
States to submit these SIPs. For the reasons provided in the enclosure 
to this letter, EPA is denying the request for an administrative stay 
of the SIP submission date established in the final SIP Call. While the 
enclosure details EPA's analysis supporting this denial, I want to 
reiterate EPA's continued commitment to working with all of the States 
to implement the SIP Call in a timely fashion.
            Sincerely,
                                         Robert Perciasepe,
                                           Assistant Administrator.
                                 ______
                                 
      denial of request for a stay of the sip submission deadline
    In support of a stay of the SIP submission deadline established in 
the rural SIP Call rule, the States rely on four assertions: (1) that 
the States should not have to choose between submitting rules and 
``harsh sanctions'' before the Court of Appeals for the District of 
Columbia Circuit (``D.C. Circuit'') has had an opportunity to rule on 
challenges to the SIP Call; (2) that EPA's continued review of the 
emission inventories has '`exacerbated'' the States' difficulties in 
meeting the 12-month submission timeframe; (3) that an extension of the 
deadline will not affect public health or the environment because it 
will not affect the remainder of the SIP Call rule; and (4) that the 
Clean Air Act provides up to 18 months for a State to submit a plan in 
response to a SIP Call and that the 12-month period provided in EPA's 
final rule did not provide an adequate time for thorough, thoughtful 
rulemaking. These reasons, considered separately or collectively, do 
not provide a sufficient rationale for EPA to extend the promulgated 
SIP submission deadline.
    The States claim that a stay is necessary because the States should 
not be required to submit plans prior to the time the court has had an 
opportunity to rule on their challenge to the SIP Call. Such an 
approach is contrary to the general presumption in litigation that a 
promulgated rule remains in effect pending judicial review. However, a 
court or an agency may decide to stay the effectiveness of a rule 
``where justice so requires.'' 5 U.S.C. Sec. 705. In determining 
whether justice requires a stay of an effective date, four factors are 
typically considered: (1) the petitioners' likelihood of success on the 
merits; (2) whether there is irreparable harm to the petitioners if the 
regulation takes effect; (3) the degree of harm that would occur if the 
regulation were stayed; and (4) whether the public interest would be 
served by a stay.
    EPA believes that there is strong support for the general 
presumption that the effectiveness of rules should not be delayed 
pending judicial resolution. Many of EPA's regulations are challenged. 
Establishing a presumption that compliance is not necessary until after 
judicial review could result in lengthy delays of many important health 
protection programs. Therefore, EPA does not believe that it is 
appropriate to stay the SIP submission deadline solely on the basis 
that the D.C. Circuit should first rule on the validity of EPA's rule.
    Several of the States' claims ostensibly fit within the test 
established for granting a judicial stay.\1\ The States allege harm to 
themselves due to EPA's reassessment of the inventories and the specter 
of sanctions should the States fail to make the submissions. In 
addition, they allege that the public will not be harmed by a stay 
since EPA has stated the view that sources may be expected to control 
emissions by the compliance date even if they do not initiate control 
efforts until April 2000. For the reasons provided below, EPA does not 
believe that the States have made a case of either harm to themselves 
or of no harm to the public if the submission date is delayed.
---------------------------------------------------------------------------
    \1\ The States' request does not address the issue of likelihood of 
success on the meets. EPA believes that the Clean Air Act legally 
supports EPA's issuance of the final Sop Call rule and that the rule is 
based on a sound technical analysis.
---------------------------------------------------------------------------
    With respect to harm to themselves, the States claim that EPA's 
decision to give States a further opportunity to review source data and 
provide corrections to emission inventories has resulted in less time 
for SIP development for the States and, thus, requires EPA to provide 
additional time for the States to submit their SIPs. Though it is not 
clear, the States appear to claim that they cannot begin State planning 
efforts based on inventories that EPA has ``acknowledged'' are flawed. 
The States overstate the implications of EPA's decision to offer an 
opportunity for the public to request changes to the inventories.\2\ 
While EPA does not dispute that the current inventories may not be 
perfect, EPA's decision to accept submissions aimed at further refining 
the inventories was not intended to mean that the refinements would be 
so significant as to require additional time for State SIP submission. 
In fact, EPA believed and continues to believe that the refinements 
will be relatively minor and should not affect the timetable for State 
planning. EPA's decision to provide one last opportunity for the 
inventories to be refined should not be interpreted as an admission of 
a substantial flaw in the inventories but rather as a decision to 
entertain what were expected to be minor adjustments to the inventory 
as States move forward to develop regulations to achieve the needed 
emission reductions.
---------------------------------------------------------------------------
    \2\ EPA's decision to provide for further review of the inventories 
is set forth at 63 Fed. Reg. 57356, 57425-28 (Oct. 27, 1998) and 63 
Fed. Reg. 71220, 71221-22 (Dec. 24, 1998).
---------------------------------------------------------------------------
    EPA believes that the inventories as they now exist are or should 
be substantially accurate. States and industry have already had 
previous opportunities to adjust the inventories. States and industry 
first developed the inventories using an iterative process over a 2-
year period from 1995-1997 for purposes of the analyses performed by 
the Ozone Transport Assessment Group. In addition, EPA provided an 
opportunity to make adjustments to the inventories during the initial 
120-day comment period on the SIP Call rule. Specifically, between the 
notice of proposed and final rulemakings, numerous comments regarding 
revisions to the inventory were received, reviewed and, where 
justified, incorporated into the base and budget inventories of EGU and 
non-EGU point sources. Because of these opportunities for correction, 
it is unlikely that significant flaws have not been previously noted 
and addressed. Notably, even with a large number of source additions 
revision, and removal requests, the final emission budget estimates for 
the sources identified as large increased by only about 4 percent for 
the entire regional transport jurisdiction area. The resulting net 
change to the budget for all sources was only 3 percent over the entire 
23 jurisdiction area. Because States and sources have already had 
extended opportunities to raise inventory concerns and because the 
changes made during those processes were not substantial, EPA does not 
anticipate that at this late date there will be significant changes to 
the current inventories.
    Moreover, it is important to recognize that even EPA's current 
action to refine the inventories will not necessarily cure all possible 
defects. Inventories are invariably based on incomplete information 
that is subject to a process of continual refinement. As such, they are 
subject to frequent revision. For example, States were required to 
submit emissions inventories in 1992 based on emissions for calendar 
year 1990. CAA Sec. 182(a)(1). Despite submitting these inventories in 
1992, and basing many regulations on those inventories, States are 
still submitting revisions to these 1990 baseline inventories more than 
6 years after they were statutorily required. Thus, if EPA, States and 
sources were to delay regulation until inventories were perfect, States 
would never develop SIPs, sources would never be regulated, and air 
pollution would never be reduced. The exercise EPA is undertaking here 
should not be considered any different from the States' continuous 
efforts to refine their inventories. Thus, as they do when refining 
their own inventories, States simultaneously can and should move 
forward to develop regulations as the inventory data is further 
refined.
    Because the inventory changes are not anticipated to be 
substantial, EPA believes that States can and should be moving forward 
to address the NO<INF>x</INF> SIP Call reduction requirements. States 
need not await these final determinations before they can make 
substantial progress in the development of plans to achieve the 
required NO<INF>x</INF> reductions. Although EPA based the budgets for 
each State on presumptive controls for certain source categories, 
States are not constrained to regulate those precise categories nor to 
impose the same controls presumed by EPA. Therefore, since the 
inventories, and the overall budget numbers, are unlikely to change 
substantially, States can and should move forward to develop 
regulations to achieve most or all of the emissions reductions 
represented by the budget while awaiting final adjustments to the 
budget numbers For example, to the extent that States are planning to 
adopt the emission reduction strategy that EPA relied on, States can 
move forward with developing the regulatory language for the control 
measures while leaving open the issue of the precise degree of emission 
limitation for each covered source. EPA anticipates that the final 
inventory and budget numbers will be available in sufficient time for 
the States to make any necessary adjustments in a timely manner.
    The States allege harm to themselves because they will face a 
``Hobson's choice'' of adopting regulations that they believe are 
unlawful or, alternatively, facing ``draconian sanctions.'' These 
allegations are misdirected. There is no harm to the State, much less 
irreparable harm, that occurs at the time a State fails to make a 
required SIP submission if a State does not submit a plan by September 
30, 1999, EPA would make a finding of failure to submit the plan. CAA 
Sec. 179(a). That finding has two implications. First, based on that 
finding, EPA would be required to promulgate within 2 years a Federal 
implementation plan (``FIP'') that directly regulates sources, but that 
imposes no burdens or obligations on States. CAA Sec. 110(c).\3\ Since 
a FIP would directly regulate sources, it does not harm the States; 
moreover, if a State subsequently submits an approvable SIP, the SIP 
would replace the FIP once it was approved by EPA. Thus, even if a FIP 
could be considered harmful to a State, it is not irreparable harm.
---------------------------------------------------------------------------
    \3\ EPA has indicated that it will promulgate a FIP in the Fall of 
1999 and that the FIP will take effect in an area shortly after the 
State fails to submit a complete plan or the plan is disapproved.
---------------------------------------------------------------------------
    Second, EPA's finding would start an 18-month period before even 
the first of two sanctions would apply.\4\ However, if and when the 
State made the submission, an EPA finding that the State had submitted 
a complete plan would stop the sanctions from applying. 40 C.F.R. 
Sec. 52.31(d). The first sanction would go into effect around April 
2001 (if the States still had not submitted the plan) and would 
directly apply to certain stationary sources, not States. Those sources 
would be required to provide greater offsets for their new emissions 
before they could construct. CAA Sec. 179(b)(2); 40 C.F.R. 
Sec. 52.31(d) and (e)(1). A second sanction would apply 6 months later 
(approximately October 2001) if the State still had not submitted a 
plan. That sanction would place limits on the types of transportation 
projects for which States could receive Federal funds.\5\ CAA 
179(b)(1); 40 C.F.R. Sec. 52.31(d) and (e)(2). Thus, the only harm to 
the State, if any, would occur approximately 24 months after September 
30, 1999 (i.e., October 2001), well after the court will decide the 
challenges to the SIP Call.
---------------------------------------------------------------------------
    \4\ Automatic sanctions under section 179(a), with only minor 
exception, apply only in areas designated nonattainment. See CAA 
Sec. 179(b)(1); 40 C.F.R. Sec. 52.31(b)(3); 59 Fed. Reg. 39832, 398853-
54 (Aug. 4, 1994). Thus, it is likely that at least five of the eight 
States that have requested the stay would not be subject to the 
automatic offset and transportation funding limitations. West Virginia, 
South Carolina and North Carolina currently have no areas designated as 
nonattainment for ozone. EPA has proposed to revoke the 1-hour standard 
for the remaining nonattainment area in Michigan, 63 Fed. Reg. 69598 
(Dec. 17, 1998), and it appears that the remaining nonattainment area 
in Ohio has clean air quality and that EPA, therefore, will revoke 
shortly the 1-hour standard for that area. Once the 1-hour standard is 
revoked for an area, it is no longer designated nonattainment for that 
standard.
    \5\ Even if the highway sanction were imposed, a State that 
subsequently submitted its SIP could receive highway funds that were 
previously withheld under certain circumstances. Therefore, imposition 
of the highway sanction would not necessarily result in irreparable 
harm.
---------------------------------------------------------------------------
    The States' past action belies their alleged fear of the threat of 
sanctions. With the exception of Alabama, each of the eight States 
requesting a stay, at some time, has opted in the past to incur a 
finding from EPA rather than to make required SIP submission under the 
Act. According to EPA's Findings and Required Elements Data system, the 
number of findings for each of the other seven areas ranges from one, 
for South Carolina, to 71 for Ohio.\6\ In many of these cases, the 
finding was in place for more than 1 year before the State finally 
submitted the required plan and, in a number of cases, the State did 
not make the required submission until right before the offset sanction 
would have been imposed--18 months after the finding was made. These 
facts cast doubt on the States' contention that irreparable harm, if 
any, results from the finding, rather than from the actual imposition 
of sanctions.
---------------------------------------------------------------------------
    \6\ According to EPA's Findings and Requirements Data system, the 
number of findings made for the remaining five States are Indiana, 32; 
Michigan, 22; North Carolina, 17; Virginia, 9; and West Virginia, 16.
---------------------------------------------------------------------------
    With respect to possible harm to the public if the regulation were 
stayed, the States indicate the EPA has stated that sources may 
initiate their control efforts as late as April 2000 and still achieve 
the necessary emission reductions by May 2003. While EPA has made and 
still supports that statement, allowing SIP submissions as late as 
April 2000 would interfere with sources' ability to initiate control 
efforts by April 2000 and to achieve reductions by May 1, 2003.
    As an initial matter, expeditious submission of the SIPs is needed 
to provide maximum protection of public health and the environment. The 
earlier that States develop rules, the earlier sources will be able to 
begin implementing the necessary control measures. Moreover, while May 
2003 is the latest date by which compliance may be achieved under the 
SIP Call rule, EPA anticipates that some sources will achieve 
reductions earlier and thus provide earlier benefits to public health 
and the environment. Delaying SIP submission could delay or inhibit 
these earlier reductions. And, it is these emission reductions that 
will result in reductions of ambient ozone concentrations, which will 
provide protection of public health and the environment.
    More importantly, allowing States until April 27, 2000 to submit 
SIPs allows no lead time for EPA to promulgate and make effective a 
FIP, if necessary, that directly regulates sources and requires source 
compliance by May 1, 2003. The current schedule of SIP submissions in 
September 1999 allows for EPA to approve or disapprove the submissions 
by April 30, 2000 and to promulgate FIPs that are effective by that 
date where State plans are inadequate. If States are not required to 
submit SIPs until April 27, 2000, where a State fails to make the 
submission, EPA may not be able to ensure a Federal plan is effective 
in time to provide sources with adequate lead time for compliance. 
Furthermore, if the States submits a plan in April 2000 that is 
disapprovable, EPA would be unable to complete its disapproval 
rulemaking before the Fall of 2000 and a FIP could not be effective 
until that time. Therefore, an extension of the SIP submission date to 
April 2000 could result in sources in some States not knowing whether 
they are subject to controls until well after April 30, 2000, thereby 
interfering with implementation of controls, and the resultant air 
quality benefits, by May 2003.
    Finally, at the same time the States contend that there will be no 
harm to public health and the environment if a stay is granted, some of 
the States requesting the stay indicate that they ``do not believe that 
the implementation date is reasonable.'' Currently the rule presumes 
sources will have from September 1999, when States submit plans, until 
May 2003 to implement measures in the State plans. It is difficult for 
EPA to believe that if EPA granted a SIP submission deadline extension 
to April 2000, these States, as well as the sources challenging the 
rule, would not then seek a further stay of the control measure 
compliance dates in the final rule. In fact, on January 28, 1999, the 
Midwest Ozone Group, a coalition of midwestern industries that is 
challenging the final SIP Call rule, submitted a letter supporting the 
States' request for an administrative stay and urging EPA ``to give 
consideration to the need to re-evaluate the implementation deadline of 
May 1, 2003.'' Granting an extension of the SIP submission deadline 
could well lead to a situation where the emission reductions would be 
delayed and thus public health and the environment would suffer. 
Therefore, EPA believes that an extension of the SIP submission 
deadline would adversely affect public health or the environment and 
would be contrary to the public interest.
    The States' remaining claims do not support an extension of the SIP 
submission deadline. First, the States note that at a meeting of the 
Ozone Transport Assessment Group on June 2-3, 1997, EPA officials 
stated that EPA would ``give affected States up to 18 months in which 
to revise their SIPs.'' Any statements that EPA made at a meeting 
before it proposed, much less finalized, the final SIP Call have no 
binding effect. In its November 7, 1997 proposal, EPA proposed 
establishing a 12-month SIP submission deadline. The public had a full 
opportunity to comment on that issue and EPA considered the public 
comments before it established the 12-month submission timeframe in the 
final rule In any event, the statement allegedly made at the June 1997 
meeting is fully consistent with the statutory language in sections 
110(a)(l) and (k)(5), as is EPA's final rule. The States' last claim is 
that the CAA allows EPA to provide States as long as 18 months to 
submit their SIPs and that the complexity of the SIP Call rule merits 
the full 18 months. These arguments are not new. EPA fully responded to 
these concerns in responding to comments on the proposed rule. 63 FR 
57356, 57450-51 (Oct. 27, 1998); Responses to Significant Comments at 
91-94, Docket A-96-56, VI-C-01. Because EPA fully considered and 
responded to these concerns in establishing the September 30, 1999 
submission date in the final rule, EPA sees no reason to change its 
final decision and extend the date now based on what are essentially 
the same arguments.
    In addition, EPA recognizes that a number of States have written 
EPA, urging the Agency to deny the request for an administrative stay. 
Generally, these States believe that an extension of the SIP submittal 
date would be counterproductive or even harmful. A number of these 
States reiterate and provide additional support for the reasons EPA has 
set forth above to deny the request for a stay. For example, the State 
of New York provided a detailed discussion of why the opportunity for 
States to revise their inventories should not affect the States' 
ability to move forward with SIP planning. The Commonwealth of 
Pennsylvania presented information regarding how it has already drafted 
regulations and is moving forward with presentations to the State 
Environmental Quality Board. Each of these States that are required to 
submit regulations pursuant to the SIP Call rule have indicated that 
they will be able to meet the September 30, 1999 submission date EPA 
incorporates these letters as additional support for its denial of the 
eight States' request for an administrative stay of the SIP submission 
deadline.
    Last, with respect to all of the States affected by the SIP Call, 
EPA notes that it has consistently offered assistance and support in 
understanding the rule's requirements and developing and adopting State 
rules within the timeframes set forth in the final SIP Call. (In fact, 
EPA has already provided model trading regulations for use by the 
States.) EPA remains committed to providing States with any technical 
or policy assistance that would enable the States to submit their SIPs 
by September 30, 1999.
                                  tri
    Question 1. Congress strictly limited EPA's authority to expand the 
TRI in Section 313 of EPCRA to the manufacturing sector. TRI concepts 
of ``manufacture,'' ``process,'' and ``other use'' do not, and Congress 
did not, intend them to apply outside the manufacturing sector (SIC 
codes 20-39). Why have you then Ms. Browner added non-manufacturing SIC 
codes on the Agency's own volition without statutory authority from 
Congress?
    Response. EPA believes that in EPCRA section 313(b)(1)(B), Congress 
gave EPA the authority to add industry groups to the TRI program, when 
the Agency reasonably finds that reporting by facilities within those 
groups would be relevant to the purposes of the TRI program. EPCRA 
section 313(b)(1)(B) provides that:

         The [EPA] may add or delete [SIC] Codes . . . but only to the 
        extent necessary to provide that each [SIC code] to which 
        [section 313] applies is relevant to the purposes of [section 
        313].

    The question under section 313(b)(1)(B) is whether potential 
reporting by an additional group would be relevant to the purposes of 
the TRI program. While the Conference Report did refer to adding SIC 
codes for facilities which are ``like facilities within the 
manufacturing sector,'' id., EPA believes the relevant similarity is 
not the operational nature of the industry group, but in the 
informational value of reporting on toxic chemical use, management, and 
disposition--i.e., the language in the statute and Conference Report 
provides that EPA may expand the SIC code coverage to include other 
facilities that will contribute to the TRI data base information on the 
use and disposition of toxic chemicals in the United States. By 
including SIC Codes 20 through 39, Congress made a judgment that 
reporting by those industries would be relevant to the purposes of the 
TRI program; the statute then authorized EPA to include additional SIC 
codes, where EPA finds that reporting by those industries would also be 
relevant to the TRI program. EPA does not believe that the additional 
industry groups must be within the traditional manufacturing sector, or 
must be like or akin to that sector in the way they ``manufacture,'' 
``process,'' or ``otherwise use'' toxic chemicals. Even though EPA 
believes that EPCRA permits addition of industry groups composed of 
facilities that ``manufacture,'' process,'' or ``otherwise use'' toxic 
chemicals in a manner different from facilities within the traditional 
manufacturing sector, in its recent rulemaking the Agency has limited 
the addition to industry groups that have significant ties to the 
manufacturing sector.

    Question 2. Further, TRI data has nothing to do with ``releases to 
the environment.'' The data reported to EPA describes the use of 
reportable chemicals but it is not on a release or the risk of a 
release. However, EPA allows the confusion of the terms ``report'' vs. 
``release'' by special interest groups to create adverse publicity for 
reporting companies and facilities. Why does EPA allow U.S. companies 
to be unfairly stigmatized by not clarifying the distinct difference 
between ``reportable'' chemicals and a chemical ``release?''
    Response. The Agency is using language provided in the statute and 
does not intend to create confusion. In its ``Data Release'' documents, 
which are the Agency's main outreach material for TRI, EPA puts the 
release information in perspective by providing a description of the 
factors that must be considered when using TRI data. The Agency 
explains that the quantity of the toxic chemical released does not 
equal the quantity to which one is exposed. EPA provides a list of 
factors that the user of the TRI data should consider when determining 
potential risks that may result from releases of toxic chemicals. EPA 
also provides information on economic information and production 
information to put trends in releases into perspective.
    The statute directs EPA to publish a ``uniform toxic chemical 
release form'' and specifies that the form is to provide for the 
submission of, inter alia, ``[t]he annual quantity of the toxic 
chemical entering each environmental medium.'' EPCRA section 313(g)(1). 
The statute broadly defines both ``release'' to mean ``any spilling, 
leaking, pumping, pouring, emitting, emptying, discharging, injecting, 
escaping, leaching, dumping or disposing into the environment,'' EPCRA 
section 329(8); and ``environment'' to ``include water, air and land 
and the interrelationship which exists among and between water, air, 
and land and all living things.'' Id. section 329(2). Under EPCRA, EPA 
interprets annual reportable quantity to include ``releases.''
    In addition, the Conference Report emphasized that ``[r]eporting on 
releases to each environmental medium under subsection (g)(1)(C)(iv) . 
. . shall include, at a minimum, releases to the air, water (surface 
water and groundwater), land (surface and subsurface), and waste 
treatment and storage facilities. (Conf. Rep. at 298)
    The focus of EPCRA section 313 is on the quantity entering each 
environmental medium, which includes releases. A lesser focus is on the 
use of the toxic chemical at the facility. EPCRA section 313(g)(C)(i) 
provides that the'' uniform toxic chemical release form'' shall include 
inter alia, the following information `` [w]hether the toxic chemical 
at the facility is manufactured, processed, or otherwise used, and the 
general category or categories of use of the chemical.''
                         information management
    Question 1. How do any of your expansive regulatory programs at EPA 
on TRI, Superfund, RCRA, Air and Water, relate to the Vice President's 
initiative on ``Reinventing Environmental Regulations,'' which claimed 
as a goal to reduce all environmental reporting requirements by mid-
1996?
    Response. [No response was provided by EPA.]

    Question 2. Which environmental requirements were reduced by 1996? 
1997? 1998? Planned for 1999 or 2000?
    Response. [No response was provided by EPA.]
                            the kyoto treaty
    Question. The Administration, through its attempts to force the 
implementation of the Kyoto treaty well before any indication of Senate 
ratification, is nothing more than participation in a world industrial 
policy. Industrial policy developed by the Federal Government assumes 
it (the Federal Government) can select industries and firms that 
potentially will be the engines of the economy and allow others to 
gradually fade out. Industrial policies in the past have had the goal 
of improving a Nation's economic well-being and has been practiced in 
France, Japan and to a lesser extent in the United States. Such 
attempts have never been effective over the long run other than to 
create opportunities for favor seeking and giving some industries 
advantages over others. The Kyoto agreement is setting up a system of 
world industrial policy, whose purpose has nothing to do with economic 
growth or the well-being of U.S. citizens. Why does the EPA and the 
Administration want to participate in a world system which does nothing 
but create a system of global winners and losers over which developed 
nations will bear the greater pain of cutting back carbon dioxide 
emissions, without any parallel ``reductions'' expected or required by 
underdeveloped nations?
    Response. The Administration has been working and will continue to 
work bilaterally, regionally, and multilaterally to promote more active 
efforts by developing countries to limit their emissions of greenhouse 
gases. The term ``developing country'' encompasses a wide range of 
nations which are at various states of industrialization and make 
varied contributions to global emissions. The President has made clear 
that the participation of key developing countries, whose emissions 
will surpass those of the industrialized nations within several 
decades, is an essential part of a global solution to climate change. 
The Administration will not submit the Kyoto Protocol to the Senate for 
its advice and consent to ratification until there is meaningful 
participation from key developing countries.
                             energy policy
    Question 1. Please provide a list of all pending proposed and final 
regulations, and regulations in the developmental stage, which would 
impact the oil and gas sector.
    Response. The following is a list of pending proposed and final 
regulations, and regulations in the developmental stage, which may 
affect the oil and gas sector:

Air
            Mobile Sources
    <bullet> Phase 2 of the reformulated gasoline program, based on a 
rule finalized in February 16, 1994, will begin in January 2000
    <bullet> More stringent ``Tier 2'' light-duty vehicle and light-
duty truck emission standards and sulfur levels in gasoline (upcoming 
NPRM)
    <bullet> Potential control of sulfur levels in diesel fuel 
(upcoming ANPRM)
    <bullet> Request to exempt Alaska from current low sulfur diesel 
requirements (upcoming final decision)
    <bullet> Health effects testing requirements for gasoline and 
gasoline additives
    <bullet> Revision to reformulated gasoline regulations to remove 
counties in Maine from the program
    <bullet> Revision to the reformulated gasoline regulations to 
include St. Louis, MO, in the program (already completed)

    Monitoring Flexibility.--EPA plans to issue a final rulemaking 
within the next several weeks to revise Part 75 monitoring regulations 
(proposed May 21, 1998). These revisions add flexibility in emissions 
monitoring techniques for oil and gas burning emits. The greater 
flexibility should reduce the costs of monitoring at oil and gas fired 
units.
    Ozone Transport--3 related rulemakings.--The ozone transport State 
Implementation Plan (SIP) Call (finalized October 27, 1998) requires 22 
States in the eastern part of U.S. and the District of Columbia to 
significantly reduce nitrogen oxides (NO<INF>x</INF>) emissions which 
help to create unhealthy levels of urban smog. EPA determined the 
amount of reductions based upon application of reasonably available 
control technologies. States are free to obtain the reductions however 
they wish. A Federal Implementation Plan (FIP) rulemaking (proposed 
October 27, 1998) would be finalized in the event that a State fails to 
submit a SIP or submits a SIP that is unapprovable. The FIP would 
provide the same level of reductions required by the SIP Call.
    A Section 126 rulemaking (proposed October 27, 1998) resulted from 
petitions by eight Northeastern States requesting that EPA control 
large sources of NO<INF>x</INF> from 31 upwind'' States, that create 
unhealthy levels of smog in the petitioning States. EPA proposed to 
accept some portions of those petitions while rejecting other portions. 
If finalized as proposed, the Section 126 action would impose the same 
limits on large combustion sources as the above referenced FIP in 19 of 
the 22 States affected by the SIP Call. EPA has proposed that this 
action only be implemented if a State does not have an approvable SIP 
or EPA did not implement a FIP.
    The affect or the SIP Call, FIP and Section 126 regulations will be 
to make ``clean'' combustion sources, such as those using gas, more 
economically competitive with coal-fired boilers since gas units 
typically emit at a lower NO<INF>x</INF> emission rate than coal-fired 
boilers.
            Air Toxics
    EPA has proposed a National Emission Standard for Hazardous Air 
Pollutant (NESHAP) that will affect the oil and gas sector:
    Petroleum Refinery NESHAP (catalytic cracking units, catalytic 
reforming units and sulfur plant units), Subpart HH [proposed 9/11/98]
    Oil and Natural Gas Production and Natural Gas Transmission and 
Storage NESHAP, Subpart HH [proposed 11/23/98--will be finalized by May 
1999]
Waste
    Oil Pollution Prevention Regulation: Revisions Final Rule (RIN 
2050-AC62, SAN 2634)
    Accidental Release Prevention Requirements: Risk Management 
Programs Under CAA, Section 112(r); Amendments to the Worst-Case 
Release Scenario Analysis for Regulated Flammable Substances Direct 
Final and Proposed Rule (SAN 4279)
    List of Regulated Substances and Thresholds for Accidental Release 
Prevention; Proposed Amendment; Flammable Hydrocarbon Fuel Exemption 
Proposed Rule and Administrative Stay (SAN 4291)
    Recycled Used Oil Containing PCBs Final Rule (RIN 2050-AE47, SAN 
4088)
    Hazardous Waste Identification; Recycled Used Oil Management 
Standards Proposed Rule (RIN 2050-AE58, SAN 3668)
    Reinventing the Land Disposal Restrictions Program Advanced Notice 
of Proposed Rulemaking (RIN 2050-AE53, SAN 4093) Effects Petroleum 
Refineries sector among various manufacturing and mining sectors. This 
rule will effect more oil and gas sectors indirectly when petroleum-
related listed or characteristic wastes are subject to the LDRs.
    Hazardous Waste Identification Rule (HWIR): Identification and 
Listing of Hazardous Wastes Reproposal (RIN 2050-AE07, SAN 3328) 
Effects Petroleum and Coal Products Manufacturing sector among other 
manufacturing sectors.
    Revised Standards for Hazardous Waste Combustors Final Rule (RIN 
2050-AE01, SAN 3333). Regulatory effort that could indirectly effect 
industry sources that utilize hazardous waste incineration in the 
destruction of wastes from the processing of petroleum products.
    Standardized Permit for RCRA Hazardous Waste Management Facilities 
Proposed Rule (RIN 2050-AE44, SAN 4028) A revision to our current 
permitting requirements that will afford facilities that treat or store 
hazardous waste in tanks or containment buildings faster permitting 
under a self implementing approach.
    RCRA Subtitle C Financial Test Criteria (Revision) Notice of Data 
Availability (RIN 2050-AC71, SAN 2647) Effects all industries with 
hazardous waste treatment, storage and disposal facilities.
    RCRA Reporting and Recordkeeping Burden Reduction Notice of Data 
Availability (RIN 2050-AE50, SAN 4084) Deregulatory effort that could 
indirectly effect the sector. Potentially reducing the reporting burden 
by 40 percent for sources subject to RCRA subtitle C requirements.
    Chlorinated Aliphatic Manufacturing Industry RCRA Listing Proposed 
Rule (RIN 2050-AD85, SAN 3151) Two of the 16 potentially affected 
parent companies are registered with the U.S. Securities & Exchange 
Commission, as having primary 4-digit Standard Industrial 
Classification (SIC) codes related to the petroleum industry:
    SIC 1311 = Crude petroleum & natural gas (Occidental Petroleum Corp 
headquartered in Los Angeles CA; three potentially affected chemical 
manufacturing facilities in the United States.).
    SIC 2911 = Petroleum refining (Shell Petroleum Company 
headquartered in Houston TX; one potentially affected chemical 
manufacturing facility in the United States.).
                         non-regulatory efforts
    Regulatory Determination on Remaining Waste From the Combustion of 
Fossil Fuels (RIN 2050-AD91, SAN 3201).

          This is not a regulatory effort but, depending upon the 
        decisions to be made for this determination on oil combustion 
        wastes, burners of oil and, indirectly, their oil suppliers 
        could be affected. The Agency will decide whether any of the 
        wastes should be subject to hazardous waste regulations. 
        Depending on the decisions yet to be made, action could be 
        taken that indirectly impacts the oil industry. At this point 
        it is too early to say if we will proceed with proposing 
        regulations, or whether such regulations would have any impact 
        on the oil and gas producers.

    Related Effort: Fossil Fuel Combustion Report to Congress

          This effort does address units generating power by burning 
        Oil (we also take a look at gas, but the burning of gas 
        produces little to no waste and therefore there is little to no 
        expectation that we will regulate wastes from burning gas).

    Persistent, Bioaccumulative, and Toxic (PBT) Chemicals and Chemical 
Categories List.--Non-regulatory effort to identify PET chemicals to 
focus our waste minimization effort. This list is scheduled to be 
released soon and will include 53 chemicals.
    Working with DOE and States.--EPA (and DOE) are working with the 
States (Interstate Oil and Gas Compact Commission), the industry, and 
environmental groups to provide voluntary State oil and gas program 
reviews for the protection of public health and the environment.
Water
    <bullet> Revisions to Effluent Limitations Guidelines and Standards 
for Synthetic-Based and Other Non-Aqueous Drilling Fluids in the Oil 
and Gas Extraction Point Source Category.
    <bullet> Rule Minimizing Adverse Environmental Impact from Cooling 
Water Intake structures Under Section 316(b) of the Clean Water Act.
    <bullet> Rule Establishing Electronic Reporting for NPDES 
Permittees.
    <bullet> Revisions to the Underground Injection Control Regulations 
for Class V Injection Wells.
Toxic Release Inventory (TRI)
    Potential Addition of Oil and Gas Exploration and Production to the 
Toxic Release Inventory (TRI) (EPCRA Section 313) (RIN 2070-AD19)--EPA 
has indicated that it may consider whether to propose adding facilities 
which perform exploration and production of oil and gas to the list of 
facilities reporting under the TRI. This action is still in the pre-
proposal stage.

    Question 2. Please identify any line item budget programs which 
will aid and assist the oil and gas sector during the current Oil 
Crisis.
    Response. The Agency currently has no specific line item budget 
programs or activities which will provide direct aid or assistance to 
the oil and gas industry. There are, however, two programs that offer 
the opportunity for the oil and gas sector to design creative new 
approaches to environmental protection that could be more in line with 
their own unique economic situation. First, Project XL, which stands 
for excellence and leadership, is an experimental pilot program that 
offers chances to test new ideas as long as they produce superior 
environmental performance and have the support of stakeholders. Second, 
the Agency's sector-based approach, an outgrowth of the Common Sense 
Initiative, offers the opportunity to work with EPA to resolve issues 
and develop innovative solutions with stakeholder input. The Petroleum 
Refining Sector is still continuing its work initiated under CSI and 
could be a venue for a larger dialog with EPA.

    Question 3. The Energy Information Agency estimates that demand for 
natural gas will increase from 22 Tcf per year today to 30 Tcf by 
approximately 2010. In order for this demand to he met, existing 
interstate natural gas pipelines will have to be expanded and new 
natural gas pipelines will have to be built. The Federal Energy 
[Regulatory] Commission and the Council on Environmental Quality are 
beginning to work to establish a Memorandum of Understanding among the 
key Federal Departments and agencies responsible for NEPA review of 
natural gas pipelines. Currently, it takes at least 2 years for a 
proposed interstate natural gas pipeline to complete the NEPA and 
regulatory review process at FERC in order to obtain a certificate to 
build. The intent of this Memorandum of Understanding is to have the 
relevant agencies meet at the beginning of the review process to 
determine the scope of each agency's review so that the agencies can do 
their reviews simultaneously to expedite the NEPA review process. They 
can also then coordinate the information requested of the applicant to 
eliminate duplication of effort. Are you aware of this effort? Is EPA 
committed to working to make this Memorandum of Understanding happen?
    Response. EPA is aware of the effort by CEQ and the Federal Energy 
Regulatory Commission to establish a Memorandum of Understanding among 
Federal agencies responsible for NEPA review of natural gas pipelines 
to facilitate NEPA reviews of pipeline proposals. EPA supports this 
effort to coordinate the NEPA process and looks forward to working with 
CEQ and the other agencies to develop the MOU.
                          hydraulic fracturing
    Question 1. Based on your archives and discussions with your 
regional administrators over the past few months, has the EPA ever 
encountered a documented case of groundwater contamination associated 
with hydraulic fracturing?
    Response. In June 1998, EPA investigated and prepared background 
information on the practice of hydraulic fracturing, with a primary 
focus on coal bed methane (CBM) wells and CBM reserves. This 
information was disseminated internally, especially to the underground 
injection control program staff in each Regional office. In November 
1998, EPA expanded its efforts beyond CBM wells when the Office of 
Ground Water and Drinking Water asked the Regions to provide all 
information pertaining to contamination incidents from hydraulic 
fracturing operations in general. To date, we have not received any 
confirmed reports of contamination. However, in compliance with the 
11th Circuit's decision, the Administrator stated that the Agency would 
undertake a review to determine if environmental threats exist. We are 
working with the States and fully evaluating contamination incidents.
    The Agency's primary stakeholder on underground injection wells 
issues, the Ground Water Protection Council (GWPC), provided EPA with a 
December 1998 survey of hydraulic fracturing of CBM wells in producing 
States. As part of the survey, GWPC reported only one alleged 
contamination incident. Responses to the questions posed in the survey 
indicated that there were two other States (Virginia and New Mexico) 
where a complaint was investigated and dismissed.

    Question 2. Didn't the EPA attempt to defend its position of not 
regulating hydraulic fracturing as underground injection in the LEAF 
case in Alabama citing the lack of public health threat and lack of 
environmental concern? Do you still believe that to be true?
    Response. In the LEAF v. EPA case, EPA asserted that hydraulic 
fracturing was not an underground injection as defined in the 
regulations and based on its interpretation of the Safe Drinking Water 
Act. In taking this position, the Agency relied on the decisions made 
during the promulgation of final UIC regulations in the early 1980's. 
At that time, there was no documented evidence of contamination 
incidents and no party raised concerns regarding public health or 
suggested that the practice posed any threats to the environment. 
However, the practice of hydraulic fracturing for coal bed methane 
recovery became widely used only after the promulgation of these 
regulations so potential impacts in such cases were not and could not 
be considered. Moreover, EPA's primary concern in defending against the 
lawsuit was the effect that reopening long-established regulations, 
contrary to the statutory cutoff date for judicial review, would have. 
When the 11th Circuit decided the case, and all avenues of appeal were 
exhausted, the Administrator stated that the Agency would review 
subsequent developments to determine if threats exist. During the 
course of this review, three environmental groups (one in Alabama, two 
in Virginia) asserted that their drinking water wells have been 
adversely effected by CBM well operations. We are working with the 
States and are fully evaluating these claims.

    Question 3. Based on the constraints of the EPA budget, if a 
technical solution could be offered that would protect the Agency's 
ability to regulate activities but allow hydraulic fracturing to return 
to unregulated status, as argued by the EPA in the LEAF case, would EPA 
be willing to work with Congress to draft this fix?
    Response. We are committed to increasing flexibility in our Federal 
regulatory approach and being sensitive to the needs of the primacy 
States as our partners in underground injection control (UIC). We are 
working closely with the State of Alabama in order to ensure that a 
resolution satisfying the 11th Circuit's decision regarding hydraulic 
fracturing is achieved. Alabama has recently held a public hearing on a 
new State rule that regulates the practice of hydraulic fracturing for 
coal bed methane wells. More steps still need to be taken by the State 
to bring the regulation of this activity under Alabama's UIC program. 
The Agency plans to keep Alabama's Congressional delegation informed of 
the progress pertaining to this issue.
    EPA believes that an appropriate course of action for dealing with 
the issue of hydraulic fracturing is to proceed with our efforts to 
gather and analyze information on any potential environmental and 
public health effects of the practice, working with the States, 
industry, and interested stakeholders, and clearly communicating with 
affected parties and interests on the State of our information and 
analysis. While this process is still ongoing, the Administration is 
not recommending changes to EPA's existing authority to protect ground 
water under the Safe Drinking Water Act. Nonetheless, we are ready to 
provide technical views and information to the committee on this or any 
other legislative matter affecting EPA authorities.
                                 ______
                                 
    Responses by Administrator Browner to Additional Questions From 
                          Senator Craig Thomas
                        risk management program
    Question 1. I, and presumably other members of this committee, have 
received letters over the past 8 months from our constituents angry 
with the Risk Management Program rules that apply to propane. In light 
of the significant controversy around this program, including a pending 
lawsuit that will not be heard in court until October at the earliest, 
as we draw closer to the June 21, 1999 deadline, what are your plans, 
if any to extend this compliance date?
    Response. EPA shares the concern that you and others have raised 
that the RMP rule may cover facilities too small to pose a significant 
risk to the surrounding community. We are actively exploring ways of 
revising the rule to draw a more appropriate line between those 
facilities that warrant Federal regulation and those that do not. We 
expect to finish soon the technical and legal work necessary to 
arriving at an appropriate resolution of this issue. We will then issue 
a notice of proposed rulemaking to revise the rule and a stay of the 
rule for those facilities that would be affected by the proposed rule 
revision. We understand the urgency of this issue and will keep you 
informed of our progress.
    With regard to the legal challenge to the rule, the Agency does not 
customarily stay its regulations in order to allow litigants time to 
pursue legal challenges. Such a practice would provide litigants the de 
facto power to delay implementation of virtually any Agency regulation, 
regardless of the legal merits of a lawsuit, and the Agency cannot 
voluntarily take actions it believes run counter to its own mission and 
the interests of the public. EPA rules are routinely promulgated with 
immediate or very short compliance dates. In this case, the Clean Air 
Act provides that regulated entities be given an additional 3 years 
from the date of promulgation to comply. The RMP rule was promulgated 
on June 20, 1996 and since that time the National Propane Gas 
Association (NPGA) has been free to activate its litigation at any 
time, as well as prepare its members to meet their compliance 
obligations. The D.C. Circuit is unable to hear this case until at 
least October, 1999 because NPGA failed to ask for such a hearing in 
time to have it scheduled prior to June 21, 1999. The main purpose of 
the RMP rule is to prevent accidents. Delaying RMP implementation means 
that accidents could continue to occur where they might have been 
prevented.

    Question 2. I am troubled by what I'm hearing from many of my 
constituents, that the Risk Management Program rules are causing 
propane customers to switch to fuels that are less clean than propane. 
How do you reconcile the facts that EPA is working to address the 
global climate issue on the one hand, while on the other hand is busily 
erecting disincentives to the continued use of a congressionally-
approved alternative fuel?
    Response. EPA recognizes that whenever the Agency regulates a 
substance and sets threshold quantities, there is some incentive for 
certain facilities to consider alternatives to those substances. 
Therefore, EPA believes that a small amount of fuel switching may 
occur, but it is unlikely to be significant, for several reasons. 
First, most propane distributors generally sell propane to customers 
who won't be covered by this rule at all (because they don't have 
10,000 pounds of propane in a process). These facilities will have no 
possible incentive to reduce inventories or switch fuels. Second, 
startup costs for alternative fuel systems are likely to be much more 
expensive than the cost to implement the RMP regulation (EPA expects 
that preparation and submission of an RMP for a small propane supplier/
user would cost on the order of $200; new storage tanks and piping for 
a different fuel is likely to cost far more than $200). Third, 
alternative fuels, such as diesel fuel and fuel oil, are regulated by 
EPA and other Federal agencies under other statutes (e.g., under the 
Clean Water Act, any facility holding more than 1320 gallons of fuel 
oil in above ground storage must prepare a spill prevention plan). 
Fourth, the RMP regulation doesn't require fuel switching for any 
facility, no matter how much propane they store.
    EPA does not believe that regulation of propane and other clean-
burning fuels in the RMP conflicts or interferes with other Clean Air 
Act or Agency goals. Under CAA 112(r), EPA is obligated to issue 
regulations to prevent accidental releases of hazardous substances that 
could cause acute harm to the offsite public and to mitigate the 
severity of those releases that do occur. EPA has identified flammable 
substances, including those used as fuels, as chemicals that may pose a 
significant hazard to the community, and therefore should be subject to 
accident prevention regulations. Since nothing in the RMP requires 
facilities to stop or limit their use of propane (or any other 
chemical), EPA does not believe the RMP's goal of preventing accidents 
is inconsistent with the goal of achieving clean air; efforts in both 
areas should enhance public safety and health. In short, EPA does 
encourage use of clean burning fuels like propane, yet also recognizes 
that they may present hazards that should be addressed.

    Question 3. EPA has reportedly offered to respond to the 
agriculture community's problems with the Risk Management Program rules 
by issuing revised guidance documents. Why should they place any stock 
in this approach when EPA includes a clear disclaimer that the guidance 
does not supersede regulatory language and that it can be changed at 
any time in the future?
    Response. EPA has issued guidance for propane facilities which 
specifies separation distances for propane tanks which, if met, allow a 
facility to consider the separate tanks as separate processes. This 
would allow a facility to apply the 10,000 pound propane threshold to 
each individual tank, so that a tank smaller than 10,000 pounds 
capacity would not be covered by the rule. The guidance is based on the 
best available data and EPA has no reason to think that the separation 
distances it provides will require changing. In any case, the guidance 
simply helps facilities make a determination that they could have made 
on their own. The Agency believes that a very large number of farms 
using propane will be exempt from the rule either because they are 
below the threshold quantity established for propane or because they 
will be able to use the separation distance guidance to determine that 
they are not covered by the RMP rule.

    Question 4. EPA stated during the RMP rulemaking in 1996 that 
propane-specific guidance would be published. How do you expect the 
industry and its customers to comply by June 21, 1999 when propane-
specific guidance was published 2\1/2\ years late in November 1998, 
right at the beginning of the busy winter heating season?
    Response. EPA met its statutory requirement to provide guidance at 
the time it promulgated the RMP rule when it issued a document that 
helps all covered facilities conduct offsite consequence analyses 
(OCA). Such analyses require application of expertise that many covered 
facilities are unlikely to have, so provision of that guidance was key 
to allowing facilities to determine whether they are covered by the 
rule. Compliance with the rule itself generally does not require such 
specialized expertise; instead it calls for facility operators to 
identify the ways in which an accident might occur and develop a 
program to prevent such accidents from occurring.
    Since promulgating the rule and issuing the OCA guidance, EPA has 
also developed industry specific and general guidance to provide 
further help in complying with the rule along with free software for 
offsite consequence calculations and preparing the risk management 
plan.
    In any event, the RMP regulation was published nearly 3 years ago, 
and propane facilities were notified of their coverage under the RMP 
regulations more than 5 years ago, when propane was included in the 
list of regulated substances that EPA published in 1994. Nothing in any 
Agency guidance document has altered the basic compliance requirements 
put forth in the original RMP rule as they apply to propane facilities. 
Guidance documents are a useful tool to assist facilities in regulatory 
compliance, but that compliance is expected and required regardless of 
whether or not a facility happens to be in one of the particular 
industry sectors for which the Agency has published specific guidance. 
We believe that we published the propane guidance in sufficient time 
for all covered propane facilities to comply with the rule. As evidence 
of this fact, we note that a number of propane facilities have already 
submitted RMPs to EPA. In fact, of the 48 early submission RMPs we have 
received (as of March 2, 1999), 34 are from propane facilities. The 
fact that these facilities (which include the full range of propane 
users and distributors) submitted their RMPs over 3 months early 
indicates that propane facilities already have had more than enough 
time to comply with the regulation. Since facilities in compliance with 
NFPA-58 have already implemented some of the accident prevention and 
emergency response elements required by the RMP rule, and since propane 
facilities in general are among the least complex of facilities covered 
by the regulation, these early submissions indicate that they are 
finding it relatively easy to comply.

    Question 5. I understand that EPA did not implement a fuel use 
exemption for propane within the Risk Management Program rules in the 
same way OSHA did within the Process Safety Management regulations. How 
can the Agency justify such a decision, when the clear language of the 
Clean Air Act requires the EPA to coordinate its requirements with 
those established by OSHA for comparable purposes?
    Response. Since OSHA provided a fuel-use exemption under its 
Process Safety Management standard (29 CFR 1910.120), the Agency 
examined this issue in detail. When publishing the list of CAA 112(r) 
regulated substances in 1994, EPA also published a supplemental notice 
to seek public comment on whether flammable substances when used as 
fuels posed a lesser intrinsic hazard than the same substances handled 
otherwise. However, no data were submitted to EPA to justify this 
position. Further, EPA collected data on a number of accidental 
releases of flammable substances which indicated that these substances 
have caused deaths, injuries, evacuations and extensive property 
damage. Therefore, EPA determined that the hazard posed by flammable 
substances is inherent and does not vary with use. In other words, 
propane is propane, regardless if it is used as a fuel or if it is used 
as a chemical feedstock in a manufacturing plant. EPA published this 
analysis and decision in the final RMP rule, 61 FR 31702 (3rd column) 
(June 20, 1996), which was submitted to Congress for review under the 
Congressional Review Act. Congress did not act in response to that 
submission. It should also be noted that a fuel use exemption would not 
necessarily have included propane dealers and distributors.
                           tier 2 rulemaking
    Question 1. Has EPA looked at the implications on the refining 
industry of the Tier 2 Rulemaking considering factors such as: (1) 
Industry's ability to supply low sulfur gasoline at levels prescribed 
by EPA to all sectors during this timeframe; (2) Timing requirements 
for permitting, capital expenditures and actual construction of new or 
upgraded facilities; (3) Feasibility of current and future technologies 
and the timeframe for their development and utilization; (4) Pressures 
on the use of MTBE in fuels; (5) Probable reformulation of diesel; and 
(6) Industry's current profitability.
    Response. EPA has considered all these factors in preparing the 
proposed Tier 2 rulemaking. In an effort to fully understand these 
issues the Agency has had numerous meetings with representatives of the 
oil industry. Administrator Carol Browner, Assistant Administrator for 
Air and Radiation Robert Perciasepe, and Acting General Counsel Gary 
Guzy, have all participated in these meetings. In addition, we have 
consulted with policy and technical experts at the Department of 
Energy.
    In developing our proposed regulations on reducing sulfur levels in 
gasoline and our advance notice of proposed rulemaking on sulfur levels 
in diesel fuel, we are carefully considering the availability of sulfur 
reduction technology, cost, and time needed for refinery modifications, 
permitting and other critical factors. After the proposal is published 
in the Federal Register there will be ample opportunity for all 
interested parties to review and comment on all aspects of the 
proposal. EPA will conduct several public hearings around the country 
and will accept written comments as well.

    Question 2. I am concerned that the National Environmental 
Laboratory Accreditation Program (NELAP) budget could be a casualty of 
budget cuts and agency reorganization. Laboratory data is the very 
basis of nearly every environmental decision. However, current Federal 
and State accreditation programs that assess laboratory competency vary 
in both scope and stringency. This inconsistency allows less than 
competent laboratories, both public and private, to generate 
environmental data. NELAP rectified this problem by establishing a 
single set of rigorous standards. The result will be a better 
confidence in data used to make cleanup and compliance decisions. Does 
the Agency plan to fully fund this program?
    Response. EPA will meet its commitments to support the National 
Environmental Laboratory Accreditation Program. For fiscal year 1999, 
$500,000 has been provided to cover NELAP costs. The fiscal year 2000 
President's Budget provides $500,000 for NELAP.
    The National Environmental Laboratory Accreditation Program 
(NELAP), managed by Environmental Protection Agency (EPA), implements 
environmental laboratory accreditation standards developed through a 
voluntary association of State and Federal agencies known as the 
National Environmental Laboratory Accreditation Conference (NELAC). The 
oversight role of NELAP is clearly defined in the NELAC standards. 
EPA's NELAP ensures the NELAC standards are applied consistently across 
State accreditation programs and that a high degree of standardization 
and uniformity exists among the States.
    The development of the national system of environmental laboratory 
accreditation spans back to the early 1990's when a Federal advisory 
committee was convened to study the need for a national system of 
environmental laboratory accreditation. EPA, the States and the private 
laboratory community agreed that a national, uniform system for 
accrediting environmental laboratories would benefit the generation of 
laboratory data and improve the existing, diverse systems in place at 
that time. Over the past 9 years, EPA, the States, and the private 
sector have worked to develop the NELAC system by establishing 
consensus and cooperation among the States through the adoption of 
uniform standards.
    Currently, NELAP is in the midst of completing reviews of the first 
15 State applicants for recognition as NELAP Accrediting Authorities. 
When recognized, these States will be authorized to begin accreditation 
proceedings for private laboratories in the United States under the 
NELAC standards. This will be the first time that a national system of 
accreditation of NELAC's scope will exist.
                                 ______
                                 
Responses by Administrator Browner to Additional Questions From Senator 
                          George V. Voinovich
                            clean air (otag)
    Question 1a. As I mentioned in my opening statement, I believe that 
EPA's policies often run counter to the efforts of other Federal 
agencies and even EPA's own mission. For instance, the Administration 
is interested in preventing urban sprawl and cleaning up abandoned 
industrial sites. However, EPA has set inflexible NO<INF>x</INF> and 
NAAQS standards that many areas in this country will be unable to 
attain. Hence, there will be few incentives to re-use abandoned sites 
and industry will look toward greenspaces, ultimately undermining 
efforts to prevent urban sprawl and re-use Brownfields sites. First, 
why should Congress approve a program to prevent urban sprawl when you 
are implementing other policies and regulations to do the opposite?
    Response. Congress should approve the Better America Bonds program 
and the rest of the Administration's Livability Agenda because 
communities have overwhelmingly expressed their desire for more livable 
communities. In November 1998, more than 220 communities proposed--and 
the vast majority adopted--measures to manage sprawl and enhance local 
livability. Measures adopted include those that preserve green space, 
reduce traffic congestion and offer more transportation choices, 
improve regional cooperation and enhance quality of life.
    Better America Bonds.--A critical element of the Livability Agenda 
is the Better America Bonds program that will allow communities to 
decide for themselves how they will preserve their open spaces, protect 
their water, clean up brownfields, and improve their quality of life.
    The Administration's proposed Better America Bonds Program will 
enable State, tribal and local governments to issue $9.5 billion in 
bonds over 5 years through approximately $700 million in Federal tax 
credits. Communities will have access to low-cost financing and 
investors who buy these 15 year bonds will receive Federal tax credits 
in lieu of interest.
    Better America Bonds can be used in a number of ways.
    Better America Bonds will further the Brownfields by providing much 
needed flexible funding that communities can use for Brownfields 
cleanups. Our Brownfields program is already cleaning up and 
revitalizing abandoned industrial properties in 227 communities around 
the country. This program has leveraged $1 billion in public and 
private funds, created thousands of new jobs and turned idle land back 
to productive and profitable use. And it has helped spare green spaces 
in nearby suburbs the kind of development that swallowed up 4.3 million 
acres of our nation's prime and unique farmland in one 10-year span.
    Communities have identified lack of funding for cleanup and other 
Brownfields activities as the greatest barrier to Brownfields 
redevelopment. For example, the U.S. Conference of Mayors pointed to a 
lack of capital for local governments as the leading barrier to the 
clean-up and re-use of Brownfields. Better America Bonds will help 
bridge the funding gap by supplementing existing Brownfields funding 
with bond proceeds, thus increasing the funds available for Brownfields 
and providing financing necessary to enable communities to move forward 
with their Brownfields plans.
    In addition, State, Tribal and local governments, working alone or 
in partnership with land trusts and other nonprofit organizations, can 
create or restore urban parks, preserve suburban green spaces, and 
protect threatened farmland and wetlands by acquiring title or 
purchasing conservation easements using these new bonds.
    Rivers, lakes, coastal waters, and wetlands can be restored or 
protected, streamside zones can be repaired and land can be acquired to 
reduce polluted runoff.
    To ensure that communities can grow according to their own values, 
the Administration's Agenda observes these key principles:
    <bullet> Communities know best. Land use decisions are--and will 
continue to be--made by local entities.
    <bullet> The Federal Government should inform, not dictate, 
patterns of future growth. Government can supply information, tools and 
resources to empower citizens and communities by helping them envision 
different strategies. Government can also provide incentives for 
communities to work together to address challenges of growth and 
development.
    The Livability Agenda also includes: transportation enhancements; 
regional smart growth partnerships; schools as community centers; 
community-Federal information partnerships; and regional crime-data 
sharing. It focuses broadly on a range of issues to improve the quality 
of life in a community and touches on important parts of our daily 
lives--the safety of our homes and streets, our commute to work, the 
schools where our children learn to read, and the parks where we relax.
    EPA's efforts to Encourage Investment In Existing Communities.--
EPA's efforts to improve environmental quality are intended to provide 
the health and livability benefits of a clean environment to all 
Americans--in cities, suburbs, towns, and rural communities. While 
certain Clean Air Act provisions, for instance, have sometime been 
criticized because they may encourage development in greenfields, 
rather than in existing cities and suburbs, research has shown that the 
location decisions of private firms are not influenced to any 
significant extent by environmental regulations. Studies of how 
environmental regulations affect competitiveness or location decisions 
concluded that environmental regulations have not been shown to be a 
barrier to either business location or economic competitiveness. On the 
contrary, organizations as diverse as real estate researcher Price 
Waterhouse Coopers/Lend Lease, the grass roots/business/government 
partnership Envision Utah, Sierra Business Council, and Bank of 
America, have cited clean air, clean water, access to nature, 
transportation choices such as transit, livability and quality of life 
as positive attributes companies do and should seek in making location 
or investment decisions.
    At the same time, we are continuing to create new incentives in our 
regulatory programs that encourage more investment in existing 
communities. For instance, our Clean Air-Brownfields Partnerships Pilot 
projects are designed to quantify the air quality benefits of infill 
redevelopment. We are working with three cities--Dallas, Baltimore and 
Chicago--to analyze their infill redevelopment programs and incentives 
and their potential air quality impacts. In these pilots, EPA and the 
cities are exploring how the Clean Air Act can become a better tool for 
encouraging investment in existing cities and suburbs, rather than a 
potential disincentive and that might otherwise encourage new 
development to the undeveloped fringes of communities.
    EPA's Brownfields Initiative has empowered States, communities, and 
other stakeholders in economic development to work together to prevent, 
assess, safely clean up, and sustainably reuse brownfields. EPA 
provides communities with grants for assessing and cleaning up 
brownfields. These grants are designed as ``seed money'' to help 
communities begin to deal with their brownfields problems. Since fiscal 
year 1995, EPA has provided funding to 250 States, cities, towns, 
counties, and tribes for Brownfields Assessment Demonstration Pilots. 
The Pilots, each funded at up to $200,000 over 2 years, will test 
redevelopment models, direct special efforts toward removing regulatory 
barriers without sacrificing protectiveness, and facilitate coordinated 
site assessment, environmental cleanup and redevelopment efforts at the 
Federal, State, and local levels.

    Question 1b. Second, why should we support Better America Bonds 
when EPA has consistently tried to micromanage State efforts to clean 
up Brownfield sites?
    Response. EPA has worked closely with States to provide financial 
and technical support to local Brownfields efforts. EPA's State 
partners have applied for and been awarded assessment and cleanup 
revolving loan fund grants to further brownfields cleanup in their 
States. EPA has collaborated with States on implementing the Targeted 
Brownfields Assessment program and the Brownfields Tax Incentive, 
providing further encouragement for locally directed Brownfields 
activities. States are the lead regulator at Brownfields sites, often 
through State Voluntary Cleanup Programs. Over the past 3 years, EPA 
will have provided $30 million to support State Voluntary Cleanup 
programs. EPA has signed Memoranda of Agreement with 12 States to help 
clarify Federal and State roles. Further, the EPA Brownfield program 
has been developed without EPA issuing any regulations or rules that 
direct anyone, including States, on how Brownfield cleanups will be 
conducted. The success of the Brownfield program is that it is 
responsive to State, local, and tribal governments to meet their needs 
to return property back to productive use.
    Better America Bonds will further the Brownfields Initiative by 
providing much needed flexible funding that States and communities can 
use for Brownfields activities, greenspace acquisition and water 
quality protection. A recent report by the U.S. Conference of Mayors 
pointed to a lack of capital for local governments as the leading 
barrier to the cleanup and reuse of brownfields. The Administration's 
proposed Better America Bonds Program will enable State, tribal and 
local governments to issue $9.5 billion in bonds over 5 years through 
approximately $700 million in Federal tax credits. Better America Bonds 
are not limited to Brownfields. Eligible projects include open space 
acquisition and improvements in water quality. Communities will have 
access to low cost financing and investors who buy these 15 year bonds 
will receive tax credits in lieu of interest. Working in conjunction 
with other Brownfields tools such as the assessment grants and the 
Brownfields Tax Incentive, the Better America Bonds will supplement, 
not replace, existing brownfields funding, thus increasing the range of 
tools and funds available for brownfields cleanup and redevelopment.

    Question 2a. You are requesting $200 million for the Clean air 
Partnership Fund for projects that achieve innovative and early air 
pollution and greenhouse gas emission reductions. Your premise is to 
allow State and local governments to partner with other parties and the 
Federal Government to demonstrate creative ideas for cleaning the air. 
I am curious that if you are interested in achieving early air 
pollution reductions why you did not accept the Midwest and Southern 
Governors' proposal for the NO<INF>x</INF> SIP Call, which would have 
achieved the 8-hour ozone standard 1 year earlier--in 2009--than the 
ozone rule allows for in 2010?
    Response. Attainment deadlines have not yet been set for the 8-hour 
ozone standard. EPA expects these deadlines to range between 2005 and 
2010. EPA's NO<INF>x</INF> SIP Call required States to reduce 
``transported'' air pollution in order to help provide for expeditious 
attainment of both the 1- and 8-hour ozone air quality standards. 
Implementation of the NO<INF>x</INF> reductions called for by this 
action is projected to enable most of the new nonattainment areas to 
achieve these standards by 2005. As a result, most of these new areas 
should need few, if any, additional local measures to attain.

    Question 2b. How is human health and the environment protected 
under a model that would achieve the standards a year later than the 
Governors' proposal?
    Response. Thus we believe that compliance will provide cleaner air 
substantially faster than the 2009 date connected with the Governors' 
proposal.

    Question 3. In your budget proposal, you encourage the use of 
multi-state groups to help resolve current air problems. What 
assurances do States have that if they enter into such groups, like 
OTAG, that EPA will take their recommendations into consideration? For 
instance, OTAG recommended NO<INF>x</INF> reductions in amounts up to 
85 percent along with the completion of subregional modeling under the 
NO<INF>x</INF> SIP Call. Ohio concurred in this recommendation. 
However, your Agency chose to impose an across-the-board, uniform 85 
percent reduction notwithstanding real environmental data demonstrating 
little or no impact from the many States in OTAG. And, you rejected the 
use of subregional control strategies. Why should States invest the 
time to enter groups when they have no assurance that you will take 
their recommendations into account?
    Response. The technical efforts by multi-state groups to develop 
technical data and submit at least a range of recommendations are 
extremely important. With respect to the work of the OTAG, EPA depended 
extensively upon the technical data, modeling, and control technology 
and cost information developed in that process. OTAG's efforts served 
as a major part of the technical foundation for EPA's NO<INF>x</INF> 
SIP Call. In its recommendations, OTAG was not able to agree on a 
specific control level, and instead recommended a range of controls 
from no controls beyond existing Clean Air Act requirements to the 85-
percent level of controls. EPA considered the range presented by OTAG, 
and ultimately employed ``highly cost-effective'' control measures to 
calculate State NO<INF>x</INF> reductions. We believe that this is the 
most appropriate way to proceed. Thus, EPA chose to use the level of 
0.15 pounds of NO<INF>x</INF> per million British Thermal Units. EPA 
also chose to strongly recommend that States employ an ``emissions 
trading'' program to further lower overall compliance costs. Thus, 
although the OTAG States were not able to reach consensus on one 
control level, the OTAG efforts were important in developing technical 
information and a range of control levels which EPA carefully 
considered in its rulemaking. The Agency wants to continue efforts to 
partner with multi-state groups to find solutions to some of the 
complex issues we face.

    Question 4. In your budget, you include $62 million--$6 million 
more than 1999--for PM<INF>2.5</INF> research so you can provide 
Regions, States and tribes with new information and tools they need to 
characterize the PM<INF>2.5</INF> problem.
    In the late 1970's, EPA sought the removal of asbestos from schools 
without knowing a lot of information about asbestos. Asbestos removal 
has cost about $50 billion over the last 20 years. However, a recent 
study published in the New England Journal of Medicine found that EPA 
grossly overestimated the cancer risk from asbestos in buildings by 
about 10 times. This is money that could have been better spent on 
books and more teachers. However, EPA has never made an announcement or 
effort to reverse the multi-billion dollar asbestos removal effort that 
your early pronouncement sparked.
    Can you assure me that you aren't making the same mistake with 
PM<INF>2.5</INF>? You are requesting $62 million for a program that you 
admit you don't have adequate information about. Yet you are willing to 
move forward with costly regulations without knowing what the benefits 
will be. What you have basically said is ``whether we are right or 
wrong, we are moving ahead.'' We need to ensure that money is not being 
spent on a largely fruitless endeavor.
    Response. EPA is not moving forward with ``costly regulations'' for 
PM<INF>2.5</INF> without an estimate of the potential benefits. Current 
scientific knowledge demonstrates that the PM<INF>2.5</INF> standard is 
necessary to protect the public health. To determine how best to 
protect public health, EPA, in partnership with State and local 
governments, is now collecting additional information that can be used 
to inform future regulatory decisions regarding PM<INF>2.5</INF>. As 
noted in the question, the $62 million is for research--not for 
imposition of ``costly regulations.'' EPA is following the July 16, 
1997 memorandum from President Clinton to Administrator Browner, 
``Implementation of Revised Air Quality Standards for Ozone and 
Particulate Matter,'' which lays out a phased, common sense approach to 
protecting the public from the health hazards of PM<INF>2.5.</INF> 
Specifically, the memorandum stated that: ``Implementation shall ensure 
that the Environmental Protection Agency (``Agency'') completes its 
next periodic review of particulate matter, including review by the 
Clean Air Act Scientific Advisory Committee, within 5 years of issuance 
of the new standards, as contemplated by the Clean Air Act. Thus, by 
July 2002, the Agency will have determined, based on data available 
from its review, whether to revise or maintain the standards. This 
determination will have been made before any areas have been designated 
as ``nonattainment'' under the PM<INF>2.5</INF> standards and before 
imposition of any new controls related to the PM<INF>2.5</INF> 
standards.'' This point was further supported by Congressional action 
in the TEA-21 legislation, which clarified the time schedule for 
PM<INF>2.5</INF> data collection and designations to ensure that no 
designation from PM<INF>2.5</INF> would be made without 3 years of 
Federal references method air quality data. Both of these actions were 
designed to ensure that new controls for PM<INF>2.5</INF> are not 
implemented before EPA has adequate information to support their 
imposition. At the same time, the Agency believes that it is prudent to 
use the available time between now and nonattainment/attainment 
designations to support the development of new tools and techniques to 
aid the implementation of the PM<INF>2.5</INF> NAAQS.

    Question 5. As a followup to my last question, last year $56 
million was appropriated to study PM<INF>2.5.</INF> How was this money 
spent and has EPA identified any findings?
    Response. The distribution of funds to the research topics 
recommended by the National Academy of Sciences Research Committee on 
Particulate Matter for fiscal year 1999 is shown in the table below. 
Using these funds, the Agency is continuing its implementation of a 
very strong program of particulate matter research. The program is 
based on a philosophy of working closely with the National Academy of 
Sciences for strategic research planning, with the Clean Air Scientific 
Advisory Committee for scientific peer review of specific activities, 
and with ORD's Board of Scientific Counselors for program management 
review. With this strong foundation of extramural strategic, technical 
and management support, the Agency is planning and implementing a 
comprehensive program coupling research and ambient monitoring to 
address the NAS recommendations for particulate matter research. The 
research is focused on understanding human exposure to PM, including 
exposure to sensitive subpopulations, on identifying the components and 
mechanisms by which PM produces effects, on the development of source--
to--receptor methods and tools, and on the role of PM and copollutants 
such as ozone on human health, among other efforts.
    For research activities in general, we observe that research 
results typically flow from any specific research project over a 
several year period. Typically, 1 to 2 years after funding, research 
results are evident from abstracts submitted for poster or oral 
presentation in conjunction with scientific conferences. Then, several 
months to perhaps 2 years after conference presentation, results are 
presented in the peer reviewed scientific literature. The consequence 
of this typical stream of information from research activities is that, 
for the fiscal year 1999 budget year, the research is now underway and 
findings cannot be expected yet. However, extensive research 
coordination among EPA and other public and private sector research 
organizations is assuring that the NAS research priorities are being 
addressed and the fiscal year 1999 resources are being applied and 
leveraged effectively in the context of other research and monitoring 
efforts.
    The EPA is continuing, with fiscal year 1999 funding, many 
activities begun in fiscal year 1998 or earlier that are producing 
important findings. For example, key components of PM, such as 
transition metals, have been shown to produce enhanced toxicity in 
animal studies and in humans. Several hypotheses as to the mechanisms 
by which metals and other PM components may produce toxicity are being 
evaluated, including direct inflammatory processes and indirect stress 
upon the cardiopulmonary system. In addition, we are finding through 
study of potentially susceptible subpopulations, such as the elderly 
with existing heart disease, that ambient levels of PM<INF>2.5</INF> 
are associated with changes in important cardiac measures. In fiscal 
year 1999, we are continuing to analyze these results and collect 
additional toxicological, epidemiological, and exposure data to address 
the research priorities identified by the NAS.
                                 ______
                                 
Responses by Administrator Browner to Additional Questions From Senator 
                            Michael D. Crapo
                      food quality protection act
    Question 1. How much importance has the EPA given to the impact on 
minor crops as it develops pesticide rules?
    Response. EPA puts special emphasis on promoting and maintaining 
pesticides for minor use crops. Pesticides for minor uses are worth 
preserving because they are of major significance in agricultural 
production. Without these small-scale, but vital pesticide uses, many 
of the fruits and vegetables grown in the United States could not be 
produced successfully. However, since many of these uses produce 
smaller revenues for pesticide registrants than do major use products, 
companies are sometimes reluctant to support and maintain registrations 
and associated tolerances for these low-market products. Unfortunately, 
a minor crop farmer is usually dependent on only a small arsenal of 
pest control products, and the loss of any of them could drastically 
affect their ability to farm.
    The Agency has long recognized the potential impacts of its 
decisions on minor crop growers and has taken numerous steps to 
alleviate some of the problems. Congress also realized the need to 
focus on minor use pesticides by putting EPA's minor use policy into 
law. Among other things, FQPA calls for coordinated action between EPA 
and USDA on minor use issues and requires both Agencies to establish 
programs to integrate the needs of minor uses in all regulatory 
actions. The new law gives registrants a variety of incentives to 
develop new minor use pesticides and help preserve the availability of 
existing ones. These incentives include expediting the review of data 
submitted in support of a minor use, granting time extensions for 
generating data, and giving those who invest in data development for 
minor uses extended exclusive rights to the data. Careful consideration 
is given to the data requirements needed to support minor uses to 
minimize the burden of performing studies. EPA is acutely aware of the 
uncertainties faced by minor crop growers, and will continue to work 
with growers and registrants to focus attention on those situations 
where limited crop protection alternatives exist.

    Question 2. Has a monetary and crop impact study been done by the 
EPA for the minor crop pesticides most likely to be eliminated? If not, 
why not?
    Response. The Agency has been working very closely with the USDA to 
help identify use patterns for many pesticides that are currently under 
review--not just those used on minor crops. Through the Tolerance 
Reassessment Advisory Committee (TRAC) process, EPA has engaged crop 
growers and their representatives regarding the importance of these 
pesticides in production of their crops. We have made progress in 
identifying minor use crops which are most reliant upon these 
pesticides through these and other processes.
    Where possible, the Agency prefers not to conduct complete impact 
assessments for every minor crop pesticide as they are costly to 
generate. Therefore, rather than generate impact assessments in all 
instances, the Agency, while employing uniform criteria in its 
decisionmaking, considers each potential assessment on a case-by-case 
basis.

    Question 3. Can products be left on the market until there are 
adequate, acceptable, and cost-effective alternatives available to 
growers?
    Response. [No response provided by EPA.]

    Question 4. Can the EPA take into consideration the discrepancies 
between United States and Canadian pesticide regulations when 
determining the policy on a particular pesticide?
    Response. EPA's goal is to ensure that pesticide issues and 
policies are negotiated and implemented to protect domestic interests, 
and are, to the extent possible, compatible with its neighboring 
countries. There are, however, growing trade concerns between United 
States and Canadian farmers, some of which involve pesticides issues. 
EPA is working to do all it can under current U.S. law to level the 
playing field between farmers in the two countries. The Agency already 
has underway a number of activities and projects, directed by the NAFTA 
Technical Working Group (TWG) on pesticides, that foster pesticide 
harmonization with Canada, including joint data reviews, development of 
uniform protocols for data development, cooperative review of 
chemicals, and extensive information sharing and consultation on trade 
issues. EPA will also continue to accelerate ongoing efforts to 
harmonize regulatory requirements and processes and to advance the 
level of work sharing between the two countries.
    Under the December 2, 1998 Record of Understanding between the 
governments of the United States and Canada, the two countries have 
committed to accelerate bilateral harmonization of pest control 
products building on existing TWG work. As a result of these efforts, 
there will be greater potential for faster and simultaneous access to a 
wider range of pest control products for both major and minor crops in 
both countries. The Agency is ready to work with USDA in the design and 
to conduct a study on the extent and impact of pricing differentials 
for pesticide products between the United States and Canada and 
possible reasons for the differences.
    Several bills have been drafted at the national (HR 4814 Canola 
Pesticide Registration Harmonization Act) and State levels (North 
Dakota House Bills No. 1335, 1252, 1360) which attempt to resolve 
`level playing field' issues by making Canadian pesticides more 
accessible to U.S. growers. EPA is reviewing the legislation with 
particular attention to assuring that the bills do not conflict with 
the requirement that all pesticides used and marketed in the United 
States be fully registered under FIFRA.

    Question 5. Do seed crops need to meet the same regulations as 
crops used for food?
    Response. This question can be read in several different ways and 
depends on whether the Senator is referring to seeds that have been 
treated with a pesticide prior to planting, or pesticide residues that 
may occur in the seed from an earlier application of a pesticide to the 
growing plant. In either case, if the seed will in any way be used for 
food or feed, then it is considered a raw agricultural commodity and 
any pesticide present must be within legal limits, that is, at or below 
the established tolerance.
    EPA is assuming that the question stems from the issue surrounding 
the difficulty of U.S. canola growers who have acquired or ordered seed 
from Canada treated with lindane, thiram and thiabendazole, pesticides 
that are not registered in the United States. Under FIFRA, treated seed 
may not be imported into the United States, unless either the treating 
pesticide or the treated seed itself is registered in the United States 
and appropriate tolerances (maximum legal pesticide residue limits) are 
in place. Otherwise, EPA cannot be guaranteed that the treated seed 
will not be used as food or feed, or once grown and the crop harvested, 
unsafe levels of residues may otherwise be present in food for human 
consumption. The answer to the above question is yes because the same 
scenario and rationale applies to other food/feed commodities that have 
been treated after harvest with a pesticide entering the country. 
Without acceptable toxicology and dietary exposure data, and subsequent 
U.S. registration, EPA cannot assure adequate protection for people 
from potential exposure.
    EPA is, however, taking steps to ensure that treated seed will not 
continue to be an issue between the United States and Canada. The 
Agency is accelerating the review and decisionmaking on pending 
applications for new canola pesticides which should provide more pest 
control tools for U.S. canola growers in the short term. A notice has 
also been sent out to affected parties that informs everyone concerned 
of our requirements, so that growers will be able to factor EPA 
requirements into their purchase decisions for this upcoming growing 
season. The Agency and Canada's Pest Management Regulatory Agency are 
committed to work together to develop a harmonized policy for movement 
of treated seeds by December 1999.
                    better america bonds initiative

    Question 1. What specific criteria will be used to judge the plans 
submitted by State and local governments? Will these criteria be 
developed by the EPA or by State and localities?
    Response. The three broad uses eligible for funding are open space 
preservation, water quality improvements, and Brownfields assessments 
and cleanups. Beyond that, no formal criteria have yet been developed. 
Once Congress enacts the Better America Bonds portion of the 
Administration's budget, EPA will work with the Federal agencies to 
solicit suggestions for criteria from States, local government, land 
trusts, conservation organizations, community development groups and 
other stakeholders. EPA will develop the criteria in cooperation with 
the other Federal agencies and in consultation with Congress.

    Question 2. What type of compliance monitoring will be used by EPA? 
For how long? What repercussions would there be for plans/projects 
deemed out of compliance?
    Response. Neither compliance monitoring procedures nor other 
administrative components of the Better America Bonds have yet been 
developed, pending Congressional action on the President's budget 
However, we anticipate, as proposed in the Department of Treasury's 
Greenbook, that the Internal Revenue Service would audit Better America 
Bonds in a manner similar to their audits of tax-exempt bonds. If 95 
percent of proceeds failed to be used for qualifying purpose or the use 
of qualifying facilities changed to a disqualified use during the 15-
year period from time of issuance to final maturity, no further credits 
would accrue and issuers would be obligated to reimburse the Federal 
Government for any credits accruing prior to that date. If a settlement 
cannot be reached with the issuer, the Federal Government would have 
the right to recover past credits from bond holders. Problems like this 
are very rare with respect to tax-exempt bonds and we expect that to be 
the case with Better America Bonds.

    Question 3. For lands purchased using Better America Bonds (BAB), 
is public access to those lands ensured? Are such lands purchased 
exclusively in willing-buyer, willing-seller situations?
    Response. With two exceptions noted below, property acquired with 
the proceeds of Better America Bonds could not be used privately. 
Public access to lands acquired, for example, to preserve open space or 
establish a public park would be controlled by State or local 
governments in a manner consistent with the environmental objectives of 
the project. Public access to some open spaces might be restricted to 
wilderness camping while public parks might be open from dawn to dusk. 
In general, however, bond proceeds cannot be used for property where 
access is limited to a select portion of the public, for example, a 
golf course open only to dub members. The exceptions to the general 
rule that property financed with bond proceeds is not to be privately 
used are: (1) Cases where proceeds are used to secure an easement on 
open space that permits continuing private, but limited, use. For 
example, bond proceeds might be used to secure an easement preventing 
the commercial or residential development of farm or ranch land under 
terms that allowed continued private farm or ranch use. (2) Where bond 
proceeds are used to remediate brownfields owned by State or local 
governments, subsequent private use of the site is permitted. For 
example, an abandoned industrial facility acquired by a city because 
the prior owner failed to pay property taxes could be remediated with 
the use of bond proceeds, the property sold to a private developer for 
commercial use under an arrangement that deposited installment payments 
of the purchase price in a sinking fund to be used to retire the bond 
at the end of 15 years.

    Question 4. One of the open space priorities is stated as 
preserving farmland. As a condition, the ``property must remain an open 
space.'' Does this mean that land is taken out of agricultural 
production?
    Response. On page 3 of the Treasury Greenbook section entitled: Tax 
Credits for Holders of Better America Bonds, the qualifying purposes 
for BABs are defined as:

         ``(a) Acquisition of land for open space, wetlands, public 
        parks or greenways to be owned by an eligible issuer or by a 
        501(c)(3) entity whose exempt purpose includes environmental 
        preservation.
         (b) Construction of visitor facilities, such as camp grounds 
        and hiking or biking trails, in connection with such acquired 
        land or other open space, wetlands, or parks that are owned by 
        an eligible issuer or by a 501(c)(3) entity whose exempt 
        purpose includes environmental preservation.
         (c) Remediation of land acquired under (a above or of 
        publicly-owned land, wetlands, or parks (for example, for 
        enhancing water quality) by planting trees or other vegetation, 
        creating settling ponds to control runoff, undertaking 
        reasonable measures to control erosion or protect endangered 
        species, and remediating conditions caused by the prior 
        disposal of toxic or other waste.
         (d) Acquisition of permanent easements on privately-owned open 
        land that prevents commercial development and any substantial 
        change in the use or character of the land. Such easements must 
        be in a form which, if contributed by the owner of the open 
        land, would qualify under section 170(h).
         (e) Environmental assessment and remediation of contaminated 
        property--brownfields--owned by State or local governments 
        because it was abandoned by the prior owner, e.g., for non-
        payment of taxes. The property would have to be an area at or 
        on which there has been a release (or threat of release) or 
        disposal of any hazardous substance within the meaning of 
        section 198. For this use and this use only, private use (by an 
        entity which is not a 501(c)(3) entity of proceeds as well as 
        private payment of bond principal is permitted. For example, 
        the cost of environmental remediation of such property could be 
        refinanced with BABs and the land subsequently sold to a 
        private entity with the proceed of the sale used to repay 
        principle through the use of a sinking fund. The Federal 
        Government would not be a qualifying private entity. No 
        expenditures financed with BAB proceeds would be eligible for 
        expensing under section 198.''

    Using Better America Bond proceeds to acquire an easement on 
farmland does not mean that the land would have to be taken out of use 
for farming purposes. However, if open land were acquired outright with 
bond proceeds, leasing that land for farming or other private purposes 
would constitute an impermissible private use.

    Question 5. The application process for bonds is described as 
``open competitive'' with preference given to ``regional proposals 
reflecting partnerships and comprehensive planning among local 
governments.'' To what extent might this disadvantage applicants from 
small, rural towns who do not have existing, developed planning and 
zoning or any experience with this type of project? The award criteria 
also emphasize partnerships between adjacent rural and urban 
communities. Does this place isolated communities at a disadvantage?
    Response. As mentioned above, the guidelines for evaluation have 
not yet been developed. However we intend to encourage and facilitate 
applications from all types of communities, including small, isolated, 
and rural communities. We do not intend for this program to favor one 
type of community over another. We will seek advice from these kinds of 
communities as we further develop this program, and we welcome the 
input of our colleagues on the Hill to address these issues.

    Question 6. There are a great number of private landowners 
struggling to meet ESA requirements on their land. Would they qualify 
for any assistance under the Better America Bonds program?
    Response. The qualifying purposes of the Better American Bonds are 
defined above. The use of qualifying purpose `d' seems relevant--
[``Acquisition of permanent easements on privately-owned open land that 
prevent commercial development and any substantial change in the use or 
character of the land. Such easements must be in a form which, if 
contributed by the owner of the open land, would qualify under section 
I70(h).'']. This implies that Better America Bonds could help 
landowners if the easements that resulted from the Better America Bonds 
purchase would contribute to meeting requirements established under the 
Endangered Species Act, in addition to meeting a purpose of the broad 
program Again, however, no specific criteria have yet been developed, 
do we do not have a definite answer yet.
                                 ______
                                 
    Responses by Administrator Browner to Additional Questions From 
                      Senator Kay Bailey Hutchison
               proposed storm water phase ii regulations
    Question 1. The proposed Phase II storm water regulations will 
bring under their coverage thousands of counties and cities which 
handle runoff rainwater through above-ground vegetated drainage 
ditches. These open ditches, under the proposed regulations, will be 
categorized as ``municipal separate Storm water systems,'' even though 
in States like Texas and the arid West, the ditches are usually dry.
    Why are dry ditches to be defined as municipal separate Storm water 
systems, and why are their local governments to be brought into the net 
of coverage under proposed Storm water regulation?
    Response. EPA designated municipal separate storm sewer systems as 
sources needing regulation based on the demonstrated water quality 
impairments associated with population densities and urbanized areas. 
As discussed in the preamble to the proposed rule, urban storm water is 
identified as a major source of water quality impairment in streams, 
rivers, lakes, and estuaries because it may contain or mobilize high 
levels of contaminants such as sediment, suspended soils, nutrients, 
heavy metals, pathogens, toxins, and floatables. Although many of the 
municipal separate storm sewer systems covered under Phase II may have 
vegetated ditches as part of their systems, such ditches are typically 
part of a complex arrangement of conveyances designed to collect and 
transport storm water. Even ditches that remain dry for a significant 
portion of the year will discharge storm water during periods of rain. 
The storm water control programs in the proposed rule focus on 
pollution prevention rather than end of pipe treatment controls. The 
control provisions are more preventative than remedial. Therefore, 
prevention of pollution is a year-round activity, including during dry 
seasons.
    The proposed rule was developed with a Federal advisory committee 
(under the Federal Advisory Committee Act (FACA)). Membership included 
representatives from Texas, as well as others from Western and 
Southwestern States. EPA proposed only to require coverage for those 
municipal separate Storm systems located in highly populated urbanized 
areas, because the Agency considered them to be among the most 
significant sources of Storm water runoff not covered by the Storm 
Water Phase I regulations. The proposed regulations were written in 
such a way as to allow considerable flexibility on the part of local 
governments in determining the specific measures necessary to address 
Storm water runoff in their individual communities. Thus, communities 
should take into account the design of their Storm sewer systems, as 
well as the frequency and intensity of rainfall in their respective 
geographic areas, in determining how to implement the Phase II program.

    Question 2. The proposed Phase II storm water regulations seem to 
be designed for urbanized areas that have a lot of commercial and 
residential development, as well as high rainfall. In my State, as well 
as the rest of the arid West, we have a lot of low density, 
unincorporated suburban fringe areas which receive very low rainfall, 
and handle any storms with above-ground vegetated road ditches. The 
runoff from these ditches is not noticeably different from background 
conditions, yet the local governments in these areas will be required 
to undertake a wide variety of mandated activities at great cost.
    Why does the proposed regulation treat all parts of the country the 
same, regardless of rainfall levels, type of topography and type of 
drainage systems?
    Response. The rule does not require that all parts of the country 
be managed in the same fashion. Although the proposed rule covers 
municipal separate Storm sewer systems located in urbanized areas 
throughout the country, it is flexible enough to allow local 
governments that operate Storm sewer systems to tailor their programs 
to local circumstances. The rule would not require coverage for areas 
of low density; only those that are designated as within urbanized 
areas by the Census Bureau (population density at least 1,000 per 
square mile, total population 50,000 or greater).
    Even in areas of low rainfall, Storm water runoff can have 
significant impacts on water quality as a result of various 
constituents in the discharge. Storm water carries with it accumulated 
sediment, debris and toxic pollutants that threatens aquatic life even 
in water bodies in normally ``dry'' areas of the country. Because local 
Storm sewers provide a system for rapid conveyance of pollutants 
whenever it rains, the resulting programs are designed to reduce 
pollutants to the maximum extent practicable. Control programs are 
necessary to reduce and prevent pollution year round. The proposed rule 
nevertheless specifically contemplates waivers for construction 
activity in areas of low rainfall, including activity that would either 
be conducted or regulated by municipalities.
    The proposed rule would require municipal separate Storm sewer 
systems to conduct or participate in a program that includes public 
education and involvement, prohibition of illicit discharges, control 
of runoff from construction sites and post-construction phase 
development, and pollution prevention measures for municipal operations 
that relate to storm water. The proposal allows considerable 
flexibility and local determination in the appropriate management 
practices to be selected and in determining who may conduct these 
activities on behalf of the municipalities. Municipalities should take 
into consideration rainfall, topography, and type of drainage system, 
as well as other factors, such as service area population, commercial 
and industrial activity contributing to their system, and cost 
effectiveness of specific best management practices, in developing a 
program that best suits their needs.
               confined animal feeding operations (cafos)
    Question 1. Is there an economically feasible test for these 
requirements in the Strategy or, at minimum, a cost analysis looking at 
the impact these requirements would have on small, medium and large 
operations?
    Response. The USDA-EPA Unified National Strategy for Animal Feeding 
Operations is not a new regulation nor is it a substitute for existing 
Federal regulations and it does not impose any binding requirements on 
USDA, EPA, the States, Tribes, localities, or the regulated community. 
The Strategy is a framework of actions that USDA and EPA plan to take 
over a multi-year timeframe under existing legal authorities and 
initially under existing regulatory authorities, to minimize the water 
quality and public health impacts of improperly managed animal wastes. 
It is targeted at large operations (+ 1,000 animal units) and 
facilities either causing water quality or public health problems, or 
that pose a significant risk of doing so. The Strategy does indicate 
that EPA intends to review and revise, as appropriate, existing 
regulations as they pertain to animal feeding operations (AFOs), 
consistent with the court-ordered deadlines in its consent decree with 
NRDC. EPA will estimate the costs and benefits associated with any 
proposed rulemaking consistent with the Administrative Procedure Act, 
Regulatory Flexibility Act, Executive Order 12806, and other 
appropriate requirements.
    We believe that many producers are effectively managing their 
animal wastes. For 95 percent of AFOs, a variety of voluntary programs 
provide the technical and financial assistance to help producers meet 
technical standards and remain economically viable. Animal feeding 
operations that do not have good management practices will bear the 
greatest costs in developing and implementing comprehensive nutrient 
management plans. The Strategy emphasizes that the existing regulatory 
program focus permitting and enforcement priorities on large facilities 
and high risk operations, estimated to be approximately 5 percent of 
AFOs.

    Question 2. How has EPA planned on addressing the massive economic 
burden these requirements will place on States with delegated 
authority? Will EPA be evaluating the States that have delegated 
authority to determine whether they have the resources to carry out the 
Strategy?
    Response. States and Tribes play a critical role in the development 
and implementation of national and State and Tribal resource protection 
programs. USDA and EPA are committed to working in partnership with 
States and Tribes. USDA and EPA believe the need for a national goal 
and performance expectation for AFOs can be balanced with the need for 
flexibility to address the various needs and priorities of the States 
and Tribes, including coordination with other clean water programs.
    In the case of the regulatory program for concentrated animal 
feeding operations (CAFOs), 44 States are authorized to implement 
National Pollutant Discharge Elimination System (NPDES) permitting and 
enforcement activities. As part of the NPDES authorization process, 
States need to demonstrate that they have adequate resources, as well 
as appropriate legal and regulatory authorities, to carry out the NPDES 
program. In recognition of NPDES-authorized States' differing 
circumstances, the Strategy does, however, provide several types of 
flexibility.
    First, EPA recognizes that some States may be implementing non-
NPDES permitting programs under State laws that meet or exceed the 
requirements of, and therefore, are functionally equivalent to the 
NPDES program. Where an NPDES-authorized State indicates an interest in 
amending its NPDES program authorization to incorporate ongoing or new 
regulatory approaches for CAFOs that meet or exceed the NPDES 
requirements, EPA is willing to work closely with the State to amend 
its authorization.
    Second, because of differences in workload and resources among 
authorized States, EPA is providing flexibility for States in the 
issuance of permits for CAFOs with fewer than 1,000 animal units (AUs). 
While NPDES-authorized States are expected to issue general permits to 
the largest CAFOs (greater than 1,000 AUs) by January 2000, States will 
have until the end of 2002 to issue permits to CAFOs with fewer than 
1,000 AUs where the situation warrants. EPA acknowledges that some 
States may even need additional time beyond 2002 to issue permits for 
smaller CAFOs.
    A final area of flexibility relates to the schedule for issuing 
individual permits to certain CAFOs. Although these individual permits 
should be issued as expeditiously as possible, EPA and States should 
consider State-specific circumstances such as the total number of CAFOs 
with greater than 1,000 AUs, the need to issue individual permits to 
new or exceptionally large facilities, and the availability of 
technical assistance for development of comprehensive nutrient 
management plans. States may give permitting priority to impaired water 
bodies (such as 303(d) listed waters or those identified in State water 
quality management plans). In addition, where a State develops an NPDES 
program that provides for a comprehensive response to environmental 
issues at CAFOs, EPA will defer to an authorized State's judgment with 
respect to the use of individual or general permits.
    In addition to this flexibility, the Administrator requested and 
Congress provided an additional $20 million for Section 106 Grants for 
States and Tribes for fiscal year 1999 as part of the Clean Water 
Action Plan (CWAP) budget initiative. This funding was requested in 
recognition of the extra workload that the CWAP places on States and 
Tribes, including that of the AFO Strategy. The President's fiscal year 
2000 budget maintains the fiscal year 1999 funding level, for a total 
of $115.5 million for Section 106 Grants.
                   food quality protection act (fqpa)
    Question 1. Should the Agency make final decisions on the risks and 
continued availability of important crop protection products before the 
procedures for establishing the basis for the registration decision 
have all been reviewed and commented on by the affected parties? 
Shouldn't the Agency consider any decisions made before the procedure 
for evaluation, particularly before the science policies are finalized, 
as no more than interim if decisions on certain products are made 
before the procedures and policies are in at least an interim final 
form? How can farmers, registrants and others effectively interact with 
the Agency and plan for the future if the registration and evaluation 
process is not clearly understood?
    Response. Before FQPA, EPA had embarked on a new era of increased 
openness and accountability in the way it does business. As it moves 
forward with FQPA implementation, EPA is committed to a process 
allowing for broad stakeholder input. The Agency wants to make every 
effort to see that its policies and decisions are developed in an open 
and transparent manner. Immediately after the law was signed, EPA 
established the Food Safety Advisory Committee (FSAC) to provide input 
on our interim approach to risk assessment and to help us prioritize 
implementation activities. This group was comprised of a wide range of 
parties representing industry, environmental groups, growers, and 
Congress.
    The FSAC assisted EPA in initiating an interim decision logic to 
ensure continuation of registering and reregistering pesticide 
chemicals while science policies were being worked out. The Agency is 
currently utilizing its draft science polices in its decisions with the 
full knowledge that, as these policies get further refined, some 
decisions may need to be revisited. EPA expects to have virtually all 
science policies finalized and in place before any risk management 
decisions are made.
    EPA is working with the Department of Agriculture to ensure that 
implementation of FQPA is informed by a sound regulatory approach, by 
appropriate input from affected members of the public, and by due 
regard for the needs of agricultural producers. The Tolerance 
Reassessment Advisory Committee (TRAC), chaired by EPA Acting Deputy 
Administrator Peter Robertson and USDA Deputy Secretary Richard 
Rominger, seeks advice and consultation from affected user, producer, 
consumer, public health, environmental, industry, and other interested 
groups. TRAC has been instrumental in opening up the decisionmaking 
process.
    EPA is very aware that its decisions can have real effects on 
farmers and other pesticide users. The final two TRAC meetings 
(scheduled for April and June 1999) will focus on ways to get grower 
input on practical, feasible, and affordable risk mitigation measures. 
EPA's risk assessments will attempt to identify those crops/uses that 
are driving the risk, so that the Agency and the growers can work 
together to devise realistic solutions. All decisions will be 
communicated clearly to Congress, farmers, and other stakeholders. The 
challenge everyone faces is in establishing an orderly process that 
will allow EPA to meet the mandates of FQPA while ensuring that 
producers have access to tools they need to ensure a wholesome, 
adequate, and safe food supply. The Agency is actively working with 
growers, the Department of Agriculture, registrants, and the research 
community to ease this transition so that as older products leave the 
marketplace new methods become available.

    Question 2. In preparing decisions under FQPA, to what extent is 
the Agency relying on worst-case, default assumptions when there are 
data-gaps? Is the Agency prepared to issue data call ins or consult 
USDA when data gaps exist?
    Response. While EPA is always interested in new information that 
could help it refine its analyses, the Agency already has a wealth of 
reliable data upon which to evaluate these chemicals. In making 
decisions on tolerances, EPA relies on actual data generated by the 
registrant, other agencies such as USDA, and from the scientific 
literature, supplemented with scientifically reviewed models, not on 
default values based on worst-case assumptions. For example, EPA's 
approach to addressing drinking water exposure uses groundwater and 
surface water monitoring data when these are available, reliable and 
appropriate for this purpose. When monitoring data are not available, 
EPA uses screening procedures using mathematical models and known 
properties to identify those pesticides with low or no potential for 
contaminating drinking water at levels of concern to human health. 
These procedures enable us to identify, with a high degree of 
confidence, those pesticides that have a very low likelihood of getting 
into drinking water at levels of concern to human health.
    EPA has had broad authority to call-in new data under FIFRA for 
many years, which FQPA extended to also include data needed under 
FFDCA. This authority to call-in needed data has been one of the 
Agency's most powerful tools, and we will certainly use it if necessary 
to complete tolerance reassessments. Whenever possible, the Agency 
makes decisions based on the wealth of reliable data already at its 
disposal. As some data may take 2-3 years to gather and review under a 
data call-in, EPA believes it would not be in everyone's best interest 
to wait for additional data if available data is sufficient to make a 
decision. A broad data call-in would force all companies to generate 
data whether or not the data would support the retention of their 
approved uses.

    Question 3. Approximately 7 months remain until the statutory 
deadline for the Agency to review \1/3\ of all tolerances. In the 
absence of transparent regulatory and science procedures, is it 
realistic to expect the Agency to meet the deadline using reliable 
data, sound science and appropriate interaction between registrants, 
users, consumers and the EPA?
    Response. EPA expects to meet the FQPA goal of reassessing 33 
percent of all food tolerances by August 1999. To date, of the 9,728 
tolerances subject to reassessment, EPA has reassessed 2,308 
tolerances, of which 999, or about 43 percent, are for the high 
priority chemicals, i.e., the organophosphates (OPs), carbamates, 
organochlorines, and probable carcinogens. The Agency expects to 
reassess approximately 1,000 more tolerances by August to surpass the 
33 percent goal. Given the complexities of refining risk assessments, 
not all of the high priority chemicals will be complete by that time 
despite the amount of resources spent so far. Instead, this first third 
will consist of reassessments from tolerance revocations, 
reregistrations, and registration actions. So far, 28 preliminary risk 
assessments for organophosphate pesticides have been released for 
public comment. The remaining 15 preliminary risk assessments will be 
released for comment between now and May 1999.
    EPA goes to great lengths to ensure that all of its advisory 
committees include a cross-section of viewpoints, including 
environmental, public interest groups, registrants, and growers. The 
Tolerance Reassessment Advisory Committee (TRAC) provided EPA and USDA 
with guidance on an approach for reassessing tolerances, beginning with 
the organophosphate pesticides, that allows for much greater 
transparency and opportunity to participate in both our risk assessment 
and our risk management processes. In many cases, the public comment 
process is providing additional health and environmental effects data, 
use data, or other relevant information which EPA is using to refine 
the risk assessments.
    The Agency presents complex scientific issues and risk assessment 
approaches to the Science Advisory Panel (SAP), and we will continue to 
seek outside peer review of significant science policy issues. These 
policies are also presented to the public at numerous forums and have, 
or will be, published in the Federal Register and posted on the 
Internet to receive public comments. EPA expects to begin a public 
comment period on risk management for the first of the organophosphate 
pesticides in the spring or early summer of this year. The comment 
periods will allow for discussion and examination of both risk 
mitigation measures and possible transition processes to alternative 
pest control approaches where needed. EPA and USDA are working on the 
best ways to start this second phase of organophosphate tolerance 
reassessment and will be consulting with the TRAC at its upcoming 
meetings.
         environmental review for colonia wastewater treatment 
                           assistance program
    Question 1. Until recently, the Texas Water Development Board has 
conducted all environmental reviews for Colonia Wastewater Treatment 
Assistance Program projects. The EPA has now decided that the State 
environmental review process would no longer be used for the Colonia 
Wastewater Treatment Assistance Program and that EPA's Region 6 office 
would retain final authority in approving these projects. This has 
resulted in some delays with Colonia projects.
    What was the rationale behind this decision and what can be done to 
help ensure that timely environmental reviews are done on Colonia 
projects to ensure that there are no more delays with these important 
projects?
    Response. Based upon questions that arose regarding the application 
of the National Environmental Policy Act (NEPA) to infrastructure 
projects funded by the Colonia Wastewater Treatment Assistance Program, 
EPA reviewed the matter and determined that NEPA does in fact apply to 
almost all of the State and Tribal Assistance Grant (STAG) projects 
funded by the various Appropriations Acts, including the colonias 
projects. This determination is based upon a January 20, 1995, 
memorandum from the Agency's Office of Federal Activities (attached).
    While EPA must conduct its own, independent review of these 
projects under NEPA, in most cases the work conducted by the State 
agency, in this case the Texas Water Development Board, is incorporated 
and is a major basis of EPA's NEPA evaluation. While there is currently 
no backlog of NEPA reviews, staffing reassignments have been made in an 
effort to reduce the current 136 day average review time for a colonia 
project to no more than 90 days.
                                 ______
                                 
                           Environmental Protection Agency,
                                  Washington, DC, January 20, 1995.

MEMORANDUM:

SUBJECT: NEPA Guidance for Special Wastewater Treatment Projects in the 
Fiscal Year 1995 Appropriation Bill

FROM: Richard E. Sanderson, Director, Office of Federal Activities 
(2252)

TO: NEPA Coordinators

    The purpose of this memorandum is to provide guidance on the 
requirements for compliance with the National Environmental Policy Act 
(NEPA) for special projects authorized for EPA grant funding by the 
Fiscal Year 1995 Appropriations Act (Act). The Act appropriated ``no-
year'' money to fund special wastewater treatment projects identified 
by Congress. Each region has projects on this list. The list is 
included in the attached copy of the guidance memorandum prepared by 
the Office of Water Management (OWM).
    The OWM memorandum indicates that NBPA applies to all of these 
projects except the three to be funded as Clean Water Act (CWA) section 
104(b)(3) demonstration projects. These three are exempted from NEPA 
under the CWA section 511(c). The Office of General Counsel (OGC) has 
prepared an ``Analysis of NEPA applicability to special grants 
authorized by fiscal year 1995 Appropriations Act.'' This analysis is 
also attached.
               ofa guidance to regional nepa coordinators
    An independent EPA NEPA analysis for the non-demonstration projects 
is required. In addition, other cross-cutting Federal statutes, such as 
the Endangered Species Act and the National Historic Preservation Act, 
also apply to these projects. The Council on Environmental Quality's 
(CEQ) NEPA regulations do not allow EPA to adopt a State analysis. 
However, the NEPA regulations do require agencies to ``cooperate with 
State and local agencies to the fullest extent possible to reduce 
duplication between NEPA and State and local requirements . . .'' (40 
CFR 1506.2). There are several ways the regions can use the existing 
information and assessments for these projects as summarized below and 
as discussed in greater detail in the attached OGC analysis. In all 
cases, EPA must independently evaluate the State documentation and 
review process and is responsible for the accuracy of the NEPA 
documentation and the adequacy of the process (40 CFR 1506.5).
    <bullet> Where States have performed environmental reviews under 
NEPA-like statutes or pursuant to State Revolving Fund regulations, EPA 
can incorporate, but not simply adopt, the State analysis into the 
Agency's NEPA analysis.
    <bullet> Where State reviews have found no significant impacts and 
EPA approves of that finding and the State process, EPA may issue an 
environmental assessment (EA) summarizing and reverencing the State 
analysis and an accompanying Finding of No Significant Impact (FONSI).
    <bullet> Where State reviews have found significant impacts or EPA 
independently determines that there are significant impacts, EPA must 
issue a notice of intent and proceed with an environmental impact 
statement (EIS) and record of decision (ROD) in accordance with the 
Agency's regulations at 40 CFR Part 6.
    <bullet> Where construction of projects is complete or nearly 
completed, a NEPA analysis will not have to be done.
    <bullet> Where construction has started and the project is not 
nearly completed, a NEPA analysis is required and a notification of 
intent to pursue an independent analysis must be sent to the grantee.
    <bullet> Where projects to be funded have been ongoing for several 
years, additional assessment may not be required if prior federal NEPA 
documentation has addressed the portions of the project to be funded by 
the fiscal year 1995 grant. The region will need to assure that since 
the previous assessment: (1) there are no substantial changes in the 
proposed action relevant to environmental concerns, or (2) there are no 
significant new circumstances or information relevant to environmental 
concerns and bearing on the proposed action or its impacts.
    If the NEPA analysis was carried out under an earlier construction 
grant action and is no longer adequate or the project has not 
previously been assessed by EPA, it will be necessary to issue either 
an EA/FONSI or an EIS/ROD. The regulations applicable to these special 
project grants are the CEQ regulations (40 CFR Parts 1500-1508) and 
EPA's NEPA regulations (40 CFR Part 6, Subparts A-D). EPA's regulations 
at 40 CFR Part 6, Subpart E, while they do not apply to these special 
project grants, may provide additional guidance.
    We anticipate that additional issues or sub-issues may arise which 
are not fully treated in this general guidance memorandum. These should 
be brought to our attention as soon as possible. In addition, we have 
scheduled a teleconference on Tuesday, January 24, 1995 from 11:00 am. 
to 12:00 noon eastern standard time to discuss this guidance and 
additional issues or concerns with the process. The call-in number is 
(202) 260-4257. We look forward to your participation. Please inform 
John Gerba (202/260-5910) if you or your staff will not be on the call.
                                 ______
                                 
Responses by Administrator Browner to Additional Questions From Senator 
                          Frank R. Lautenberg
                               superfund
    Question 1. Please describe the Superfund program today, as 
compared with 6 years ago when Congress began debate on comprehensive 
legislation. In your answer, specify progress in the program over the 
past 6 years, including progress in getting sites cleaned up and 
improvements made in program implementation.
    Response. The Superfund program is making significant progress in 
cleaning up hazardous waste sites and protecting public health and the 
environment to ensure a fairer, more effective, and more efficient 
program. Since 1993, the Agency has initiated three rounds of 
Administrative Reforms whose major goals have been to make common-
sense, cost-effective cleanup choices; reduce litigation by increasing 
fairness; and help governments, communities and industry become more 
informed and involved in the decisionmaking process.
    Through the Administrative Reforms, EPA has significantly changed 
how the Superfund program operates. We have made considerable progress 
in cleaning up sites on the National Priorities List (NPL). We have 
gone from cleaning up 65 sites per year to cleaning up 85 sites per 
year. As of September 30, 1998, approximately 89 percent of the NPL 
sites have had cleanup activities, are construction complete, or have 
cleanup underway:

    <bullet> 585 (41 percent) Superfund sites have reached construction 
completion.
    <bullet> 457 (32 percent) Superfund sites have cleanup construction 
underway;
    <bullet> An additional 209 (15 percent) sites have had or are 
undergoing a removal cleanup action.

    In addition, approximately 990 NPL sites have final cleanup plans 
approved, and approximately 5,500 removal actions have been taken at 
hazardous waste sites to immediately reduce the threat to public health 
and the environment. Responsible parties continue to perform 
approximately 70 percent of new remedial work at NPL sites. More than 
30,900 sites have been removed from the Superfund inventory of 
potentially hazardous waste sites to help promote the economic 
redevelopment of these properties. By the end of fiscal year 1998, EPA 
awarded 227 Brownfields Pilot grants to facilitate productive reuse at 
sites.
    The accelerated pace of cleanup is demonstrable. In only 2 years, 
fiscal year 1997 and fiscal year 1998, EPA completed construction at 
175 sites----
    <bullet> Which is more than during the entire first 12 years of the 
program (149 sites)
    <bullet> One hundred and twenty-eight (73 percent) of these 175 
sites are designated enforcement lead, demonstrating the success of 
both the ``enforcement first'' policy and the numerous enforcement 
reforms.
    <bullet> One hundred and eleven (63 percent) of these 175 sites 
were added to the NPL during the 1990's. Completion of these sites in 
less than 8 years reflects improvements in the pace of Superfund 
cleanups and demonstrates how the reforms have worked together to make 
Superfund more efficient.
    Remedy reforms have made the Superfund program faster and more 
efficient, resulting in EPA completing construction of 87 NPL sites in 
fiscal year 1998. Other noteworthy achievements include the 30 site 
decisions reviewed by the National Remedy Review Board, resulting in an 
estimated savings of $43 million; updating more than 200 remedies over 
a 3-year period, based on changes in science and technology resulting 
in a projected savings of over $1 billion; evaluating more than 150 
projects since the establishment of the Risk-Based Priority Panel, and 
establishing Community Advisory Groups at 47 non-Federal sites (more 
than 100 already exist at Federal facilities). EPA has worked with 
potentially responsible parties to obtain over $15 billion in 
commitments to conduct response work and reimburse Agency costs, saving 
taxpayers' money.
    Liability reforms have made Superfund fairer. EPA has collected 
over $399 million, established 115 Special Accounts, and accrued over 
$69 million in interest for a total of $468 million. The Agency has 
removed 18,000 small contributors from the Superfund liability system. 
EPA offered approximately $145 million in orphan share compensation at 
72 sites. In addition, EPA has referred close to 100 Prospective 
Purchaser Agreements to the Department of Justice; of these, close to 
90 are final agreements. These agreements will facilitate the cleanup 
and reuse of contaminated properties.
    Our accomplishments in protecting human health and the environment 
are significant. Environmental indicators show that the Superfund 
program continues making progress in hazardous waste cleanup, reducing 
both ecological and human health risks posed by dangerous chemicals in 
the air, soil, and water. The Superfund program has cleaned over 132 
million cubic yards of hazardous soil, solid waste and sediment and 
over 341 billion gallons of hazardous liquid-based waste, groundwater, 
and surface water. In addition, the program has supplied over 350,000 
people at NPL and non-NPL sites with alternative water supplies in 
order to protect them from contaminated groundwater and surface water. 
Over 14,300 people at NPL and non-NPL sites have been relocated in 
instances where contamination posed the most severe immediate threats.
    States and Indian tribes are key partners in the cleanup of 
Superfund hazardous waste sites. Since 1995, States and Tribes have 
submitted letters in support of NPL listings for 123 sites under our 
State concurrence policy. In addition, with the May 1998 release of the 
``Plan to Enhance the Role of States and Tribes in the Superfund 
Program,'' the Superfund program has provided opportunities for 
increased State and tribal involvement in the program. As a result, 14 
pilot projects with States and tribes have been initiated.

    Question 2. Describe projections for future progress under 
Superfund, including the number of cleanups expected by the end of this 
Congress.
    Response. The Superfund program is a fairer, more effective, and 
more efficient program as a result of our Administrative Reforms which 
will continue in fiscal years 1999 and 2000. The Superfund program will 
continue its emphasis on completing construction at sites on the 
National Priorities List (NPL) (85 completions per year for a 
cumulative total of 755 by the end of fiscal year 2000), and conducting 
removal response actions (300). About 60 percent will have construction 
completed, almost 30 percent with remediated construction underway, and 
an additional 5 percent will have initiated physical cleanup action 
(removals) to mitigate threats to human health. The program will 
continue to employ Administrative Reforms to ensure a fairer, more 
effective, and more efficient program. The program will also work with 
the States, tribes, and local governments, the surrounding communities, 
and potentially responsible parties, both Federal and private, to 
leverage resources and to assure the successful implementation of the 
Superfund program.
    The Superfund program plans to exceed the Agency target of 650 
construction completion sites during fiscal year 1999, 1 year earlier 
than originally expected. In addition, the Administration recently 
announced our target of 925 NPL sites ``construction completed'' by the 
end of 2002. By 2005, EPA expects to complete construction at 1180 
sites.

    Question 3. Is major reform legislation needed to achieve the above 
projections, or to maintain progress and achieve cleanups of the 
remaining sites.
    Response. Because of the success of our Administrative Reforms, 
Superfund cleanups are faster, fairer and more efficient. Our goal 
should be to build on this success and complete cleanups as quickly as 
we can. We do not need comprehensive legislation to achieve this goal, 
although targeted legislative changes may be helpful.
    Because of our Administrative Reforms, EPA has accomplished a great 
deal of cleanup activities in recent years. By the end of the 106th 
Congress, 61 percent of the non-Federal facility sites on the NPL will 
be construction complete and fully 90 percent will be construction 
complete or have construction underway and another 5 percent will have 
had removals to mitigate the threats, to human health. EPA is on track 
to finish cleanup at most current NPL sites by 2005. From 1980 to 1993 
only 155 sites had been cleaned up; today cleanup construction has been 
completed at 585 sites. In the last 6 years EPA has cleaned up three 
times as many sites as in the first 12 years of Superfund.
    Liability reforms have made Superfund fairer. EPA has settled with 
over 18,000 de minimis parties, offered $145 million in orphan share 
funding, eliminated open-ended cleanup obligations in model consent 
decrees, capped the liability of large municipal waste generators and 
signed nearly 100 prospective purchaser agreements to spur 
redevelopment.
    Remedy reforms have made Superfund faster and more efficient. We 
have shortened cleanups by 20 percent, updated remedies to save over $1 
billion, required treatment for toxic hot spots (using treatment in 
less than 50 percent of remedies in 1997), and used newer phased 
approaches for cleaning up groundwater.
    Given this progress, legislation should focus on those changes that 
could be helpful to continuing our progress. Legislation to support the 
President's request is needed to reinstate the Superfund taxes, and 
provide EPA with access to mandatory spending. As part of Superfund 
reauthorization, the Administration would support targeted liability 
relief for qualified parties that build upon the current success of the 
Superfund program. The Administration would support provisions that 
address:

    <bullet> prospective purchasers of contaminated property
    <bullet> innocent landowners
    <bullet> contiguous property owners, and
    <bullet> small municipal waste generators and transporters
                                 ______
                                 
    Responses by Administrator Browner to Additional Questions From 
                           Senator Bob Graham
                             methyl bromide
    Question 1. How much has the Environmental Protection Agency 
budgeted in fiscal year 2000 for programs supporting the USDA work to 
identify an alternative for methyl bromide?
    Response. About one full-time equivalent, $150,000 in grant funds 
to support farmer-led testing of alternatives in a real-world, on-farm 
situations, and to support an annual conference for growers on research 
into alternatives to methyl bromide, and about $100,000 in contractual 
support for background work on alternatives to methyl bromide, use 
statistics, and associated information pertaining to the phaseout of 
methyl bromide.

    Question 2. What changes have been made to the EPA program based on 
last year's extension of the production phase-out date from 2000 [2001] 
to 2005?
    Response. EPA is now formulating the necessary regulations to 
implement recent Congressional changes to the Clean Air Act. The main 
step in this rulemaking process is the step-wise phase down from the 
1991 baseline, 25 percent in 1999, 50 percent in 2001, 70 percent in 
2003, and 100 percent in 2005. EPA will also be working with 
appropriate stakeholders in the formulation of the necessary exemptions 
for quarantine and pre-shipment uses, as well as critical agricultural 
uses after 2005. The proposal for the 1999 25 percent phase down was 
published in February 1999, and we expect to issue the final regulation 
soon. Regulations for the additional phase down steps will be proposed 
later in 1999. In addition, EPA is now working with the Department of 
Agriculture, Food and Drug Administration and the U.S. Trade 
Representative in the formulation of the necessary regulations to allow 
methyl bromide to be exempted for quarantine and pre-shipment uses.

    Question 3. Can you describe the role of the EPA in the new 
coordinating committee between EPA and USDA on methyl bromide 
alternatives research? How supportive is EPA of this endeavor?
    Response. EPA and USDA are now conducting a series of working 
meetings to define specific tasks that must be accomplished to assure 
that farmers have alternatives to methyl bromide by the final phaseout 
date. These meetings examine the specific uses of methyl bromide, what 
the best alternatives to those uses are likely to be, and any 
regulatory barriers that may exist which need to be overcome to insure 
those alternatives are fully available to the U.S. agricultural 
community. This committee will look at specific crops in Florida, 
California, and other States that currently use methyl bromide as an 
integral part of their production system. The committee will produce a 
set of action items later this spring that will guide both EPA and USDA 
in the overall effort of insuring that American farmers have access to 
good alternatives to methyl bromide. EPA is fully supportive of these 
efforts, and is providing direct support to assure the goals of the 
committee are met.

    Question 4. How is EPA working to insure that individual growers 
understand the challenges they will face with the production phase-out 
of methyl bromide.
    Response. Since 1992, EPA has had a comprehensive outreach program 
covering the main issues of the methyl bromide phaseout. A five-point 
program now provides information on why EPA is phasing out methyl 
bromide, when it will no longer be available, what alternatives are 
available to replace the use of this pesticide, and how current users 
can continue to produce food and fiber without methyl bromide. Included 
in this program are: (1) a newsletter which is updated and distributed 
to methyl bromide users and other interested stakeholders periodically; 
(2) the publication and distribution of thirty documented case studies 
that describe alternatives to methyl bromide; (3) a web site in 
operation since 1995 that provides all relevant information on the 
phaseout, including the 30 documented case studies that describe good 
alternatives to methyl bromide; (4) field visits and farmer group 
speaking engagements in areas where significant methyl bromide is used; 
and (5) support of an annual conference on methyl bromide alternatives. 
With the extension of the phaseout date, EPA will continue these 
programs to insure the American agriculture community is informed of 
new developments related to methyl bromide.

    Question 5. Do you anticipate that the current level of funding for 
alternatives research at the USDA will produce a viable alternative for 
methyl bromide in time for the production phaseout?
    Response. We defer to USDA on whether the current level of funding 
for research into alternatives for methyl bromide is sufficient to 
develop viable alternatives.
    The USDA Agricultural Research Service has been funding research of 
alternatives to the use of methyl bromide for several years. This 
research must continue to insure that adequate alternatives are in 
place by the phaseout date of 2005. The fiscal year 2000 Budget 
proposes $15 million, the same level as fiscal year 1999 Enacted, to 
continue this important research effort.

    Question 6. How do the cumulative expenditures at EPA since the 
adoption of production phase-out dates for methyl bromide compare with 
the expenditures on other ozone-depleting substances from the time 
production phase-out dates were adopted through the phase-out deadline?
    Response. Our records do not allow a detailed comparative 
assessment of cumulative expenditures on a pollutant-by-pollutant 
basis. Generally, however, it is reasonable to assume that current 
levels of comparative funding may well have been characteristic of past 
expenditures, which would put investment in methyl bromide phaseout and 
alternatives at about 10-15 percent of overall expenditures on all 
other stratospheric ozone depleting compounds combined. This excludes 
funding earmarked by Congress for a Multilateral Fund of the Montreal 
Protocol.
                                 ______
                                 
    Responses by Administrator Browner to Additional Questions From 
                         Senator Barbara Boxer
                   food quality protection act (fqpa)
    Question 1. The Food Quality Protection Act requires EPA to apply 
an additional tenfold margin of safety, a so-called ``10x factor,'' in 
the establishment of pesticide tolerances when data with respect to 
exposure or toxicity of infants and children to a given pesticide is 
lacking.
    Although EPA has apparently acknowledged that such data, 
particularly developmental neurotoxicity tests, are lacking for most 
organophosphates, I understand that EPA has not consistently applied a 
10x factor in its review of such pesticides. Is this accurate? And if 
so, what is the justification for not applying the 10x factor to its 
review of organophosphates given the lack of these neurotoxicity tests?
    Response. [No response was provided by EPA.]

    Question 2. In its FQPA work to reestablish pesticide tolerances, 
how many times has EPA applied the 10x factor referred to above? Has 
EPA issued any guidance or policy rationale concerning the 
implementation of the 10x factor?
    Response. Through March 1, 1999 the following are the number of 
Agency tolerance decisions and the appropriate safety factor employed. 
These numbers reflect a total of 120 tolerance decisions for 
conventional pesticide active ingredients (excluding biopesticides and 
antimicrobials) resulting from new registration petitions, emergency 
exemption requests, and reregistration actions.

    <bullet> The Agency retained the tenfold safety factor for 15 
active ingredient decisions;
    <bullet> The Agency applied a threefold safety factor for 15 active 
ingredient decisions; and
    <bullet> Based on reliable available data, the Agency was able to 
remove the additional tenfold safety factor for 90 active ingredient 
decisions.

    EPA has been working with the Tolerance Reassessment Advisory 
Committee (TRAC) and others to ensure that its science policies, risk 
assessments, and decision processes are transparent and open to public 
participation. Important to these discussions is the identification of 
nine science policy issues believed key to the implementation of FQPA 
and tolerance reassessment. The Agency will publish these policies in 
draft form and will provide the public opportunity to comment. The 
major science policy issue related to the 10x safety factor is 
establishment of appropriate, clear, and transparent criteria for 
retaining or otherwise modifying the additional tenfold factor. 
Determination of what constitutes a complete and reliable data set for 
toxicology and exposure data to assess risks to children is also 
important in making these decisions.
    In February 1998, the Administrator convened an intra-agency 
workgroup to examine policy concerning the 10x safety factor, including 
information needed to determine the toxicity and exposure of pesticides 
to infants and children. This workgroup was charged to look at such 
issues as establishing procedures for consistency and documentation; 
ensuring the adequacy of the data for decisionmaking; and establishing 
criteria for applying the factor. In March 1998, EPA brought draft 
interim guidance on the application of the 10x safety factor to the 
Science Advisory Panel (SAP). The Agency then refined and clarified its 
policy to address Panelists' comments. EPA's revised evaluation 
criteria and decision process were presented again to the SAP in 
December. Present at the December SAP meeting was the intra-agency's 
draft report. The intra-agency workgroup recommended the adoption of 
toxicity tests not currently required. If EPA accepts this 
recommendation it may be necessary to revisit its interim decisions.
    In March 1999, EPA plans to release for public comment several 
documents on its proposed 10x policy. The first, entitled ``10x Task 
Force and the Office of Pesticide Programs' Guidance Documents,'' will 
contain criteria and procedures for making determination on whether and 
how to apply the additional safety factor. In the second document, 
``Standard Operating Procedures for the Use of the FQPA Factor,'' EPA 
will develop detailed, working level guidance for applying the policy 
established in the 10x guidance documents. The public will have 60-days 
to comment after which EPA will revise the policies, if warranted. An 
August 1999 date is projected for the final versions and ultimate 
adoption of a standard policy. If the final policy is notably different 
from EPA's interim approach to applying the tenfold safety factor, 
affected decisions will be reevaluated to ensure thorough protection 
for infants and children.

    Question 3. In its recently released report, ``Do You Know What 
You're Eating: An Analysis of U.S. Government Data on Pesticide 
Residues In Foods,'' Consumers Union found that fruits and vegetables 
often contain pesticide residues that are unsafe for children. For 
example, residues of the pesticide methyl parathion on peaches and 
other foods was found to exceed the safe dose for children by as much 
as 125 times.
    What does EPA plan to do in the 1999 growing season to reduce the 
clear risk that methyl parathion poses to children?
    Response. Although some have questioned the scientific validity of 
Consumers Union's analysis, EPA has not reviewed its methodologies in 
enough detail to take them to task. Hence, the Agency is not in a 
position to comment on their findings. Nevertheless, EPA shares with 
the Consumers Union its concern that the risks from some of the 
``worst'' pesticides may be inappropriate and some level of mitigation 
will be in order. Under FQPA's more stringent safety standards, EPA is 
evaluating those pesticides first that have the potential to pose the 
greatest risk to public health and the environment, i.e., the 
organophosphates (OPs). The Agency is now well into a comprehensive 
scientific review of each of the OPs, including methyl parathion. With 
the help of the Tolerance Reassessment Advisory Committee (TRAC) 
members, EPA and USDA detailed a stringent process, complete with self-
imposed deadlines, for releasing its preliminary findings, further 
refining the risk assessments, and imposing risk mitigation measures 
and practical transition strategies. If unreasonable risks are 
identified during the process, EPA and USDA, along with affected 
parties, will work together to take necessary action to reduce the 
risk.
    The preliminary risk assessment for methyl parathion was released 
for public comment in December 1998. EPA's initial findings indicate 
that both the acute and chronic dietary risks are exceedingly high for 
all population subgroups, and similar to CU's findings, apple juice, 
peaches and milled white rice appear to be of greatest concern. 
However, because conservative assumptions were used to compensate for 
missing exposure information, the Agency may have exaggerated the risk. 
Since the public comment period has closed, efforts are underway to 
further refine the dietary risk assessment based on more detailed, real 
world information to more accurately estimate people's actual exposure 
and ultimate risk. A final risk assessment along with a call for 
suggested risk reduction measures regarding the use of methyl parathion 
will be issued this summer.
    This unprecedented food-safety review is an enormous challenge and 
EPA has an ambitious schedule. The degree to which the public is 
invited to participate is also unprecedented. Yet while this scientific 
review of pesticide residue safety is underway, it is important to note 
that the U.S. food supply continues to be the safest in the world, and 
that the benefits of eating a balanced diet outweigh any risks. EPA 
encourages consumers, and especially parents, to always wash their 
fruits and vegetables thoroughly, and those who still wish to take 
extra precautions may choose to consider purchasing organically grown 
foods.

                               superfund
    Question 4. In the last 3 years, how many Superfund clean ups have 
been performed by the Agency in California pursuant to its emergency 
removal authority rather than its remedial authority?
    Response. Over the last 3 years, fiscal year 1996 through fiscal 
year 1998, EPA has started 36 removal actions at all sites and 17 
remedial actions at National Priorities List sites in California. The 
statistics provided below break out the actions over each fiscal year.

     Superfund Response Action in California, Fiscal Years 1996-1998
------------------------------------------------------------------------
                                           Fiscal     Fiscal     Fiscal
       Type of Superfund Response        Year 1996  Year 1997  Year 1998
------------------------------------------------------------------------
NPL Removal............................          2          3          2
Non-NPL removal........................          8         11         10
                                        --------------------------------
  Total Removal Actions................         10         14         12
NPL Remedial Actions...................          6          5          6
------------------------------------------------------------------------

    Question 5. Many citizens in California have expressed the concern 
that EPA is increasingly relying upon its removal authority to expedite 
clean-up actions. This reliance has the effect of excluding them from 
clean-up decisions because the Agency, they argue, does not apply the 
same public participation requirements to removal actions as it does to 
remedial actions.
    Does EPA provide citizens with public participation opportunities 
consistent with the requirements of 42 U.S.C. Sec. 9617 when conducting 
removal actions? What can the Agency do to ensure that the public has 
the opportunity to participate in clean-up determinations made pursuant 
to removal authority?
    Response. EPA removal actions include significant community 
involvement activities that are consistent with the requirements of the 
National Oil and Hazardous Substances Pollution Contingency Plan (NCP) 
and national guidance. It is EPA's intent to fully involve affected 
communities in cleanup actions conducted pursuant to our removal 
authorities. In 1992 EPA issued guidance on public participation for 
the Superfund removal program that describes EPA's policy for community 
involvement for removal actions, including time-critical and non-time 
critical responses. Among other requirements, EPA is required to notify 
affected citizens and State and local officials of all removal actions 
and to establish and make available to the public an administrative 
record file for each removal. At removal actions with onsite activity 
lasting longer than 120 days, EPA must also conduct community 
interviews and prepare a community involvement plan. In addition, for 
non-time-critical responses that allow a planning period of greater 
than 6 months, EPA is required to provide for a 30 day public comment 
period on the proposed remedy, and EPA must respond to these comments. 
EPA also regularly uses public meetings, community visits, fact sheets, 
and other communication mechanisms to enhance community involvement in 
removal actions.

    Question 6. How many Superfund sites in California have been capped 
as a final remedy during the past 3 years? What percent does this 
number represent of the total number of California sites which have a 
final remedy in place?
    Response. California has 99 sites (3 proposed, 92 final, and 4 
deleted) on the N.L. Construction has been completed at 31 of these 
sites. Four of these Superfund sites, Riverbank Army Ammunitions Plant, 
McColl, South Bay Asbestos, and Lorentz Barrel & Drum, have been capped 
as part of a final remedy in the past 3 years. These 4 sites have 
achieved construction completion and represent 13 percent of the 31 
sites that have had construction completions in California. In 
addition, the remedial work at all of these sites included other 
response actions in addition to capping, such as soil excavation, 
groundwater extraction and treatment, or institutional controls, as 
integral parts of the final remedies for the sites.
                               __________
               letters submitted for the record from epa
                           Environmental Protection Agency,
                                    Washington, DC., April 1, 1999.

Hon. John H. Chafee, Chairman,
U.S. Senate, Environment and Public Works Committee,
Washington, DC.

    Dear Mr. Chairman: Thank you for forwarding followup questions from 
the February 24, 1999 hearing on EPA's Fiscal Year 2000 Budget. We are 
continuing our efforts to respond to these questions, and are providing 
this interim letter with those responses that have been finalized to 
date. Per your request, in addition to responses to your questions, we 
are also providing a copy of responses prepared for other members of 
the committee.
    We will continue to forward remaining responses as they are 
finalized by the Agency.
            Sincerely,
                                         Diane E. Thompson,
                                           Assistant Administrator.
                                 ______
                                 
                           Environmental Protection Agency,
                                   Washington, DC., April 16, 1999.

Hon. John H. Chafee, Chairman,
U.S. Senate, Environment and Public Works Committee,
Washington, DC.

    Dear Mr. Chairman: Thank you for forwarding followup questions from 
the February 24, 1999 hearing on EPA's Fiscal Year 2000 Budget. We are 
continuing our efforts to respond to these questions, and are providing 
this interim letter with additional responses that have been finalized 
to date. Per your request, in addition to responses to your questions, 
we are also providing a copy of responses prepared for other members of 
the committee.
    We will continue to forward remaining responses as they are 
finalized by the Agency.
            Sincerely,
                                         Diane E. Thompson,
                                           Associate Administrator.
                                 ______
                                 
                           Environmental Protection Agency,
                                   Washington, DC., April 27, 1999.

Hon. John H. Chafee, Chairman,
U.S. Senate, Environment and Public Works Committee,
Washington, DC.

    Dear Mr. Chairman: Thank you for forwarding followup questions from 
the February 24, 1999 hearing on EPA's Fiscal Year 2000 Budget. We are 
continuing our efforts to respond to these questions, and are providing 
this interim letter with additional responses that have been finalized 
to date. Per your request, in addition to responses to your questions, 
we are also providing a copy of responses prepared for other members of 
the committee.
    We will continue to forward remaining responses as they are 
finalized by the Agency.
            Sincerely,
                                         Diane E. Thompson,
                                           Associate Administrator.
                                 ______
                                 
                           Environmental Protection Agency,
                                     Washington, DC., May 13, 1999.

Hon. John H. Chafee, Chairman,
U.S. Senate, Environment and Public Works Committee,
Washington, DC.

    Dear Mr. Chairman: Thank you for forwarding followup questions from 
the February 24, 1999 hearing on EPA's Fiscal Year 2000 Budget. We are 
continuing our efforts to respond to these questions, and are providing 
this interim letter with additional responses that have been finalized 
to date. Per your request, in addition to responses to your questions, 
we are also providing a copy of responses prepared for other members of 
the committee.
    We will continue to forward remaining responses as they are 
finalized by the Agency.
            Sincerely,
                                         Diane E. Thompson,
                                           Associate Administrator.
                                 ______
                                 
                           Environmental Protection Agency,
                                     Washington, DC., May 19, 1999.

Hon. John H. Chafee, Chairman,
U.S. Senate, Environment and Public Works Committee,
Washington, DC.

    Dear Mr. Chairman: Thank you for forwarding followup questions from 
the February 24, 1999 hearing on EPA's Fiscal Year 2000 Budget. We are 
continuing our efforts to respond to these questions, and are providing 
this interim letter with additional responses that have been finalized 
to date. Per your request, that we provide copies of responses prepared 
for other members of the committee, enclosed are responses to questions 
from Senator Inhofe.
    We will continue to forward remaining responses as they are 
finalized by the Agency.
            Sincerely,
                                         Diane E. Thompson,
                                           Associate Administrator.
                                 ______
                                 
                           Environmental Protection Agency,
                                     Washington, DC., May 26, 1999.

Hon. John H. Chafee, Chairman,
U.S. Senate, Environment and Public Works Committee,
Washington, DC.

    Dear Mr. Chairman: Thank you for forwarding followup questions from 
the February 24, 1999 hearing on EPA's Fiscal Year 2000 Budget. We are 
continuing our efforts to respond to these questions, and are providing 
this interim letter with additional responses that have been finalized 
to date. Per your request that we provide copies of responses prepared 
for other members of the committee, enclosed are responses to questions 
from Senator Inhofe.
    We will continue to forward remaining responses as they are 
finalized by the Agency.
            Sincerely,
                                         Diane E. Thompson,
                                           Associate Administrator.
                                 ______
                                 
                           Environmental Protection Agency,
                                     Washington, DC., June 3, 1999.

Hon. John H. Chafee, Chairman,
U.S. Senate, Environment and Public Works Committee,
Washington, DC.

    Dear Mr. Chairman: Thank you for forwarding followup questions from 
the February 24, 1999 hearing on EPA's Fiscal Year 2000 Budget. We are 
continuing our efforts to respond to these questions, and are providing 
this interim letter with additional responses that have been finalized 
to date. Per your request that we provide copies of responses prepared 
for other members of the committee, enclosed are responses to questions 
from Senator Inhofe.
    We will continue to forward remaining responses as they are 
finalized by the Agency.
            Sincerely,
                                         Diane E. Thompson,
                                           Associate Administrator.
  

                                <greek-d>

</pre></body></html>
